2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                   Department of the Navy
        ANNUAL
2007 Annual Financial FINANCIAL     REPORT
                      Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                   FISCAL YEAR 2007
2007 Annual Financial Report 2007 Annual Financial Report
    Transformation: Balancing Today’s Fight and Tomorrow’s Force
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2006 Silver Vision Award
    Department of the Navy
     Fiscal Year 2006 Annual Financial Report




      Department of the Navy
      ANNUAL FINANCIAL REPORT




                                           FISCAL YEAR 2006
                               Global Access, Global Responsibility
2007 Annual Financial Report




         Table of Contents
         Message from the Secretary of the Navy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

         Message from the Oﬃce of the Assistant Secretary of the Navy (Financial Management & Comptroller) 5

         Management’s Discussion and Analysis. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

         Department of the Navy General Fund
                Principal Statements . . . . . . . . . . . . . . . . . .                       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 53
                Notes to the Principal Statements . . . . . . . . . . .                        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 63
                Required Supplementary Stewardship Information                                 .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    111
                Required Supplementary Information . . . . . . . .                             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    117
                Other Accompanying Information . . . . . . . . . .                             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .    131

         Navy Working Capital Fund
                Principal Statements . . . . . . . . . .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   135
                Notes to the Principal Statements . . .        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   143
                Required Supplementary Information             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   175
                Other Accompanying Information . .             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   181

         Subsidiary Financial Statements

                   United States Marine Corps General Fund
                   Principal Statements . . . . . . . . . . . . . . . . . .                    .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   183
                   Notes to the Principal Statements . . . . . . . . . . .                     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   193
                   Required Supplementary Stewardship Information                              .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   231
                   Required Supplementary Information . . . . . . . .                          .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   235
                   Other Accompanying Information . . . . . . . . . .                          .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   241

                   Navy Working Capital Fund – Marine Corps
                   Principal Statements . . . . . . . . . . . . . . .              .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   243
                   Notes to the Principal Statements . . . . . . . .               .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   251
                   Required Supplementary Information . . . . .                    .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   283
                   Other Accompanying Information . . . . . . .                    .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   285

         Audit Opinions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 287

         Photo Cover Credits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 320




                                                                                                                                                                                                          1
                                     Department of the Navy




    The Honorable Donald C. Winter
           Secretary of the Navy




2
2007 Annual Financial Report




                               3
                                                  Department of the Navy




    Rear Admiral Stanley D. Bozin
    Oﬃce of the Assistant Secretary of the Navy
        (Financial Management and Comptroller)




4
2007 Annual Financial Report




                               5
    Department of the Navy




6
    2007
    Management’s Discussion and
    Analysis

2007 Annual Financial Report 2007 Annual Financial Report




                                                            Management’s Discussion and Analysis
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                       7
2007 Annual Financial Report 2007 Annual Financial Report
    Fiscal Year 2007 In Review                                                                                            Department of the Navy




       OCTOBER 2006




       Former President of the United States, George H. W. Bush, speaks at the christening of the tenth and ﬁnal Nimitz-class aircraĞ carrier—
       George H. W. Bush (CVN 77).




       U.S. Marines and Sailors from BaĴalion Landing Team 1st BaĴalion, 5th Marine Regiment of the 31st Marine Expeditionary Unit conduct a
       long-range helicopter-borne raid using CH-53E Super Stallion helicopters. Executed with the assistance of the Philippine Air Force, the
       raid was part of the bilateral training exercises, Talon Vision and Amphibious Landing Exercise, which ran concurrently October 16 – 31.


8
2007 Annual Financial Report




                                                                                              NOVEMBER 2006




The dedication ceremony of the National Museum of the Marine Corps was held on November 10, 2006.




General Michael W. Hagee (right) passes the oﬃcial baĴle colors of the Marine Corps to General James T. Conway (leĞ) during the
passage of command ceremony on November 13, 2006 at Marine Barracks Washington, DC. General Conway was appointed the 34th
Commandant of the Marine Corps. General Hagee retired aĞer 42 years of distinguished military service.


                                                                                                                                  9
                                                                                                                       Department of the Navy




     DECEMBER 2006




     The newest Military SealiĞ Command advanced auxiliary dry cargo/ammunition ship, USNS Alan Shepard (T-AKE 3), is launched into
     the San Diego Bay. The USNS Alan Shepard is named aĞer Rear Admiral Alan BartleĴ Shepard, the ﬁrst American astronaut in space and
     the ﬁĞh person to walk on the moon.




     A U.S. Navy Lieutenant Commander visits a tent city in Dire Dawa, Ethiopia aĞer severe ﬂooding devastated the Ogaden region in
     August 2006. The U.S. Navy is part of the humanitarian relief eﬀort to ease the suﬀering of nearly 217,000 people displaced by the ﬂood.



10
2007 Annual Financial Report




                                                                                                      JANUARY 2007




The Honorable Donald C. Winter, Secretary of the Navy, speaks during the oﬃcial naming ceremony of the USS Gerald R. Ford (CVN 78),
the ﬁrst aircraĞ carrier that honors the 38th President of the United States.




Nimitz-class aircraĞ carrier, USS John C. Stennis (CVN 74), makes an early morning arrival in San Diego. The Stennis is stopping in San
Diego to embark Carrier Air Wing Nine (CVW 9) and will be joined by the USS Antietam (CG 54) and the USS Preble (DDG 88) to begin a
regularly scheduled deployment in support of combat operations in the Global War on Terror.


                                                                                                                                          11
                                                                                                                        Department of the Navy




     FEBRUARY 2007




     Nimitz-class aircraĞ carrier, USS Dwight D. Eisenhower (CVN 69), conducts a replenishment at sea with Military SealiĞ Command
     fast combat support ship, USNS Arctic (T-AOE 8). The Eisenhower and embarked Carrier Air Wing Seven (CVW 7) are on a regularly
     scheduled deployment to Afghanistan in support of Operation Enduring Freedom.




     Nimitz-class aircraĞ carrier, USS Ronald Reagan (CVN 76), arrives in Sasebo, Japan, for a scheduled port visit. The Reagan is currently in
     the 7th Fleet area of responsibility as part of a deployment to promote peace, cooperation and stability in the region.



12
2007 Annual Financial Report




                                                                                                          MARCH 2007




RIVRON-1, part of the newly formed Naval Expeditionary Combat Command, deployed March 8 to the Middle East to conduct maritime
security operations with Marines from the II Marine Expeditionary Force. The deployment marks the ﬁrst for a U.S. Navy riverine
squadron since the Vietnam War.




Sailors take their ﬁnal walk down the brow of aircraĞ carrier, USS John F. Kennedy (CV 67), during the historic decommissioning
ceremony on March 23. The Kennedy served its country for more than 38 years.



                                                                                                                                  13
                                                                                                                     Department of the Navy




     APRIL 2007




     An EA-18G Growler, the Navy’s next-generation electronic aĴack aircraĞ, made its ﬁrst appearance at Naval Air Station Whidbey Island,
     Washington on April 9.




     Amphibious assault ship, USS Bonhomme Richard (LHD 6), departs Naval Base San Diego for a six-month deployment to the Persian Gulf
     in support of U.S. Combatant Commanders ﬁghting the Global War on Terror.



14
2007 Annual Financial Report




                                                                                                              MAY 2007




Sailors man the newest Virginia-class nuclear aĴack submarine, USS Hawaii (SSN 776), during the commissioning ceremony on May 5 in
New London, Connecticut.




One thousand twenty-eight Midshipmen graduated from the U.S. Naval Academy in Annapolis, Maryland on May 25, 2007.




                                                                                                                                     15
                                                                                                                    Department of the Navy




     JUNE 2007




     Sailors man the rails of the newest Arleigh Burke-class guided-missile destroyer, USS Kidd (DDG 100), during an evening commissioning
     ceremony on June 9 in Galveston, Texas. The new destroyer honors Medal of Honor recipient Rear Admiral Isaac Campbell Kidd, Sr., who
     was killed on the bridge of his ﬂagship USS Arizona on December 7, 1941.




     Military SealiĞ Command hospital ship, USNS Comfort (T-AH 20), is at anchor oﬀ the coast of Guatemala during a scheduled stop.
     The Comfort is on a four-month humanitarian deployment to Latin America and the Caribbean and will ultimately provide medical
     treatment to approximately 85,000 patients in a dozen countries.


16
2007 Annual Financial Report




                                                                                                                    JULY 2007




Sailors and Marines man the rails aboard amphibious assault ship, USS Essex (LHD 2), during a scheduled port visit in Australia aĞer the
completion of Exercise Talisman Saber 2007. Talisman Saber is a joint and combined biennial exercise between Australia and the United
States designed to prepare both nations in crisis action planning and execution of contingency operations.




A Seaman scans the horizon on the USS Pearl Harbor (LSD 52) during Partnership of the Americas (POA) 2007 deployment. The POA’s
focus is on enhancing relationships with partner nations through a variety of exercises and events at sea and on shore throughout Latin
America and the Caribbean.


                                                                                                                                           17
                                                                                                                       Department of the Navy




     AUGUST 2007




     Personnel from Navy Mobile Diving and Salvage Unit (MDSU) 2 supervise a diver as he conducts search and recovery operations in the
     Mississippi River aĞer the collapse of the I-35 bridge.




     A Marine aĴached to Regimental Combat Team (RCT) 6 gives a line of Iraqi children high ﬁves during Operation Alljah. The Marines of
     RCT 6, Iraqi soldiers, and Iraqi police are working together during Operation Alljah to provide beĴer security and safer neighborhoods for
     the citizens of Fallujah.


18
2007 Annual Financial Report




                                                                                              SEPTEMBER 2007




Admiral Gary Roughead (center) reports to Secretary of the Navy Donald C. Winter as the 29th Chief of Naval Operations (CNO) during
an informal change of oﬃce ceremony held at the Pentagon, September 29, 2007. Admiral Roughead relieved Admiral Michael G. Mullen
(leĞ), who became the Chairman, Joint Chiefs of Staﬀ at a change-of-command ceremony during October 2007.




Sailors aboard amphibious assault ship USS Kearsarge (LHD 3) take a moment of silence to remember the victims of the September 11
terrorist aĴacks. The Kearsarge is deployed in the Persian Gulf in support of maritime operations.



                                                                                                                                      19
                                                                                                                       Department of the Navy




           The Department of the Navy
           Founded April 30, 1798
           Our Mission: Maintain, train and equip combat-ready Naval forces capable of winning
           wars, deterring aggression and maintaining freedom of the seas.




     The oﬃcial seal of the Department of the Navy is engraved on the Navy and Marine Memorial. The memorial is dedicated to the
     thousands of Americans who have perished in the service of the Nation at sea and to those whose destiny still is linked with our naval and
     maritime services.




20
2007 Annual Financial Report



Introduction
The Department of the Navy (DON) remained focused on accomplishing its mission in the Global War
on Terror. Naval forces provided the bulk of the nation’s worldwide rotational military presence and
an increasing portion of the required support for ground units in Operations Enduring Freedom and
Iraqi Freedom. These operations supported our nation’s interests by continuing deterrence intelligence,
surveillance and reconnaissance missions, expanded maritime interception operations, counter-piracy, and
deterrence patrols.

Yet, while focusing on the present missions of the Global War on Terror, DON continued to invest in
capabilities that address the diverse strategic challenges of the post 9/11 security environment. These
naval capabilities range from next-generation ships and aircraĞ to enhanced expeditionary warfare
techniques. Additionally, continued investment in enterprise-wide business transformation initiatives has
facilitated DON’s progression toward improved eﬃciency and a performance-based organization focused
on giving optimal support to the war-ﬁghter.

The Fiscal Year 2007 Management’s Discussion and Analysis (MD&A) provides perspective on the breadth
and depth of the DON mission and the resources appropriated to it by Congress. It includes an overview
of DON strategic performance; systems, controls, and legal compliance; and ﬁnancial condition and results
of operations. The following sections comprise the FY 2007 MD&A:
            Organization and Mission
            Strategic Management
            Management Assurances
            Financial Condition and Results of Operations
            Looking Forward: Fiscal Year 2008 and Beyond


Organization and Mission



       F   rom the corpsmen on the hospital ship MERCY on a
           humanitarian mission to Indonesia, to the Sailors
       on Navy ships protecting shipping lanes in international
       waters, to Marines on the ground in Iraq trying to bring
       peace to a troubled land, all of them make me feel honored
       to belong to an organization dedicated to answering the
       nation’s call to service.
                                       - The Honorable Donald C. Winter, Secretary of the Navy, April 2007


                                                                                                             21
                                                                                             Department of the Navy



     The DON is separately organized under the Secretary of the Navy, a civilian appointed by the President,
     who conducts all Department aﬀairs under the authority, direction, and control of the Secretary of Defense
     (Sections 5011 and 5013, Title 10 U.S. Code).

     Under the purview of the Secretary of the Navy are key military leaders—the Chief of Naval Operations,
     a four-star Admiral, and the Commandant of the Marine Corps, a four-star General. The Chief of Naval
     Operations is responsible to the Secretary of the Navy for the command and operating eﬃciency of the
     U.S. Navy (Section 5033, Title 10 U.S. Code). The Commandant of the Marine Corps is responsible to the
     Secretary of the Navy for the performance of the U.S. Marine Corps (Section 5043, Title 10 U.S. Code).

     The U.S. Navy and the U.S. Marine Corps together comprise DON’s naval contribution to the U.S. Joint
     Force. Both Services have numerous major commands that operate under the authority and responsibility
     of a commander or other designated oﬃcial and typically support a network of subordinate commands.
     Each major command has a clearly deﬁned mission that supports the overall DON mission in support of
     the Department of Defense’s responsibilities.

     The chart on the following page provides a simpliﬁed illustration of the DON organizational structure.
     The full structure is shown online at hĴp://www.navy.mil under “Navy Organization.”




22
2007 Annual Financial Report




                                                                 SECRETARY OF THE NAVY
                                                              UNDER SECRETARY OF THE NAVY



      Assistant Secretary                 Assistant Secretary                  Assistant Secretary              Assistant Secretary
         of the Navy                         of the Navy                          of the Navy                      of the Navy                 General Counsel of the
     (Research, Development                    (Manpower                       (Financial Management                 (Installations            Department of the Navy
         & Acquisition)                      & Reserve Aﬀairs)                     & Comptroller)                   & Environment)




                                  CHIEF OF NAVAL                                                                     COMMANDANT OF THE
                                   OPERATIONS                                                                           MARINE CORPS



                                                                                                                                                     U.S. Marine Corps
       U.S. Navy                        U.S. Navy                   U.S. Navy                   U.S. Marine Corps          U.S. Marine Corps
                                                                                                                                                        Supporting
   Shore Establishment                  Reserves                  Operating Forces              Operating Forces                Reserves
                                                                                                                                                       Establishment



* Dashed line signiﬁes collaboration of the U.S. Navy and the U.S. Marine Corps operating forces.




       United States Navy                                                                           United States Marine Corps
       The Navy shall be organized, trained, and                                                    The Marine Corps shall be organized, trained,
       equipped primarily for prompt and sustained                                                  and equipped to provide ﬂeet marine forces
       combat incident to operations at sea. It is                                                  of combined arms, together with supporting
       responsible for the preparation of naval forces                                              air components, for service with the ﬂeet in
       necessary for the eﬀective prosecution of war                                                the seizure or defense of advanced naval bases
       except as otherwise assigned and, in accordance                                              and for the conduct of such land operations as
       with integrated joint mobilization plans, for the                                            may be essential to the prosecution of a naval
       peacetime components of the Navy to meet the                                                 campaign. (Section 5063, Title 10 U.S. Code)
       needs of war. (Section 5062, Title 10 U.S. Code)
       Founded October 13, 1775                                                                     Founded November 10, 1775
       hĴp://www.navy.mil                                                                           hĴp://www.usmc.mil



As team members of the U.S. Joint Force, DON provides Naval Components to support the nine
Combatant Commands, which are comprised of ﬁve Geographic Commands and four Functional
Commands (see illustrations).

                                                                                                                                                                         23
                                                                                          Department of the Navy




                                                                               USEUCOM


          USNORTHCOM
                                                                                        USPACOM

          USPACOM                                                  USCENTCOM


                    USSOUTHCOM




     Geographic Commands
     1.    U.S. Paciﬁc Command (USPACOM): U.S. Paciﬁc Fleet, 3rd and 7th Fleets
           (www.cpf.navy.mil); U.S. Marine Corps Forces, Paciﬁc and Fleet Marine Force, Paciﬁc (www.
           mfp.usmc.mil)
     2.    U.S. Central Command (USCENTCOM): U.S. Naval Forces Central Command and 5th
           Fleet (www.cusnc.navy.mil); U.S. Marine Corps Forces Central Command
           (www.marcent.usmc.mil)
     3.    U.S. European Command (USEUCOM): U.S. Naval Forces Europe and 6th Fleet (www.
           naveur.navy.mil); U.S. Marine Corps Forces, Europe (www.mfe.usmc.mil)
     4.    U.S. Southern Command (USSOUTHCOM): U.S. Naval Forces Southern Command (www.
           cusns.navy.mil); U.S. Marine Corps Forces, South (www.mfs.usmc.mil)
     5.    U.S. Northern Command (USNORTHCOM): USNORTHCOM has few permanently
           assigned forces. However, naval personnel (civilians and uniformed services) are
           among the civil service employees and uniformed service members at USNORTHCOM
           headquarters (Peterson Air Force Base, Colorado)
           (www.northcom.mil)




24
2007 Annual Financial Report




 Functional Commands
    U.S. Joint Forces Command                                      U.S. Strategic Command

    U.S. Fleet Forces Command, 2nd and 3rd Fleets                  U.S. Fleet Forces Command
    (www.cﬀc.navy.mil)                                             (www.cﬀc.navy.mil)

    U.S. Marine Corps Forces Command                               U.S. Marine Corps Forces, Strategic Command
    (www.jfcom.mil/about/com_marfor.htm)                           (www.marforstrat.usmc.mil)

    U.S. Special Operations Command                                U.S. Transportation Command

    U.S. Naval Special Warfare Command
    (www.navsoc.navy.mil)
                                                                   Military SealiĞ Command
    U.S. Marine Corps Forces, Special Operations                   (www.msc.navy.mil)
    Command
    (www.marsoc.usmc.mil)




USS KiĴy Hawk (CV 63) pulls along side the Military SealiĞ Command underway replenishment oiler USNS Rappahannock (T-AO 204)
during replenishment at sea. The KiĴy Hawk is currently deployed in the South China Sea on a regularly scheduled deployment.




                                                                                                                               25
                                                                                                                   Department of the Navy




     The Silent Drill Team performs a synchronized drill movement during the Marine Corps Air Station (MCAS) Beaufort’s annual BaĴle
     Color Ceremony at the MCAS parade ﬁeld in South Carolina.




26
2007 Annual Financial Report



Strategic Management
The diverse strategic challenges of the 21st century have compelled DON to balance the enduring
requirements for traditional naval capabilities with those needed to confront and inﬂuence the highly
dynamic security environment. Non-traditional missions, such as counter-terrorism, disaster relief,
humanitarian assistance, and counter-piracy, have become integral to the overall DON mission. These new
missions require DON to change rapidly and become a more agile, eﬀective, and eﬃcient enterprise in
support of the war-ﬁghter.

A Cooperative Strategy for 21st Century Seapower focuses on the near-term development of the Navy and
Marine Corps team to meet the emerging global threats and challenges of this new era. This strategy
reinforces and expands operational concepts that will enhance America’s ability to project oﬀensive power,
defensive assurance, and operational independence across the globe. It also emphasizes the soĞ elements
of seapower, such as humanitarian assistance, to use America’s best characteristics to serve her best
interests.

Enterprise-wide business transformation, including initiatives pursuant to DON Financial Management
Strategic Plan will dramatically change DON’s ability to execute programs and support mission goals.
This transformation will result in improved eﬃciency, beĴer decision-making, and a performance-based
culture.

The following is a discussion of DON strategic performance in terms of FY 2007 enterprise-wide objectives.

       Objective 1: Provide a Total Naval Workforce Capable and Optimized to Support
       the National Defense Strategy




       T    he development and retention of quality people are
            vital to our continued success. America’s naval forces
       are combat-ready due to the dedication and motivation of
       individual Sailors, Marines, civilians, and their families.

                                      - The Honorable Donald C. Winter, Secretary of the Navy, March 2007



       The DON continued to focus on sizing, shaping, and stabilizing the Total Naval Workforce—Sailors,
       Marines, and civilians—to provide maximum ﬂexibility in applying the right skill sets to projected
       requirements in the most cost eﬃcient manner.




                                                                                                             27
                                                                                                                     Department of the Navy



     U.S. Navy
     Aggressive transformation of U.S. Navy forces continued in FY 2007, contributing to an overall
     decline in operating forces (see chart). The Navy reduced the size of its active and reserve
     components by 12% and 21%, respectively, from FY 2003 to FY 2007. These reductions, however, are
     more about shaping the force to enhance the Navy’s ability to meet the deployment requirements
     of the Global War on Terror, Homeland Defense, and stability operations. With more eﬃcient and
     automated ships, planes, and combat systems entering service in future years, personnel reductions
     are inevitable; yet, the skill level and specialization requirements will increase. Through its Strategy
     for Our People, the Navy plans to satisfy future war-ﬁghting needs by aĴracting, retaining, and beĴer
     educating forces capable of adapting and responding to mission needs.

                                                                U.S. Navy Personnel
                     382,235
       400000                                   373,197
                                                                     362,941
                                                                                        350,197
                                                                                                           337,547
       350000

       300000

       250000

       200000

       150000
                                 88,156                    82,558
       100000                                                                  76,473             70,500             69,933

        50000

              0
                           2003                          2004            2005               2006               2007

                                                            Fiscal Year Ending September 30                          Active
                                                                                                                     Reserve
     Active = Oﬃcers, Enlisted, and Midshipmen.
     Reserve = Drilling Reserve and Full-time Support.


     U.S. Marine Corps
     The U.S. Marine Corps continued to reshape its forces to meet the growing demands of the Global
     War on Terror and to provide trained forces in support of other contingencies. The Marine Corps
     increased the size of its active component by 5% and reduced the size of its reserve component
     by 3% from FY 2003 to FY 2007 (see chart). However, the Marine Corps active component is
     expected to increase to 202,000 by FY 2011 as approved by the President. The additional forces will
     enhance the Marine Corps’ ability to operate at the “sustained rate of deployment” (i.e., maintain
     operations indeﬁnitely without drastic changes to procedures, policies, organization, or operations).
     Additionally, the Marine Corps anticipates continued success in meeting recruiting and retention
     goals to maintain the planned force level.




28
2007 Annual Financial Report



                                                                 U.S. Marine Corps Personnel
         200000                                                                                                     186,492
                        177,779                     177,480                   180,029            178,923



         150000




         100000




          50000                     41,046                       39,658                 39,858             39,436             39,908




                 0
                              2003                         2004                   2005               2006                2007

                                                                  Fiscal Year Ending September 30                             Active
       Active = Oﬃcers and Enlisted.                                                                                          Reserve
       Reserve = Drilling Reserve and Full-time Support.


       Navy and Marine Corps Civilian Personnel
       Civilian workforce transformation continued in FY 2007 in tandem with military force
       transformation. From FY 2003 to FY 2007, the total number of Navy and Marine Corps civilian
       personnel full-time equivalents declined by 6% (see chart). This decline occurred as DON beneﬁted
       from strategic sourcing initiatives to privatize commercial-type functions and streamline core
       processes. The DON will continue to study military and civilian positions and to identify military
       billets that are not “military essential” for conversion to civilian employees or contractor support.

                                                                          Civilian Personnel
        200000
                       179,899                     177,642                    172,509            170,785
                                                                                                                    168,126


        150000




        100000




          50000

                                    18,054                       17,033                 17,794             18,147             18,687


                0
                              2003                         2004                   2005               2006                2007

                                                                  Fiscal Year Ending September 30                             Navy
       Figures above represent full-time equivalent workyears.                                                                Marine Corps

                                                                                                                                             29
                                                                                             Department of the Navy



     Training and Education
     Training and education are critical to the continued growth and development of our Sailors and
     Marines and enhance their contribution to our joint war-ﬁghting ability. In FY 2007, the Navy began
     implementation of Spiral One Sea Warrior. This initiative is the ﬁrst implementation of a family of
     training, education and career management systems. The Sea Warrior initiative promotes mission
     success by delivering the right Sailors, with the right skills, at the right time, and to the right places.
     The Navy also continued to develop its language, regional expertise, and cultural programs, which
     facilitate our capability to communicate with and comprehend adversaries, enduring allies, and
     emerging partners. Similarly, the U.S. Naval Academy expanded its foreign language programs in
     Chinese, Arabic, Russian, and Japanese.

     Marine Corps training and education remained stalwart components of an individual Marine’s
     professional development. The Military Occupational Specialty (MOS) Roadmaps, in particular,
     continued to guide Marines through general and speciﬁc career training, education requirements,
     and opportunities to successfully navigate their tour of duty, skill progression, unit training, and
     voluntary education. Institutionally, MOS Roadmaps will increase the combat eﬀectiveness of all
     Marine organizations.

     Additionally, Marine Corps’ distributed operations in FY 2007 placed a premium on the situational
     awareness and judgment of junior leaders, thereby necessitating enhancements to professional
     development. These enhancements include foreign language and culture training that have been
     designed to empower individual Marines to assume greater responsibilities and decentralized
     decision-making and to operate in diverse cultures.

     Objective 2: Use the Navy-Marine Corps Team to Aggressively Prosecute the
     Global War on Terror
     The DON continued to support the Global War on Terror with naval combat forces that are capable
     and relevant to the missions assigned. The Navy’s Fleet Response Plan and Marine Air-Ground Task
     Force are two signiﬁcant elements of naval combat support; a brief discussion of each follows.

     Fleet Response Plan
     The Navy continued to support the Global War on Terror with adaptable, ﬂexible, and sustainable
     forces enabled by the Fleet Response Plan (FRP). BaĴle force ships are integral to FRP, which is
     structured to provide six ready carriers in less than 30 days with an additional surge in 90 days.
     While the overall inventory of baĴle force ships has decreased (see chart), FRP seeks to oﬀset this
     slight decline by increasing the availability of baĴle force ships. The ability to surge dramatically
     shortens response times to any contingency and enables the U.S. to increase the global presence of
     its military force as required to support emergent requirements in the Global War on Terror.




30
2007 Annual Financial Report



                                                                          BaĴle Force Ships

           300
                              296                         292
                                                                                       281                          280                       279
           250


           200


           150


           100


             50


              0
                            2003                         2004                        2005                        2006                         2007

                                                                Fiscal Year Ending September 30

       BaĴle force ships comprise aircraĞ carriers, ﬂeet ballistic missle submarines, guided missle submarines, surface combatants, nuclear
       aĴack submarines, amphibious warfare ships, combat logistics ships, mine warfare ships, and support ships. See the Naval Vessel
       Register at hĴp://www.nvr.navy.mil for more information on baĴle force ships.


       Marine Air-Ground Task Force
       The Marine Corps continued to demonstrate their versatility and ﬂexibility across the spectrum of
       the Global War on Terror. In particular, the Marine Air-Ground Task Force continued to provide the
       joint force with a mix of combat and non-lethal actions; interagency capabilities and joint warfare
       applications; innovative use of airpower; and synchronization of intelligence activities. The overall
       structure of Marine Corps operating forces has remained relatively steady (see chart) but is expected
       to increase over the next ﬁve years.

                                                               Marine Corps Operating Forces

        Fiscal Year Ending September 30
        Marine Corps Land Forces                                                             2003              2004               2005              2006   2007
        Marine Expeditionary Forces                                                             3                 3                  3                 3      3
        Marine Expeditionary Brigades                                                           4                 4                  4                 3      3
        Marine BaĴalions, Active & Reserve                                                     72                72                 73                69     71




                                                                                                                                                                  31
                                                                                        Department of the Navy



     Objective 3: Build the Navy-Marine Corps Force for Tomorrow
     Our future Navy-Marine Corps Force will remain a forward-deployed, expeditionary force with
     global speed and persistence. Operating alongside our joint and maritime partners, our future force
     will provide both actionable intelligence through persistent Maritime Domain Awareness and the
     ability to take action where and when the threat is identiﬁed.

     To build our future Navy-Marine Corps Force today, DON continued to invest in new generation
     capabilities and business transformation. A brief discussion of ship construction, aircraĞ
     procurement, and business transformation eﬀorts in FY 2007 follows.

     Ship Construction
     The future ﬂeet of ships, as represented in our 30-year shipbuilding plan, will sustain operations
     in forward areas longer, be able to respond more quickly to emerging contingencies, and generate
     more sorties and simultaneous aĴacks against greater numbers of multiple targets and with greater
     eﬀect than our current ﬂeet. The DON continued to see the future ﬂeet take shape with ongoing
     ship construction programs including:

          Dry Cargo and Ammunition Ship (T-AKE)
          Guided-Missile Destroyers (DDG)
          Nuclear-Powered AĴack Submarine (SSN)
          Amphibious Helicopter Assault – Replacement (LHA(R))
          Carrier Replacement Program (CVN 77)
          Amphibious Platform Dock Ship (LPD 17)
          LiĴoral Combat Ship (LCS)
          Amphibious Assault Ship (LHD 1)

     AircraĞ Procurement
     The DON is in the midst of an extensive, long-term consolidation and recapitalization of all naval
     aircraĞ in order to develop the optimum balance between requirements and usage. To sustain
     global air superiority, DON has invested in several naval aviation acquisition programs. Some
     examples of aircraĞ that DON procured in FY 2007 are listed below.

     NAVY AIRCRAFT:
          F/A-18 E/F Super Hornet – long-range, multi-mission, all-weather strike ﬁghter.
          EA-18G Growler – next-generation electronic aĴack aircraĞ.
          MH-60S Knighthawk, MH-60R Seahawk – multi-mission combat helicopters.
          MQ-8B Fire Scout – vertical take-oﬀ and landing tactical unmanned aerial vehicle.




32
2007 Annual Financial Report



       MARINE CORPS AIRCRAFT:
            MV-22B Osprey – vertical/short take-oﬀ and landing, multi-purpose tactical transport.
            AH-1Z / UH-1Y – utility and aĴack helicopters.
            KC-130J – multi-mission, tactical aerial refueler/transport aircraĞ.




       T   he Department will continue to seek ways to transform
           the way we do business resulting in improved
       eﬃciency, beĴer decision-making, and an organizational
       culture that is performance-based.
                                        - The Honorable Donald C. Winter, Secretary of the Navy, March 2007



       The DON continued to demonstrate progress in its business transformation eﬀorts, speciﬁcally
       through the initiatives discussed below. These initiatives are aligned with Department of Defense
       business transformation eﬀorts, including the Financial Improvement and Audit Readiness Plan
       and the Business Enterprise Architecture. Collectively, these DON initiatives will create a business
       environment that produces more accurate and timely ﬁnancial information that will then be
       available to senior managers for decision making purposes and ultimately enable DON to achieve a
       favorable audit opinion on its consolidated ﬁnancial statements.

       Lean Six Sigma
       During FY 2007, DON began broad implementation of Lean Six Sigma, one of the Secretary of the
       Navy’s priority initiatives for improving DON’s overall eﬀectiveness and eﬃciency. Lean Six Sigma
       is an industry-proven continuous process improvement methodology. The DON’s major commands
       have successfully launched Lean Six Sigma training programs and are applying Lean Six Sigma
       concepts, techniques, and tools to various segments of their business operations.

       National Security Personnel System
       The DON continued to transition its workforce to the National Security Personnel System (NSPS)
       in FY 2007. Authorized by Congress, NSPS provides Department of Defense leaders the right tools
       to manage the civilian workforce, facilitate competition for high quality talent, oﬀer compensation
       competitive with the private sector, and reward outstanding service. The Strategic Systems Program
       (SSP), Headquarters successfully completed its transition to NSPS in October 2006. Many of the
       DON’s major commands began their conversion eﬀorts in FY 2007; these include the Fleet Forces
       Command, Bureau of Naval Personnel, Naval Facilities Engineering Command (NAVFAC), Space
       and Naval Warfare Systems Command (SPAWAR), and Naval Special Warfare Command. Other
       major commands, such as the Naval Air Systems Command (NAVAIR); the Commander, Navy
       Installations Command (CNIC); the Bureau of Medicine and Surgery (BUMED); and the Military
       SealiĞ Command expect to transition to NSPS beyond FY 2007.


                                                                                                              33
                                                                                        Department of the Navy



     Navy Enterprise Resource Planning System
     NAVAIR is the ﬁrst of the DON’s major commands to implement the Navy Enterprise Resource
     Planning (ERP) Program; implementation began on October 1, 2007. Navy ERP will integrate and
     improve Navy processes for logistics, acquisition, and ﬁnancial operations. The Navy ERP Program
     is the cornerstone of the DON’s business transformation strategy and a key enabler of the Navy’s
     Enterprise vision to transform business processes and generate eﬃciencies to improve combat
     capabilities.

     Other major acquisition commands have begun preparation for implementation of the Navy ERP in
     subsequent ﬁscal years. These include SPAWAR, Naval Sea Systems Command (NAVSEA), Naval
     Supply Systems Command (NAVSUP), and SSP.

     Navy and Marine Corps Financial Improvement
     The DON’s major commands remained focused on improving the quality and timeliness of ﬁnancial
     management information pursuant to the DON Financial Improvement Program (FIP). The DON
     FIP is the integrating ﬁnancial element of the DON’s business transformation strategy.

     The overall goal of the DON FIP is to transform the business environment to support timely,
     accurate, and reliable ﬁnancial information for decision-making, ultimately leading to a “clean”
     audit opinion on the consolidated DON ﬁnancial statements.

     Representative examples of signiﬁcant accomplishments under the DON FIP for the Navy include:
          Completion of initial discovery eﬀorts, which involved the major commands documenting,
          evaluating, and testing their business processes, systems, and internal controls.

          Assertion of audit readiness for DON General Fund Environmental Disposal Liabilities for
          Weapons Systems, and Cash and Other Monetary Assets.

          Modeling the Department of Defense’s “segment” approach to audit readiness under the
          Oﬃce of the Under Secretary of Defense (Comptroller)’s revised audit strategy. A segment
          is a material component of the enterprise-wide ﬁnancial environment, such as an individual
          ﬁnancial statement line item, a group of related line items, or a business process.

     The Marine Corps continued to progress toward audit readiness by improving its ﬁnancial
     management practices, identifying material deﬁciencies, and documenting policies, processes, and
     procedures. As a result, the Marine Corps has developed a strategy and associated timeline to
     assert certain elements of audit readiness in December 2008. Representative examples of signiﬁcant
     accomplishments under its Financial Improvement Initiative include:

          Review of transactional accuracy of the Standard Accounting, Budgeting, and Reporting
          System, the primary Marine Corps ﬁnancial system, speciﬁcally with regard to data entry and
          trading partner information.

          Audit Readiness Summits with ﬁeld level activities to deepen the awareness of the audit
          process and requirements.

          Validation of real property business processes and internal controls, which received a favorable
          evaluation from the Naval Audit Service.
34
2007 Annual Financial Report



       Base Realignment and Closure
       The DON continued to implement recommendations pursuant to the Base Realignment and
       Closure (BRAC) Act of 2005. BRAC 2005 is the means for reconﬁguring the current infrastructure
       into one where operational capacity maximizes war-ﬁghting capability and eﬃciency. The DON’s
       implementation plan meets the statutory requirement for closure and realignment by September
       15, 2011. Some of the other major commands aﬀected by BRAC 2005 in FY 2007 include NAVAIR;
       NAVSEA; NAVSUP; NAVFAC; Bureau of Naval Personnel; Commander, Navy Reserve Forces
       Command; BUMED; and SPAWAR.

       Objective 4: Emphasize Safety
       The DON continued to focus on improving the safety of the workforce and workplace. While DON
       has much work to do to achieve the Secretary of Defense challenge to reduce mishap rates by 75% by
       the end of FY 2008, signiﬁcant progress has been made in FY 2007. Speciﬁcally, FY 2007 was the best
       year recorded for the following safety metrics:

            Total Class A Operational Mishaps for Navy and Combined Navy/Marine Corps

            Total Aviation Class A Flight Mishaps for Combined Navy/Marine Corps

            Oﬀ-Duty Recreational Fatalities for Navy

       The DON will continue to work toward becoming an organization with a world-class safety record,
       where no mishap is accepted as the cost of doing business.

       Objective 5: Reinforce Ethics as a Foundation of Exemplary Conduct within DON
       During FY 2007, DON made strides in reinforcing ethics as a foundation of exemplary conduct.
       The Secretary of the Navy, Chief of Naval Operations, and Commandant of the Marine Corps set
       forth their respective ethics messages that explained the importance of ethics and inspired DON
       personnel to make ethics a part of the culture. Also, Navy completed a survey that assessed the
       value of Ethics Counselors to DON leadership. Results of the survey data indicated that leadership
       and their aĴorney counselors believe that the ethics advice provided is important, sound, and
       timely. A second survey, which is expected to be ﬁelded in early FY 2008, will assess DON’s ethics
       culture. The expectation is that, once the survey is completed and the data analyzed, DON will be
       able to develop and execute initiatives to enhance the value of ethics to the culture. These are a few
       examples that illustrate how DON’s ethics culture has taken shape and will continue to evolve.




                                                                                                                35
                                                                                             Department of the Navy



     Management Assurances
     Commanders and managers throughout DON must ensure the integrity of their programs and operations.
     Part of this responsibility entails compliance with federal requirements for ﬁnancial management systems,
     ﬁnancial reporting, and internal controls. Below is a brief discussion of DON compliance with Federal
     requirements for FY 2007.

     Systems
           Federal Financial Management Improvement Act of 1996
           The Federal Financial Management Improvement Act (FFMIA) of 1996 requires agencies to
           implement and maintain ﬁnancial management systems that comply with Federal systems
           requirements, applicable federal accounting standards, and the U.S. Standard General Ledger at the
           transaction level. While some ﬁnancial or ﬁnancial feeder systems can comply with these standards,
           implementation of the Navy ERP will provide a standard compliant ﬁnancial backbone. The Navy
           ERP will be compliant with the Department of Defense Standard Financial Information Structure,
           which includes support for the U.S. Standard General Ledger at the transaction level.

     Financial Reporting
           Chief Financial Oﬃcers Act of 1990, as amended by the Government Management
           Reform Act of 1994
           The Chief Financial Oﬃcers Act of 1990, as amended by the Government Management Reform Act
           of 1994, requires agencies to produce auditable annual ﬁnancial statements. The DON has been
           producing annual ﬁnancial statements for the Navy Working Capital Fund since FY 1991 and the
           General Fund since FY 1996. In FY 2007, the DON FIP, as a supporting initiative of the Oﬃce of the
           Secretary of Defense Financial Improvement and Audit Readiness plan, made signiﬁcant progress
           toward the goal of audit readiness by continuing to document ﬁnancial processes, assess risks, and
           test internal controls.

           Government Performance and Results Act of 1993
           The Government Performance and Results Act (GPRA) of 1993 requires agencies to engage in
           strategic planning and performance management for the purpose of improving the eﬀectiveness
           and eﬃciency of programs they administer. Broad application of Lean Six Sigma as well as
           implementation of metrics, such as the Financial Eﬃciency Index – a comprehensive measure of how
           well DON is executing its budget – and the transition to NSPS have moved DON forward toward a
           more outcome-oriented, performance-based culture.

           Inspector General Act of 1978
           The Inspector General Act of 1978, as amended, requires agencies to provide an explanation for all
           audit reports that have open recommendations exceeding one year. As of September 30, 2007, DON
           had 47 audit reports open for more than one year, with potential monetary beneﬁts of $54.2 million.
           The DON closed out and implemented recommendations from 67 audit reports in FY 2007 with
           claimed monetary beneﬁts of $98.3 million.



36
2007 Annual Financial Report



       Improper Payments Information Act of 2002
       The Improper Payments Information Act of 2002 seeks to reduce improper payments throughout
       the Federal Government by requiring agencies to report on programs and activities that are
       susceptible to improper payments. Improper payments are those that should not have been made
       or that were disbursed in incorrect amounts. The DON programs and activities that have reporting
       responsibilities under the Improper Payments Information Act include Personnel Support Activities
       and Detachments, which calculate travel payments, and Disbursing Oﬃcers aboard ships and at
       other isolated locations. Note, however, that the Defense Finance and Accounting Service performs
       the vast majority of DON’s entitlement computation and disbursement functions.

       For FY 2007, DON identiﬁed $1.4 million of potentially improper payments. This amount is
       signiﬁcantly less than the threshold of $10 million, as established by the Oﬃce of Management and
       Budget (OMB). The DON is instituting internal controls, where applicable, to reduce the occurrence
       of improper payments in the future.

Internal Controls
       Federal Managers’ Financial Integrity Act of 1982
       The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 requires agencies to evaluate their
       system of internal accounting and administrative controls and to report on the eﬀectiveness of these
       controls in an annual statement of assurance. The Sarbanes-Oxley Act of 2002, which applies to
       publicly traded companies, led to the Federal Government’s reevaluation of internal control policies
       under FMFIA. Consequently, OMB issued a revised version of Circular A-123 in December 2004,
       Management’s Responsibility for Internal Control. Appendix A of the revised circular requires agencies
       to provide a separate statement of assurance on the eﬀectiveness of ﬁnancial reporting controls.

       The FY 2007 DON evaluation of its management controls indicated that DON’s system of
       administrative and operational internal controls overall, in eﬀect as of June 30, 2007, provided
       qualiﬁed assurance, with the exception of seven material weaknesses, that controls are in place,
       operating eﬀectively, and being used. The DON has planned aggressive corrective action to
       strengthen internal controls; it has targeted three of the material weaknesses to be ready for closure
       during FY 2008, with ongoing remediation programs established for the remaining weaknesses.
       Increased aĴention throughout the preparation of the FY 2007 Statement of Assurance and the
       resulting transparency of the reporting process ensure that the internal controls over DON’s
       operational, administrative, and business processes are reasonably sound.

       Despite the fact that signiﬁcant progress has been made in improving overall audit readiness,
       several weaknesses in DON’s internal controls over ﬁnancial reporting remain. The OMB A-123
       coverage only includes those areas that have been fully remediated. The FY 2007 FMFIA Annual
       Statement of Assurance is available at hĴp://www.fmo.navy.mil.




                                                                                                                37
                                                                                              Department of the Navy



     Financial Condition and Results of Operations
     The DON continues to address the ﬁnancial management challenges outlined in the accompanying
     independent auditor’s reports. These challenges prevent the DON from producing auditable ﬁnancial
     statements in the near-term for the DON General Fund (GF) and Navy Working Capital Fund (NWCF). As
     previously highlighted in sections “Strategic Management” and “Management Assurances,” respectively,
     achievements under the DON FIP and Managers’ Internal Control Program (MICP) in FY 2007 have
     facilitated DON’s progress toward improving the quality and reliability of its ﬁnancial information. Most
     notably, the Marine Corps is close to asserting audit readiness and should be the ﬁrst Military Service
     to produce auditable ﬁnancial statements. The Marine Corps began preparing subsidiary ﬁnancial
     statements in FY 2006.

     The DON FIP strategy relies on the modernization of the DON systems environment, including
     implementation of the Navy ERP; improved business processes, including Lean Six Sigma eﬀorts; and
     ensuring personnel are both trained and properly incentivized through the NSPS initiative. The DON FIP
     also places emphasis on the need for an eﬀective internal control environment, as addressed by the MICP
     and implementation of OMB Circular A-123, Appendix A.

     Overview of Financial Results
     For ﬁnancial reporting purposes, DON is organized into two reporting entities: DON GF and NWCF,
     which include the respective U.S. Marine Corps (USMC) GF and Navy Working Capital Fund-Marine
     Corps (NWCF-MC). Eﬀective FY 2006, USMC was deemed a subsidiary reporting entity and therefore
     has a separate set of subsidiary ﬁnancial statements that are included in this year’s DON Annual Financial
     Report.

     DON General Fund
     The DON GF supports overall Departmental operations. Enacted appropriations from Congress comprise
     the majority of the General Fund account structure, which includes ﬁve major appropriation groups:

                Operation and Maintenance
                Military Personnel
                Procurement
                Research, Development, Test, and Evaluation
                Military Construction

     Enacted appropriations from Congress ﬂow through the Oﬃce of Management and Budget and the
     Oﬃce of the Secretary of Defense to the Oﬃce of the Secretary of the Navy where they are allocated to
     administering oﬃces and major commands. The administering oﬃces and major commands, which in
     turn obligate the appropriations to fund operational expenses and capital investments, are required to
     exercise a system of eﬀective control over ﬁnancial operations.




38
2007 Annual Financial Report



       Major Sources and Uses of Funds
       Enacted appropriations increased by $5.2 billion, 4% or a total of $150.8 Billion when compared
       with FY 2006. The majority of the $5.2 billion increase was in the Operation and Maintenance,
       and Procurement accounts. Though general categories of funds use remained relatively stable,
       Contractual Services and Personnel remain the largest groups, followed by Procurement of Durable
       Goods and Equipment.

       More information on DON GF budgetary resources is available in the Combined Statement of
       Budgetary Resources and Note 20.

                         DON General Fund Major Sources of Funding in FY 2007 ($ in Billions)

                                              $19.2        $1.8
                                                                                            $40.8




                   $41.6
                                                                                              $47.3



                           Military Personnel                     Operation and Maintenance
                           Procurement                            Research, Development, Test, and Evaluation
                           Military Construction


                           DON General Fund Major Uses of Funding in FY 2007 ($ in Billions)
                                                          $3.0
                               $37.8                                                          $47.0




                 $9.1
                        $3.0                                                      $47.9
                               $3.0



                           Personnel                    Contractual Services
                           Other Gov’t Agencies         Travel & Transportation
                           Consumable Purchases         Durable Goods/Equip
                           Land & Structures




                                                                                                                39
                                                                                                      Department of the Navy



     Financial Position
     As of September 30, 2007, net position totaled $331.1 billion, which represents an increase of
     $7.5 billion, or 2%. Changes in General Property, Plant, and Equipment, and Fund Balance with
     Treasury accounted for the majority of the $12.4 billion overall increase in total assets. Also, changes
     in Accounts Payable (Intragovernmental and Nonfederal) and Other Liabilities (Nonfederal)
     accounted for the majority of the $4.8 billion increase in total liabilities.

                              FY 2007 Total Assets, DON General Fund ($ in Billions)
                                                                                $107.3
              $189.1




                                                                                                                  $3.8
                                                                                                $0.2       $8.6
                                                                                $58.2


                   Fund Balance with Treasury             Accounts Receivable
                   Other Assets                           Cash & Other Monetary Assets; Investments
                   Inventory & Related Property           General Property, Plant & Equipment



                            FY 2007 Total Liabilities, DON General Fund ($ in Billions)
                                                                           $4.4
                 $18.8




                                                                                                         $11.2
                                                                         $1.6


                       Accounts Payable
                       Other Liabilities
                       Military Retirement and Other Federal Employment Beneﬁts
                       Environmental and Disposal Liabilities




40
2007 Annual Financial Report



Navy Working Capital Fund
The NWCF is a revolving fund established to meet the diverse requirements of the Navy and Marine
Corps operating forces. Under the revolving fund concept, an appropriation or a transfer of funds ﬁnances
initial NWCF operations. General or appropriated fund payments from customers for goods delivered
or services performed subsequently replenish this initial working capital investment and sustain a
continuous cycle of operations, minimizing the need for additional annual appropriations by Congress.

The goal of NWCF is to break even over time by matching revenues earned to costs incurred.
Achievement of this goal is occasionally complicated by the requirement that NWCF business areas
maintain stable budget-driven prices for goods and services, to protect customers from unforeseen price
ﬂuctuations.

                                    Navy Working Capital Fund Business Activities By Business Area

 Supply Management                                                                     Depot Maintenance
 Supply Management, Navy                                                               Depot Maintenance, Shipyards (See Note below)
 (hĴps://www.navsup.navy.mil)                                                          (hĴp://www.navsea.navy.mil)

 Supply Management, Marine Corps                                                       Depot Maintenance, Aviation
 (hĴp://www.logcom.usmc.mil)                                                           (hĴp://www.navair.navy.mil)

                                                                                       Depot Maintenance, Marine Corps
                                                                                       (hĴp://www.logcom.usmc.mil)
 Base Support                                                                          Transportation
 Facilities Engineering Commands                                                       Military SealiĞ Command
 (hĴps://portal.navfac.navy.mil)                                                       (hĴp://www.msc.navy.mil)

 Naval Facilities Engineering Service Centers
 (hĴps://portal.navfac.navy.mil)

                                                          Research and Development
 Naval Research Laboratory*                                                            Naval Air Warfare Centers
 (hĴp://www.nrl.navy.mil)                                                              (hĴp://www.navair.navy.mil)

 Naval Surface Warfare Centers                                                         Space and Naval Warfare Systems Centers
 (hĴp://www.navsea.navy.mil)                                                           (hĴp://enterprise.spawar.navy.mil)

 Naval Undersea Warfare Centers                                                        *Also see Oﬃce of Naval Research
 (hĴp://www.navsea.navy.mil)                                                           (hĴp://www.onr.navy.mil)


Note: Depot Maintenance, Shipyards transferred to DON GF eﬀective FY 2007. Any FY 2007 ﬁnancial data reﬂects transactions on residual NWCF workload started, but not
completed, prior to October 1, 2006.




                                                                                                                                                                       41
                                                                                                                                              Department of the Navy



     Major Sources and Uses of Funds
     Revenue decreased by $0.1 billion, or 0.5%, and total costs decreased by $0.5 billion, or 2%, between
     FY 2006 to FY 2007. The decrease in both revenue and costs reﬂected the net impact of workload
     changes and the realignment of Depot Maintenance, Shipyards to DON GF. Major sources and uses
     of funding in FY 2007 are displayed below.

                                       NWCF Major Sources of Funding in FY 2007 ($ in Billions)
                                           $1.2       $1.5
                               $0.5                                                                                                      $10.7
                   $0.3

               $2.3



                        $0.7
                                                   $3.3                                              $3.5


                                  DON Operation and Maintenance                                                 DON Procurement
                                  DON Research, Development, Test, and Evaluation                               Other Navy Appropriations
                                  Working Capital Fund                                                          Army Appropriations
                                  Air Force Appropriations                                                      Other DoD Appropriations
                                  Non-DoD Fund Sources


     Note: Dollar amounts may not match Principal Statements because of intra-Department of Defense eliminations.

     Other Navy Appropriations include the Family Housing appropriation and the National Defense SealiĞ Fund.

     Working Capital Fund data represents revenue earned from NWCF and NWCF-MC as well as from other DoD working capital funds,
     including the Army, Air Force, and other Defense Agencies.

     Other DoD Appropriations include fund sources such as Operation and Maintenance, Defense; Research, Development, Test &
     Evaluation, Defense; and Defense Procurement appropriations.

     Non-DoD Fund Sources include Other Federal and Nonfederal Agencies and Foreign Military Sales customers. Examples of Other
     Federal Agencies include the State Department, the Department of Homeland Security, and the Coast Guard. Examples of Nonfederal
     Agencies include state and local governments.


                                         NWCF Major Uses of Funding in FY 2007 ($ in Billions)

                                                       $4.8                             $0.2
                                                                                                                                       $6.9
                    $0.8




                           $3.1
                                           $0.5                                                                                  $8.2



                                      Personnel                                   Contractual Services / Purchases
                                      Travel / Transportation                     Materials & Supplies
                                      Other Intrafund Purchases                   Inventory Procurement
                                      Depreciation

     Note: Dollar amounts may not match Principal Statements because of intra-Department of Defense eliminations.




42
2007 Annual Financial Report



       Financial Position
       As of September 30, 2007, net position totaled $12.0 billion, which represents a decrease of $1.0
       billion, or 7%. A decrease in Inventory and Related Property contributed to the $1.4 billion overall
       decrease in total assets. Also, a decrease in the actuarial liability for workers’ compensation beneﬁts
       contributed to the $0.4 billion overall decrease in total liabilities.

                                       FY 2007 Total Assets, NWCF ($ in Billions)

                                           $3.4                          $1.2
                                                                                          $0.8
                                                                                                        $0.3




                                                                                $12.7


                           Fund Balance with Treasury               Accounts Receivable
                           Other Assets                             Inventory & Related Property
                           General Property, Plant & Equipment




                                     FY 2007 Total Liabilities, NWCF ($ in Billions)
                                   $1.69                     $0.1




                    $1.0
                                                                                                 $3.6


                       Accounts Payable
                       Other Liabilities
                       Military Retirement and Other Federal Employment Beneﬁts
                       Debt



       Cash Management
       The DON manages working capital fund cash at the Departmental level. It must maintain cash
       levels at seven to ten days of operational costs, plus have suﬃcient cash reserves to meet six months
       of projected capital outlays, as required by the Department of Defense Financial Management
       Regulation. For FY 2007, the seven-day cash requirement was $770 million and the ten-day
       requirement was $1.1 billion.




                                                                                                                 43
                                                                                            Department of the Navy



                                Navy Working Capital Fund Cash Balances
                          September 30, 2006 to September 30, 2007 ($ in Thousands)


        1,400,000


        1,200,000


        1,000,000


          800,000


          600,000


          400,000


          200,000


               0
                    Sep   Oct    Nov   Dec    Jan   Feb    Mar   Apr    May    Jun    Jul   Aug     Sep




     The NWCF ﬁnished FY 2007 with an ending cash balance of $1.1 billion. This stabilized balance
     enables DON to maintain the seven- and ten-day cash metric through FY 2009. Primary contributing
     factors to the FY 2007 ending cash balance are brieﬂy described below.

          $112.5 million fuel supplemental received from the Defense Logistics Agency, which was
          subsequently distributed among the following NWCF business activities—Military SealiĞ
          Command, Naval Air Warfare Centers, Facilities Engineering Command, Naval Aviation
          Depots, Naval Undersea Warfare Center, and the Naval Surface Warfare Center.

          $91.0 million paid by the Depot Maintenance, Shipyards to the Treasury Miscellaneous Receipts
          Account for annual leave liability, as required for their transition from NWCF to DON GF.

          $83.5 million received by Supply Management, Navy for inventory augmentation.

          $32.4 million received by Supply Management, Marine Corps for war reserve materiel.


     Cash Management Initiative. A tool was developed to assist with the cash reconciliation process.
     The tool reconciles NWCF cash balances to the U.S. Treasury; calculates associated journal vouchers
     to cash; and provides an audit trail. This tool was fully deployed to NWCF activities in January 2007
     and was then transitioned to Defense Finance and Accounting Service. This eﬀort was considered
     a successful Lean Six Sigma Green Belt project. Use of this tool is estimated to reduce the time
     devoted to reconciliation functions by as much as 40% and aided in the preparation of the FY 2009
     DON budget submission.


44
2007 Annual Financial Report



       In addition, during July 2007, NWCF executed an “absolute” cash realignment among business
       activity groups, resulting in providing these activities with greater visibility and transparency of
       cash values. This was the ﬁrst cash rebalancing since 1997.

       Finally, a cash management and forecasting tool was deployed to all Industrial activities during FY
       2007. The tool was used to support submission of the FY 2009 DON and Oﬃce of the Secretary of
       Defense budgets.




                                                                                                              45
                                                                                                                        Department of the Navy



     Looking Forward: Fiscal Year 2008 and Beyond



            T   he Navy and Marine Corps must remain prepared at
                all times to conduct Naval operations at sea. Such
            traditional priorities as force projection from the sea,
            supremacy in the liĴorals, and protection of vital sea lanes
            will always be our core missions.

                                                        - The Honorable Donald C. Winter, Secretary of the Navy, June 2007




     Safety will remain a DON priority objective in FY 2008 (see FY 2008 DON objectives at hĴp://www.navy.mil). Pictured above is the Strike
     Fighter Squadron (VFA) 87, which was among 20 recipients of the DON Safety Excellence Award for 2007.




46
2007 Annual Financial Report




The DON anticipates U.S. Navy end strength to stabilize at approximately 323,000 by 2011.




                                                                                            47
                                                                                                               Department of the Navy




     The Marine Corps will focus on increasing its active component end strength to 202,000 Marines by 2011.




48
2007 Annual Financial Report




The DON will continue to invest in several key procurement programs to enhance riverine warfare capabilities.




                                                                                                                49
                                                                                                                  Department of the Navy




     The Mine Resistant Ambush Protected (MRAP) vehicle will continue to provide deployed Marine units with protection from improvised
     explosive devices. Pictured above is a variant of the MRAP Joint Explosive Ordnance Disposal Rapid Response Vehicle undergoing the
     ﬁrst of four test explosions at the Aberdeen Test Center in Maryland.




50
2007 Annual Financial Report




A Cooperative Strategy for 21st Century Seapower represents the ﬁrst time that U.S. maritime forces—the Navy, Marine Corps, and Coast
Guard—have collaborated to create a uniﬁed maritime strategy. This new enduring strategy will apply maritime power to the crucial
responsibility of protecting U.S. vital interests in an increasingly interconnected and uncertain world.




                                                                                                                                        51
     Department of the Navy




52
    2007
    General Fund
    Principal Statements

2007 Annual Financial Report 2007 Annual Financial Report




                                                            General Fund Principal Statements
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                      53
2007 Annual Financial Report 2007 Annual Financial Report
                                                              Department of the Navy




     Limitations to the Financial
     Statements
     The principal ﬁnancial statements have been prepared
     to report the ﬁnancial position and results of
     operations of the entity, pursuant to the requirements
     of 31 United States Code 3515 (b). While the
     statements have been prepared from the books and
     records of the entity in accordance with Generally
     Accepted Accounting Principles for Federal entities
     and the formats prescribed by Oﬃce of Management
     and Budget, the statements are in addition to
     the ﬁnancial reports used to monitor and control
     budgetary resources which are prepared from the same
     books and records. The statements should be read
     with the realization that they are for a component of
     the U.S. Government, a sovereign entity.




54
2007 Annual Financial Report




Principal Statements
The Fiscal Year 2007 Department of the Navy General Fund Principal Statements and related notes are
presented in the format prescribed by the Department of Defense Financial Management Regulation
7000.14, Volume 6B. The statements and related notes summarize ﬁnancial information for individual
funds and accounts within the General Fund for the ﬁscal year ending September 30, 2007, and are
presented on a comparative basis with information previously reported for the ﬁscal year ending
September 30, 2006.

The following statements comprise the Department of the Navy General Fund Principal Statements:

           Consolidated Balance Sheet

           Consolidated Statement of Net Cost

           Consolidated Statement of Changes in Net Position

           Combined Statement of Budgetary Resources

The Principal Statements and related notes have been prepared to report ﬁnancial position pursuant to
the requirements of the Chief Financial Oﬃcers Act of 1990, as amended by the Government Management
Reform Act of 1994. The accompanying notes should be considered an integral part of the Principal
Statements.




                                                                                                           55
                                                                                            General Fund
                                                                                                     Department of the Navy



           Department of Defense
           Department of the Navy General Fund
           CONSOLIDATED BALANCE SHEET
           As of September 30, 2007 and 2006
              ($ in Thousands)


                                                                            2007 Consolidated      2006 Consolidated
               ASSETS (Note 2)
                Intragovernmental:
                 Fund Balance with Treasury (Note 3)
                 Entity                                                 $          106,827,806 $           95,941,461
                 Non-Entity Seized Iraqi Cash                                                0                      0
                 Non-Entity - Other                                                    516,593                474,507
                 Investments (Note 4)                                                    9,756                  9,751
                 Accounts Receivable (Note 5)                                          206,091                159,270
                 Other Assets (Note 6)                                                 400,261                468,259
                    Total Intragovernmental Assets                                 107,960,507             97,053,248

                Cash and Other Monetary Assets (Note 7)                                142,971                176,306
                Accounts Receivable, Net (Note 5)                                    3,613,512              3,231,414
                Loans Receivable (Note 8)                                                    0                      0
                Inventory and Related Property, Net (Note 9)                        58,249,650             58,794,634
                General Property, Plant and Equipment, Net (Note 10)               189,054,744            186,979,669
                Investments (Note 4)                                                         0                      0
                Other Assets (Note 6)                                                8,175,144              8,608,875
               TOTAL ASSETS                                                        367,196,528            354,844,146

               LIABILITIES (Note 11)
                Intragovernmental:
                 Accounts Payable (Note 12)                                          1,495,517              1,035,043
                 Debt (Note 13)                                                              0                      0
                 Other Liabilities (Note 15 & Note 16)                               4,642,819              4,460,153
                    Total Intragovernmental Liabilities                              6,138,336              5,495,196

                Accounts Payable (Note 12)                                           2,948,867              1,265,536
                Military Retirement and Other Federal
                 Employment Benefits (Note 17)                                       1,648,124              1,513,644
                Environmental and Disposal Liabilities (Note 14)                    18,789,725             17,268,813
                Loan Guarantee Liability (Note 8)                                            0                      0
                Other Liabilities (Note 15 & Note 16)                                6,594,994              5,749,764
               TOTAL LIABILITIES                                                    36,120,046             31,292,953

               NET POSITION
                Unexpended Appropriations - Earmarked Funds (Note 23)                        0                  1,550
                Unexpended Appropriations - Other Funds                            109,221,612             99,697,752
                Cumulative Results of Operations - Earmarked Funds                      24,258                 18,843
                Cumulative Results of Operations - Other Funds                     221,830,612            223,833,048
               TOTAL NET POSITION                                                  331,076,482            323,551,193

               TOTAL LIABILITIES AND NET POSITION                       $          367,196,528 $          354,844,146




     The accompanying notes are an integral part of the statements.

56
2007 Annual Financial Report



      Department of Defense
      Department of the Navy General Fund
      CONSOLIDATED STATEMENT OF NET COST
      For the Years Ended September 30, 2007 and 2006
          ($ in Thousands)


                                                                     2007 Consolidated      2006 Consolidated
           Program Costs
             Gross Costs                                         $          152,141,735 $          129,530,253
             Less: Earned Revenue                                            (4,375,830)            (3,912,287)
             Net Costs                                                     147,765,905            125,617,966
           Costs Not Assigned to Programs                                             0                      0
           Less: Earned Revenue Not Attributable to Programs                          0                      0
           Net Cost of Operations                                $         147,765,905 $          125,617,966




The accompanying notes are an integral part of the statements.

                                                                                                                   57
                                                                                                    General Fund
                                                                                             Department of the Navy



       Department of Defense
       Department of the Navy General Fund
       CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
       For the Years Ended September 30, 2007 and 2006
           ($ in Thousands)


                                                                          Earmarked Funds        Other Funds
           CUMULATIVE RESULTS OF OPERATIONS
            Beginning Balances                                        $             18,843   $        223,833,048
            Prior Period Adjustments:
               Changes in accounting principles (+/-)                                    0                      0
               Correction of errors (+/-)                                                0                      0
            Beginning Balances, as adjusted                                         18,843            223,833,048
            Budgetary Financing Sources:
             Other adjustments (rescissions, etc) (+/-)                                  0                      0
             Appropriations used                                                     1,550            139,860,423
             Nonexchange revenue                                                       462                     (1)
             Donations and forfeitures of cash and cash equivalents                 22,172                      0
             Transfers in/out without reimbursement (+/-)                              189                166,000
             Other budgetary financing sources (+/-)                                     0                      0
            Other Financing Sources:
             Donations and forfeitures of property                                       0                      0
             Transfers in/out without reimbursement (+/-)                                0                 91,282
             Imputed financing from costs absorbed by others                             0                730,190
             Other (+/-)                                                                 0              4,896,617
            Total Financing Sources                                                 24,373            145,744,511
            Net Cost of Operations (+/-)                                            18,958            147,746,947
            Net Change                                                               5,415             (2,002,436)
            Cumulative Results of Operations                          $             24,258   $        221,830,612

           UNEXPENDED APPROPRIATIONS
            Beginning Balances                                        $              1,550   $         99,697,751
            Prior Period Adjustments (+/-)
              Changes in accounting principles (+/-)                                     0                      0
              Correction of errors (+/-)                                                 0                      0
            Beginning Balances, as adjusted                                          1,550             99,697,751
            Budgetary Financing Sources:
             Appropriations received                                                     0            150,734,232
             Appropriations transferred-in/out (+/-)                                     0                (21,826)
             Other adjustments (rescissions, etc) (+/-)                                  0             (1,328,122)
             Appropriations used                                                    (1,550)          (139,860,423)
            Total Budgetary Financing Sources                                       (1,550)             9,523,861
            Unexpended Appropriations                                                    0            109,221,612
            Net Position                                              $             24,258 $          331,052,224




     The accompanying notes are an integral part of the statements.

58
2007 Annual Financial Report



  Department of Defense
  Department of the Navy General Fund
  CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
  For the Years Ended September 30, 2007 and 2006
     ($ in Thousands)


                                                                    2007 Consolidated       2006 Consolidated
     CUMULATIVE RESULTS OF OPERATIONS
      Beginning Balances                                        $         223,851,891   $         192,520,091
      Prior Period Adjustments:
         Changes in accounting principles (+/-)                                     0                       0
         Correction of errors (+/-)                                                 0              23,218,292
      Beginning Balances, as adjusted                                     223,851,891             215,738,383
      Budgetary Financing Sources:
       Other adjustments (rescissions, etc) (+/-)                                   0                       0
       Appropriations used                                                139,861,973             132,896,926
       Nonexchange revenue                                                        461                     564
       Donations and forfeitures of cash and cash equivalents                  22,172                  18,858
       Transfers in/out without reimbursement (+/-)                           166,189                  50,000
       Other budgetary financing sources (+/-)                                      0                       0
      Other Financing Sources:
       Donations and forfeitures of property                                        0                       0
       Transfers in/out without reimbursement (+/-)                            91,282                 187,068
       Imputed financing from costs absorbed by others                        730,190                 578,058
       Other (+/-)                                                          4,896,617                       0
      Total Financing Sources                                             145,768,884             133,731,474
      Net Cost of Operations (+/-)                                        147,765,905             125,617,966
      Net Change                                                           (1,997,021)              8,113,508
      Cumulative Results of Operations                          $         221,854,870 $           223,851,891

     UNEXPENDED APPROPRIATIONS
      Beginning Balances                                        $          99,699,301   $          89,739,876
      Prior Period Adjustments (+/-)
        Changes in accounting principles (+/-)                                      0                       0
        Correction of errors (+/-)                                                  0                       0
      Beginning Balances, as adjusted                                      99,699,301              89,739,876
      Budgetary Financing Sources:
       Appropriations received                                             150,734,232             145,492,245
       Appropriations transferred-in/out (+/-)                                 (21,826)                617,410
       Other adjustments (rescissions, etc) (+/-)                           (1,328,122)             (3,253,303)
       Appropriations used                                                (139,861,973)           (132,896,926)
      Total Budgetary Financing Sources                                      9,522,311               9,959,426
      Unexpended Appropriations                                            109,221,612              99,699,302
      Net Position                                              $          331,076,482 $           323,551,193




                                                                                                                  59
                                                                                                   General Fund
                                                                                               Department of the Navy



       Department of Defense
       Department of the Navy General Fund
       COMBINED STATEMENT OF BUDGETARY RESOURCES
       For the Years Ended September 30, 2007 and 2006
           ($ in Thousands)


                                                                          2007 Combined           2006 Combined
          BUDGETARY FINANCING ACCOUNTS
          Budgetary Resources:
            Unobligated balance, brought forward, October 1           $         20,835,975 $              17,128,479
            Recoveries of prior year unpaid obligations                         16,508,300                 5,261,990
            Budget Authority:
               Appropriations received                                         150,757,067               145,511,602
               Borrowing authority                                                       0                         0
               Contract authority                                                        0                         0
            Spending authority from offsetting collections:
               Earned
                 Collected                                                       7,690,260                 7,767,620
                 Change in receivables from Federal sources                        317,620                 (948,730)
               Change in unfilled customer orders
                 Advances received                                                   50,491                    54,329
                 Without advance from Federal sources                                 7,319                   519,073
               Anticipated for rest of year, without advances                             0                         0
               Previously unavailable                                                     0                         0
               Expenditure Transfers from trust funds                                     0                         0
              Subtotal                                                         158,822,757               152,903,894
            Nonexpenditure Transfers, net, anticipated and actual                   144,174                   667,410
            Temporarily not available pursuant to Public Law                              0                         0
            Permanently not available                                           (1,328,122)               (3,253,303)
            Total Budgetary Resources                                          194,983,084               172,708,470

          Status of Budgetary Resources:
            Obligations incurred:
               Direct                                                          163,297,807               146,006,781
               Reimbursable                                                      7,750,730                 5,865,715
               Subtotal                                                        171,048,537               151,872,496
            Unobligated balance:
               Apportioned                                                      21,765,826                19,197,595
               Exempt from apportionment                                                 0                         0
               Subtotal                                                         21,765,826                19,197,595
            Unobligated balances not available                                   2,168,721                 1,638,379
            Total Status of Budgetary Resources                       $        194,983,084 $             172,708,470




     The accompanying notes are an integral part of the statements.

60
2007 Annual Financial Report



 Department of Defense
 Department of the Navy General Fund
 COMBINED STATEMENT OF BUDGETARY RESOURCES
 For the Years Ended September 30, 2007 and 2006
     ($ in Thousands)


                                                                      2007 Combined        2006 Combined
     RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
     Change in Obligated Balance:
      Obligated balance, net
         Unpaid obligations, brought forward, October 1           $         78,088,020 $         72,093,186
         Less: Uncollected customer payments from
            Federal sources, brought forward, October 1                      (2,971,157)          (3,400,814)
         Total Unpaid Obligated Balance                                      75,116,863           68,692,372
      Obligations incurred, net (+/-)                                       171,048,537          151,872,496
      Less: Gross outlays                                                 (146,437,179)        (140,615,673)
      Obligated balance transferred, net
         Actual transfers, unpaid obligations (+/-)                                   0                    0
         Actual transfers, uncollected customer
            payments from Federal sources (+/-)                                       0                    0
         Total Unpaid Obligated Balance Transferred, net                              0                    0
      Less: Recoveries of prior year unpaid obligations, actual            (16,508,300)          (5,261,990)
      Change in uncollected customer
         payments from Federal sources (+/-)                                  (324,938)             429,657
      Obligated balance, net, end of period
         Unpaid obligations                                                 86,191,077           78,088,020
         Less: Uncollected customer payments from
            Federal sources                                                 (3,296,095)          (2,971,157)
         Total Unpaid Obligated Balance, net, end of period                 82,894,982           75,116,863

     Net Outlays:
      Gross Outlays                                                        146,437,179          140,615,673
      Less: Offsetting collections                                          (7,740,753)          (7,821,950)
      Less: Distributed Offsetting receipts                                   (270,572)            (149,284)
     Net Outlays                                                  $        138,425,854 $        132,644,439




The accompanying notes are an integral part of the statements.

                                                                                                                61
                                                                                                 General Fund
     Department of the Navy




62
    2007
    General Fund
    Notes to the Principal Statements




                                                            General Fund Notes to the Principal Statements
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                      63
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                           Department of the Navy



     Note 1.         Signiﬁcant Accounting Policies
     1.A.    Basis of Presentation
     These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations
     of the Department of the Navy (DON) General Fund (GF), as required by the Chief Financial Oﬃcers
     (CFO) Act of 1990, expanded by the Government Management Reform Act (GMRA) of 1994, and other
     appropriate legislation. The ﬁnancial statements have been prepared from the books and records of
     DON GF in accordance with the “Department of Defense (DoD) Financial Management Regulation,” the
     Oﬃce of Management and Budget (OMB) Circular A-136, “Financial Reporting Requirements,” and to the
     extent possible, generally accepted accounting principles (GAAP). Eﬀective 4th Quarter, Fiscal Year (FY)
     2007, DON GF no longer publishes consolidating/combining ﬁnancial statements. The accompanying
     ﬁnancial statements account for the resources for which DON GF is responsible to report within the
     context of current DoD reporting policy.

     Information relative to classiﬁed assets, programs, and operations is excluded from the statements or
     otherwise aggregated and reported in such a manner that it is not discernable.

     The DON GF is unable to fully implement all elements of GAAP and the OMB Circular A-136 due
     to limitations of its ﬁnancial and nonﬁnancial management processes and systems that feed into the
     ﬁnancial statements. The DON GF derives its reported values and information for major asset and
     liability categories largely from nonﬁnancial systems, such as inventory and logistic systems. These
     systems were designed to support reporting requirements for maintaining accountability over assets and
     reporting the status of federal appropriations rather than preparing ﬁnancial statements in accordance
     with GAAP. The DON GF continues to implement process and system improvements addressing these
     limitations.

     The DoD currently has several auditor identiﬁed ﬁnancial statement material weaknesses including
     those for ﬁnancial management systems, intragovernmental eliminations, and unsupported accounting
     entries. Of the DoD reported material weaknesses, the DON has the following: (1) Fund Balance with
     Treasury, (2) completeness of general equipment, (3) real property, (4) valuation of operating materiels
     and supplies, (5) military equipment reporting, (6) accuracy and complete reporting of accounts payable,
     and (7) identifying and reporting environmental disposal liabilities.

     FY 2007 represents the twelĞh year that DON GF has prepared ﬁnancial statements pursuant to the CFO
     Act and GMRA.

     1.B.    Mission of the Reporting Entity
     The DON was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall
     mission of DON is to maintain, train, and equip combat-ready Navy and Marine Corps forces capable of
     winning wars, deterring aggression and maintaining freedom of the seas.

     1.C.    Appropriations and Funds
     The DON receives its appropriations and funds as general, working capital (revolving), trust, special, and
     deposit funds. The DON uses these appropriations and funds to execute its missions and subsequently
     report on resource usage.

     General funds are used for ﬁnancial transactions funded by congressional appropriations, including
     military personnel, operations and maintenance, research and development, procurement, and military
     construction accounts.

     Working capital funds, or revolving funds, receive funding to establish an initial corpus through an
     appropriation or a transfer of resources from existing appropriations or funds. The corpus ﬁnances
64
2007 Annual Financial Report



operations and transactions that ﬂow through the fund. The revolving fund resources the goods and
services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts
replenish the corpus and generally are available in their entirety for use without further congressional
action. At various times, Congress provides additional appropriations to supplement the revolving fund
as an infusion of cash when revenues are inadequate to cover costs within the corpus. The National
Defense SealiĞ Fund is DON GF’s only revolving fund.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in
carrying out speciﬁc purposes or programs in accordance with the terms of the donor, trust agreement,
or statute. Certain trust and special funds may be designated as earmarked funds. Earmarked funds
are ﬁnanced by speciﬁcally identiﬁed revenues, required by statute to be used for designated activities,
beneﬁts or purposes, and remain available over time. Earmarked funds also have a requirement to
account for and report on the receipt, use, and retention of revenues and other ﬁnancing sources that
distinguish them from general revenues.

Special fund accounts are used to record government receipts reserved for a speciﬁc purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or
public entity. The DON GF is acting as an agent or a custodian for funds awaiting distribution.

The DON GF is a party to allocation transfers with other federal agencies as a receiving (child) entity.
Allocation transfers are legal delegations by one agency of its authority to obligate budget authority
and outlay funds to another agency. Generally, all ﬁnancial activity related to these allocation transfers
(e.g. budget authority, obligations, outlays) is reported in the ﬁnancial statements of the parent entity.
Exceptions to this general rule apply to speciﬁc funds for which OMB has directed that all activity be
reported in the ﬁnancial statements of the child entity. Exceptions include all U.S. Treasury-Managed
Trust Funds, Executive Oﬃce of the President (EOP) funds, and all other funds speciﬁcally designated by
OMB.

The DON GF is a party to allocation transfers as the child from the EOP for the Foreign Military
Financing Program, as well as for the International Military Education and Training program. These
funds meet the OMB exception; however, activities for these funds are reported in the DoD ﬁnancial
statements, not the DON’s. The DON GF also receives allocation transfers, as the child, from the
U.S. Forest Service and the Federal Highway Administration and reports ﬁnancial activity for those funds
to the parent.

The asset accounts used to prepare ﬁnancial statements are categorized as either entity or nonentity.
Entity accounts consist of resources that the agency has the authority to use, or where management is
legally obligated to use funds to meet entity obligations. Nonentity accounts are assets that are held by
an entity but are not available for use in the operations of the entity.

Entity Accounts:
General Accounts
   17 X 0380     Coastal Defense Augmentation, Navy
   17 0703       Family Housing, Navy and Marine Corps
   17 0730       Family Housing Construction, Navy and Marine Corps
   17 0735       Family Housing Operation and Maintenance, Navy and Marine Corps
   17 X 0810     Environmental Restoration, Navy
   17 1000       Medicare Eligible Retiree Health Care Fund, Military Personnel Navy
   17 1001       Medicare Eligible Retiree Health Care Fund, Military Personnel Marine Corps
   17 1002       Medicare Eligible Retiree Health Care Fund, Reserve Personnel Navy
   17 1003       Medicare Eligible Retiree Health Care Fund, Reserve Personnel Marine Corps
   17 1105       Military Personnel, Marine Corps

                                                                                                                65
                                                                                                 General Fund
                                                                                         Department of the Navy



        17   1106      Operation and Maintenance, Marine Corps
        17   1107      Operation and Maintenance, Marine Corps Reserve
        17   1108      Reserve Personnel, Marine Corps
        17   1109      Procurement, Marine Corps
        17   1205      Military Construction, Navy and Marine Corps
        17   1235      Military Construction, Navy Reserve
        17   1236      Payments to Kaho Olawe Island Conveyance, Remediation and Environmental
                       Restoration Fund, Navy
        17   1319      Research, Development, Test and Evaluation, Navy
        17   1405      Reserve Personnel, Navy
        17   1453      Military Personnel, Navy
        17   1506      AircraĞ Procurement, Navy
        17   1507      Weapons Procurement, Navy
        17   1508      Procurement of Ammunition, Navy and Marine Corps
        17   1611      Shipbuilding and Conversion, Navy
        17   1804      Operation and Maintenance, Navy
        17   1806      Operation and Maintenance, Navy Reserve
        17   1810      Other Procurement, Navy

     Revolving Funds
        17 X 4557    National Defense SealiĞ Fund, Navy

     Earmarked Trust Funds
        17 X 8716     Department of the Navy General GiĞ Fund
        17 X 8723     Ships Stores Proﬁts, Navy
        17 X 8733     United States Naval Academy General GiĞ Fund

     Earmarked Special Funds
        17 X 5095    Wildlife Conservation, Military Reservations, Navy
        17 X 5185    Kaho Olawe Island Conveyance, Remediation and Environmental Restoration Fund,
                     Navy
        17 X 5429    Roosmoor Liquidating Trust SeĴlement Account
        17 X 5562    Ford Island Improvement Account

     General Fund Receipt, Deposit, Suspense, and Clearing Accounts
        17 1XXX      Receipt Accounts
        17 3XXX      Receipt Accounts
        17 X 6XXX    Deposit Funds

     Parent-Child (Allocation) Transfer Accounts
        17 11 1081 International Military Education and Training Funds, appropriated to the President
        17 11 X1081 International Military Education and Training Funds, appropriated to the President
        17 11 1082 Foreign Military Financing Program Funds, appropriated to the President
        17 12 X1105B State and Private Forestry, Forest Service
        17 69 X 8083 Federal-Aid Highways (Liquidation of Contract Authorization), Federal Highway
                       Administration

     1.D.    Basis of Accounting
     For FY 2007, DON’s GF ﬁnancial management systems are unable to meet all of the requirements for
     full accrual accounting. Many of DON’s ﬁnancial and nonﬁnancial feeder systems and processes were
     designed and implemented prior to the issuance of GAAP for federal agencies. These systems were not
     designed to collect and record ﬁnancial information on the full accrual accounting basis as required by
     GAAP. Most of DON’s ﬁnancial and nonﬁnancial legacy systems were designed to record information on
     a budgetary basis.

     In conjunction with DoD, the DON GF has undertaken eﬀorts to determine the actions required to bring
66
2007 Annual Financial Report



its ﬁnancial and nonﬁnancial feeder systems and processes into compliance with GAAP. One such action
is the current revision of its accounting systems to record transactions based on the U.S. Standard General
Ledger (USSGL). Until all of DON GF’s ﬁnancial and nonﬁnancial feeder systems and processes are
updated to collect and report ﬁnancial information as required by GAAP, DON GF’s ﬁnancial data will be
derived from budgetary transactions (obligations, disbursements and collections), data from nonﬁnancial
feeder systems, and accruals made for major items such as payroll expenses, accounts payable, and
environmental liabilities.

In addition, DoD policy requires identiﬁcation of program costs based upon the major appropriation
groups provided by the Congress. Current processes and systems do not capture and report accumulated
costs for major programs based upon the performance measures as required by the Government
Performance and Results Act. The DoD reporting entities are working towards a cost reporting
methodology that meets the need for cost information required by the Statement of Federal Financial
Accounting Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the
Federal Government.”

1.E.    Revenues and Other Financing Sources
The DON GF receives congressional appropriations as ﬁnancing sources on either an annual or multi-
year basis. When authorized by legislation, these appropriations are supplemented by revenues
generated by sales of goods or services. The DON GF recognizes revenue as a result of costs incurred
for goods or services provided to other federal agencies and the public. The price charged for goods and
services furnished by DON GF depends on whether that good or service is provided to, or for the beneﬁt
of, a DoD Component, a non-DoD federal agency, a private party, or a foreign military sales customer.
Full cost pricing is DON GF’s standard policy for services provided as required by OMB Circular A-25,
“User Charges.” The DON GF recognizes revenue when earned within the constraints of current system
capabilities. In some instances, revenue is recognized when bills are issued.

The DON GF does not include nonmonetary support provided by U.S. allies for common defense and
mutual security in amounts reported in the Statement of Net Cost and the Note 21, “Reconciliation of Net
Cost of Operations to Budget.” The U.S. has cost sharing agreements with other countries. Examples
include countries where there is a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. Fleet is in a port.

1.F.    Recognition of Expenses
For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. However, because DON’s GF ﬁnancial and nonﬁnancial feeder systems were not designed to
collect and record ﬁnancial information on the full accrual accounting basis, accruals are made for major
items such as payroll expenses, accounts payable, environmental liabilities, and unbilled revenue. In
the case of Operating Materiels and Supplies (OM&S), operating expenses are initially recognized when
the items are purchased. Subsequent adjustments to operating expenses are recognized when OM&S
is recorded as an asset or consumed in operations. Eﬀorts are underway to transition towards the
consumption method for recognizing OM&S expenses.

1.G.    Accounting for Intragovernmental Activities
At the U.S. government level, preparation of reliable government wide ﬁnancial statements requires
the elimination of transactions occurring among sub-entities within a reporting entity, and between
two or more federal agencies. However, DON GF cannot accurately identify all intragovernmental
transactions by customer because DON’s GF systems do not track the necessary detail at the transaction
level. For the DON GF, balances between sub-entities are eliminated prior to the preparation of the
DON GF ﬁnancial statements. Generally, seller entities within DoD provided summary seller-side
balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD

                                                                                                               67
                                                                                                General Fund
                                                                                           Department of the Navy



     accounting oﬃces. In most cases, the buyer-side records are adjusted to agree with DoD seller-side
     balances. Intra-DoD intragovernmental balances are then eliminated for the DoD ﬁnancial statements.
     The volume of intragovernmental transactions is so large that aĞer-the-fact reconciliation cannot be
     accomplished eﬀectively with existing or foreseeable resources. The DoD is developing long-term system
     improvements to ensure accurate intragovernmental information and to include suﬃcient up-front edits
     and controls eliminating the need for aĞer-the-fact reconciliations.

     The U.S. Treasury Financial Management Service is responsible for eliminating transactions between
     DoD and other federal agencies. The U.S. Treasury Financial Manual, Part 2 – Chapter 4700, “Agency
     Reporting Requirements for the Financial Report of the United States Government,” and the U.S.
     Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide,” provide guidance for
     reporting and reconciling intragovernmental balances. While DON GF is unable to fully reconcile all
     intragovernmental transactions with all federal partners, DON GF is able to reconcile balances pertaining
     to Trust Fund investments in federal securities, Federal Employees’ Compensation Act transactions with
     the Department of Labor, and beneﬁt program transactions with the Oﬃce of Personnel Management.

     The DoD’s proportionate share of public debt and related expenses of the Federal Government is not
     included. The Federal Government does not apportion debt and its related costs to federal agencies. The
     DoD reporting entities’ ﬁnancial statements, therefore, do not report any portion of the public debt or
     interest thereon, nor do the statements report the source of public ﬁnancing whether from issuance of
     debt or tax revenues.

     Financing for the construction of DON GF facilities is obtained through appropriations. To the extent this
     ﬁnancing ultimately may have been obtained through the issuance of public debt, interest costs have not
     been capitalized since the U.S. Treasury does not allocate such interest costs to the beneﬁting agencies.

     1.H.    Transactions with Foreign Governments and International Organizations
     Each year, DON sells defense articles and services to foreign governments and international organizations
     under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD
     has authority to sell defense articles and services to foreign countries and international organizations
     generally at no proﬁt or loss to the U.S. Government. Payment in U.S. dollars is required in advance.

     1.I.    Funds with the U.S. Treasury
     The DON GF’s monetary ﬁnancial resources are maintained in U.S. Treasury accounts. The disbursing
     oﬃces of the Defense Finance and Accounting Service (DFAS), the Military Services, the U. S. Army
     Corps of Engineers (USACE), and the Department of State’s ﬁnancial service centers process the majority
     of DON’s cash collections, disbursements, and adjustments worldwide. Each disbursing station prepares
     monthly reports that provide information to the U.S. Treasury on check issues, electronic fund transfers,
     interagency transfers, and deposits.

     In addition, these disbursing oﬃces submit reports to the U.S. Treasury, by appropriation, on interagency
     transfers, collections received, and disbursements issued. The U.S. Treasury records this information to
     the applicable Fund Balance with Treasury (FBWT) account. Diﬀerences between DON GF’s recorded
     balance in FBWT accounts and U.S. Treasury’s FBWT accounts sometimes result and are subsequently
     reconciled.

     1.J.    Foreign Currency
     Cash is the total of cash resources under the control of DON GF, which includes coin, paper currency,
     negotiable instruments, and amounts held for deposit in banks and other ﬁnancial institutions. Foreign
     currency consists of the total U.S. dollar equivalent of both purchased and nonpurchased foreign
     currencies held in foreign currency fund accounts.

68
2007 Annual Financial Report



All cash and foreign currency is classiﬁed as nonentity and is restricted. Amounts reported consist
primarily of cash and foreign currency held by disbursing oﬃcers to carry out their paying, collecting,
and foreign currency accommodation exchange missions.

The DON GF conducts a signiﬁcant portion of its operations overseas. Congress established a special
account to handle the gains and losses from foreign currency transactions for ﬁve general fund
appropriations: operation maintenance, military personnel, military construction, family housing
operation and maintenance, and family housing construction. The gains and losses are computed as
the variance between the exchange rate current at the date of payment and a budget rate established at
the beginning of each ﬁscal year. Foreign currency ﬂuctuations related to other appropriations require
adjustments to the original obligation amount at the time of payment. The DON GF does not separately
identify foreign currency ﬂuctuation transactions on the ﬁnancial statements.

1.K.    Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and
refunds receivable from other federal entities or from the public. Allowances for uncollectible accounts
due from the public are based upon analysis of collection experience by fund type. The DON GF does not
recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against
other federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures deﬁned in the Intragovernmental Business Rules published in the Treasury Financial Manual
at hĴp://www.fms.treas.gov/tfm/vol1/07-03.pdf.

1.L.    Direct Loans and Loan Guarantees
Not applicable.

1.M.    Inventories and Related Property
Related property is comprised of Operating Materiels and Supplies (OM&S). The DON GF uses both
the consumption method and the purchase method of accounting for OM&S. Items that are centrally
managed and stored, such as ammunition and engines, are generally recorded using the consumption
method and are reported on the Balance Sheet as an asset. When current systems cannot fully support
the consumption method, DON GF uses the purchase method. Under the purchase method, materiels
and supplies are not recorded as an asset, but rather, are expensed when purchased. During FY 2007,
DON GF expensed signiﬁcant amounts using the purchase method because the systems could not
support the consumption method or management deemed that the item was in the hands of the end user.
This is a material weakness for DoD and DON GF and systems are under development to correct this
weakness. Once the proper systems are in place, these items will be accounted for using the consumption
method of accounting.

The DON GF values OM&S assets using several valuation methods. Most OM&S is valued at an
approximation of historical cost using latest acquisition cost adjusted for holding gains and losses.
The latest acquisition cost method is used because legacy logistics systems were designed for materiel
management rather than accounting purposes. Although these systems provide visibility and
accountability over inventory and related property items, they do not maintain historical cost data
necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related Property.” Additionally,
these legacy inventory systems cannot produce ﬁnancial transactions using the USSGL, as required by
the Federal Financial Management Improvement Act of 1996 (P.L. 104-208). By utilizing new systems
development processes, DON is continuing to transition the balance of the OM&S to the moving average
cost method. However, since the on-hand balances which were transitioned were not, for the most part,
baselined to auditable historical cost, the reported values remain noncompliant with SFFAS No. 3 and
GAAP.



                                                                                                               69
                                                                                                General Fund
                                                                                            Department of the Navy



     The DON GF manages only military or government speciﬁc materiel under normal conditions. Materiel
     is a unique term that relates to military force management, and includes items such as weapons system
     spare parts and repair parts necessary to equip, operate, maintain, and support military activities without
     distinction as to its application for administrative or combat purposes. Items commonly used in and
     available from the commercial sector are not managed in DON GF materiel management activities.
     Operational cycles are irregular and the military risks associated with stock-out positions have no
     commercial parallel. The DON GF holds materiel based on military need and support for contingencies.

     In conjunction with DoD, the DON determined that the recurring high dollar value of OM&S in need
     of repair is material to the ﬁnancial statements and required a separate reporting category. Many high
     dollar items, such as aircraĞ engines, are categorized as OM&S rather than military equipment.

     The DON GF recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of
     disposal is greater than the potential scrap value; therefore, the net value of condemned materiel is
     zero. Materiel that potentially may be redistributed, presented in previous years as “Excess, Obsolete,
     and Unserviceable,” is included in the “Held for Use” or “Held for Repair” categories according to its
     condition.

     1.N.    Investments in U.S. Treasury Securities
     For the trust funds, DON GF reports investments in U.S. Treasury securities at cost, net of amortized
     premiums or discounts. Premiums or discounts are amortized over the term of the investment using
     the eﬀective interest rate method or another method obtaining similar results. The DON GF’s intent is
     to hold investments to maturity. Consequently, a provision is not made for unrealized gains or losses on
     these securities.

     The DON GF trust funds invest in nonmarketable securities. The two types of nonmarketable securities
     are par value and market-based intragovernmental securities. The Bureau of Public Debt issues
     nonmarketable par value intragovernmental securities. Nonmarketable, market-based intragovernmental
     securities mimic marketable securities, but are not publicly traded.

     1.O.    General Property, Plant, and Equipment
     The SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,”
     established GAAP for valuing and reporting military equipment (e.g., ships, aircraĞ, combat vehicles,
     weapons) in federal ﬁnancial statements. The Standard provided for the use of estimated historical cost
     for valuing military equipment if obtaining actual historical cost information is not practical. The DoD
     reporting entities, including DON GF, used Bureau of Economic Analysis (BEA) data to calculate the
     value of the military equipment for reporting periods from October 1, 2002, through March 31, 2006.

     Eﬀective 3rd Quarter, FY 2006, DoD replaced the BEA estimation methodology with one that is based
     on internal records for military equipment. The DoD identiﬁed the universe of military equipment by
     accumulating information relating to program funding and associated military equipment, equipment
     useful life, program acquisitions, and disposals to create a baseline. The military equipment baseline is
     updated using expenditure information and information related to acquisition and disposals.

     In FY 2006, DoD revised the real property capitalization threshold from $100 thousand to $20 thousand.
     The DON GF has not implemented the $20 thousand real property capitalization threshold, pending
     an evaluation of real property systems, processes, and procedures that will have to be revised in order
     to implement the lowered threshold. The current $100 thousand capitalization threshold remains
     unchanged for the remaining General Property, Plant, and Equipment (PP&E) categories.

     General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when
     an asset has a useful life of two or more years and the acquisition cost equals or exceeds the DoD
70
2007 Annual Financial Report



capitalization threshold. The DoD also requires capitalization of improvement costs over the DoD
capitalization threshold for General PP&E. The DON GF depreciates all General PP&E, other than land,
on a straight-line basis. Land is not depreciated.

General PP&E previously capitalized at amounts below $100 thousand were wriĴen oﬀ DON GF ﬁnancial
statements in FY 1998.

When it is in the best interest of the government, DON GF provides government property to contractors
when deemed necessary to complete contract work. The DON GF either owns or leases such property,
or it is purchased directly by the contractor for the government based on contract terms. When the value
of contractor-procured General PP&E exceeds the DoD capitalization threshold, Federal accounting
standards require that it be reported on DON’s GF Balance Sheet.

The DoD is developing new policies and a contractor reporting process for Government Furnished
Equipment that will provide appropriate General PP&E information for future ﬁnancial statement
reporting purposes. Currently, not all DON GF government property in the possession of contractors
is maintained in DON’s property systems or reported on the balance sheet. The DoD has issued new
property accountability and reporting requirements that require DoD components to maintain, in their
property systems, information on all property furnished to contractors. This action and other proposed
actions are structured to capture and report the information necessary for compliance with Federal
accounting standards.

1.P.    Advances and Prepayments
The DoD policy is to record advances and prepayments in accordance with GAAP. As such, payments
made in advance of the receipt of goods and services are to be reported as an asset on the Balance Sheet.
The DoD policy is to expense and/or properly classify assets when the related goods and services are
subsequently received. Due to system limitations, not all DON GF advances and prepayments are
properly classiﬁed as assets when payment is made in advance of the receipt of goods and services.

1.Q.    Leases
Lease payments for the rental of equipment and operating facilities are classiﬁed as either capital or
operating leases. The DON GF currently has no capital leases. An operating lease does not substantially
transfer all of the beneﬁts or risks of ownership. Payments for operating leases are charged to expense
over the lease term as it becomes payable.

Oﬃce space leases entered into by DON GF are the largest component of operating leases. These costs
were gathered from existing leases, General Service Administration (GSA) bills, and Interservice Support
Agreements. Future year projections use the Consumer Price Index (CPI) rather than the DoD inﬂation
factor. The CPI impacts increases to the leases, especially those at commercial lease sites. Equipment
leases have a variety of lease terms, which are not expected to be renewed upon expiration. Other
operating leases are generally one-year leases.

1.R.    Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel
advances, and certain contract ﬁnancing payments that are not reported elsewhere on the DON GF
Balance Sheet.

The DON GF conducts business with commercial contractors under two primary types of contracts: ﬁxed
price and cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term
contracts can cause, DON GF may provide ﬁnancing payments. Contract ﬁnancing payments are deﬁned
in the Federal Acquisition Regulations, Part 32, as authorized disbursements of monies to a contractor

                                                                                                               71
                                                                                                General Fund
                                                                                              Department of the Navy



     prior to acceptance of supplies or services by the Government. Contract ﬁnancing payments clauses are
     incorporated in the contract terms and conditions and may include advance payments, performance-
     based payments, commercial advance and interim payments, progress payments based on cost, and
     interim payments under certain cost-reimbursement contracts.

     Contract ﬁnancing payments do not include invoice payments, payments for partial deliveries, lease
     and rental payments, or progress payments based on a percentage or stage of completion, which the
     Defense Federal Acquisition Regulation Supplement authorizes only for construction of real property,
     shipbuilding, and ship conversion, alteration, or repair. Progress payments for real property are reported
     as Construction in Progress. It is DoD policy to record certain contract ﬁnancing payments as Other
     Assets.

     1.S.    Contingencies and Other Liabilities
     The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No.
     12, “Recognition of Contingent Liabilities Arising from Litigation,” deﬁnes a contingency as an existing
     condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss.
     The uncertainty will be resolved when one or more future events occur or fail to occur. The DON
     GF recognizes contingent liabilities when past events or exchange transactions occur, a future loss is
     probable, and the loss amount can be reasonably estimated based on available data.

     Financial statement reporting is limited to disclosure when conditions for liability recognition do not
     exist but there is at least a reasonable possibility of incurring a loss or additional losses. Examples of
     loss contingencies include the collectibility of receivables, pending or threatened litigation, and possible
     claims and assessments. The DON GF’s risk of loss and resultant contingent liabilities arise from pending
     or threatened litigation or claims and assessments due to events such as aircraĞ, ship and vehicle
     accidents; medical malpractice; property or environmental damages; and contract disputes.

     Other liabilities arise as a result of anticipated disposal costs for DON’s assets. This type of liability has
     two components: nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting
     for Property, Plant, and Equipment,” recognition of an anticipated environmental disposal liability
     begins when the asset is placed into service. Nonenvironmental disposal liabilities are recognized for
     assets when management decides to dispose of the asset based upon DoD policy, which is consistent
     with SFFAS No. 5, “Accounting for Liabilities of the Federal Government.” The DON GF recognizes
     nonenvironmental disposal liabilities for military equipment nuclear-powered assets when placed in
     service. Such amounts are developed in conjunction with, and not easily identiﬁable from, environmental
     disposal costs.

     1.T.    Accrued Leave
     The DON GF reports as liabilities military leave and civilian earned leave, except sick leave, that has been
     accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported
     at the end of the accounting period reﬂects the current pay rates.

     1.U.    Net Position
     Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
     Appropriations represent the amounts of authority that are unobligated and have not been rescinded or
     withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for
     payments have not been incurred. Cumulative Results of Operations represent the net diﬀerence, since
     inception of an activity, between expenses and losses and ﬁnancing sources (including appropriations,
     revenue, and gains). Beginning with FY 1998, the cumulative results also include donations and transfers
     in and out of assets without reimbursement.



72
2007 Annual Financial Report



1.V.    Treaties for Use of Foreign Bases
The DON has the use of land, buildings, and other overseas facilities that are obtained through various
international treaties and agreements negotiated by the Department of State. The DON purchases
capital assets overseas with appropriated funds; however, the host country retains title to land and
improvements. Generally, treaty terms allow DON continued use of these properties until the treaties
expire. In the event treaties or other agreements are terminated, whereby use of the foreign bases is
prohibited, losses are recorded for the value of any nonretrievable capital assets. The seĴlement due to
the U.S. or host nation is negotiated and takes into account the value of capital investments and may be
oﬀset by the cost of environmental cleanup. The DON GF does not recognize imputed costs or imputed
ﬁnancing for overseas facilities.

1.W.    Comparative Data
Not applicable.

1.X. Unexpended Obligations
The DON GF obligates funds to provide goods and services for outstanding orders not yet delivered.
The ﬁnancial statements do not reﬂect this liability for payment for goods and services not yet delivered,
unless title passes.

1.Y.    Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the diﬀerence between disbursements and
collections matched at the transaction level to a speciﬁc obligation, payable, or receivable in the fund
holder’s accounting records as opposed to those reported by the U.S. Treasury. These amounts should
agree with the undistributed amounts reported on the monthly accounting reports. In-transit payments
are those payments that have been made by other agencies or entities that have not been recorded in
the DON’s GF accounting records. These payments are applied to the DON’s GF outstanding accounts
payable balance. In-transit collections are those collections from other agencies or entities that have not
been recorded in the DON’s GF accounting records. These collections are applied to accounts receivable.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and
nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable
and accounts receivable. Unsupported undistributed disbursements are recorded in accounts payable.
Unsupported undistributed collections are recorded in other liabilities.

1.Z.    Signiﬁcant Events
Beginning 4th Quarter, FY 2007, DoD reporting entities began presenting the Statement of Financing
(SOF) as a note in accordance with OMB Circular A-136. The SOF will no longer be considered a basic
statement and is now referred to as “Reconciliation of Net Cost of Operations to Budget.”

1.AA. Data Collection Approach
The DON GF ﬁnancial statements include information from both ﬁnancial systems and nonﬁnancial
feeder systems. The Defense Finance and Accounting Service, Cleveland (DFAS-CL) and Kansas City
(DFAS-KC) collect the ﬁnancial system information and incorporate it into the ﬁnancial statements. The
DON GF collects ﬁnancial information from nonﬁnancial feeder systems through a data call process and
submits it to DFAS-CL and DFAS-KC for incorporation into the ﬁnancial statements. On behalf of DON
GF, DFAS also collects information from multiple sources, such as intragovernmental data from DON
GF’s trading partners, which is incorporated into the ﬁnancial statements. Beginning FY 2007, DON GF
completed migration from the DON Data Collection Instrument to the Defense Departmental Reporting
System (DDRS) Data Collection Module (DCM). The DDRS DCM captures certain required ﬁnancial
information from feeder systems for the DON GF ﬁnancial statements. The DDRS DCM identiﬁes the
information requirements to the source provider, provides an audit trail, and integrates data into the
ﬁnancial statement preparation process.

                                                                                                                73
                                                                                                 General Fund
                                                                                            Department of the Navy



     Note 2.         Nonentity Assets
      As of September 30                                           2007                         2006
      (Amounts in Thousands)
      1. Intragovernmental Assets
         A. Fund Balance with Treasury                  $                  516,593    $                   474,507
         B. Accounts Receivable                                                  0                              0
         C. Total Intragovernmental Assets              $                  516,593    $                   474,507

      2. Nonfederal Assets
         A. Cash and Other Monetary Assets              $                   142,971   $                    176,306
         B. Accounts Receivable                                           3,303,128                      3,142,047
         C. Other Assets                                                          0                              0
         D. Total Nonfederal Assets                     $                 3,446,099   $                  3,318,353

      3. Total Nonentity Assets                         $                 3,962,692   $                  3,792,860

      4. Total Entity Assets                            $              363,233,836    $                351,051,286


      5. Total Assets                                   $              367,196,528    $                354,844,146


     Standard Disclosures
     Nonentity assets are assets for which Department of the Navy (DON) maintains stewardship
     accountability and responsibility to report, but are not available for DON’s normal operations.

     Intragovernmental Fund Balance with Treasury
     This nonentity asset category represents amounts in DON’s deposit fund accounts such as the savings
     plans that were established by Congress to beneﬁt deployed sailors and Marines, receipts fund accounts
     such as Fines, Penalties, and Forfeitures that are used to temporarily hold amounts until they are remiĴed
     to the U.S. Treasury, and certain suspense accounts such as the Uniformed Services ThriĞ Savings Plan.
     Amounts in deposit, receipt, and suspense accounts are not available for DON’s use in normal operations.

     Cash and Other Monetary Assets
     This nonentity asset category represents disbursing oﬃcers’ cash, foreign currency, and undeposited
     collections as reported on the Disbursing Oﬃcer’s Statement of Accountability. These assets are held by
     DON disbursing oﬃcers as agents of the U.S. Treasury and are not available for DON’s use in normal
     operations.

     Nonentity Nonfederal Accounts Receivable (Public)
     The primary component of nonentity accounts receivable is an advance payment made to a contractor,
     and associated accrued interest, which remains in litigation. These receivable balances are being reported
     in nonentity accounts receivable since the original appropriation year has been cancelled, and any funds
     collected as a result of this litigation would be remiĴed to the U.S. Treasury.




74
2007 Annual Financial Report



Note 3.         Fund Balance with Treasury
 As of September 30                                              2007                        2006
 (Amounts in Thousands)
 1. Fund Balances
    A. Appropriated Funds                               $            105,133,424        $          93,541,772
    B. Revolving Funds                                                 1,678,815                    2,387,470
    C. Trust Funds                                                        13,182                        9,917
    D. Special Funds                                                       2,385                        2,302
    E. Other Fund Types                                                  516,593                      474,507
    F. Total Fund Balances                              $            107,344,399        $          96,415,968


 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                        $            108,480,114        $          97,613,850
    B. Fund Balance per DON                                          107,344,399                   96,415,968

 3. Reconciling Amount                                  $               1,135,715       $           1,197,882

Standard Disclosures
The total reconciling amount of $1.1 billion in Fund Balance with Treasury (FBWT) is primarily due to
cancelled appropriations and unavailable receipt accounts. Cancelled appropriations and unavailable
receipt accounts are not available as of the end of the reporting period; therefore, excluded from DON’s
FBWT but remained in fund balance reported by Treasury.

Other Fund Types (Line 1.E) consists primarily of amounts in the following deposit and receipt accounts:
Pay of the Navy Deposit Fund, Pay of the Marine Corps Deposit Fund, and Withheld State and Local
Taxes.


Status of Fund Balance with Treasury
 As of September 30                                           2007                          2006
 (Amounts in Thousands)
 1. Unobligated Balance
    A. Available                                    $             21,765,826        $              19,197,595
    B. Unavailable                                                 2,168,721                        1,638,379

 2. Obligated Balance not yet Disbursed                           86,191,076                       78,088,020

 3. Nonbudgetary FBWT                                                 524,455                         472,698

 4. NonFBWT Budgetary Accounts                                    (3,305,679)                      (2,980,724)

 5. Total                                           $            107,344,399        $              96,415,968




                                                                                                                  75
                                                                                                   General Fund
                                                                                             Department of the Navy



     Standard Disclosures
     The Status of FBWT consists of obligated and unobligated balances. These balances reﬂect the budgetary
     authority remaining for disbursements against current or future obligations.

     Unobligated Balance represents the cumulative amount of budgetary authority that has not been set
     aside to cover outstanding obligations. Unobligated Balance is classiﬁed as available or unavailable and
     is associated with appropriations expiring at ﬁscal year end that remain available only for obligation
     adjustments until the account is closed.

     Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not
     been received, services that have not been performed, and goods and services that have been
     delivered/received but not yet paid.

     Non-Budgetary FBWT includes entity and nonentity FBWT accounts that do not have budgetary
     authority, such as unavailable receipt accounts or clearing accounts. For DON General Fund (GF),
     Non-Budgetary FBWT consists of balances in receipt accounts and clearing accounts.

     Non-FBWT Budgetary Accounts represent adjustments to budgetary accounts that do not aﬀect FBWT.
     For DON GF, Non-FBWT Budgetary Accounts include Trust Fund investments in U.S. Treasury securities,
     unﬁlled customer orders without advance, and reimbursements receivable. This category reduces the
     Status of FBWT.

     Unobligated balances are segregated to show available and unavailable amounts in the note schedule.
     Unobligated, Unavailable balances are restricted to future use and are not apportioned for current use.

     Although funds have been appropriated, expired single year appropriations such as Operation and
     Maintenance and Military Personnel accounts, are not generally available for obligation because the
     period for obligation established by law in the applicable appropriation act has lapsed. Multi-year
     accounts and “X” or no year accounts are restricted based on their appropriation type. Trust funds and
     Earmarked funds are restricted to their intended use.


     Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                                  (Decrease)/
       As of September 30                                  2005         2006          2007       Increase from
                                                                                                 FY 2006 - 2007
      (Amounts in Thousands)
      Account
       F3845 – Personal Property Proceeds             $        0 $             0 $          0         $           0
       F3875 – Disbursing Officer Suspense              (27,725)              72        6,412                 6,340
       F3880 – Lost or Cancelled Treasury Checks           3,946           3,378        1,765               (1,613)
       F3882 – Uniformed Services Thrift Savings Plan
       Suspense                                           32,891           46,500      50,154                3,654
       F3885 – Interfund/IPAC Suspense                  (53,025)          (5,260)       (314)                4,946
       F3886 – Thrift Savings Plan Suspense                  429             (28)        (64)                 ( 36)
      Total                                           $ (43,484) $         44,662 $    57,953         $     13,291


     Standard Disclosures
     The F3845 suspense account represents the balance of proceeds from the sale of personal property.

76
2007 Annual Financial Report



The F3875 suspense clearing account represents Disbursing Oﬃcer’s suspense. Account F3885 represents
the Interfund and Intragovernmental Payment and Collection suspense. Account F3886 represents the
(payroll) ThriĞ Savings Plan (TSP) suspense. These three suspense accounts temporarily hold collections
or disbursements until they can be assigned or identiﬁed to a valid appropriation.

The F3880 suspense account represents the balance of U.S. Treasury checks that have either been lost by
the payee and need to be reissued, have never been cashed by the payee, or have been cancelled by the
U.S. Treasury and need to be transferred to the original appropriation.

The F3882 suspense account was established for the Uniformed Services TSP in FY 2002. The amounts
in this account represent a timing diﬀerence between the posting of the TSP deductions by the National
Finance Center and the posting of these amounts in the military payroll accounting systems in the
following month.


Disclosures Related to Problem Disbursements and In-Transit
Disbursements
                                                                                           (Decrease)/
 As of September 30                            2005           2006            2007      Increase from FY
                                                                                          2006 to 2007
 (Amounts in Thousands)
 1. Total Problem Disbursements,
    Absolute Value
    A. Unmatched Disbursements
        (UMDs)                               $ 1,313,996    $ 984,547     $   832,273   $      (152,274)
    B. Negative Unliquidated
        Obligations (NULO)                        17,086         15,396         9,840             (5,556)
    C. In-Transit Disbursements                  551,540        554,690       737,572            182,882
  Total                                      $ 1,882,622    $ 1,554,633   $ 1,579,685   $          25,052

Standard Disclosures
Problem Disbursements are reported as an absolute value amount. Absolute value is the sum of the
positive values of debit and credit transactions without regard to the plus or minus sign.

An Unmatched Disbursement occurs when a payment is not matched to a corresponding obligation in
the accounting system.

A Negative Unliquidated Obligation occurs when a payment is made against a valid obligation, but the
payment is greater than the amount of the obligation recorded in the oﬃcial accounting system. These
payments have been made using available funds and are based on valid receiving reports for goods and
services delivered under valid contracts.

In-Transit Disbursements represent the absolute value of disbursements and collections made by a
disbursing activity on behalf of an accountable activity which have not been posted to an accounting
system.

Starting 2nd Quarter, FY 2007, in-transit disbursements are reported as absolute value as opposed to net
amounts disclosed in prior years. This reporting change applies to amounts in the note schedule for both
the current and comparative years.


                                                                                                              77
                                                                                               General Fund
                                                                                               Department of the Navy



     Note 4.       Investments and Related Interest
                                                                           2007
     As of September 30                                                 Amortized                        Market
                                                        Amortization                     Investments,
                                             Cost                      (Premium) /                        Value
                                                          Method                             Net
                                                                         Discount                       Disclosure
     (Amounts in Thousands)
     1. Intragovernmental Securities
        A. Nonmarketable, Market-
           Based
       1. Military Retirement Fund       $          0                  $            0 $             0 $           0
       2. Medicare Eligible Retiree
          Health Care Fund                         0                                 0             0              0
       3. US Army Corps of Engineers               0                                 0             0              0
       4. Other Funds                          9,630                              (14)         9,616          9,657
       5. Total Nonmarketable, Market-
          Based                                9,630                              (14)         9,616          9,657
       B. Accrued Interest                       140                                             140            140
       C. Total Intragovernmental
          Securities                     $     9,770                   $          (14) $       9,756 $        9,797
     2. Other Investments
        A. Total Investments             $          0                  $            0 $             0          N/A


                                                                           2006
     As of September 30                                                 Amortized                        Market
                                                        Amortization                     Investments,
                                             Cost                      (Premium) /                        Value
                                                          Method                             Net
                                                                         Discount                       Disclosure
     (Amounts in Thousands)
     1. Intragovernmental Securities
        A. Nonmarketable, Market-
           Based
       1. Military Retirement Fund       $          0                  $            0 $             0 $           0
       2. Medicare Eligible Retiree
          Health Care Fund                         0                                 0             0              0
       3. US Army Corps of Engineers               0                                 0             0              0
       4. Other Funds                          9,633                              (23)         9,610          9,610
       5. Total Nonmarketable, Market-
          Based                                9,633                              (23)         9,610          9,610
        B. Accrued Interest                      141                                             141            141
        C. Total Intragovernmental
           Securities                    $     9,774                   $          (23) $       9,751 $        9,751
     2. Other Investments
        A. Total Investments             $          0                  $            0 $             0          N/A




78
2007 Annual Financial Report



Standard Disclosures
Intragovernmental Investments for Earmarked Funds
The Federal Government does not set aside assets to pay future expenditures associated with the
Department of the Navy’s (DON) earmarked Trust Funds. The cash generated from earmarked funds are
deposited in the U.S. Treasury, which uses the cash for general Government purposes. The U.S. Treasury
securities are issued to DON as evidence of earmarked fund receipts. The U.S. Treasury securities are an
asset to DON and a liability to the U.S. Treasury. Because DON and the U.S. Treasury are both entities of
the Government, these assets and liabilities oﬀset each other from the standpoint of the Government as a
whole. For this reason, they do not represent an asset or a liability in the U.S. Government-wide ﬁnancial
statements. The U.S. Treasury securities provide DON with authority to draw upon the U.S. Treasury to
make future expenditures. When DON requires redemption of these securities to make expenditures,
the Government ﬁnances those expenditures out of accumulated cash balances, by raising taxes or other
receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. This is
the same way that the Government ﬁnances all other expenditures.

Other Funds (Line 1.A.4) represents DON Trust Fund holdings in interest-bearing securities for the Naval
Academy General GiĞ Fund and the Navy General GiĞ Fund. These investments are Nonmarketable
Market-Based U.S. Treasury securities reported at cost, net of amortized premiums and discounts. In
accordance with the Statement of Federal Financial Accounting Standards No. 27, “Identifying and
Reporting Earmarked Funds,” DON Trust Funds are classiﬁed and reported as earmarked funds.


Note 5.         Accounts Receivable
 As of September 30                                         2007                                 2006
                                                       Allowance For
                                    Gross                                  Accounts           Accounts
                                                        Estimated
                                  Amount Due                             Receivable, Net   Receivable, Net
                                                       Uncollectibles
 (Amounts in Thousands)
 1. Intragovernmental
    Receivables                   $      206,091                   N/A   $       206,091   $        159,270
 2. Nonfederal Receivables
    (From the Public)             $    3,628,112   $          (14,600)   $     3,613,512   $      3,231,414
 3. Total Accounts
    Receivable                    $    3,834,203   $          (14,600)   $     3,819,603   $      3,390,684




                                                                                                                79
                                                                                                 General Fund
                                                                                         Department of the Navy



     Aged Accounts Receivable
      As of September 30                            2007                                2006
                                     Intragovernmental     Nonfederal      Intragovernmental    Nonfederal
      (Amounts in Thousands)
      CATEGORY
      Nondelinquent
          Current                    $           387,831   $    518,742    $         381,172    $    535,983
          Noncurrent                              29,655         (1,573)              30,402           7,549
      Delinquent
          1 to 30 days               $            17,579   $     10,410    $            2,188   $      7,022
          31 to 60 days                            5,321          4,928                 1,101          4,737
          61 to 90 days                              785         13,781                 1,150          9,687
          91 to 180 days                           3,928         48,514                 7,409         10,598
          181 days to 1 year                         407         51,844                 5,821         26,743
          Greater than 1 year and
          less than or equal to
          2 years                                    355         35,641                 2,085         44,235
          Greater than 2 years and
          less than or equal to
          6 years                                  5,430         35,643                31,745         58,556
          Greater than 6 years and
          less than or equal to 10
          years                                      228         376,441                 259          362,476
          Greater than 10 years                        0       2,679,506                   0        2,605,292
      Subtotal                       $           451,519   $   3,773,877   $         463,332    $   3,672,878
         Less Supported
         Undistributed
         Collections                           (148,319)       (145,765)            (257,152)       (434,700)
         Less Eliminations                      (97,109)               0             (46,910)               0
         Less Other                                    0               0                    0               0
      Total                          $           206,091   $   3,628,112   $         159,270    $   3,238,178


     Information Related to Aged Accounts Receivable
     Nondelinquent accounts receivable consists of receivables outstanding for 30 days or less or those not
     yet due under the contract or billing document pertaining to the receivable. Current nondelinquent
     accounts receivable are those that are due in the next twelve months. Noncurrent nondelinquent accounts
     receivable include out-of-service debt that is due beyond the next twelve months. These accounts
     are not considered delinquent since the associated repayment schedules allow for repayment aĞer a
     30-day period. Noncurrent nondelinquent reﬂects an abnormal balance of $1.6 million for FY 2007.
     This abnormal balance was reported by DFAS Japan and is related to the reimbursement of foreign
     national labor in yen by the Japanese government. The abnormal balance is expected to be cleared in
     1st Quarter, FY 2008, pending a more favorable exchange rate, by transferring the foreign currency gain
     to the foreign currency ﬂuctuation account. The Department of the Navy (DON) is actively pursuing
     collection action on all accounts receivable, both public and intragovernmental, in accordance with
     guidance in the Department of Defense Financial Management Regulation, Volume 4, Chapter 3, and
     Oﬃce of Management and Budget Circular A-129, “Policies for Federal Credit Programs and Non-Tax
     Receivables.”
80
2007 Annual Financial Report



For public debt, these collection actions include referring delinquent vendor debt to the Debt
Management Oﬃce (DMO) for servicing no later than 60 days aĞer the payment due date, and
coordinating with DMO to further refer such debt over 180 days delinquent to Treasury for further
collection action. A current example of collection actions related to public debt is a partnership between
DON and Defense Finance and Accounting Service (DFAS) to identify habitually delinquent public
entities and develop standard processes with a goal of improving the joint business relationship. For
delinquent intragovernmental debt, collection actions include detailed research of subsidiary accounting
transactions with DFAS, the compilation and review of dispute packages, and consultation and
negotiation with debtor agencies to resolve outstanding receivables.

It must be recognized that, in certain instances, the status of litigation impacts the ability of DON to
actively pursue collection action on public debt.


Note 6.          Other Assets
 As of September 30                                              2007                         2006
 (Amounts in Thousands)
 1. Intragovernmental Other Assets
    A. Advances and Prepayments                        $                 400,261    $                  468,259
    B. Other Assets                                                            0                             0
    C. Total Intragovernmental Other Assets            $                 400,261    $                  468,259

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing
       Payments                                        $                7,757,776   $                8,154,326
    B. Other Assets (With the Public)                                     417,368                      454,549
    C. Total Nonfederal Other Assets                   $                8,175,144   $                8,608,875

 3. Total Other Assets                                 $                8,575,405   $                9,077,134


Standard Disclosures
Nonfederal Other Assets - Outstanding Contract Financing Payments
Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights to
the Department of the Navy (DON) that protect the contract work from state or local taxation, liens or
aĴachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy; however, these
rights should not be misconstrued to mean that ownership of the contractor’s work has transferred to the
Government. The Government does not have the right to take the work, except as provided in contract
clauses related to termination or acceptance, and DON is not obligated to make payment to the contractor
until delivery and acceptance.

The Outstanding Contract Financing Payment balance of $7.8 billion is comprised of $7.5 billion in
contract ﬁnancing payments and an additional $288.0 million in estimated future payments that will be
paid to the contractor upon future delivery and Government acceptance of a satisfactory product. (See
additional discussion in Note 15, Other Liabilities).

Nonfederal Other Assets, Other Assets (With the Public)
Other Assets (With the Public) includes advance pay to DON military personnel, travel advances to
military and civilian personnel, and miscellaneous advances to contractors that are not considered
outstanding contract ﬁnancing payments.

                                                                                                                    81
                                                                                                     General Fund
                                                                                              Department of the Navy



     Note 7.           Cash and Other Monetary Assets
      As of September 30                                          2007                           2006
      (Amounts in Thousands)
      1. Cash                                        $                      107,615   $                    173,389
      2. Foreign Currency                                                    35,356                          2,917
      3. Other Monetary Assets                                                    0                              0
      4. Total Cash, Foreign Currency, &
         Other Monetary Assets                       $                      142,971   $                   176,306

     Standard Disclosures
     Cash and Other Monetary Assets consists primarily of cash held by Department of the Navy (DON)
     Disbursing Oﬃcers to carry out their payment, collection, and foreign currency accommodation exchange
     mission. Foreign currency is also held in overseas banks in support of contingency operations. The
     primary source of the amounts reported is the Disbursing Oﬃcers Statements of Accountability. The
     DON Disbursing Oﬃcers are agents of the U.S. Treasury.

     Cash - the total of cash resources under the control of DON, which includes coin, paper currency,
     negotiable instruments, and amounts on deposit in banks and other ﬁnancial institutions.

     Foreign Currency - consists of the total U.S. dollar equivalent of foreign currencies.

     Restriction on Cash, Foreign Currency and Other Monetary Assets – total cash, foreign currency and
     other monetary assets reported are nonentity assets that are not available for DON’s use in normal
     operations. Therefore, the $143.0 million in cash and foreign currency is restricted as to its use. There are
     no known restrictions on the conversion of foreign currency to U.S. dollars or other foreign currencies
     as it is held by Disbursing Oﬃcers in support of their payment and foreign currency accommodation
     exchange mission.


     Note 8.           Direct Loan and/or Loan Guarantee Programs
     Not applicable.


     Note 9.           Inventory and Related Property

      As of September 30                                         2007                            2006
      (Amounts in Thousands)
      1. Inventory, Net                              $                            0   $                          0
      2. Operating Materiels & Supplies, Net                             58,249,650                     58,794,634
      3. Stockpile Materiels, Net                                                 0                              0
      4. Total                                       $                   58,249,650   $                 58,794,634



     Inventory, Net
     Not applicable.



82
2007 Annual Financial Report



Operating Materiel and Supplies, Net
                                                          2007                               2006
 As of September 30                 OM&S             Revaluation                                          Valuation
                                                                        OM&S, Net         OM&S, Net
                                  Gross Value        Allowance                                             Method
 (Amounts in Thousands)
 1. OM&S Categories
    A. Held for Use              $    52,673,901     $         (829)   $ 52,673,072       $ 53,664,746   SP, LAC, MAC
    B. Held for Repair                 6,685,107         (1,108,529)      5,576,578          5,129,888   SP, LAC, MAC
    C. Excess,
       Obsolete, and
       Unserviceable                     553,334          (553,334)                   0             0        NRV


     D. Total                    $    59,912,342     $ (1,662,692)     $ 58,249,650       $ 58,794,634


      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
      NRV = Net Realizable Value
      MAC = Moving Average Cost
      SP = Standard Price


Standard Disclosures
Restrictions on the use of Operating Materiels and Supplies (OM&S)
There are no known restrictions on the use of OM&S.

General Composition of OM&S
OM&S includes spare and repair parts, ammunition, conventional missiles, torpedoes, aircraĞ
conﬁguration pods, and centrally managed aircraĞ engines. The general composition of OM&S is
Ammunitions and Munitions, Principal End and Secondary Items, Sponsor Owned Materiel (SOM),
Real-time Reutilization Asset Management (RRAM) Materiel and Other OM&S.

Ammunition and Munitions are maintained in the Department of the Navy (DON) Ordinance
Information System and valued at latest acquisition cost.

Principal End and Secondary Items include OM&S such as shipboard hull, mechanical and electronic
equipment, and uninstalled aircraĞ engines. They are items of such importance that central inventory
control is required. They normally possess one of the following characteristics; essential for combat or
training; high dollar value; diﬃcult to procure or produce; or critical basic materiels or components.

SOM is deﬁned as programmatic materiel required in support of Program Manager’s mission
requirements for production, life cycle maintenance, and installation of systems and equipment. The
materiel usage may involve, but is not limited to: item fabrication, assembly, testing, manufacture,
development, repair, or research and development.

Materiel maintained and valued in RRAM is considered excess to the owner, or materiel manager
responsible for the materiel, but may not be excess to DON. Standard price is used to value all
stock-numbered items. Part-numbered items are valued by best available information.

Other OM&S consists primarily of Fleet Hospitals held by the Bureau of Medicine and Surgery and War
Reserve materiel in possession of the U.S. Coast Guard.

                                                                                                                           83
                                                                                                            General Fund
                                                                                          Department of the Navy



     Decision Criteria for Identifying the Category to Which Operating Materiels and Supplies Are Assigned
     In order to standardize the reporting categories of Held for Use; Held for Repair; and Excess, Obsolete
     and Unserviceable, DON implemented the Oﬃce of the Under Secretary of Defense (Comptroller)
     (OUSD(C)) condition code crosswalk as deﬁned in the memorandum, “Accounting for Excess,
     Unserviceable, and Obsolete Inventory and Operating Materials and Supplies” dated August 12, 2002.
     In addition, the condition code crosswalk was amended to include code “V” in the Excess, Obsolete,
     Unserviceable category in September 2002. OM&S is reported as follows:

            OM&S Category                       Condition Codes
            Held for Use                        A, B, C, D
            Held for Repair                     E, F, G, J, K, L, M, N, R
            Excess, Obsolete, Unserviceable     P, H, S, V

           Condition Codes are used for materiel management purposes and are deﬁned in the Naval Supply
           Systems Command Publication 409.

     Valuation Method for OM&S
     On July 6, 2001, OUSD(C) issued a memorandum directing each Military Department and Defense
     Agency to implement the Moving Average Cost (MAC) valuation method for Inventory Held for Sale
     and OM&S as they renovated or replaced their systems. MAC will be implemented as existing OM&S
     systems are renovated or replaced. Until then, DON continues to value OM&S using diﬀerent valuation
     methodologies such as standard purchase price or historical cost. These valuation methodologies vary by
     system.


     Stockpile Materiel, Net
     Not applicable.




84
2007 Annual Financial Report



Note 10. General PP&E, Net
                                                                   2007                                             2006
 As of September 30       Depreciation/                                       (Accumulated
                                           Service          Acquisition                           Net Book       Prior FY Net
                          Amortization                                        Depreciation/
                                            Life              Value                                Value         Book Value
                            Method                                            Amortization)
 (Amounts in Thousands)
 1. Major Asset
    Classes
    A. Land                  N/A            N/A        $       603,841                  N/A $        603,841 $       611,761
    B. Buildings,
       Structures, and
       Facilities              S/L        20 or 40          33,379,057         (20,881,702)        12,497,355     13,062,195
    C. Leasehold
       Improvements            S/L        lease term              7,283              (1,092)            6,191          6,894
    D. Software                S/L        2-5 or 10               9,881              (7,883)            1,998            106
    E. General
       Equipment               S/L         5 or 10          10,618,149          (5,841,922)         4,776,227        558,351
    F. Military
       Equipment               S/L        Various          303,449,456        (135,029,474)       168,419,982    170,343,508
    G. Assets Under
       Capital Lease           S/L        lease term                      0                   0              0             104
    H. Construction-
       in- Progress          N/A            N/A              2,749,150                  N/A         2,749,150      2,396,750
    I. Other                                                         0                    0                 0              0
    J. Total General
       PP&E                                            $ 350,816,817 $ (161,762,073) $ 189,054,744 $186,979,669

      Legend for Valuation Methods:
      S/L = Straight Line
      N/A = Not Applicable


Standard Disclosures
Restrictions on the Use or Convertibility of General Property, Plant, and Equipment (PP&E)
The Department of the Navy (DON) has the use of land, buildings, and other overseas facilities that are
obtained through various international treaties and agreements negotiated by the Department of State.
Generally, treaty terms allow DON continued use of these properties until the treaties expire. There are
no other known restrictions on General PP&E.

Military Equipment
In accordance with the requirements of Statement of Federal Financial Accounting Standards
No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,” beginning in
FY 2003, Department of Defense (DoD) reporting entities capitalized military equipment into General
PP&E at estimated historical cost using information obtained from the Bureau of Economic Analysis
(BEA). Eﬀective 3rd Quarter, FY 2006, DoD replaced BEA estimation methodology with one that is based
on departmental internal records for military equipment. In 4th Quarter, FY 2007, DON GF implemented
the revised DoD deﬁnition of military equipment, which excludes training devices and simulators.
Implementing the new deﬁnition resulted in a reduction of $4.2 billion in the net book value of Military
Equipment with an oﬀseĴing increase to General Equipment.



                                                                                                                                 85
                                                                                                                  General Fund
                                                                                              Department of the Navy



     Relationship of Heritage Assets to DON’s Mission
     The overall mission of DON is to control and maintain freedom of the seas; project power beyond the
     sea; and inﬂuence events and advance U.S. interests across the full spectrum of military operations. As
     this mission has been executed, DON has become a large-scale owner of historic buildings, structures,
     districts, archeological sites and artifacts, ships, aircraĞ, other cultural resources, and several hundred
     installations to include stewardship land. Protection of these components of the nation’s heritage assets
     and stewardship land is an essential part of DON’s mission; DON is commiĴed to responsible cultural
     resources stewardship.

     Stewardship Policies for Heritage Assets and Description of Each Major Category of Heritage Assets
     The overall policy for DON’s stewardship policies for heritage assets is contained in the Secretary of the
     Navy Instruction 4000.35A, “DON Cultural Resources Program.”

                Heritage Assets are items that are unique for one or more of the following reasons: historical
                or natural signiﬁcance; cultural, educational, or artistic importance; or signiﬁcant architectural
                characteristics. The process used to deﬁne items as having heritage signiﬁcance varies
                between categories and type of assets being evaluated.

                Consultation, as appropriate, is initiated with State Historic Preservation Oﬃcers, Tribal
                Historic Preservation Oﬃcers, Advisory Council on Historic Preservation, Native Americans,
                Native Hawaiians, and other interested agencies whenever DON conducts or supports
                undertakings that may aﬀect any National Register resource. Preservation considerations are
                incorporated into routine DON management of historic buildings, structures, districts, sites,
                ships, aircraĞ, and other cultural resources.

                Archaeological Sites are locations that contain the remains of past human activity of various
                sorts that are listed or eligible for listing on the National Register of Historic Places. These
                sites are excavated only to the extent required for evaluation and identiﬁcation.

                Buildings and Structures are listed as or determined eligible for listing on the National
                Register of Historic Places, including Multi-Use Heritage Assets.

                Cemeteries are government owned burial grounds on which gravesites of prominent historical
                ﬁgures may be located in addition to other gravesites.

                Major Collections include archeological artifacts that are maintained and inventoried by
                cubic feet, archival items that are maintained and inventoried by linear feet, and artwork and
                historical artifacts that are maintained and inventoried by individual items.

                Monuments and Memorials are those items that are built or placed to commemorate a person
                or event, preserve the memory of a historical event, or are shown or maintained for its
                historical interest.

     Stewardship Land Policy
     The DON Stewardship Land policy is the same as that which DON maintains over all land and
     installations. The DON strives to be a responsible steward of the land and to maintain it in a way that
     both protects human health and the environment and allows training and support of ﬂeet readiness. For
     DON, Stewardship Land includes land acquired through public domain, land set aside, and donated
     land. Some of this land is used as a buﬀer around the perimeter of DON installations and may include,
     but is not limited to, grazing lands and forestry maintenance areas.



86
2007 Annual Financial Report



The DON did not receive any stewardship land by donation or devise in FY 2007. The DON’s heritage
asset system does not identify the method by which heritage assets were obtained nor does it maintain
costs, therefore we are unable to determine the number and value of heritage assets that may have been
obtained through donation or devise. Examples of heritage assets that are obtained on a regular basis
include artwork and historical artifacts, such as papers and mementos that have been donated by former
sailors, Marines, and their families.


Assets Under Capital Lease
 As of September 30                                              2007                      2006
 (Amounts in Thousands)
 1. Entity as Lessee, Assets Under Capital Lease
    A. Land and Buildings                               $                        0 $                      0
    B. Equipment                                                                 0                      115
    C. Accumulated Amortization                                                  0                     (11)
    D. Total Capital Leases                             $                        0 $                    104



Note 11. Liabilities Not Covered by Budgetary Resources
 As of September 30                                          2007                         2006
 (Amounts in Thousands)
 1. Intragovernmental Liabilities
    A. Accounts Payable                             $                        0       $                    0
    B. Debt                                                                  0                            0
    C. Other                                                         3,938,842                    3,770,838
    D. Total Intragovernmental Liabilities          $                3,938,842       $            3,770,838

 2. Nonfederal Liabilities
    A. Accounts Payable                             $                   10,568       $              37,299
    B. Military Retirement and
       Other Federal Employment Benefits                             1,646,486                    1,513,644
    C. Environmental Liabilities                                    18,305,233                   16,773,218
    D. Other Liabilities                                             5,052,597                    3,735,957
    E. Total Nonfederal Liabilities                 $               25,014,884       $           22,060,118

 3. Total Liabilities Not Covered by
    Budgetary Resources                             $               28,953,726       $           25,830,956

 4. Total Liabilities Covered by Budgetary
    Resources                                      $                 7,166,320   $                5,461,997

 5. Total Liabilities                              $                36,120,046   $               31,292,953


Standard Disclosures
Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity, which are

                                                                                                                87
                                                                                                 General Fund
                                                                                              Department of the Navy



     covered by realized budgetary resources as of the balance sheet date. Budgetary resources encompass
     not only new budget authority, but also other resources available to cover liabilities for speciﬁed purposes
     in a given year.

     Realized budgetary resources include:

                New budget authority

                Spending authority from oﬀseĴing collections (credited to an appropriation or fund account)

                Recoveries of unexpired budget authority through downward adjustments of prior year
                obligations

                Unobligated balances of budgetary resources at the beginning of the year or net transfers of
                prior year balances during the year, and

                Permanent indeﬁnite appropriations or borrowing authority, which have been enacted and
                signed into law as of the balance sheet date, provided that the resources may be apportioned
                by the Oﬃce of Management and Budget without further action by the Congress or without a
                contingency ﬁrst having to be met.

     Conversely, Liabilities Not Covered by Budgetary Resources are those liabilities that are not considered
     covered by realized budgetary resources as of the balance sheet date. Budgetary Authority to satisfy
     these liabilities is expected to be provided in a future Department of Defense Appropriations Act. When
     that future budgetary authority is provided, these respective liabilities will be recorded as Covered by
     Budgetary Resources with an associated funded expense. To prevent overstatement on the Balance Sheet
     and Statement of Net Cost, the liabilities previously recorded as Not Covered by Budgetary Resources
     and the associated unfunded expenses are reversed.

     For the Department of the Navy General Fund, liabilities to U.S. Treasury are not covered by budgetary
     resources since they are based on nonentity accounts receivable and other nonentity assets. Accounts
     payable not covered by budgetary resources is related to cancelled year accounts payable that are not
     budgeted. Military retirement and other federal employment beneﬁts are future actuarial liabilities.
     Environmental liabilities are estimates related to future events, such as cleanup of nuclear powered
     assets that will be budgeted for when those assets are removed from service. Finally, other liabilities for
     annual leave, estimated legal contingent liabilities, and the disposal of excess structures are not currently
     budgeted for but will become funded as future events occur.

     Intragovernmental Liabilities – Other (Not Covered by Budgetary Resources) (Line 1.C) consists primarily
     of liabilities to U.S. Treasury related to nonentity assets, and Federal Employees’ Compensation Act
     (FECA) due to the Department of Labor.

     Military Retirement and Other Federal Employment Beneﬁts not covered by budgetary resources are
     comprised of various employee actuarial liabilities not due and payable during the current ﬁscal year.
     These liabilities are primarily comprised of FECA actuarial liabilities to employees. Refer to Note 17,
     Military Retirement and Other Federal Employment Beneﬁts, for additional details and disclosures.

     Nonfederal Liabilities – Other (Not Covered by Budgetary Resources) (Line 2.D) consists primarily of
     liabilities for annual leave, estimated legal contingencies, and for the disposal of excess and obsolete
     structures.




88
2007 Annual Financial Report



Note 12. Accounts Payable
                                                          2007                                    2006

 As of September 30                                   Interest, Penalties,
                                Accounts Payable     and Administrative          Total           Total
                                                             Fees
 (Amounts in Thousands)
 1. Intragovernmental
    Payables                    $        1,495,517   $                N/A    $   1,495,517   $   1,035,043
 2. Nonfederal Payables
    (to the Public)                      2,948,867                       0       2,948,867       1,265,536
 3. Total                       $        4,444,384   $                   0   $   4,444,384   $   2,300,579


Standard Disclosures
Department of the Navy (DON) General Fund (GF) accounting systems do not track intragovernmental
transactions by customer at the transaction level which is required to facilitate reconciliation of
intragovernmental accounts payable to the related intragovernmental accounts receivable on other
agencies’ records that generated DON GF’s payable. Therefore, DON GF buyer-side accounts payable
and expense balances were adjusted to match seller-side accounts receivable and revenue balances. This
is accomplished by reclassifying amounts between federal and nonfederal cost categories, and accruing
additional costs when necessary.


Note 13.          Debt
Not applicable.




                                                                                                                89
                                                                                                 General Fund
                                                                                                      Department of the Navy



     Note 14. Environmental Liabilities and Disposal Liabilities
                                                                            2007                                 2006
      As of September 30                             Current             Noncurrent
                                                                                              Total             Total
                                                     Liability            Liability
     (Amounts in Thousands)
     1. Environmental Liabilities--
        Nonfederal
     A. Accrued Environmental Restoration
        Liabilities
        1.   Active Installations—Installation
             Restoration Program (IRP) and
             Building Demolition and Debris
             Removal (BD/DR)                     $      361,010      $     1,890,641      $   2,251,651    $     2,329,220
        2.   Active Installations—Military
             Munitions Response Program
             (MMRP)                                      71,694              708,063           779,757            685,000
        3.   Formerly Used Defense Sites—IRP
             and BD/DR                                           0                    0                0                 0
        4.   Formerly Used Defense Sites--MMRP                   0                    0                0                 0
      B. Other Accrued Environmental
         Liabilities—Active Installations
        1.   Environmental Corrective Action              1,545               44,431            45,976              40,637
        2.   Environmental Closure
             Requirements                                   308              728,588           728,896            185,833
        3.   Environmental Response at
             Operational Ranges                             877               24,688            25,565                   0
        4.   Other                                            0                  971               971                   0
      C. Base Realignment and Closure
         (BRAC)
        1.   Installation Restoration Program           362,935            1,316,760          1,679,695          1,117,093
        2.   Military Munitions Response
             Program                                      4,253              144,507           148,760            112,849
        3.   Environmental Corrective Action /
             Closure Requirements                        20,859               19,432            40,291              67,462
        4.   Other                                            0                    0                 0                   0
      D. Environmental Disposal for Weapons
         Systems Programs
        1.   Nuclear Powered Aircraft Carriers                0            5,665,804          5,665,804          5,604,268
        2.   Nuclear Powered Submarines                 484,006            3,202,362          3,686,368          3,377,665
        3.   Other Nuclear Powered Ships                226,908               66,536            293,444            277,608
        4.   Other National Defense Weapons
             Systems                                        815              204,326           205,141            233,772
        5.   Chemical Weapons Disposal
             Program                                       0                       0                 0                  0
        6.   Other                                         0               3,237,406         3,237,406          3,237,406
     2. Total Environmental Liabilities          $ 1,535,210         $    17,254,515      $ 18,789,725     $   17,268,813



90
2007 Annual Financial Report



Standard Disclosures
 (Amounts in Thousands)                                                        2007                2006
 Other Accrued Environmental Costs – Other                                     $971                 $0

The “Other” type of environmental liabilities under Other Accrued Environmental Costs (Line 1.B.4.)
represents an environmental estimate for disposal of Polychlorinated Biphenyls (PCBs) transformers
located at various Navy installations. Under the Department of the Navy (DON) Financial Improvement
Program (FIP), during FY 2006 Navy completed a fence to fence survey of all installations and began
reporting the results 1st Quarter, FY 2007. Therefore, there is no comparative FY 2006 data.

 (Amounts in Thousands)                                                        2007                2006
 Environmental Disposal for Weapon Systems Programs - Other                 $3,237,406          $3,237,406

The “Other” type of environmental liabilities under Disposal for Weapons Systems Programs (Line 1.D.6)
represents Spent Nuclear Fuel, which is the used fuel that is removed from the nuclear reactors of nuclear
powered ships and submarines. The estimate includes shipping, processing, and storing the Spent
Nuclear Fuel.

In addition to the liabilities reported above, DON has the potential to incur costs for restoration initiatives
in conjunction with returning overseas Defense facilities to host nations. The DON is unable to provide a
reasonable estimate at this time because the extent of restoration required is not known.

1. Applicable Laws and Regulations of Cleanup Requirements
The following is a summary of signiﬁcant laws that aﬀect DON’s conduct of environmental policy and
regulations.

The National Environmental Policy Act (NEPA) of 1970 requires DON to consider the environmental
impacts of proposed actions in the decision making process. Per DON regulations, the action proponent
will determine the level or amount of NEPA documentation required. The Resource Conservation and
Recovery Act (RCRA) of 1976 as amended by the Hazardous and Solid Waste Amendments of 1984, was
the ﬁrst comprehensive federal eﬀort to deal with safe disposal of all types of hazardous wastes, and
provides for “cradle to grave” tracking of hazardous wastes. Permits are required for treatment, storage,
or disposal. Requirements for underground storage tanks are also contained in RCRA.

The Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (CERCLA),
commonly referred to as the Superfund legislation, provided Federal agencies authority to respond to the
release or the substantial threat of release of hazardous substances into the environment. CERCLA was
amended several times; one of which was the Superfund Amendments and Reauthorization Act of 1986.
It established procedures to ensure that actual or threatened hazardous substance releases have proper
responses. Another amendment to CERCLA was the Community Environmental Response Facilitation
Act of 1992. The DON must identify real property on each facility that is not contaminated and that oﬀers
the greatest opportunity for expedited reuse and redevelopment. When property is transferred, DON
is still responsible for any remediation or corrective action or any response action found to be necessary
aĞer the transfer.

The Clean Water Act (CWA) of 1977, Section 405 Disposal of Sewage Sludge, amended the Federal Water
Pollution Control Act. The purpose of CWA is to restore and maintain the integrity of the nation’s waters
and the implementing regulations established closure and post closure requirements for sewage sludge
disposal. To help protect the nation’s drinking water supply, including underground injections through
a permiĴing scheme, the Safe Drinking Water Act of 1974 (Well Head Protection Areas) was created. The
Clean Air Act of 1990 established standards/limitations to prevent and control air pollutant discharges

                                                                                                                   91
                                                                                                    General Fund
                                                                                             Department of the Navy



     that could harm human health and natural resources. Requirements ensure that units can no longer
     operate when they are shut down. Finally, the Toxic Substances Control Act of 1976 was implemented to
     understand the health risks of chemical substances by developing production and health risk data from
     the manufacturers. The control of polycholorinated biphenyls is a good example.

     For the nuclear powered aircraĞ carriers and submarines, other nuclear powered ships, and spent nuclear
     fuel, the following signiﬁcant laws aﬀect DON’s conduct of environmental policy and regulations. The
     Atomic Energy Act of 1954, as amended, assures the proper management of source, special nuclear, and
     byproduct material. As in all cases with nuclear power, DON coordinates all actions with the Department
     of Energy (DOE). The Nuclear Waste Policy Act of 1982 required all owners and generators of high-level
     nuclear waste and spent nuclear fuel to pay their respective shares of the full cost of the program. Finally,
     the Low Level Radioactive Waste Policy Amendments Act of 1986 provides for the safe and eﬃcient
     management of low-level radioactive waste.

     2. Methods for Assigning Total Cleanup Costs to Current Operating Periods
     Accrued Environmental Restoration (Defense Environmental Restoration Program (DERP) Funded
     Liabilities)

     Active Installations – Environmental Restoration: Accrued restoration (cleanup) liabilities represent the
     cost to correct past environmental areas that are funded under the Defense Environmental Restoration
     Program in accordance with “Management Guidance for DERP,” and “Environmental and Non-
     Environmental Liabilities,” Chapter 13 of Volume 4 of Department of Defense Financial Management
     Regulation (DoD FMR). These liabilities relate to Plant, Property, and Equipment, including acquired
     land and Stewardship Land, as those major asset categories are described in Chapter 6 of Volume 4
     of DoD FMR. Environmental restoration activities may be conducted at operating installations, at
     Formerly Used Defense Sites, and at Closed, Transferred, and Transferring Ranges. Environmental
     restoration measurements involve the use of cost estimates that consider, on a current cost basis, the
     anticipated costs of the level of eﬀort required to aﬀect the restoration, as well as applicable legal and/
     or regulatory requirements. Program management and support costs are included in the estimates.
     The estimates are based on DON’s cost-to-complete (CTC) module of the Normalization of Data
     System (NORM). Veriﬁcation, validation, and accreditation of CTC module was completed in FY
     2002. Such cost estimates are based on the current technology available. The DON, as the baseline for
     environmental restoration (cleanup) liability measurement (i.e., the current cost to acquire the required
     services), used the site inventory and estimated cost data prepared for DERP report to the Congress.
     The Accrued Environmental Restoration (Cleanup) Costs do not include the costs of environmental
     compliance; pollution prevention, conservation activities, contamination, or spills associated with current
     operations or treaty obligations, all of which are accounted for as part of ongoing operations. The DON
     Environmental Restoration Program includes 3,704 clean-up sites at active installations while those
     installations covered by Base Realignment and Closure (BRAC) funding include 1,148 clean-up sites. The
     Marine Corps is included in these programs. In addition, the DON Environmental Corrective Action
     Program at BRAC installations includes 610 sites.

     Active Installations – Military Munitions Response Program: This area represents the environmental
     liabilities associated with the identiﬁcation, investigation and removal and remedial actions to address
     environmental contamination at ranges that were closed prior to September 30, 2002. The contamination
     may include munitions, chemical residues from military munitions and munitions scrap at ranges on
     active installations that pose a threat to human health or the environment. The amount reported is the
     portion of the liability that can be estimated based on site level investigations and characterizations.
     The estimate produced is based on site-speciﬁc information and use of cost models validated in
     accordance with DoD Instruction 5000.61, “DoD Modeling and Simulation, Veriﬁcation, Validation, and
     Accreditation” of May 2003. Total liabilities (CTC) are not estimated until there is suﬃcient site-speciﬁc
     data available to estimate the total liability. However, DON uses the cost of the study as the estimate until

92
2007 Annual Financial Report



the study is completed. Beginning in FY 2001, DON began an inventory of closed ranges and transferring
ranges under the Military Munitions Response Program (MMRP) or Unexploded Ordnance (UXO)
program and completed it in September 2002. Currently there are 221 closed ranges at active installations
and 28 sites (transferring ranges) at BRAC installations.

Environmental Disposal for Weapons Systems Programs: This area represents environmental liabilities
associated with the Nuclear Powered AircraĞ Carriers and Submarines, Other Nuclear Powered Ships,
Conventional Ships, and Spent Nuclear Fuel. During FY 2006, under DON FIP, DON completed a
review of the estimating methodology for determining the cost for disposal of ships and submarines.
This review resulted in an environmental and nonenvironmental liability estimate that more accurately
reﬂects the true costs of disposal. The estimating methodology is based on average cost per class of ship
rather than an average applied to all ships regardless of class.

3. Description of the Types of Environmental Liabilities and Disposal Liabilities
Accrued Environmental Restoration (DERP Funded) Liabilities
The DON Environmental Restoration includes those sites that have been identiﬁed as legacy cleanup
sites. For FY 2007, DON estimated and reported $3.0 billion for environmental restoration liabilities.
This amount is comprised of $2.2 billion in Active Installations – Installation Restoration Program (IRP)
liabilities and $779.8 million in Active Installations – MMRP, liabilities, which represents UXO. The
DoD FMR, Volume 6B, Chapter 10 requires that “any estimate produced must be based on site speciﬁc
information and use cost models validated in accordance with DoD Instruction 5000.61.” The DON is
supporting this requirement by continuing to validate its range inventory as well as by pursuing the
process of obtaining valid cost estimates for each range.

Other Accrued Environmental Costs (Non-DERP funds)
The DON deﬁnes Non-DERP environmental units as those sites associated with on-going operations such
as solid waste management unit cleanup, landﬁll closure, permiĴed facilities, removal, replacement, retro
ﬁll, and/or disposal of PCBs transformers, underground storage tank remedial investigation and closure.
As part of DON FIP eﬀorts, the Navy completed surveying, identifying, and estimating, Non-DERP units
and began recognizing the estimated environmental liability 1st Quarter, FY 2007. For FY 2007, the total
Other Accrued Environmental Liabilities is $801.4 million. Of the total, the Navy portion is $576.8 million
while the Marine Corps portion is $224.6 million.

Base Realignment and Closure (BRAC)
BRAC environmental sites are environmental sites at DON installations that are or will be closed under
the congressionally mandated BRAC process. For FY 2007, DON estimated and reported $1.9 billion
for BRAC funded environmental restoration liabilities. This amount includes $1.7 billion for IRP, $148.8
million for MMRP, and $40.3 million for environmental corrective action and closure requirements.
MMRP includes military munitions, chemical residues from military munitions, and munitions scrap at
locations on or associated with a military range on a BRAC installation.

Environmental Disposal for Weapons Systems Programs
Environmental Disposal for Weapons Systems are those estimates associated with the environmental
disposal costs for DON Nuclear Weapons Programs that includes Nuclear Powered AircraĞ Carriers and
Submarines and Other Nuclear Powered Ships, Conventional Ships, and Spent Nuclear Fuel. The DON
reported an environmental disposal liability for Weapons Systems Programs of $13.1 billion in FY 2007.
This amount includes Nuclear Powered AircraĞ Carriers of $5.7 billion, Nuclear Powered Submarines of
$3.7 billion, Other Nuclear Powered Ships of $293.4 million, Other National Defense Weapons Systems
(Conventional Ships) of $205.1 million, and Spent Nuclear Fuel (Other) of $3.2 billion.




                                                                                                                93
                                                                                                 General Fund
                                                                                             Department of the Navy



     4. Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due to
     Inﬂation, Deﬂation, Technology, or Applicable Laws and Regulations
     For both current and prior periods, the changes due to price growth (inﬂation) and increases in labor
     rates and materials have been oﬀset by a change in the estimating methodology for weapons systems.
     This change in estimating methodology resulted in an overall decrease in the estimated environmental
     disposal liability. However, this decrease was oﬀset by recognizing an estimated liability for spent
     nuclear fuel beginning with 3rd Quarter, FY 2006. Currently, there are no indications that any of the
     environmental liabilities for any category will be adjusted due to deﬂation. As of FY 2007, there are no
     changes to the environmental liability estimates due to changes in laws, regulations, and in agreements
     with regulatory agencies. The DON does not have any estimates that were changed due to advances in
     technology.

     5. Description of the Level of Uncertainty Regarding the Accounting Estimates Used to Calculate the
     Reported Environmental Liabilities
     The environmental liabilities for DON are based on accounting estimates that require certain judgments
     and assumptions that DON believes are reasonable based upon information available to us at the time
     of calculating the estimates. The actual results may vary materially from the accounting estimates
     if agreements with regulatory agencies require remediation to a diﬀerent degree than anticipated
     when calculating the estimates. The liabilities can be further impacted if further investigation of the
     environmental sites discloses contamination diﬀerent than known at the time of the estimates.

     Overall, DON has a reasonable level of conﬁdence in the estimates recognized on the face of the ﬁnancial
     statements. This reasonable level of conﬁdence in the estimates is because the estimates for DERP/
     BRAC programs are based on the CTC module of the NORM System. A veriﬁcation, validation, and
     accreditation were completed by a third party for CTC module of NORM, while the environmental
     program managers continue to validate the data.

     For the Weapons systems, the environmental program managers base their environmental disposal
     estimates on actual costs for similar projects. A change in the overall methodology in weapons systems
     reﬂects a more accurate estimate of what it will cost to dispose of the weapons systems. Given the fact
     that the planned date for opening DOE’s planned waste repository has been delayed, there is uncertainty
     associated with the estimate for spent nuclear fuel. As DOE’s plans are solidiﬁed, DON’s estimates for
     spent nuclear fuel will change accordingly.

     The DON believes that the current environmental liabilities for BRAC are reasonable, based upon
     information available at the time in calculating the estimates. However, as the FY 2005 BRAC closure
     activities are implemented over the next several ﬁscal years, the actual results may vary materially
     from the required accounting estimates. The variance will depend on additional information gleaned
     from planned or ongoing studies of the extent and concentration of site environmental contamination.
     In addition to the possibility of the estimates changing on current identiﬁed sites, DON may incur
     additional environmental cleanup and restoration costs if new sites are identiﬁed as BRAC activities are
     implemented.

     The DON believes that the environmental liabilities for Other Accrued Environmental Liabilities
     (Non-DERP) for FY 2007 are reasonable, based upon the information available at the time in calculating
     the estimates and completing the fence to fence survey. However, as internal controls are implemented
     to sustain this eﬀort, changes to some of the estimates could occur. In addition to the possibility of some
     of the estimates changing for the current list of identiﬁed units, DON may incur additional units and
     changes to estimates as the inventory of units are reviewed annually.




94
2007 Annual Financial Report



Environmental Disclosures

  As of September 30                                                     2007                2006

  (Amounts in Thousands)
    A. The unrecognized portion of the estimated total
       cleanup costs associated with general property, plant,
       and equipment.                                                      1,521,867           1,423,683
    B. Changes in total cleanup costs due to changes in laws,
       regulations, and/or technology.                                             0                     0
    C. Portion of the changes in estimated costs due to
       changes in laws and technology that is related to prior
       periods.                                                                    0                     0


Line A. The unrecognized portion of the estimated total cleanup costs is associated with Nuclear
Powered Carriers and Submarines, Conventional Ships, Spent Nuclear Fuel, and Non-DERP. Of the
total $1.5 billion, $1.4 billion is associated with Nuclear Powered Carriers and Submarines and Spent
Nuclear Fuel, $45.2 million is associated with conventional ships while the remainder of $66.5 million
is associated with Non-DERP. Contributing to the increase is a result of DON, in 1st Quarter, FY 2007,
recognizing and accruing environmental liabilities (Non-DERP) associated with assets placed in service
aĞer September 30, 1997.

Lines B and C. Through our quarterly data call process for FY 2007, DON determined that there were no
changes to the environmental liability estimates due to changes in laws, regulations, in agreements with
regulatory agencies, and advances in technology.




                                                                                                             95
                                                                                              General Fund
                                                                                                Department of the Navy



     Note 15. Other Liabilities
                                                                       2007                               2006
      As of September 30                           Current         Noncurrent
                                                                                        Total            Total
                                                   Liability        Liability
      (Amounts in Thousands)
      1. Intragovernmental
         A. Advances from Others               $               0   $            0   $           0    $             0
         B. Deposit Funds and Suspense
            Account Liabilities                       516,593                   0         516,593           474,507
         C. Disbursing Officer Cash                   142,971                   0         142,971           176,306
         D. Judgment Fund Liabilities                       0                   0               0                 0
         E. FECA Reimbursement to the
            Department of Labor                       244,318           315,622            559,940          557,343
         F. Other Liabilities                       3,423,315                 0          3,423,315        3,251,997

         G. Total Intragovernmental
            Other Liabilities                  $    4,327,197      $    315,622     $    4,642,819   $    4,460,153
      2. Nonfederal
         A. Accrued Funded Payroll and
            Benefits                           $      818,017      $            0   $     818,017    $      445,018
         B. Advances from Others                      256,035                   0         256,035           205,544
         C. Deferred Credits                                0                   0               0                 0
         D. Deposit Funds and Suspense
            Accounts                                     4,173                  0            4,173            42,257
         E. Temporary Early Retirement
            Authority                                          0                0               0                  0
         F. Nonenvironmental Disposal
            Liabilities
           (1) Military Equipment
               (Nonnuclear)                             8,183           262,959           271,142           285,201
           (2) Excess/Obsolete Structures              75,955           587,018           662,973           685,618
           (3) Conventional Munitions
               Disposal                                        0                0               0                  0
         G. Accrued Unfunded Annual
            Leave                                   2,386,889                   0        2,386,889        2,738,551
          H. Capital Lease Liability                        0                 0                  0                0
          I. Other Liabilities                      1,840,247           355,518          2,195,765        1,347,575

         J. Total Nonfederal Other
            Liabilities                        $    5,389,499      $   1,205,495    $    6,594,994   $    5,749,764
      3. Total Other Liabilities               $    9,716,696      $   1,521,117    $   11,237,813   $   10,209,917

     Standard Disclosures
     Nonfederal Other Liabilities includes Contingent Liabilities of $288.0 million for estimated future contract
     ﬁnancing payments that will be paid to the contractor upon delivery and Government acceptance of a
96
2007 Annual Financial Report



satisfactory product. In accordance with contract terms, speciﬁc rights to the contractor’s work vests
with the Government when a speciﬁc type of contract ﬁnancing payments is made; thereby protecting
taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as the
rights of ownership. The Department of the Navy (DON) General Fund (GF) is under no obligation to
pay the contractor for amounts greater than the amounts authorized in the contract until delivery and
Government acceptance of a satisfactory product. As it is probable that the contractor will complete its
eﬀorts and deliver a satisfactory product and the amount of potential future payments are estimable,
DON GF has recognized a contingent liability for estimated future payments, which are conditional
pending delivery and Government acceptance of a satisfactory product.

Intragovernmental Other Liabilities - Other (Line 1.F)
Other Liabilities - Other consists primarily of a liability to the U.S. Treasury. The liability represents
principal and accrued interest associated with pending litigation.

Nonfederal Other Liabilities - Other Liabilities - Other (Line 2.I)
Other Liabilities - Other consists primarily of estimated legal contingent liabilities and outstanding
contract ﬁnancing contingent liabilities.

Methodology Used for Estimated Legal Contingent Liabilities
Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as
to outcomes except in those relatively few clear cases. In response to a Department of Defense (DoD),
Inspector General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON developed a
methodology to determine an estimate for contingent legal liabilities. Beginning with 1st Quarter, FY 2007
DON recognized and disclosed an estimate for contingent legal liabilities. The methodology considers
the likelihood of an unfavorable outcome or potential liability is provided as an overall assessment of
all cases currently pending and not on an individual case basis. The likelihood of an unfavorable or
potential liability was determined by using an average of the data from current year-to-date and the
preceding four years. The total dollar amount of the cases closed was divided by the total dollar amount
claimed in those closed cases for each of the last four years plus the current year, which were then used
to calculate the average. This average is based entirely on historical data and represents the percentage
that has historically been paid on claims. The merits of each individual case have not been taken into
consideration. Until suﬃcient historical data can be collected for the Navy Working Capital Fund
(NWCF), the estimated legal liability for the DON GF will consider all DON funding sources together. The
estimate for those cases considered probable to result in an adverse judgment against DON is $1.7 billion.


Capital Lease Liability
Not applicable.


Note 16. Commitments and Contingencies
Standard Disclosures
The Department of the Navy (DON) is a party in various administrative proceedings and legal actions,
with claims including environmental damage claims, equal opportunity maĴers, and contractual bid
protests, which may ultimately result in seĴlements or decisions adverse to the Federal Government.
These proceedings and actions arise in the normal course of operations and their ultimate disposition is
unknown. The DON will accrue contingent liabilities for legal actions in those instances where DON’s
Oﬃce of General Counsel considers an adverse decision probable and the amount of loss is measurable.
In the event of an adverse judgment against the Government, some of the liabilities may be payable from
the Judgment Fund. Others may be payable from DON’s resources, either directly or by reimbursement
to the Judgment Fund. The DON records Judgment Fund liabilities in Note 12, “Accounts Payable.” See
Note 12 for details.

                                                                                                                    97
                                                                                                     General Fund
                                                                                             Department of the Navy



     For FY 2007, DON General Fund (GF) materiality threshold for reporting litigation, claims, or
     assessments is $64.4 million. The DON Oﬃce of General Counsel conducts a review of litigation and
     claims threatened or asserted involving DON General Fund to which Oﬃce of General Counsel aĴorneys
     devoted substantial aĴention in the form of legal consultation or representation.

     The DON currently has 12 cases; 11 associated with the Navy and 1 associated with the United States
     Marine Corps that meet the existing FY 2007 DON GF materiality threshold of $64.4 million. DON legal
     counsel was unable to express an opinion concerning the likely outcome of 11 of 12 cases. Based on
     information contained in the FY 2007 preliminary and ﬁnal Legal Representation LeĴers, management
     does not have suﬃcient reason to believe that it is likely that the Government will be liable for the
     amounts claimed in individual or aggregated cases.

     Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as
     to outcomes except in those relatively few clear cases. In response to a Department of Defense (DoD),
     Inspector General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON developed
     a methodology to determine an estimate for contingent legal liabilities. Beginning with 1st Quarter,
     FY 2007, DON recognized and disclosed an estimate for contingent legal liabilities. The methodology
     considers the likelihood of an unfavorable outcome or potential liability is provided as an overall
     assessment of all cases currently pending and not on an individual case basis. The likelihood of an
     unfavorable or potential liability was determined by using an average of the data from the current year-
     to-date and the preceding four years. The total dollar amount of the cases closed was divided by the
     total dollar amount claimed in those closed cases for each of the last four years plus current year, which
     were then used to calculate the average. This average is based entirely on historical data and represents
     the percentage that has historically been paid on claims. The merits of each individual case have not
     been taken into consideration. The estimate for those cases considered reasonably possible to result in
     an adverse judgment against DON is $1.7 billion. Until suﬃcient historical data can be collected for the
     Navy Working Capital Fund, the DON GF estimate will consider all DON funding sources together.

     The DON is a party in numerous individual contracts that contain clauses, such as price escalation, award
     fee payments, or dispute resolution, that may or may not result in a future outﬂow of expenditures.
     Currently, DON does not have a systemic process by which it captures or assesses these potential
     contingent liabilities; therefore, the amounts reported may not fairly present DON contingent liabilities.

     The DON GF has recorded in Note 12 a contingent liability in the amount of $10.6 million for obligations
     related to cancelled appropriations.

     The DON GF has recorded in Note 15 a contingent liability in the amount of $74.3 million for Contract
     Incentives.




98
2007 Annual Financial Report



Note 17. Military Retirement and Other Federal Employment
         Related Beneﬁts
                                                              2007                                   2006

 As of September 30                               Assumed       (Less: Assets                       Present
                                 Present Value                                  Unfunded
                                                   Interest     Available to                        Value of
                                  of Benefits                                    Liability
                                                  Rate (%)      Pay Benefits)                       Benefits
 (Amounts in Thousands)
 1. Pension and Health
    Actuarial Benefits
    A. Military Retirement
       Pensions                  $           0                 $            0   $          0    $              0
    B. Military Retirement
       Health Benefits                       0                              0              0                   0
    C. Military Medicare-
       Eligible Retiree
       Benefits                              0                              0              0                   0
    D. Total Pension and
       Health Actuarial
       Benefits                  $           0                 $            0   $          0    $              0

 2. Other Actuarial Benefits
    A. FECA                      $    1,646,486                $            0   $   1,646,486   $ 1,513,644
    B. Voluntary Separation
       Incentive Programs                    0                              0              0                   0
    C. DoD Education
       Benefits Fund                         0                              0              0                   0
    D. Total Other
       Actuarial Benefits        $   1,646,486                 $            0   $   1,646,486   $ 1,513,644

 3. Other Federal
    Employment Benefits          $       1,638                 $      (1,638)   $          0    $              0

 4. Total Military
    Retirement and Other
    Federal Employment
    Benefits:                    $   1,648,124                 $      (1,638)   $   1,646,486   $ 1,513,644


Standard Disclosures
Federal Employees’ Compensation Act
Actuarial Cost Method Used and Assumptions:
The Department of the Navy’s (DON) actuarial liability for workers’ compensation beneﬁts is developed
by the Department of Labor and provided to DON only at the end of each ﬁscal year. The liability for
future workers’ compensation beneﬁts includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred but not reported
claims. The liability is determined using a method that utilizes historical beneﬁt payment paĴerns related

                                                                                                                   99
                                                                                                    General Fund
                                                                                              Department of the Navy



      to a speciﬁc incurred period to predict the ultimate payments related to that period. Consistent with past
      practice, these projected annual beneﬁt payments have been discounted to present value using the Oﬃce
      of Management and Budget’s economic assumptions for 10-year U.S. Treasury notes and bonds. Interest
      rate assumptions utilized for discounting were as follows:

                 FY 2007
                 4.930 % in Year 1
                 5.078 % in Year 2 and thereaĞer

      To provide more speciﬁcally for the eﬀects of inﬂation on the liability for future workers’ compensation
      beneﬁts, wage inﬂation factors (cost of living adjustments or COLAs) and medical inﬂation factors
      (consumer price index medical or CPIMs) were applied to the calculation of projected future beneﬁts.
      The actual rates for these factors for the charge back year (CBY) 2007 were also used to adjust the
      methodology’s historical payments to current year constant dollars.

      The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                 CBY         COLA        CPIM
                 2007        2.63%       3.74%
                 2008        2.90%       4.04%
                 2009        2.47%       4.00%
                 2010        2.37%       3.94%
                 2011+       2.30%       3.94%

      The model’s resulting projections were analyzed to ensure that the estimates were reliable. The
      analysis was based on four tests: (1) a sensitive analysis of the model to economic assumptions; (2) a
      comparison of the percentage change in the liability amount by agency to the percentage change in
      the actual incremental payments; (3) a comparison of the incremental paid losses per case (a measure
      of case-severity) in CBY 2007 to the average paĴern observed during the most current three CBYs; and
      (4) a comparison of the estimated liability per case in the 2007 projection to the average paĴern for the
      projections of the most recent three years.

      Other Federal Employment Beneﬁts
      Other federal employment beneﬁts (Line 3) consist primarily of voluntary separation incentive pay for
      former employees.




100
2007 Annual Financial Report



Note 18. General Disclosures Related to the Statement of Net
         Cost
 As of September 30                                       2007                          2006

 (Amounts in Thousands)
 1. Intragovernmental Costs                   $                   40,664,719   $                40,177,296
 2. Public Costs                                                 111,477,016                    89,352,957
 3. Total Costs                               $                  152,141,735   $               129,530,253

 4. Intragovernmental Earned Revenue          $                  (3,466,409)   $               (2,551,473)
 5. Public Earned Revenue                                          (909,421)                   (1,360,814)
 6. Total Earned Revenue                      $                  (4,375,830)   $               (3,912,287)

 7. Net Cost of Operations                    $                  147,765,905   $               125,617,966

Standard Disclosures
Intragovernmental costs and revenues are related to transactions made between two reporting entities,
one entity being the Department of the Navy (DON) General Fund (GF), within the Federal Government.

Public costs and revenues are exchange transactions made between DON GF and a nonfederal entity.

The DON’s GF ﬁnancial management systems are unable to meet all of the requirements for full accrual
accounting. Many of DON’s ﬁnancial and nonﬁnancial feeder systems and processes were designed
and implemented prior to the issuance of generally accepted accounting principles (GAAP) for federal
agencies. Most of DON’s legacy systems were designed to record information on a budgetary basis, and
do not track intragovernmental transactions by customer at the transaction level. Considering these
systems limitations, DON GF is unable to accurately compare its intragovernmental costs and revenues
with the corresponding balances of its intragovernmental trading partners. Therefore, DON GF buyer-
side accounts payable and expense balances were adjusted to match seller-side accounts receivable
and revenue balances. This is accomplished by reclassifying amounts between federal and public cost
categories, and accruing additional costs when necessary.

The Statement of Net Cost is unique because its principles are driven on understanding the net cost of
programs and/or organizations that the Federal Government supports through appropriations or other
means. This statement provides gross and net cost information that can be related to the amount of
output or outcome for a given program and/or organization administered by a responsible reporting
entity.

In conjunction with Department of Defense, DON has undertaken eﬀorts to determine the actions
required to bring its ﬁnancial and nonﬁnancial feeder systems and processes into compliance with all
elements of GAAP. One such action is the revision of its accounting systems to record transactions based
on the U.S. Standard General Ledger. Until such time as all of DON’s ﬁnancial and nonﬁnancial feeder
systems and processes are updated to collect and report ﬁnancial information as required by GAAP,
DON’s GF ﬁnancial data will be largely based on budgetary transactions (obligations, disbursements, and
collections), transactions from nonﬁnancial feeder systems, and adjustments for known accruals of major
items such as payroll expenses, accounts payable, and environmental liabilities.

The DON’s accounting systems do not capture information relative to Heritage Assets separately and
distinctly from normal operations.
                                                                                                               101
                                                                                                General Fund
                                                                                                     Department of the Navy



      Note 19. Disclosures Related to the Statement of Changes in
               Net Position
                                                            2007                                     2006
       As of September 30                 Cumulative                                   Cumulative
                                                               Unexpended                                 Unexpended
                                           Results of                                   Results of
                                                              Appropriations                             Appropriations
                                          Operations                                   Operations
       (Amounts in Thousands)
       1. Prior Period
          Adjustments Increases
          (Decreases) to Net
          Position Beginning
          Balance

          A. Changes in
             Accounting
             Standards                $                 0    $                 0   $                 0   $              0
          B. Errors and
             Omissions in Prior
             Year Accounting
             Reports                                    0                      0          23,218,292                    0

          C. Total Prior Period
             Adjustments              $                 0    $                 0   $      23,218,292     $              0

       2. Imputed Financing
          A. Civilian CSRS/FERS
             Retirement               $        240,087       $                 0   $         219,410     $              0
          B. Civilian Health                   398,231                         0             327,916                    0
          C. Civilian Life
             Insurance                           1,224                         0               1,066                    0
          D. Judgment Fund                      90,648                         0              29,666                    0
          E. IntraEntity                             0                         0                   0                    0

          F. Total Imputed
             Financing                $        730,190       $                 0   $         578,058     $              0


      Standard Disclosures
      Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with
      Appropriations Received on the Statement of Budgetary Resources (SBR) due to diﬀerences between
      proprietary and budgetary accounting concepts and reporting requirements. The diﬀerence of $22.8
      million is due to the values for Trust Funds and Special Receipt Accounts not being included in the
      Appropriations Received line of the SCNP. Refer to Note 20 for additional details.

      In the SCNP, all oﬀseĴing balances (i.e. transfers-in and transfers-out, revenues and expenses) for intra-
      Department of the Navy (DON) General Fund activity between earmarked and other (non-earmarked)

102
2007 Annual Financial Report



funds are reported on the same lines. This results in an eliminations column, which appears to contain
no balances. In reality, the column contains all appropriate elimination entries, but all net to zero within
each respective line.

The Earmarked Cumulative Results of Operations ending balance on the SCNP does not agree with the
Earmarked Cumulative Results reported on the Balance Sheet because the cumulative results on the
Balance Sheet are presented net of eliminations.

Imputed Financing
The amounts DON remits to the Oﬃce of Personnel Management (OPM) by and for employees covered
by the Civil Service Retirement System, the Federal Employees’ Retirement System, the Federal
Employees’ Health Beneﬁts program, and the Federal Employees’ Group Life Insurance program do
not fully cover the government’s cost to provide these beneﬁts. An imputed cost is recognized as
the diﬀerence between the government’s cost of providing these beneﬁts to employees and DON’s
contributions for them. The OPM provides the cost factors to the Defense Finance and Accounting
Service (DFAS) for the computation of imputed ﬁnancing costs. These costs are provided by DFAS to
the Oﬃce of the Under Secretary of Defense (Personnel and Readiness) for validation and approval. The
approved imputed costs are then provided to the DoD reporting entities for inclusion in their ﬁnancial
statements.

Description of Other Lines on the SCNP
Other Financing Sources – Other (Line 5.D) represents net gains and losses recorded in relation to the
capitalization of assets such as Real Property, Construction in Progress, Operating Materiel and Supplies,
and Military Equipment.

Other Adjustments (Line 13.C) represents reductions to budget authority and rescissions in accordance
with Public Law.


Note 20. Disclosures Related to the Statement of Budgetary
         Resources
 As of September 30                                               2007                        2006
 (Amounts in Thousands)
 1. Net Amount of Budgetary Resources
    Obligated for Undelivered Orders at the End
    of the Period                                      $              88,903,894    $             83,047,974

 2. Available Borrowing and Contract Authority
    at the End of the Period                                                    0                              0


Standard Disclosures
Apportionment Categories for Obligations Incurred
On the Statement of Budgetary Resources (SBR): Obligations Incurred includes $163.3 billion of Direct
Program Obligations and $7.8 billion of Reimbursable Program Obligations.




                                                                                                                    103
                                                                                                     General Fund
                                                                                               Department of the Navy



      On the Report on Budget Execution (SF-133):
                 Direct Obligations, Category A, amounts apportioned quarterly, are $86.0 billion.

                 Direct Obligations, Category B, amounts apportioned on a basis other than quarterly, are
                 $77.2 billion.

                 Total Direct Obligations are therefore $163.2 billion.

                 The $120.0 million diﬀerence in direct obligations between the SBR and SF-133 is due to
                 adjustments on the SBR to recognize fringe beneﬁts, reclassify reimbursable obligations as
                 noted below, and recognize other adjustments not captured in the ﬁeld accounting systems.

                 Category B Reimbursable Obligations are $7.9 billion.

                 The $157.0 million diﬀerence in reimbursable obligations between the SBR and SF-133 results
                 from a reclassiﬁcation adjustment to record trading partner data.

      Other Disclosures
      The SBR includes intraentity transactions because the statements are presented as combined.

      As noted above, in terms of obligations, diﬀerences exist between the SF-133 and the SBR for a number of
      reasons; including accruals recorded for fringe beneﬁts, liabilities recorded for the Judgment Fund, and
      accruals recorded for trading partner advances and liabilities.

      Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with
      Appropriations Received on the SBR due to diﬀerences between proprietary and budgetary accounting
      concepts and reporting requirements. The diﬀerence of $22.8 million is due to the values for Trust Funds
      and Special Receipt Accounts not being included in the Appropriations Received line of the SCNP.

      Unobligated budget authority is the diﬀerence between the obligated balance and the total unexpended
      balance. It represents that portion of the unexpended balance unencumbered by recorded obligations.
      Appropriations are provided on an annual, multi-year, and no-year basis. An appropriation expires on
      the last day of its period of availability and is no longer available for new obligations when in an expired
      status. Unobligated balances retain their ﬁscal year identity in an expired account for an additional ﬁve
      ﬁscal years. The unobligated balance remains available to make legitimate obligation adjustments, i.e.,
      to record previously unrecorded obligations and to make upward obligation adjustments in previously
      underestimated obligations for ﬁve years. At the end of the ﬁĞh year, the budget authority is canceled.
      ThereaĞer, the budget authority is not available for any purpose.

      Information about legal limitations and restrictions aﬀecting the use of the unobligated balance of budget
      authority is speciﬁcally stated by program and ﬁscal year in the applicable appropriation language or in
      the alternative provisions section at the end of the appropriations act.

      Permanent, Indeﬁnite Appropriations
      The National Defense SealiĞ Fund (NDSF) is operated under the authority of 10 U.S. Code 2218, which
      provides for the construction (including design of vessels), purchase, alteration, and conversion of
      Department of Defense (DoD) sealiĞ vessels; operation, maintenance, and lease or charter of DoD
      vessels for national defense purposes; installation and maintenance of defense features for national
      defense purposes on privately owned and operated vessels that are constructed in the United States and
      documented under the laws of the United States; research and development relating to national defense
      sealiĞ; and expenses for maintaining the National Defense Reserve Fleet, including the acquisition,
      alteration or conversion of vessels. For FY 2007, three transfers totaling $25.6 million from NDSF to
      Shipbuilding and Conversion, Navy appropriation were recorded; no transfers to NDSF occurred.


104
2007 Annual Financial Report



The Environmental Restoration, Navy (ER, N) appropriation is a transfer account that funds
environmental restoration, reduction, and recycling of hazardous waste, removal of unsafe buildings
and debris, and similar purposes. Funds remain available until transferred and remain available for the
same purpose and same time period as the appropriations to which transferred. For FY 2007 one transfer
from ER, N for $301.5 million to the Operation and Maintenance, Navy appropriation was recorded; no
transfers to ER, N occurred.


Note 21. Reconciliation of Net Cost of Operations to Budget
 As of September 30                                                       2007               2006
 (Amounts in Thousands)
 Resources Used to Finance Activities:
 Budgetary Resources Obligated:
 1. Obligations incurred                                             $    171,048,537    $   151,872,496
 2. Less: Spending authority from offsetting collections and
     recoveries (-)                                                       (24,573,990)       (12,654,282)
  3. Obligations net of offsetting collections and recoveries        $    146,474,547    $   139,218,214
  4. Less: Offsetting receipts (-)                                          (270,572)          (149,284)
  5. Net obligations                                                 $    146,203,975    $   139,068,930
  Other Resources:
  6. Donations and forfeitures of property                                          0                  0
  7. Transfers in/out without reimbursement (+/-)                              91,282            187,068
  8. Imputed financing from costs absorbed by others                          730,190            578,058
  9. Other (+/-)                                                            4,896,617                  0
  10. Net other resources used to finance activities                 $      5,718,089    $       765,126
  11. Total resources used to finance activities                     $    151,922,064    $   139,834,056
  Resources Used to Finance Items not Part of the Net Cost of
  Operations:
  12. Change in budgetary resources obligated for goods, services
      and benefits ordered but not yet provided:
      12a. Undelivered Orders (-)                                    $     (5,855,322)   $    (6,657,708)
      12b. Unfilled Customer Orders                                             57,810            573,402
  13. Resources that fund expenses recognized in prior Periods (-)         (4,161,568)          (101,501)
  14. Budgetary offsetting collections and receipts that do not
      affect Net Cost of Operations                                            270,572            149,284
  15. Resources that finance the acquisition of assets (-)                 (9,847,856)       (28,364,037)
  16. Other resources or adjustments to net obligated resources
      that do not affect Net Cost of Operations:
      16a. Less: Trust or Special Fund Receipts Related to
            exchange in the Entity’s Budget (-)                                      0                 0
      16b. Other (+/-)                                                     (4,987,899)         (187,068)
  17. Total resources used to finance items not part of the Net
      Cost of Operations                                             $    (24,524,263)   $   (34,587,628)
  18. Total resources used to finance the Net Cost of Operations     $    127,397,801    $   105,246,428




                                                                                                            105
                                                                                             General Fund
                                                                                              Department of the Navy




       As of September 30                                                          2007                2006
       (Amounts in Thousands)
       Components of the Net Cost of Operations that will not
       Require or Generate Resources in the Current Period:
       Components Requiring or Generating Resources in Future
       Period:
       19. Increase in annual leave liability                                $       1,808,214   $          43,363
       20. Increase in environmental and disposal liability                          1,522,737             230,378
       21. Upward/Downward reestimates of credit subsidy expense
           (+/-)                                                                             0                    0
       22. Increase in exchange revenue receivable from the public (-)                       0                    0
       23. Other (+/-)                                                               3,727,419             208,377
       24. Total components of Net Cost of Operations that will
           Require or Generate Resources in future periods                   $       7,058,370   $         482,118
       Components not Requiring or Generating Resources:
       25. Depreciation and amortization                                     $       8,560,724   $      21,243,453
       26. Revaluation of assets or liabilities (+/-)                                   36,616           1,865,416
       27. Other (+/-)
           27a. Trust Fund Exchange Revenue                                                  0                    0
           27b. Cost of Goods Sold                                                           0                    0
           27c. Operating Materiel and Supplies, Used                                4,665,050          (3,209,774)
           27d. Other                                                                   47,344              (9,675)
       28. Total Components of Net Cost of Operations that will not
           Require or Generate Resources                                     $      13,309,734   $      19,889,420


       29. Total components of Net Cost of Operations that will not
           Require or Generate Resources in the current period               $      20,368,104   $      20,371,538

       30. Net Cost of Operations                                            $     147,765,905   $     125,617,966


      Standard Disclosures
      Beginning 4th Quarter, FY 2007, Department of Defense (DoD) reporting entities began presenting the
      Statement of Financing (SOF) as a note in accordance with the Oﬃce of Management and Budget Circular
      A-136. The SOF will no longer be considered a basic statement and is now referred to as “Reconciliation
      of Net Cost of Operations to Budget.”

      The SOF is designed to provide information about the total resources used by an entity, to explain how
      those resources were used to ﬁnance orders for goods and services not yet delivered, to acquire assets
      and liabilities, and to fund the entity’s net cost of operations. It is designed to report the diﬀerences
      and facilitate the reconciliation of accrual based amounts used in the Statement of Net Cost (SNC)
      and obligation-based amounts used in the Statement of Budgetary Resources. The computations and
      presentation of items in the SOF demonstrate that the budgetary and proprietary information in an
      entity’s ﬁnancial management system agrees.

      Due to DON ﬁnancial system limitations, budgetary data is not in agreement with proprietary expenses
      and assets capitalized. Diﬀerences between budgetary and proprietary data are a previously identiﬁed

106
2007 Annual Financial Report



deﬁciency. This causes a diﬀerence in net cost between the SNC and the SOF that requires an adjustment
to the SOF. For 4th Quarter, FY 2007, an adjustment of $59.1 million was made to Resources that Finance
the Acquisition of Assets of the SOF so that proprietary accounts reconcile with the budgetary accounts.

The increase in resources that ﬁnance the acquisition of assets is primarily due to the implementation
of SFFAS No. 23, “Eliminating the Category of National Defense Property, Plant, and Equipment.”
Correspondingly, there is also an increase in the reported depreciation for military equipment.

The SOF is presented as a consolidated statement. However, the following SOF lines are presented as
combined instead of consolidated due to interagency budgetary transactions not being eliminated:

           Obligations Incurred
           Less: Spending Authority from OﬀseĴing Collections and Recoveries
           Obligations Net of OﬀseĴing Collections and Recoveries
           Less: OﬀseĴing Receipts
           Net Obligations
           Undelivered Orders
           Unﬁlled Customer Orders

Description of Other Lines on the SOF
Resources Used to Finance Activities – Budgetary Resources Obligated:
The balance of $461.8 million reﬂects represents net gains and losses recorded in relation to the
capitalization of assets such as Real Property, Construction in Progress, Operating Materiels and Supplies,
and Military Equipment.

Resources Used to Finance Items not Part of the Net Cost of Operations:
The balance of $370.6 million reﬂects the value of donated fuel, and transfers of Construction-in-Progress
and other assets without reimbursement from other DoD Components.

Components Requiring or Generating Resources in Future Periods:
The balance of $3.7 billion consists primarily of an estimate for potential legal liabilities, and employment
related liabilities.

Components not Requiring or Generating Resources:
The balance of $47.3 million consists primarily of bad debt expense, the value of donated fuel, and the
transfer of assets without reimbursement from other DoD Components. The fuel was donated by other
nations to the United States military in support of the Global War on Terror.

Liabilities not covered by budgetary resources on the Balance Sheet totaling $28.9 billion, increased
$3.1 billion and diﬀers from the amount reported as Components Requiring or Generating Resources in
Future Periods on the Statement of Financing, which totals $7.1 billion. The diﬀerence is primarily due
to the diﬀering perspectives between the two statements. Liabilities not covered by budgetary resources
report the cumulative balance for Balance Sheet liabilities not yet funded whereas components requiring
or generating resources in future periods reﬂects current period changes for unfunded environmental
and disposal liabilities, annual leave, contingent liabilities, and other expenses not requiring budgetary
resources.


Note 22. Disclosures Related to Incidental Custodial
         Collections
Not applicable.
                                                                                                                 107
                                                                                                  General Fund
                                                                                     Department of the Navy



      Note 23. Earmarked Funds
      BALANCE SHEET                                                 Other
      As of September 30                       MRF       MERHCF   Earmarked    Eliminations       Total
      (Amounts in Thousands)                                        Funds
      ASSETS
      Fund balance with Treasury           $         0   $    0   $   15,568   $          0   $    15,568
      Investments                                    0        0        9,756              0         9,756
      Accounts and Interest Receivable               0        0            0              0             0
      Other Assets                                   0        0           22              0            22
      Total Assets                         $         0   $    0   $   25,346   $          0   $    25,346

      LIABILITIES and NET POSITION
      As of September 30
      Military Retirement Benefits and
      Other Employment Related
      Actuarial Liabilities                $         0   $    0   $        0   $          0   $         0
      Other Liabilities                              0        0        1,088              0         1,088
      Total Liabilities                    $         0   $    0   $    1,088   $          0   $     1,088


      Unexpended Appropriations                      0        0            0              0             0
      Cumulative Results of Operations               0        0       24,258              0        24,258
      Total Liabilities and Net Position   $         0   $    0   $   25,346   $          0   $    25,346


      STATEMENT OF NET COST
      As of September 30

      Program Costs                        $         0   $    0   $   18,958   $          0   $    18,958
      Less Earned Revenue                            0        0            0              0             0
      Net Program Costs                    $         0   $    0   $   18,958   $          0   $    18,958
      Less Earned Revenues Not
      Attributable to Programs                       0        0           0               0               0
      Net Cost of Operations               $         0   $    0   $   18,958   $          0   $    18,958


      STATEMENT OF CHANGES IN NET POSITION
      As of September 30

      Net Position Beginning of the
      Period                               $         0   $    0   $   20,393   $          0   $    20,393
      Net Cost of Operations                         0        0       18,958              0        18,958
      Budgetary Financing Sources                    0        0       22,823              0        22,823
      Other Financing Sources                        0        0            0              0             0
      Change in Net Position               $         0   $    0   $    3,865   $          0   $     3,865
      Net Position End of Period           $         0   $    0   $   24,258   $          0   $    24,258


108
2007 Annual Financial Report



Standard Disclosures
Earmarked funds are ﬁnanced by speciﬁcally identiﬁed revenues and are required by statute to be used
for designated activities or purposes. The Department of the Navy (DON) has seven earmarked funds.
Four are categorized as Special Funds and three are categorized as Trust Funds. A list of these earmarked
funds and a brief description of each follows below. There have been no changes in legislation during
or subsequent to the reporting period that signiﬁcantly changes the purpose of any of the seven funds
or that redirects a material portion of the accumulated balances of any of the seven funds. Generally,
revenues for the DON’s earmarked funds are inﬂows of resources to the Government.

Special Earmarked Funds
Wildlife Conservation, Military Reservations, Navy:
This fund, authorized by 16 United States Code 670b, provides for the development and conservation of
ﬁsh and wildlife and recreational facilities on military installations. Proceeds from the sale of ﬁshing and
hunting permits are used for these programs at Navy and Marine Corps installations charging such user
fees. These programs are carried out through cooperative plans agreed upon by the local representatives
of the Secretary of Defense, the Secretary of the Interior, and the appropriate agency of the State in which
the installation is located.

Kaho’olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy:
This fund, authorized by 107 Statute 1483, was established to recognize and fulﬁll the commitments
made on behalf of the United States to the people of Hawaii and to return to the State of Hawaii the
Island of Kaho’olawe. Congress has found it to be in the national interest and an essential element in
the federal government’s relationship with the State of Hawaii the conveyance, clearance, or removal of
unexploded ordnance, environmental restoration, control of access to the Island and future use of the
Island be undertaken in a manner consistent with the enhancement of that relationship, the Department
of Defense’s military mission, the federal interest, and applicable provisions of law. This fund is ﬁnanced
by congressional appropriations.

Roosmoor Liquidating Trust SeĴlement Account:
The Roosmoor Liquidating Trust account was established by Section 2208 of Public Law 104-106; the
National Defense Authorization Act of 1996. Per the statute, monies awarded the United States when
litigation is seĴled in favor of the Roosmoor Liquidating Trust is deposited into this account. The monies
are made available to DON solely for the acquisition or construction of military family housing in, or in
the vicinity of San Diego, California.

Ford Island Improvement Account:
The Ford Island Improvement fund is authorized by 10 United States Code 2814 and was established to
carry out improvements to property and facilities that will deliver overall beneﬁts to DON at the Pearl
Harbor Naval Complex at Ford Island, Hawaii. Ford Island is a central feature in the Pearl Harbor
National Historic Landmark. The Ford Island legislation allows DON to sell or lease properties in Hawaii
and use the proceeds to develop Ford Island.

Trust Earmarked Funds
DON General GiĞ Fund:
This trust fund is authorized by 10 United States Code 2601. Under the provisions of this statute, the
Secretary of the Navy may accept, hold, administer, and spend any giĞ, devise, or bequest of real or
personal property, made on the condition that they be used for the beneﬁt, or in connection with the
establishment, operation, or maintenance of a school, hospital, library, museum, cemetery, or other
institution under the jurisdiction of DON.

Ships Stores Proﬁt, Navy:
This trust fund is authorized by 10 United States Code 7220. Deposits to this fund are derived from

                                                                                                                 109
                                                                                                  General Fund
                                                                                             Department of the Navy



      proﬁts realized through the operation of ships’ stores and from the acceptance of giĞs accepted for
      providing recreation, amusement, and contentment for enlisted members of the Navy and Marine Corps.

      U.S. Naval Academy General GiĞ Fund:
      This trust fund is authorized by 10 United States Code 6973. Under the provisions of this statute, the
      Secretary of the Navy may accept, hold, administer, and spend any giĞ, devise, or bequest of personal
      property, made on the condition that it they used for the beneﬁt, or in connection with the United States
      Naval Academy, or the Naval Academy Museum, its collections, or its services.


      Note 24. Other Disclosures
                                                                         2007
       As of September 30                                           Asset Category
                                           Land and Buildings      Equipment            Other           Total
       (Amounts in Thousands)
       1. ENTITY AS LESSEE-
          Operating Leases
          Future Payments Due
          Fiscal Year
           2008                        $                50,483 $              572 $             0 $        51,055
           2009                                         44,916                 81               0          44,997
           2010                                         45,818                 83               0          45,901
           2011                                         46,858                 85               0          46,943
           2012                                         47,922                 87               0          48,009
           After 5 Years                                48,210                 89               0          48,299
         Total Future Lease
         Payments Due                  $               284,207 $              997 $             0 $       285,204



      Note 25. Restatements
      For FY 2007, Department of the Navy General Fund does not have any restatements.




110
    2007
    General Fund
    Required Supplementary Stewardship




                                                            General Fund Required Supplementary Stewardship Information
    Information

2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                      111
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                               Department of the Navy



                                    Investments in Research and Development
                                  Yearly Investment in Research and Development
                                          For Fiscal Years 2003 through 2007
                                                     ($ in Millions)

      Categories                                               FY03        FY04        FY05        FY06         FY07
      Basic Research                                       $    399    $    431    $    437    $    449     $    448
      Applied Research                                          743         686         692         739          781
      Development
          Advanced Technology Development                       836         967         951         912          801
          Advanced Component Development and                   2,536       2,361       3,030       3,223        3,229
          Prototypes
          System Development and Demonstration                 4,200       6,115       7,094       7,819        8,731
          Research, Development, Test, and                      797         906         955        1,022        1,034
          Evaluation Management Support
          Operational Systems Development                      2,385       1,820       3,775       3,399        3,810
      Total                                                $11,896     $13,286     $16,934     $17,563     $18,834

      Narrative Statement:
      Investments in Research and Development
      Investment values are based on Research and Development outlays (expenditures). Outlays are used
      because current Department of the Navy (DON) systems are unable to fully capture and summarize costs
      in accordance with standards promulgated by the Federal Accounting Standards Advisory Board.

      A. Basic Research
      Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of
      phenomena and of observable facts without speciﬁc applications, processes, or products in mind. Basic
      Research involves the gathering of more knowledge or a beĴer understanding of the subject under study.
      Major outputs are scientiﬁc studies and research papers.

      The following are two representative program examples for the Basic Research category.

      Prototype for Long Wavelength Array Sees “First Light”
      Astronomers at the Naval Research Laboratory (NRL) have produced the ﬁrst images of the sky from a
      prototype of the Long Wavelength Array (LWA), a revolutionary new radio telescope to be constructed
      in southwestern New Mexico. The images show emissions from the center of our galaxy, a supermassive
      black hole, and the remnant of a star that exploded in a supernova more than 300 years ago. The images
      represent not only a milestone in the development of the LWA, but also the ﬁrst glimpse through a
      new window on the cosmos. “First light” is an astronomical term for the ﬁrst image produced with a
      telescope. It is a key milestone for any telescope because it indicates that all of the individual components
      are working in unison as planned.

      Once completed, the LWA will provide an entirely novel view of the sky in the radio frequency range
      of 20-80 MHz, currently one of the most poorly explored regions of the electromagnetic spectrum in
      astronomy. The LWA will be able to make sensitive high resolution images and scan the sky rapidly for
      new and transient sources of radio waves, which might represent the explosion of distant, massive stars,
      or the emissions from planets outside of our own solar system or even previously unknown objects or
      phenomena.


112
2007 Annual Financial Report



When completed, the LWA will operate like the current prototype, the Long Wavelength Development
Array (LWDA), but on a much larger scale. While the LWDA telescope consists of 16 antennas connected
to a suite of electronics that combine the signals from each antenna, plans for the LWA call for more than
13,000 individual antennas, divided into 50 stations. These stations will be spread over a 250-mile area
across New Mexico, and possibly beyond.

Aristotle’s First Mover Principle: “Tornadoes” are Transferred from Light to Sodium Atoms
For the ﬁrst time, tornado-like rotational motions have been transferred from light to atoms in a
controlled experiment at the National Institute of Standards and Technology (NIST). The new quantum
physics technique can be used to manipulate Bose Einstein condensates, a state of maĴer potentially
useful in quantum information systems that is the subject of worldwide research interest. Quantum
information systems are an emerging computing and communications technology with potentially
unlimited applications.

The NIST research team transferred orbital angular momentum—essentially the same motion as air
molecules in a tornado or a planet revolving around a star—from laser light to sodium atoms.

The NIST experiment completes the scientiﬁc toolkit for complete control of the state of an atom,
which now includes the internal, translational, and rotational behavior. The rotational motion of light
previously has been used to rotate particles, but this new work marks the ﬁrst time the motion has been
transferred to atoms in discrete, measurable units, or quanta. Other researchers, as well as the NIST
group, previously have transferred linear momentum and spin angular momentum (an internal magnetic
state) from light to atoms.

The experiments were performed with more than a million sodium atoms conﬁned in a magnetic
trap. The atoms were chilled to near absolute zero and in identical quantum states, a condition known
as a Bose Einstein condensate (BEC) in which they behave like a single “super-atom” with a jelly-like
consistency. The BEC was illuminated from opposite sides by two laser beams, one of them with a
rotating doughnut shape. Each atom absorbed one photon (the fundamental particle of light) from
the doughnut laser beam and emiĴed one photon in the path of the other laser beam, picking up the
diﬀerence in orbital angular momentum between the two photons. The interaction of the two opposing
lasers created a corkscrew-like interference paĴern, inducing the BEC to rotate—picture a rotating
doughnut or a vortex similar to a hurricane.

The researchers demonstrated control over the process by inducing the cloud of atoms to simultaneously
rotate and stand still, or to rotate simultaneously in opposite directions with varying amounts of
momentum—a mind-bending peculiarity of quantum physics known as superposition.

B. Applied Research
Applied Research is the systematic study to gain knowledge or understanding necessary for determining
the means by which a recognized and speciﬁc need may be met. It is also the practical application
of such knowledge or understanding for the purpose of meeting the recognized need. This research
points toward speciﬁc military needs with a view toward developing and evaluating the feasibility and
practicability of proposed solutions and determining their parameters. Major outputs of applied research
are scientiﬁc studies, investigations and research papers, hardware components, soĞware codes, and
limited construction of, or part of, a weapon system to include nonsystem speciﬁc development eﬀorts.

The following are two representative program examples for the Applied Research category.

Electromagnetic Railgun
Railgun research in the United States has been ongoing for more than two decades. A signiﬁcant
milestone in the advancement of naval gun technology was achieved with the successful test and standup

                                                                                                               113
                                                                                                General Fund
                                                                                                  Department of the Navy



      of an electromagnetic (EM) railgun facility at the Naval Surface Warfare Center Dahlgren Division
      Laboratory.

      Working for the Oﬃce of Naval Research (ONR), engineers at the laboratory ﬁred a low energy shot,
      the ﬁrst in a series of tests required to bring the facility online. The researchers are one step closer to the
      future of naval weaponry with the standup of this, the largest operational EM facility in the Navy. The
      recent advances in science and technology have made this technology feasible, as well as collaboration
      of scientists and engineers across government agencies, industry, and the branches of service. With
      the potential to deliver lethal, hypersonic projectiles at ranges in excess of 200 nautical miles within six
      minutes, a naval railgun oﬀers a transformational solution for volume ﬁres and time-critical strike. The
      range for ﬁve-inch guns on Navy ships is currently less than 15 miles.

      Railguns provide a capability for sustained, oﬀensive power projection, complementary to missiles and
      tactical aircraĞ. They may be a cost-eﬀective solution to the Marine Corps Naval Surface Fire Support
      requirements because of their unique capability to simultaneously satisfy three key war-ﬁghting
      objectives: extremely long ranges, short time-of-ﬂight, and high lethality (energy-on-target).

      Detection and Identiﬁcation of Bacterial Agents
      Researchers have used a new technique to rapidly detect and precisely identify bacteria, including
      dangerous E. coli, without time-consuming treatments that are usually required. The technique, called
      desorption electrospray ionization (DESI), could be used to create a new class of fast, accurate detectors
      for applications ranging from food safety to homeland security.

      Using a mass spectrometer to analyze bacteria and other microorganisms ordinarily takes several hours
      and requires that samples be specially treated and prepared in a lengthy series of steps. The DESI
      eliminates the pretreatment steps, enabling researchers to take “ﬁngerprints” of bacteria in less than a
      minute using a mass spectrometer.

      Mass spectrometry works by turning molecules into ions, or electrically charged versions of itself,
      inside the instrument’s vacuum chamber. Once ionized, the molecules can be more easily manipulated,
      detected, and analyzed based on their masses. The key DESI innovation is performing the ionization step
      in the air or directly on surfaces outside of the mass spectrometer’s vacuum chamber. When combined
      with portable mass spectrometers, which are also under development, DESI promises to provide a new
      class of compact detectors.

      Researchers are focusing on three potential applications for detecting and identifying pathogens: food
      safety, medical analysis, and homeland security. Such a detector could quickly analyze foods, medical
      cultures, and the air in hospitals, subway stations, and airports. Such a system could alert employees in
      the food and healthcare industries to the presence of pathogens and could provide security personnel
      with a new tool for screening suspicious suitcases or packages.

      C. Development
      Development takes what has been discovered or learned from basic and applied research and uses it to
      establish technological feasibility, assessment of operability, and production capability. Development is
      comprised of ﬁve stages, as deﬁned below.

            1.   Advanced Technology Development is the systematic use of the knowledge or understanding
                 gained from research directed toward proof of technological feasibility and assessment of
                 operational and production rather than the development of hardware for service use. It
                 employs demonstration activities intended to prove or test a technology or method.

            2.   Advanced Component Development and Prototypes evaluates integrated technologies
                 in an operating environment that is as realistic as possible to assess the performance or
114
2007 Annual Financial Report



           cost reduction potential of advanced technology. Programs in this phase are generally
           system speciﬁc. Major outputs of Advanced Component Development and Prototypes are
           hardware and soĞware components or complete weapon systems ready for operational and
           developmental testing and ﬁeld use.

      3.   System Development and Demonstration concludes the program or project and prepares it for
           production. It consists primarily of preproduction eﬀorts, such as logistics and repair studies.
           Major outputs are weapons systems ﬁnalized for complete operational and development
           testing.

      4.   Research, Development, Test, and Evaluation Management Support is support for installations
           and operations for general research and development use. This category includes costs
           associated with test ranges, military construction maintenance support for laboratories,
           operation and maintenance of test aircraĞ and ships, and studies and analyses in support of
           the Research and Development program.

      5.   Operational Systems Development is concerned with development projects in support of
           programs or upgrades that are still in engineering and manufacturing development. These
           projects have received approval for production, for which production funds have been
           budgeted in subsequent ﬁscal years.

The following are two representative program examples for the Development category.

United States Marine Corps Increases Eﬀorts to Modernize Truck Fleets
The United States Marine Corps General Fund has several initiatives to restore and upgrade its aging
and combat-baĴered ﬂeets of tactical trucks from relatively lightweight Humvees to heavy-duty cargo
haulers. One of the ﬁrst initiatives, for which contracts have been awarded, involves conceptual designs
for a family of Joint Light Tactical Vehicles (JLTV) that the Marines and the Army need to replace the thin-
skinned, 20-year-old Humvee. The Humvee, more formally known as the High Mobility Multipurpose
Wheeled Vehicle, is the agile, all terrain military truck that the Military Services chose in the mid-1980s to
supplant the World War II-era jeep.

The JLTV will be designed with factory-built armor but will accommodate additional protection that
can be installed and removed in the ﬁeld as needed. Each of the variants will be equipped with a
compatible trailer and able to tow up to 10,000 pounds both on roads and cross country. The JLTV is
being developed separately from the Marine Corps planned Internally Transportable Vehicle (ITV) and
the Reconnaissance, Surveillance, and Targeting Vehicle (RST-V).

The ITV, a second initiative and part of the new expeditionary ﬁre support system, is intended to
transport up to four Marines, mount heavy machine guns, and tow a 120 mm mortar. It is being designed
to ﬁt inside the CH-53 Sea Stallion heavy transport helicopter and the MV-22 Osprey tilt-rotor aircraĞ,
which neither the Humvee nor the JLTV can do.

The Marines are testing the latest version of the RST-V at Aberdeen Proving Ground, Maryland. It has
a mission similar to the reconnaissance variant of the JLTV, and like the ITV, it is to be transported in the
Osprey. However, unlike the JLTV and the ITV, the RST-V is to be powered by a hybrid electric-drive
system that will allow it to be propelled by diesel, baĴeries, or a combination of the two. The idea is for
the RST-V to be able to operate frequently with a mixture of diesel, electric, and baĴery power in order
to conserve fuel and, for brief periods, to function using only stored baĴery energy, enabling it to move
stealthily behind enemy lines.

Another Marine Corps initiative is the upgrading of its heavier trucks. A seven-ton transport, known as
the Medium Tactical Vehicle Replacement (MTVR), has replaced the former ﬁve ton M-809 and M-939

                                                                                                                   115
                                                                                                    General Fund
                                                                                               Department of the Navy



      series trucks. The MTVR can negotiate terrain twice as rough as its predecessors, which were based on a
      pre-Korean war design. It has been designed to operate 70 percent oﬀ road and 30 percent on road, just
      the reverse of the ﬁve-ton models.

      The MTVR can carry 7.1 tons of payload cross-country and 15 tons on pavement. It can carry cargo,
      personnel, bulk fuel, and virtually anything required on the baĴleﬁeld. The MTVR can traverse grades
      of 60 percent and side slopes of 30 percent, and it can ford ﬁve feet of water. On primary and secondary
      roads, it can cruise at 65 mph. It has an aluminum cab that folds down under the hood to make it easier
      to ship.

      The Logistics Vehicle System Replacement (LVSR) is another initiative to update the Marine Corps’ ﬂeet
      of tactical trucks. The LVSR is a trailer-pulling variant of the Logistics Vehicle System (LVS), which is two
      decades old. Like the LVS, the LVSR will be used primarily for moving large amounts of supplies, such
      as ammunition, fuel, water, and heavy equipment. It can carry 33,000 pounds of oﬀ-road payload, more
      than twice that of its predecessor.

      The LVSR oﬀers improved survivability. It is the ﬁrst vehicle that the Marine Corps has required to have
      armor as part of its design. The vehicle will be built with mounting points and hardware for add-on
      armor to reduce the time required to increase protection when needed.

      Heat Induction Coatings Removal
      A United States Navy aircraĞ carrier’s ﬂight deck experiences thousands of landings and takeoﬀs when
      deployed. Parts of the non-skid surface on the ﬂight deck have worn away or are damaged from high
      temperature jet exhaust, hydrocarbon build-up, and the natural environment. The current processes
      for removing corrosion control coatings on ship decks are time-consuming, dangerous, noisy, and can
      generate signiﬁcant volumes of hazardous waste.

      A new technology funded by ONR’s Technology Insertion Program for Savings (TIPS) and provided by
      engineers at NRL’s Center for Corrosion Science and Engineering uses heat induction to instantaneously
      heat the ferrous based metal underneath a coating—be it non-skid, paint, or other hull material,
      bulkheads, or shaĞ treatments—without heating the coating itself. The heat breaks the chemical bonds
      between the coating and the steel deck. During the rework, all that has to be done is simply peel oﬀ the
      coating from the deck rather than hydro or sand blasting.

      This new heat induction technology generates removed paint waste only and does it silently with
      components that ﬁt in the back of a standard eight-foot pick-up truck bed making it relatively easy to
      move from one location to another.

      The TIPS aims to signiﬁcantly reduce operational and support costs through “technology insertion”—
      geĴing the right technology to the right users at the right time by using existing commercial or
      government technologies that need only minor additional development or certiﬁcation. The goal is to use
      a modest amount of initial capital to create signiﬁcant reductions in operations and support costs.

      NON-FEDERAL PHYSICAL PROPERTY
      The DON does not fund this type of Activity.




116
    General Fund
    Required Supplementary Information




                                                            General Fund Required Supplementary Information
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                      117
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                                                   Department of the Navy



                                                             Department of the Navy
                                                     General Property, Plant, and Equipment
                                                      Real Property Deferred Maintenance
                                                     For Fiscal Year Ended September 30, 2007
                                                                  ($ in Thousands)

                                                1. Plant Replacement                     2. Required Work
       Property Type                                    Value                         (Deferred Maintenance)                       3. Percentage
       Category 1: Buildings, Structures, and Utilities
       Navy                                                    $ 126,817,336                          $ 19,405,486                                    15.3%
       Marine Corps                                            $ 36,131,046                           $    1,065,134                                  2.95%


       Category 2: Buildings, Structures, and Utilities
       Navy                                                    $    2,133,459                         $      326,419                                  15.3%
       Marine Corps                                            $    1,046,487                          $               -                              0.00%


       Category 3: Buildings, Structures, and Utilities (Heritage Assets)
       Navy                                                    $    1,053,955                         $      161,255                                  15.3%
       Marine Corps                                            $    1,113,001                         $        32,811                                 2.95%

      NOTE: In the table above, Navy real property deferred maintenance data represent both Department of the Navy (DON) General Fund and Navy Working Capital
      Fund (NWCF). Similarly, Marine Corps real property deferred maintenance data represent both the United States Marine Corps (USMC) General Fund and
      NWCF-MC.


      Narrative Statement:
      1. The method used to assess facilities conditions is a facilities inspection, which categorizes buildings as
      Adequate, Substandard or Inadequate. Those ratings are converted to Q-ratings of 100%-90% Q1; 90%-
      80% Q2; 80%-60% Q3; and less than 60% Q4 by assessing facilities that are rated as Adequate and less
      than 25 years old as Q1; facilities that are over 25 years old and rated as Adequate as Q2; facilities rated as
      Substandard as Q3; and Inadequate facilities as Q4.

      2. There is no change since this is the ﬁrst submission.

      3. The Department of the Navy (DON) follows the Oﬃce of the Secretary of Defense installation strategic
      plan goal of having facilities at a Q2 level on average as an acceptable rating. This represents an average
      level of 15% of Plant Replacement Value (PRV) as an acceptable level of deferred maintenance. The
      table above shows that DON is approximately 15.3% below PRV. The PRV and deferred maintenance
      estimates are reported for the following Maintenance Fund Sources: Operation and Maintenance, Navy
      (O&M,N); O&M,N Reserve; Research, Development, Test, and Evaluation; Other Department of Defense;
      Defense Logistics Agency; NWCF; and Nonappropriated Fund. The deferred maintenance estimates are
      based on the facility Q-ratings found in the Navy’s real property inventory. The Fiscal Year (FY) 2007
      Q-ratings were set to be the lower of the Restoration Rating or Functionality Rating for each facility. The
      Restoration Rating assesses facility physical condition and the Functionality Rating assesses functionality
      or modernization deﬁciencies. The percentage for categories 1, 2, and 3 facilities are the same because
      DON cannot break out the deferred maintenance between those categories at this time.

      The table above also shows that USMC is approximately 2.95% below PRV. The percentage for categories
      1 and 3 facilities are the same because USMC cannot break out the deferred maintenance between those
      categories at this time. Category 2 is zero because USMC does not hold deferred maintenance backlogs
      on facilities to be demolished.

118
2007 Annual Financial Report



Facility Categories are as follows:
           Category 1: Buildings, Structures, and Utilities that are enduring and required to support an
           ongoing mission including multi-Heritage Assets.

           Category 2: Buildings, Structures, and Utilities that are excess to requirements or planned for
           replacement or disposal including multi-use Heritage Assets.

           Category 3: Buildings, Structures, and Utilities that are Heritage Assets.

                                             Military Equipment
                                       Deferred Maintenance Amounts
                                          As of September 30, 2007
                                               ($ in Thousands)

                            Major Type                                 Amount
                            AircraĞ                                   $    47,497
                            Ships                                          26,039
                            Missiles                                       63,463
                            Combat Vehicles                               359,739
                            Other Weapons Systems                         269,641
                            Total                                     $ 766,379

Narrative Statement:
AircraĞ Deferred Maintenance
Four subcategories comprise aircraĞ deferred maintenance: airframe rework and maintenance (active
and reserve); engine rework and maintenance (active and reserve); component repair; and soĞware
maintenance. The airframe rework deferred maintenance calculation reﬂects unfunded requirements,
which represent aircraĞ that failed AircraĞ Service Period Adjustment inspections or reached ﬁxed Period
End Date at year-end. The engine rework deferred maintenance calculation reﬂects year-end actual
requirements less actual funded units. Component repair deferred maintenance represents the diﬀerence
between validated requirements and corresponding funding.

Airframe rework and maintenance (active and reserve) are performed under the Standard Depot Level
Maintenance and Integrated Maintenance Concept (IMC) programs. Currently, the AV-8B, C-130, C-2,
E-2, E-6, EA-6B, F-5, F/A-18, H-1, H-46, H-53, H-60, P-3, and S-3 aircraĞ programs have been incorporated
under the IMC. The IMC uses Planned Maintenance Intervals, which allow for more frequent depot
maintenance but with smaller work packages, thereby reducing out of service time. The goal of this
program is to improve readiness while reducing operating and support costs. The Naval Air Systems
Command’s (NAVAIR) Industrial Strategy is to maintain the minimum level of organic capacity,
consistent with force levels, which are necessary to sustain peacetime readiness and maintain ﬁghting
surge capability. The NAVAIR works in partnership with private industry to make maximum use of
industry’s production capabilities and for non-core related aviation depot maintenance.

Ship Deferred Maintenance
Fleet Type Commanders provide deferred ship maintenance data. Data is collected from the Current
Ships Maintenance Plan database, which captures maintenance actions at all levels (organizational,
intermediate, and depot) for active and reserve ships. Only depot level deferred maintenance is provided
in the calculation of ship deferred maintenance. This includes maintenance actions deferred from actual
depot maintenance work packages as well as maintenance deferred before inclusion in a work package
due to ﬁscal, operational, or capacity constraints. Although there are some deferred maintenance actions,

                                                                                                               119
                                                                                                General Fund
                                                                                             Department of the Navy



      no ships fall into the category of “unacceptable operating condition.” Any ship that would be at risk of
      being in unacceptable operating condition would receive priority for maintenance funding to maintain
      acceptable operating condition.

      Missile Maintenance
      Four categories are used to determine missile maintenance: missiles, tactical missiles, soĞware
      maintenance, and other. Deferred maintenance is deﬁned as the diﬀerence between the total weapon
      maintenance requirement as determined by requirements modeling processes and the weapon
      maintenance that is funded in accordance with the annual budget controls for the missile maintenance
      program. The maintenance requirements model projects the quantity of missiles and missile components
      per weapon system that are required to be maintained or reworked annually.

      Combat Vehicles
      The combat vehicles category refers to deferred vehicle maintenance for the active and reserve Marine
      Corps assets. The combat vehicle category consists of weapons systems, such as the M1A1 Tank, the
      Amphibious Assault Vehicle, the Hercules Recovery Vehicle, and the Light Armored Vehicle. The total
      requirement is the planned quantity of combat vehicles that require depot level maintenance in a year as
      determined by program managers and the operating forces with requirements validated by a modeling
      process. The deferred maintenance is the diﬀerence between the validated requirements and funding
      received for that ﬁscal year.

      Other Weapons Systems
      The Other Weapons Systems category is comprised of ordnance, end item maintenance for support
      equipment, camera equipment, landing aids, calibration equipment, air traﬃc control equipment,
      target systems, expeditionary airﬁeld equipment, special weapons, target maintenance, and repair
      of repairable components. Three categories deﬁne ordnance maintenance: ordnance maintenance,
      soĞware maintenance, and other. Although the various programs diﬀer in the methodology in
      deﬁning requirements, all programs deﬁne deferred maintenance as the diﬀerence between validated
      requirements and funding.

      SoĞware Maintenance
      SoĞware maintenance requirements and deferred maintenance for aircraĞ, missiles, and other equipment
      are determined using the same methodology and therefore will not be addressed separately for each
      Military Equipment Deferred Maintenance reporting categories. SoĞware maintenance includes the
      operational and system test soĞware that runs in the airborne avionics systems (e.g., mission computer,
      display computer, and radar) and the soĞware that runs the ground-based support labs used to perform
      soĞware sustainment (e.g., compilers, editors, simulation, and conﬁguration management).

      Heritage Assets
      For Fiscal Year Ended September 30, 2007

                                           Measurement       As of Oct 1,                           As of Sep 30,
                                            Quantity            2006        Additions Deletions         2007
      Museums                                    Each                  27           -          1               26
      Monuments and Memorials                    Each                 552         11          44             519
      Cemeteries                                 Sites                 61          1            -              62
      Archeological Sites                        Sites             17,788        508            -         18,296
      Buildings and Structures                   Each               9,092           -      5,928            3,164
      Major Collections                   See table, “Major Collections”


120
2007 Annual Financial Report



Narrative Statement:
The DON is required to report Heritage Assets in accordance with the following public laws and
regulations:
           Antiquities Act of 1906

           Historic Sites Act of 1935

           USC 470 National Historic Preservation Act of 1966

           National Environmental Policy Act of 1969

           American Indian Religious Freedom Act of 1978

           Archeological Resources Protection Act of 1979

           Native American Graves Protection & Repatriation Act of 1990

           Presidential Memorandum for Heads of Executive Departments and Agencies: Government
           to Government Relations with Native American Tribal Governments Act of 1994

           36 CFR 79 – Curation of Federally Owned and Administered Archeological Collections

           36 CFR 60.4 – National Register of Historic Places

           Federal Accounting Standards Advisory Board (FASAB) Standard 29, “Heritage Assets and
           Stewardship Land”

           Executive Order 13287 – Preserve America – of 2003

           Executive Order 13327 – Federal Real Property Asset Management – of 2004

           SECNAVINST 5755.1A – Navy Museums – of 1992

In general, the DON deﬁnes Heritage Assets as items that are unique for one or more of the following
reasons: historical or natural signiﬁcance; cultural, educational, or artistic importance; or signiﬁcant
architectural characteristics. Monetary values are not required for Heritage Asset reporting; only physical
units of measure are reported.

Explanation for adjustments, additions, and deletions
In FY 2007, adjustments to Archeological Sites were made aĞer a reconciliation to the DON Federal
Archeology Report was performed.

Accurate inventories of archeological artifacts, archaeological sites, and buildings and structures are
dependent upon full implementation of tracking systems, notably the Internet Naval Facilities Asset
Database Store (iNFADS) and the Department of the Navy Heritage Asset Management System, and
related use of historic property data elements for buildings and structures.

Process used to deﬁne assets as Heritage Assets
The processes used to deﬁne items as having heritage signiﬁcance vary among categories and type of
assets being evaluated. Subject maĴer experts, including historians and curators, play a signiﬁcant role
in the deﬁnition process in addition to other criteria, such as a listing in the National Register of Historic
Places. In all cases, a myriad of federal statutes, service regulations, and other guidelines mandate
heritage signiﬁcance or provide guidance in its determination.

Multi-Use Heritage Assets
Per DoD FMR Volume 6B, “Form and Content of the Department of Defense Audited Financial
                                                                                                                   121
                                                                                                    General Fund
                                                                                               Department of the Navy



      Statements,” Multi-Use Heritage Assets are reported as Heritage Assets in the Required Supplementary
      Stewardship Information and on the Balance Sheet as Real Property.

      Information Pertaining to the Condition of DON Heritage Assets
      The methodology used to report the condition of the heritage assets was a combination of visual
      assessment of the objects, historic value to the DON collection, and general display and storage standards
      for historic collections. The overall condition of the collection objects is good.

      Museums
      Museums are buildings, places, or institutions devoted to the acquisition, conservation, study, exhibition,
      and educational interpretation of objects having scientiﬁc, historical, or artistic value. Secretary of the
      Navy Instruction 5755.1A, “Navy Museums,” deﬁnes the scope of the Navy Museum program.

      The FY 2006 ending balance for museums was overstated by one, due to the U.S. Marine Corps museum
      at the Washington Navy Yard being reported in error. The museum was closed during FY 2006.

      Monuments and Memorials
      Monuments and Memorials have signiﬁcant monetary and/or historical value to the DON.

      Cemeteries
      Cemeteries are government-owned burial grounds on which gravesites of prominent historical ﬁgures
      may be located in addition to other gravesites.

      Archeological Sites
      Archeological Sites are lands on which items of signiﬁcance are located.

      Buildings and Structures
      Buildings and Structures are listed as or determined eligible for listing in the National Register of Historic
      Places, including Multi-Use Heritage Assets. Criteria for evaluating National Register eligibility of these
      sites may be referenced at 36 CFR 60.4.

      Supplemental Reporting. In addition to the data presented in the table, “Heritage Assets,” above, the
      following supplemental information on Major Collections was reported as of September 30, 2007:

      Major Collections
                                          Measurement       As of Oct 1,                              As of Sep 30,
       Category                            Quantity            2006      Additions      Deletions         2007
       Archeological Artifacts             Cubic Feet             35,174           23           13           35,184
       Archival                            Linear Feet            98,148          164             -          98,312
       Artwork                                 Item               38,540          188             -          38,728
       Historical Artifacts                    Item            1,141,747          797             -       1,142,544

      Archeological Artifacts
      The FY 2006 ending balance was adjusted upward by 17,124 Archeological Artifacts resulting in an
      FY 2007 beginning balance of 35,174. This adjustment reﬂects the correction of an error in the prior
      reporting period.

      Archival
      The FY 2007 net increase of 164 Artwork items reﬂects normal acquisitions and donations.



122
2007 Annual Financial Report



Artwork
The FY 2006 ending balance was adjusted downward by 262 items resulting in an FY 2007 beginning
balance of 38,540. This adjustment reﬂects the correction of an error in the prior reporting period.

Historical Artifacts
The FY 2006 ending balance was adjusted downward by 3,988 items resulting in an FY 2007 beginning
balance of 1,141,747. This adjustment reﬂects the correction of an error in the prior reporting period.

                                         STEWARDSHIP LAND
                                For Fiscal Year Ended September 30, 2007
                                            (Acres in Thousands)

                                             As of Oct 1,                                     As of Sep 30,
Land Use                                        2006          Additions       Deletions           2007
Mission                                              2,026              76                9           2,093
Parks and Historic Sites                                 0                0               0               0
Totals                                               2,026              76                9           2,093

Narrative Statement
The DON followed the deﬁnition of Stewardship Land per the DoD FMR to include Public Domain, Land
Set Aside, and Donated Land. The iNFADS was used to derive acres for Stewardship Land. Within the
deﬁnition of Stewardship Land, land can be further categorized as Improved, Semi-Improved, or Other.




                                                                                                                123
                                                                                                 General Fund
                                                                                                                                       Department of the Navy



      Department of Defense
      Department of the Navy
      DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2007 and 2006
      ($ in Thousands)

                                                                                               Research,
                                                                                                                   Operation and
                                                                      Other               Development, Test &                             Procurement
                                                                                                                   Maintenance
                                                                                              Evaluation

      BUDGETARY FINANCING ACCOUNTS
      BUDGETARY RESOURCES
      Unobligated balance, brought forward, October 1             $            19,276 $              2,127,404 $           1,207,826 $          15,831,434
      Recoveries of prior year unpaid obligations                                 508                 306,387              2,940,236            12,509,699
      Budget authority
        Appropriation                                                         324,489               19,203,722            46,986,844            41,570,580
        Borrowing authority                                                         0                        0                     0                     0
        Contract authority                                                          0                        0                     0                     0
        Spending authority from offsetting collections
            Earned
                 Collected                                                      1,186                 432,800              5,462,685              839,295
                 Change in receivables from Federal sources                    (1,186)                 24,306               268,023               (61,903)
            Change in unfilled customer orders
                 Advance received                                                   0                  15,228                (3,223)                     0
                 Without advance from Federal sources                               0                 (56,946)             (312,127)              137,976
            Anticipated for rest of year, without advances                          0                        0                     0                     0
            Previously unavailable                                                  0                        0                     0                     0
            Expenditure transfers from trust funds                                  0                        0                     0                     0
        Subtotal                                                              324,489               19,619,110            52,402,202            42,485,948
      Nonexpenditure transfers, net, anticipated and actual               (301,520)                   628,976               155,370               (87,547)
      Temporarily not available pursuant to Public Law                              0                        0                     0                     0
      Permanently not available                                                     0                (167,658)             (628,853)             (475,462)
      Total Budgetary Resources                                   $            42,753 $             22,514,219 $          56,076,781 $          70,264,072


      Status of Budgetary Resources:
      Obligations incurred:
        Direct                                                    $            32,631 $             19,586,274 $          48,637,839 $          51,861,905
        Reimbursable                                                                0                 394,907              5,945,858              279,536
        Subtotal                                                               32,631               19,981,181            54,583,697            52,141,441
      Unobligated balance:
        Apportioned                                                            10,121                2,338,485              166,702             17,801,245
        Exempt from apportionment                                                   0                        0                     0                     0
        Subtotal                                                               10,121                2,338,485              166,702             17,801,245
      Unobligated balance not available                                             0                  194,553             1,326,383               321,386
      Total Status of Budgetary Resources                         $            42,752 $             22,514,219 $          56,076,782 $          70,264,072


      Change in Obligated Balance:
      Obligated balance, net
        Unpaid obligations, brought forward, October 1            $            59,227 $              8,858,576 $          19,110,166 $          46,879,702
        Less: Uncollected customer payments
           from Federal sources, brought forward, October 1                         0                (373,196)           (1,700,757)             (105,891)
        Total unpaid obligated balance                                         59,227                8,485,380            17,409,409            46,773,811
      Obligations incurred net (+/-)                                           32,631               19,981,181            54,583,697            52,141,441
      Less: Gross outlays                                                     (19,468)            (19,200,372)          (49,712,310)          (35,457,000)
      Obligated balance transferred, net
        Actual transfers, unpaid obligations (+/-)                                  0                        0                     0                     0
        Actual transfers, uncollected customer
          payments from Federal sources (+/-)                                       0                        0                     0                     0
        Total Unpaid obligated balance transferred, net                             0                        0                     0                     0
      Less: Recoveries of prior year unpaid obligations, actual                 (508)                (306,387)           (2,940,236)          (12,509,699)
      Change in uncollected customer
          payments from Federal sources (+/-)                                   1,186                  32,641                44,103               (76,073)
      Obligated balance, net, end of period
        Unpaid obligations                                                     71,882                9,332,998            21,041,317            51,054,445
        Less: Uncollected customer payments (+/-)
          from Federal sources (-)                                              1,186                (340,556)           (1,656,654)             (181,964)
        Total, unpaid obligated balance, net, end of period                    73,068                8,992,442            19,384,663            50,872,481


      Net Outlays:
        Gross outlays                                                          19,468               19,200,372            49,712,310            35,457,000
        Less: Offsetting collections                                           (1,186)               (448,029)           (5,459,462)             (839,295)
        Less: Distributed Offsetting receipts                             (268,762)                          0                (1,810)                    0
        Net Outlays                                               $       (250,480) $               18,752,343 $          44,251,038 $          34,617,705




124
2007 Annual Financial Report



Department of Defense
Department of the Navy
DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2007 and 2006
($ in Thousands)

                                                                                               Military
                                                                Military Personnel       Construction/ Family       2007 Combined         2006 Combined
                                                                                              Housing

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1             $               199,479 $               1,450,555 $            20,835,975 $          17,128,479
Recoveries of prior year unpaid obligations                                 753,197                       (1,727)          16,508,300             5,261,990
Budget authority
  Appropriation                                                          40,821,621                 1,849,811             150,757,067           145,511,602
  Borrowing authority                                                                0                         0                    0                     0
  Contract authority                                                                 0                         0                    0                     0
  Spending authority from offsetting collections
      Earned
           Collected                                                        368,213                   586,082               7,690,260             7,767,620
           Change in receivables from Federal sources                        (2,851)                      91,231             317,620              (948,730)
      Change in unfilled customer orders
           Advance received                                                          0                    38,486               50,491                54,329
           Without advance from Federal sources                              17,560                   220,855                   7,319               519,073
      Anticipated for rest of year, without advances                                 0                         0                    0                     0
      Previously unavailable                                                         0                         0                    0                     0
      Expenditure transfers from trust funds                                         0                         0                    0                     0
  Subtotal                                                               41,204,543                 2,786,465             158,822,757           152,903,894
Nonexpenditure transfers, net, anticipated and actual                        29,262                 (280,367)                144,174                667,410
Temporarily not available pursuant to Public Law                                     0                         0                    0                     0
Permanently not available                                                  (20,469)                  (35,681)              (1,328,122)           (3,253,303)
Total Budgetary Resources                                   $            42,166,012 $               3,919,245 $           194,983,084 $         172,708,470


Status of Budgetary Resources:
Obligations incurred:
  Direct                                                    $            41,508,547 $               1,670,610 $           163,297,807 $         146,006,781
  Reimbursable                                                              382,592                   747,837               7,750,730             5,865,715
  Subtotal                                                               41,891,139                 2,418,447             171,048,537           151,872,496
Unobligated balance:
  Apportioned                                                                25,757                 1,423,515              21,765,826            19,197,595
  Exempt from apportionment                                                          0                         0                    0                     0
  Subtotal                                                                   25,757                 1,423,515              21,765,826            19,197,595
Unobligated balance not available                                           249,116                    77,283               2,168,721             1,638,379
Total Status of Budgetary Resources                         $            42,166,012 $               3,919,245 $           194,983,084 $         172,708,470


Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1            $               910,097 $               2,270,253 $            78,088,020 $          72,093,186
  Less: Uncollected customer payments
     from Federal sources, brought forward, October 1                       (27,105)                (764,208)             (2,971,157)           (3,400,814)
  Total unpaid obligated balance                                            882,992                 1,506,045              75,116,863            68,692,372
Obligations incurred net (+/-)                                           41,891,139                 2,418,447             171,048,537           151,872,496
Less: Gross outlays                                                     (40,079,628)               (1,968,402)          (146,437,179)         (140,615,673)
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                         0                         0                    0                     0
  Actual transfers, uncollected customer
    payments from Federal sources (+/-)                                              0                         0                    0                     0
  Total Unpaid obligated balance transferred, net                                    0                         0                    0                     0
Less: Recoveries of prior year unpaid obligations, actual                 (753,197)                        1,727         (16,508,300)           (5,261,990)
Change in uncollected customer
    payments from Federal sources (+/-)                                     (14,709)                (312,086)               (324,938)               429,657
Obligated balance, net, end of period
  Unpaid obligations                                                      1,968,411                 2,722,024              86,191,077            78,088,020
  Less: Uncollected customer payments (+/-)
    from Federal sources (-)                                                (41,814)               (1,076,294)            (3,296,095)           (2,971,157)
  Total, unpaid obligated balance, net, end of period                     1,926,597                 1,645,730              82,894,982            75,116,863


Net Outlays:
  Gross outlays                                                          40,079,628                 1,968,402             146,437,179           140,615,673
  Less: Offsetting collections                                            (368,213)                 (624,568)             (7,740,753)           (7,821,950)
  Less: Distributed Offsetting receipts                                           0                         0               (270,572)             (149,284)
  Net Outlays                                               $            39,711,415 $               1,343,834 $           138,425,854 $         132,644,439




                                                                                                                                                                    125
                                                                                                                                                     General Fund
                                                                                                                     Department of the Navy



      Schedule, Part A DoD Intra-governmental Asset
      Balances.                                             Treasury     Fund Balance      Accounts       Loans
      ($ in Thousands)                                       Index:      with Treasury    Receivable    Receivable   Investments       Other
      Government Printing Oﬃce                                 4                    $0            $1            $0             $0           $0
      Executive Oﬃce of the President                          11                    0          3,240            0                 0           0
      Department of Agriculture                                12                    0           316             0                 0           0
      Department of Commerce                                   13                    0           638             0                 0      2,316
      Department of the Interior                               14                    0            16             0                 0     23,638
      Department of Justice                                    15                    0          2,536            0                 0      4,329
      United States Postal Service                             18                    0            60             0                 0           0
      Department of State                                      19                    0          3,956            0                 0           0
      Department of the Treasury                               20           107,344,401          228             0          9,756           59
      Army General Fund                                        21                    0         30,716            0                 0      1,265
      Resolution Trust Corporation                             22                    0             6             0                 0           0
      Oﬃce of Personnel Management                             24                    0             1             0                 0     36,911
      Nuclear Regulatory Commission                            31                    0            91             0                 0           0
      Department of Veterans Aﬀairs                            36                    0           818             0                 0           0
      General Service Administration                           47                    0             0             0                 0      6,810
      National Science Foundation                              49                    0           582             0                 0        66
      Air Force General Fund                                   57                    0          5,280            0                 0    234,131
      Environmental Protection Agency                          68                    0             0             0                 0      2,391
      Department of Transportation                             69                    0           204             0                 0     78,519
      Homeland Security                                        70                    0         15,797            0                 0       717
      Small Business Administration                            73                    0             0             0                 0        68
      Department of Health and Human Services                  75                    0           478             0                 0        24
      National Aeronautics and Space Administration            80                    0          2,854            0                 0      5,975
      Department of Housing and Urban Development              86                    0             6             0                 0           0
      Department of Energy                                     89                    0          1,107            0                 0       306
      Selective Service System                                 90                    0             0             0                 0           0
      Department of Education                                  91                    0            15             0                 0           0
      US Army Corps of Engineers                               96                    0          2,394            0                 0           0
      Other Defense Organizations General Funds                97                    0         33,375            0                 0      4,255
      Other Defense Organizations Working Capital Funds     97-4930                  0         19,074            0                 0      4,197
      Army Working Capital Fund                            97-4930.001               0           756             0                 0           0
      Navy Working Capital Fund                            97-4930.002               0         81,232            0                 0    (5,715)
      Air Force Working Capital Fund                       97-4930.003               0           310             0                 0           0
      Totals might not match to the Principal Statements    TOTALS         $107,344,401      $206,087           $0         $9,756      $400,262




126
2007 Annual Financial Report



Schedule, Part B DoD Intra-governmental entity liabilities.                                          Debts/Borrowings
($ in Thousands)                                              Treasury Index:   Accounts Payable    From Other Agencies     Other
Department of Agriculture                                           12                    $1,077                     $0             $0
Department of Commerce                                              13                      1,633                     0              0

Department of the Interior                                          14                     5,841                      0             0
Department of Justice                                               15                     2,782                      0              0
Department of Labor                                                 16                         0                      0       635,714
United States Postal Service                                        18                    14,464                      0              0
Department of State                                                 19                    14,590                      0              0
Department of the Treasury                                          20                    26,827                      0             0
Army General Fund                                                   21                    61,726                      0              0
Oﬃce of Personnel Management                                        24                       691                      0        42,452
Federal Communications Commission                                   27                       755                      0              0
Nuclear Regulatory Commission                                       31                        23                      0              0
Department of Veterans Aﬀairs                                       36                     2,798                      0             0
General Service Administration                                      47                    96,999                      0              0
National Science Foundation                                         49                       672                      0             0
Air Force General Fund                                              57                    42,101                      0             0
Tennessee Valley Authority                                          64                       446                      0              0
Environmental Protection Agency                                     68                       408                      0              0
Department of Transportation                                        69                    37,335                      0              0
Homeland Security                                                   70                    14,418                      0              0
Small Business Administration                                       73                        38                      0             0
Department of Health and Human Services                             75                        88                      0              0
National Aeronautics and Space Administration                       80                    26,829                      0              0
Department of Energy                                                89                   128,038                      0              0
US Army Corps of Engineers                                          96                       (63)                     0              0
Other Defense Organizations General Funds                           97                    44,587                      0         1,960
The General Fund of the Treasury                                    99                         0                      0      3,962,692
Other Defense Organizations Working Capital Funds                97-4930                 264,487                      0             0
Army Working Capital Fund                                       97-4930.001               12,925                      0             0
Navy Working Capital Fund                                       97-4930.002              569,352                      0             0
Air Force Working Capital Fund                                  97-4930.003                4,701                      0             0
Military Retirement Fund                                         97-8097                 118,949                      0             0
Totals might not match to the Principal Statements               TOTALS                $1,495,517                    $0     $4,642,818




                                                                                                                                         127
                                                                                                                          General Fund
                                                                                             Department of the Navy



      Schedule, Part C DoD Intra-governmental revenue and related costs.
      ($ in Thousands)                                                     Treasury Index:      Earned Revenue
      Government Printing Oﬃce                                                   4                               $118
      Executive Oﬃce of the President                                            11                          32,279
      Department of Agriculture                                                  12                          59,321
      Department of Commerce                                                     13                          11,521
      Department of the Interior                                                 14                               143
      Department of Justice                                                      15                          12,107
      United States Postal Service                                               18                                87
      Department of State                                                        19                              8,679
      Department of the Treasury                                                 20                              1,901
      Army General Fund                                                          21                         637,053
      Resolution Trust Corporation                                               22                                19
      Oﬃce of Personnel Management                                               24                                29
      Nuclear Regulatory Commission                                              31                               759
      Department of Veterans Aﬀairs                                              36                              3,380
      General Service Administration                                             47                                12
      National Science Foundation                                                49                              4,266
      Air Force General Fund                                                     57                         219,191
      Environmental Protection Agency                                            68                               150
      Department of Transportation                                               69                              4,345
      Homeland Security                                                          70                          72,618
      Department of Health and Human Services                                    75                              3,894
      National Aeronautics and Space Administration                              80                              5,493
      Department of Housing and Urban Development                                86                               126
      Department of Energy                                                       89                              5,254
      Selective Service System                                                   90                                 9
      Department of Education                                                    91                              1,843
      Independent Agencies                                                       95                               154
      US Army Corps of Engineers                                                 96                          11,780
      Other Defense Organizations General Funds                                  97                         617,481
      Other Defense Organizations Working Capital Funds                       97-4930                       220,297
      Army Working Capital Fund                                              97-4930.001                     21,825
      Navy Working Capital Fund                                              97-4930.002                  1,376,637
      Air Force Working Capital Fund                                         97-4930.003                         4,955
      DoD Medicare-Eligible Retiree Health Care Fund                                                        115,961
      Totals might not match to the Principal Statements                      TOTALS                     $3,453,687




128
2007 Annual Financial Report



Schedule, Part E DoD Intra-governmental non-exchange
revenues.
($ in Thousands)                                       Treasury Index:   Transfers In            Transfers Out
Department of the Treasury                                   20                          $189                    $0
Air Force General Fund                                       57                         12,648                    0
Other Defense Organizations General Funds                    97                         45,923                   0
Other Defense Organizations Working Capital Funds         97-4930                       32,712                   0
Army Working Capital Fund                                97-4930.001                    66,000                    0
Air Force Working Capital Fund                           97-4930.003                100,000                       0
Totals might not match to the Principal Statements        TOTALS                   $257,472                      $0




                                                                                                                      129
                                                                                                       General Fund
      Department of the Navy




130
    General Fund
    Other Accompanying Information




                                                            General Fund Other Accompanying Information
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                      131
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                      Department of the Navy



      Appropriations, Funds, and Accounts Included in the Principal
      Statements
      Entity Accounts
      General Funds
            17X0380       Coastal Defense Augmentation, Navy
            17 0703       Family Housing, Navy and Marine Corps
            17 0730       Family Housing Construction, Navy and Marine Corps
            17 0735       Family Housing Operation and Maintenance, Navy and Marine Corps
            17X0810       Environmental Restoration, Navy
            17 1000       Medicare Eligible Retiree Health Care Fund, Military Personnel Navy
            17 1001       Medicare Eligible Retiree Health Care Fund, Military Personnel Marine Corps
            17 1002       Medicare Eligible Retiree Health Care Fund, Reserve Personnel Navy
            17 1003       Medicare Eligible Retiree Health Care Fund, Reserve Personnel Marine Corps
            17 1105       Military Personnel, Marine Corps
            17 1106       Operation and Maintenance, Marine Corps
            17 1107       Operation and Maintenance, Marine Corps Reserve
            17 1108       Reserve Personnel, Marine Corps
            17 1109       Procurement, Marine Corps
            17 1205       Military Construction, Navy and Marine Corps
            17 1235       Military Construction, Naval Reserve
            17 1236       Payments to Kaho Olawe Island Conveyance, Remediation and Environmental
                          Restoration Fund, Navy
            17   1319     Research, Development, Test and Evaluation, Navy
            17   1405     Reserve Personnel, Navy
            17   1453     Military Personnel, Navy
            17   1506     AircraĞ Procurement, Navy
            17   1507     Weapons Procurement, Navy
            17   1508     Procurement of Ammunition, Navy and Marine Corps
            17   1611     Shipbuilding and Conversion
            17   1804     Operation and Maintenance, Navy
            17   1806     Operation and Maintenance, Navy Reserve
            17   1810     Other Procurement, Navy

      Revolving Funds
            17X4557       National Defense SealiĞ Fund, Navy

      Earmarked Trust Funds
            17X8716      Department of the Navy General GiĞ Fund
            17X8723      Ships Stores Proﬁts, Navy
            17X8733      United States Naval Academy General GiĞ Fund

      Earmarked Special Funds
            17X5095       Wildlife Conservation, Military Reservations, Navy
            17X5185       Kaho Olawe Island Conveyance, Remediation and Environmental Restoration
                          Fund, Navy
            17X5429       Rossmoor Liquidating Trust SeĴlement Account
            17X5562       Ford Island Improvement Account




132
2007 Annual Financial Report



General Fund Non- Entity Accounts
       17 1XXX         Receipt Accounts
       17 3XXX         Receipt Accounts
       17X6XXX         Deposit Funds

Parent-Child (Allocation) Transfer Accounts
      17 11 1081     International Military Education and Training Funds, appropriated to the President
      17 11X1081     International Military Education and Training Funds, appropriated to the President
      17 11 1082     Foreign Military Financing Program, Funds appropriated to the President
      17 12X1105B State and Private Forestry, Forest Service
      17 69X8083     Federal-Aid Highways (Liquidation of Contract Authorization), Federal Highway
                     Administration




                                                                                                           133
                                                                                            General Fund
      Department of the Navy




134
    2007
    Navy Working Capital Fund
    Principal Statements




                                                            Navy Working Capital Fund Principal Statements
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                      135
2007 Annual Financial Report 2007 Annual Financial Report
                                                                Department of the Navy




      Limitations to the Financial
      Statements
      The principal ﬁnancial statements have been
      prepared to report the ﬁnancial position and
      results of operations of the entity, pursuant to the
      requirements of 31 United States Code 3515 (b).
      While the statements have been prepared from the
      books and records of the entity in accordance with
      Generally Accepted Accounting Principles for Federal
      entities and the formats prescribed by the Oﬃce
      of Management and Budget, the statements are in
      addition to the ﬁnancial reports used to monitor and
      control budgetary resources which are prepared from
      the same books and records. The statements should be
      read with the realization that they are for a component
      of the U.S. Government, a sovereign entity.




136
2007 Annual Financial Report




Principal Statements
The Fiscal Year 2007 Navy Working Capital Fund Principal Statements and related notes are presented in
the format prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume
6B. The statements and related notes summarize ﬁnancial information for individual activity groups
and activities within the Navy Working Capital Fund for the ﬁscal year ending September 30, 2007, and
are presented on a comparative basis with information previously reported for the ﬁscal year ending
September 30, 2006.

The following statements comprise the Navy Working Capital Fund Principal Statements:

           Consolidated Balance Sheet

           Consolidated Statement of Net Cost

           Consolidated Statement of Changes in Net Position

           Combined Statement of Budgetary Resources

The Principal Statements and related notes have been prepared to report ﬁnancial position pursuant to
the requirements of the Chief Financial Oﬃcers Act of 1990, as amended by the Government Management
Reform Act of 1994. The accompanying notes should be considered an integral part of the Principal
Statements.




                                                                                                              137
                                                                                  Navy Working Capital Fund
                                                                                                    Department of the Navy



            Department of Defense
            Navy Working Capital Fund
            CONSOLIDATED BALANCE SHEET
            As of September 30, 2007 and 2006
               ($ in Thousands)


                                                                             2007 Consolidated     2006 Consolidated
                ASSETS (Note 2)
                 Intragovernmental:
                  Fund Balance with Treasury (Note 3)
                  Entity                                                 $           1,156,401 $           1,244,509
                  Non-Entity Seized Iraqi Cash                                               0                     0
                  Non-Entity - Other                                                         0                     0
                  Investments (Note 4)                                                       0                     0
                  Accounts Receivable (Note 5)                                         698,039               444,251
                  Other Assets (Note 6)                                                  3,886                 1,941
                     Total Intragovernmental Assets                                  1,858,326             1,690,701

                 Cash and Other Monetary Assets (Note 7)                                     0                     0
                 Accounts Receivable, Net (Note 5)                                      86,078                69,356
                 Loans Receivable (Note 8)                                                   0                     0
                 Inventory and Related Property, Net (Note 9)                       12,671,057            13,806,149
                 General Property, Plant and Equipment, Net (Note 10)                3,404,310             3,769,854
                 Investments (Note 4)                                                        0                     0
                 Other Assets (Note 6)                                                 294,072               363,465
                TOTAL ASSETS                                                        18,313,843            19,699,525

                LIABILITIES (Note 11)
                 Intragovernmental:
                  Accounts Payable (Note 12)                                           207,232               143,723
                  Debt (Note 13)                                                        70,697               173,224
                  Other Liabilities (Note 15 & Note 16)                                179,553               230,190
                     Total Intragovernmental Liabilities                               457,482               547,137

                 Accounts Payable (Note 12)                                          3,381,559             1,485,833
                 Military Retirement and Other Federal
                  Employment Benefits (Note 17)                                      1,047,589             1,185,039
                 Environmental and Disposal Liabilities (Note 14)                            0                     0
                 Loan Guarantee Liability (Note 8)                                           0                     0
                 Other Liabilities (Note 15 & Note 16)                               1,445,842             3,549,935
                TOTAL LIABILITIES                                                    6,332,472             6,767,944

                NET POSITION
                 Unexpended Appropriations - Earmarked Funds (Note 23)                       0                     0
                 Unexpended Appropriations - Other Funds                                33,595                 2,896
                 Cumulative Results of Operations - Earmarked Funds                          0                     0
                 Cumulative Results of Operations - Other Funds                     11,947,776            12,928,685
                TOTAL NET POSITION                                                  11,981,371            12,931,581

                TOTAL LIABILITIES AND NET POSITION                       $          18,313,843 $          19,699,525




      The accompanying notes are an integral part of the statements.

138
2007 Annual Financial Report



      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATED STATEMENT OF NET COST
      For the Years Ended September 30, 2007 and 2006
          ($ in Thousands)


                                                                     2007 Consolidated       2006 Consolidated
           Program Costs
             Gross Costs                                         $            23,582,179 $            24,097,994
             Less: Earned Revenue                                           (22,257,566)            (22,373,405)
             Net Costs                                                        1,324,613               1,724,589
           Costs Not Assigned to Programs                                             0                       0
           Less: Earned Revenue Not Attributable to Programs                          0                       0
           Net Cost of Operations                                $            1,324,613 $             1,724,589




The accompanying notes are an integral part of the statements.

                                                                                                                     139
                                                                                         Navy Working Capital Fund
                                                                                                   Department of the Navy



        Department of Defense
        Navy Working Capital Fund
        CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
        For the Years Ended September 30, 2007 and 2006
            ($ in Thousands)


                                                                           2007 Consolidated        2006 Consolidated
            CUMULATIVE RESULTS OF OPERATIONS
             Beginning Balances                                        $          12,928,685   $             13,540,239
             Prior Period Adjustments:
                Changes in accounting principles (+/-)                                     0                          0
                Correction of errors (+/-)                                                 0                          0
             Beginning Balances, as adjusted                                      12,928,685                 13,540,239
             Budgetary Financing Sources:
              Other adjustments (rescissions, etc) (+/-)                                   0                         0
              Appropriations used                                                     85,166                   121,857
              Nonexchange revenue                                                          0                         0
              Donations and forfeitures of cash and cash equivalents                       0                         0
              Transfers in/out without reimbursement (+/-)                           112,504                   (46,097)
              Other budgetary financing sources (+/-)                                      0                         0
             Other Financing Sources:
              Donations and forfeitures of property                                        0                          0
              Transfers in/out without reimbursement (+/-)                            17,242                    (89,398)
              Imputed financing from costs absorbed by others                        475,066                    559,297
              Other (+/-)                                                           (346,274)                   567,376
             Total Financing Sources                                                 343,704                  1,113,035
             Net Cost of Operations (+/-)                                          1,324,613                  1,724,589
             Net Change                                                             (980,909)                  (611,554)
             Cumulative Results of Operations                          $          11,947,776 $               12,928,685

            UNEXPENDED APPROPRIATIONS
             Beginning Balances                                        $               2,896   $                  6,286
             Prior Period Adjustments (+/-)
               Changes in accounting principles (+/-)                                      0                          0
               Correction of errors (+/-)                                                  0                          0
             Beginning Balances, as adjusted                                           2,896                      6,286
             Budgetary Financing Sources:
              Appropriations received                                                116,192                    118,467
              Appropriations transferred-in/out (+/-)                                      0                          0
              Other adjustments (rescissions, etc) (+/-)                                (327)                         0
              Appropriations used                                                    (85,166)                  (121,857)
             Total Budgetary Financing Sources                                        30,699                     (3,390)
             Unexpended Appropriations                                                33,595                      2,896
             Net Position                                              $          11,981,371 $               12,931,581




      The accompanying notes are an integral part of the statements.

140
2007 Annual Financial Report



  Department of Defense
  Navy Working Capital Fund
  COMBINED STATEMENT OF BUDGETARY RESOURCES
  For the Years Ended September 30, 2007 and 2006
      ($ in Thousands)


                                                                     2007 Combined          2006 Combined
      BUDGETARY FINANCING ACCOUNTS
      Budgetary Resources:
        Unobligated balance, brought forward, October 1          $          2,547,953 $              2,816,660
        Recoveries of prior year unpaid obligations                            31,229                        0
        Budget Authority:
           Appropriations received                                            116,192                  118,467
           Borrowing authority                                                      0                        0
           Contract authority                                               5,673,309                4,903,708
        Spending authority from offsetting collections:
           Earned
             Collected                                                     23,784,389               24,056,575
             Change in receivables from Federal sources                       263,324                  108,975
           Change in unfilled customer orders
             Advances received                                                  (4,720)               (159,907)
             Without advance from Federal sources                            (357,667)                (371,044)
           Anticipated for rest of year, without advances                             0                       0
           Previously unavailable                                                     0                       0
           Expenditure Transfers from trust funds                                     0                       0
          Subtotal                                                         29,474,827               28,656,774
        Nonexpenditure Transfers, net, anticipated and actual                  112,504                 (46,097)
        Temporarily not available pursuant to Public Law                              0                       0
        Permanently not available                                          (6,597,645)              (5,936,931)
        Total Budgetary Resources                                          25,568,868               25,490,406

      Status of Budgetary Resources:
        Obligations incurred:
           Direct                                                                 599                   39,985
           Reimbursable                                                    24,043,103               22,902,470
           Subtotal                                                        24,043,702               22,942,455
        Unobligated balance:
           Apportioned                                                      1,525,168                2,796,842
           Exempt from apportionment                                         (60,183)                (441,211)
           Subtotal                                                         1,464,985                2,355,631
        Unobligated balances not available                                     60,181                  192,320
        Total Status of Budgetary Resources                      $         25,568,868 $             25,490,406




The accompanying notes are an integral part of the statements.

                                                                                                                  141
                                                                                      Navy Working Capital Fund
                                                                                                 Department of the Navy


      Department of Defense
      Navy Working Capital Fund
      COMBINED STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2007 and 2006
          ($ in Thousands)


                                                                           2007 Combined           2006 Combined
          RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
          Change in Obligated Balance:
           Obligated balance, net
              Unpaid obligations, brought forward, October 1           $         12,112,506 $             12,667,320
              Less: Uncollected customer payments from
                 Federal sources, brought forward, October 1                     (7,376,260)              (7,638,329)
              Total Unpaid Obligated Balance                                       4,736,246                5,028,991
           Obligations incurred, net (+/-)                                        24,043,702               22,942,454
           Less: Gross outlays                                                  (23,995,180)             (23,497,266)
           Obligated balance transferred, net
              Actual transfers, unpaid obligations (+/-)                                   0                        0
              Actual transfers, uncollected customer
                 payments from Federal sources (+/-)                                       0                      (1)
              Total Unpaid Obligated Balance Transferred, net                              0                        0
           Less: Recoveries of prior year unpaid obligations, actual                (31,229)                        0
           Change in uncollected customer
              payments from Federal sources (+/-)                                    94,343                  262,068
           Obligated balance, net, end of period
              Unpaid obligations                                                 12,129,800               12,112,506
              Less: Uncollected customer payments from
                 Federal sources                                                 (7,281,919)              (7,376,260)
              Total Unpaid Obligated Balance, net, end of period                  4,847,881                4,736,246

          Net Outlays:
           Gross Outlays                                                          23,995,180               23,497,266
           Less: Offsetting collections                                         (23,779,670)             (23,896,668)
           Less: Distributed Offsetting receipts                                           0                        0
          Net Outlays                                                  $             215,510 $              (399,402)




      The accompanying notes are an integral part of the statements.

142
    2007


                                                            Navy Working Capital Fund Notes to the Principal Statements
    Navy Working Capital Fund
    Notes to the Principal Statements

2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                      143
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                            Department of the Navy



      Note 1.         Signiﬁcant Accounting Policies
      1.A.    Basis of Presentation
      These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of
      the Navy Working Capital Fund (NWCF), as required by the Chief Financial Oﬃcers (CFO) Act of 1990,
      expanded by the Government Management Reform Act of 1994, and other appropriate legislation. The
      ﬁnancial statements have been prepared from the books and records of NWCF in accordance with the
      Department of Defense (DoD) Financial Management Regulation, the Oﬃce of Management and Budget
      (OMB) Circular A-136, Financial Reporting Requirements, and to the extent possible Generally Accepted
      Accounting Principles (GAAP). Eﬀective 4th Quarter, Fiscal Year (FY) 2006, DoD no longer publishes
      consolidating/combining ﬁnancial statements. The accompanying ﬁnancial statements account for all
      resources for which NWCF is responsible unless otherwise noted. Information relative to classiﬁed
      assets, programs, and operations is excluded from the statements or otherwise aggregated and reported
      in such a manner that it is not discernable.

      The NWCF is unable to fully implement all elements of GAAP and OMB Circular A-136 due to
      limitations of its ﬁnancial and nonﬁnancial management processes and systems that feed into the
      ﬁnancial statements. The NWCF derives its reported values and information for major asset and liability
      categories largely from nonﬁnancial systems, such as inventory and logistic systems. These systems were
      designed to support reporting requirements for maintaining accountability over assets and reporting the
      status of federal appropriations rather than preparing ﬁnancial statements in accordance with GAAP.
      The NWCF continues to implement processes and system improvements addressing these limitations.
      The DoD currently has several auditor identiﬁed ﬁnancial statement material weaknesses. Of these,
      NWCF has the following: Fund Balance with Treasury; General Property, Plant, and Equipment;
      Inventory; and Accounts Payable.

      1.B.    Mission of the Reporting Entity
      The Department of the Navy (DON) was created on April 30, 1798 by an act of Congress (I Stat.533;
      5 U.S.C. 411-12). The overall mission of DON is to maintain, train, and equip combat-ready Navy and
      Marine Corps forces capable of winning wars, deterring aggression and maintaining freedom of the seas.
      The NWCF provides goods, services, and infrastructure to DON and other DoD customers to help ensure
      our military forces are mobile, ready, and have the most advanced technology.

      1.C.    Appropriations and Funds
      The NWCF receives its appropriations and funds as working capital (revolving) funds. The NWCF uses
      these appropriations and funds to execute its missions and subsequently report on resource usage.

      Working capital funds (WCF) received funding to establish an initial corpus through an appropriation
      or a transfer of resources from existing appropriations or funds. The corpus ﬁnances operations and
      transactions that ﬂow through the fund. The WCF resources the goods and services sold to customers on
      a reimbursable basis and maintains the corpus.

      Reimbursable receipts fund future ongoing operations and generally are available in their entirety for use
      without further congressional action. At various times, the Congress provides additional appropriations
      to supplement WCF as an infusion of cash when revenues are inadequate to cover costs within the
      corpus.

      1.D.    Basis of Accounting
      For FY 2007, NWCF’s ﬁnancial management systems are unable to meet all of the requirements for full
      accrual accounting. Many of NWCF’s ﬁnancial and nonﬁnancial feeder systems and processes were
      designed and implemented prior to the issuance of GAAP for federal agencies. These systems were

144
2007 Annual Financial Report



not designed to collect and record ﬁnancial information on the full accrual accounting basis as required
by GAAP. Some NWCF budgetary accounts are not transaction driven. In certain cases, proprietary
and statistical accounts are used to generate the budgetary accounts required to produce the Report on
Budget Execution (SF 133) and Statement of Budgetary Resources. Therefore, amounts between the two
will not necessarily align. The NWCF is working to correct this weakness.

The DoD has undertaken eﬀorts to determine the actions required to bring its ﬁnancial and nonﬁnancial
feeder systems and processes into compliance with GAAP. One such action is the current revision of its
accounting systems to record transactions based on the U.S. Standard General Ledger (USSGL). Until
all of NWCF’s ﬁnancial and nonﬁnancial feeder systems and processes are updated to collect and report
ﬁnancial information as required by GAAP, NWCF’s ﬁnancial data will be derived from transactions
from nonﬁnancial feeder systems, and accruals are made for major items such as payroll expenses and
accounts payable.

In addition, DoD identiﬁes program costs based upon the major appropriation groups provided by
the Congress. Current processes and systems do not capture and report accumulated costs for major
programs based upon the performance measures as required by the Government Performance and
Results Act. The DoD is working towards a cost reporting methodology that meets the need for cost
information required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
“Managerial Cost Accounting Concepts and Standards for the Federal Government”.

1.E.    Revenues and Other Financing Sources
Depot Maintenance WCF activities recognize revenue according to the percentage of completion method.
Research and Development activities recognize revenue according to the percentage of completion
method or as actual costs are incurred and billed. Supply Management WCF activities recognize revenue
from the sale of inventory items. Revenue is recognized at the time service is rendered for Base Support
WCF activities. The Transportation WCF activity recognizes revenue on either a reimbursable or per
diem basis.

The NWCF does not include nonmonetary support provided by U.S. allies for common defense and
mutual security in amounts reported in the Statement of Net Cost and the Note 21, Reconciliation of Net
Cost of Operations to Budget. The U.S. has cost sharing agreements with other countries. Examples
include countries where there is a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. Fleet is in a port.

1.F.    Recognition of Expenses
For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. However, because NWCF’s ﬁnancial and nonﬁnancial feeder systems were not designed
to collect and record ﬁnancial information on the full accrual accounting basis, accruals are made for
major items such as payroll expenses, accounts payable, and unbilled revenue. In the case of Operating
Materiels and Supplies (OM&S), operating expenses are generally recognized when the items are
purchased. Eﬀorts are underway to transition towards the consumption method for recognizing OM&S
expenses.

1.G.    Accounting for Intragovernmental Activities
Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among
entities within DoD or between two or more federal agencies. However, NWCF cannot accurately match
buyer and seller transactions by customer because NWCF’s systems do not track at the transaction
level. Generally, seller entities within DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal DoD accounting oﬃces. In most cases,
where the numbers do not match, buyer-side records are adjusted to agree with DoD seller-side

                                                                                                               145
                                                                                   Navy Working Capital Fund
                                                                                             Department of the Navy



      balances. IntraDoD intragovernmental balances are then eliminated. The volume of intragovernmental
      transactions is so large that aĞer-the-fact reconciliation cannot be accomplished eﬀectively with
      existing or foreseeable resources. The DoD is developing long-term system improvements to ensure
      intragovernmental information, to include suﬃcient up-front edits and controls eliminating the need for
      aĞer-the-fact reconciliations.

      The U.S. Treasury Financial Management Service (FMS) is responsible for eliminating transactions
      between DoD and other federal agencies. The Treasury Financial Manual, Part 2 – Chapter 4700,
      Agency Reporting Requirements for the Financial Report of the United States Government, and the
      U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide, provide guidance
      for reporting and reconciling intragovernmental balances. While NWCF is unable to fully reconcile
      intragovernmental transactions with all federal partners, NWCF is able to reconcile balances pertaining
      to investments in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank,
      Federal Employees’ Compensation Act transactions with the Department of Labor, and beneﬁt program
      transactions with the Oﬃce of Personnel Management.

      The DoD’s proportionate share of public debt and related expenses of the Federal Government is not
      included. The Federal Government does not apportion debt and its related costs to federal agencies. The
      DoD’s ﬁnancial statements, therefore, do not report any portion of the public debt or interest thereon, nor
      do the statements report the source of public ﬁnancing whether from issuance of debt or tax revenues.

      Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
      ﬁnancing ultimately may have been obtained through the issuance of public debt, interest costs have not
      been capitalized since the U.S. Treasury does not allocate such interest costs to the beneﬁting agencies.

      1.H.    Transactions with Foreign Governments and International Organizations
      Each year, NWCF sells defense articles and services to foreign governments and international
      organizations under the provisions of the Arms Export Control Act of 1976. Under the provisions of
      the Act, DoD has authority to sell defense articles and services to foreign countries and international
      organizations generally at no proﬁt or loss to the U.S. Government. Payment in U.S. dollars is required in
      advance.

      1.I.    Funds with the U.S. Treasury
      The NWCF’s monetary ﬁnancial resources are maintained in U.S. Treasury accounts. The disbursing
      oﬃces of the Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps
      of Engineers (USACE) and the Department of State’s ﬁnancial service centers process the majority of
      NWCF’s cash collections, disbursements, and adjustments worldwide. Each disbursing station prepares
      monthly reports that provide information to the U.S. Treasury on check issues, electronic fund transfers,
      interagency transfers, and deposits.

      In addition, these disbursing oﬃces submit reports to the U.S. Treasury by appropriation on interagency
      transfers, collections received, and disbursements issued. The U.S. Treasury records this information
      to the applicable Fund Balance with Treasury (FBWT) account. Diﬀerences between NWCF’s recorded
      balance in the FBWT accounts and U.S. Treasury’s FBWT accounts sometimes result and are subsequently
      reconciled.

      1.J.    Foreign Currency
      Not Applicable.




146
2007 Annual Financial Report



1.K.    Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and
refunds receivable from other federal entities or from the public. Allowances for doubtful accounts
due from the public are based upon analysis of collection experience by fund type. The DoD does not
recognize an allowance for estimated doubtful amounts from other federal agencies. Claims against
other federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures deﬁned in the Intragovernmental Business Rules published in the Treasury Financial Manual
at hĴp://www.fms.treas.gov/tfm/vol1/07-03.pdf.

1.L.    Direct Loans and Loan Guarantees
Not Applicable.

1.M.    Inventories and Related Property
All of NWCF’s inventories are currently reported at an approximation of historical cost using latest
acquisition cost adjusted for holding gains and losses. The latest acquisition cost method is used because
legacy inventory systems were designed for materiel management rather than accounting. Although
these systems provide visibility and accountability over inventory items, they do not maintain historical
cost data necessary to comply with SFFAS No. 3, Accounting for Inventory and Related Property.
Additionally, these systems cannot produce ﬁnancial transactions using USSGL, as required by the
Federal Financial Management Improvement Act of 1996 (P.L. 104-208). At the current time, NWCF
does not report any inventory using the moving average cost method. However, by utilizing new
system development processes, NWCF will be transitioning to the moving average cost method with the
implementation of the Navy Enterprise Resource Planning (ERP).

The NWCF manages only military or government speciﬁc materiel under normal conditions. Materiel is
a unique term that relates to military force management, and includes items such as weapons systems,
spare parts and repair parts necessary to equip, operate, maintain, and support military activities
without distinction as to its application for administrative or combat purposes. Items commonly used
in and available from the commercial sector are not managed in NWCF materiel management activities.
Operational cycles are irregular and the military risks associated with stock-out positions have no
commercial parallel. The NWCF holds materiel based on military need and support for contingencies.
The DoD does not aĴempt to account separately for “inventory held for sale” and “inventory held in
reserve for future sale” based on SFFAS No. 3 deﬁnitions, unless otherwise noted.

Related property includes OM&S and stockpile materiels. The OM&S, including munitions not held
for sale, are valued at standard purchase price. The NWCF uses both the consumption method and
the purchase method of accounting for OM&S. Items that are centrally managed and stored, such as
ammunition and engines, are generally recorded using the consumption method and are reported on the
Balance Sheet as OM&S. When current systems cannot fully support the consumption method, NWCF
uses the purchase method. Under this method, materiels and supplies are expensed when purchased.
During FY 2007, NWCF expensed signiﬁcant amounts using the purchase method because the systems
could not support the consumption method or management deemed that the item was in the hands of
the end user. This is a material weakness for DoD and long-term system corrections are in process. Once
the proper systems are in place, these items will be accounted for under the consumption method of
accounting.

The NWCF determined that the recurring high dollar value of OM&S in need of repair is material to the
ﬁnancial statements and requires a separate reporting category. Many high dollar items, such as aircraĞ
engines, are categorized as OM&S rather than military equipment.

The NWCF recognizes condemned materiel as “excess, obsolete, or unserviceable.” The cost of disposal

                                                                                                                147
                                                                                    Navy Working Capital Fund
                                                                                              Department of the Navy



      is greater than the potential scrap value; therefore, the net value of condemned materiel is zero.
      Potentially redistributed materiel, presented in previous years as “excess, obsolete, and unserviceable,” is
      included in the “held for use” or “held for repair” categories according to its condition.

      Inventory available and purchased for resale includes consumable spare and repair parts and repairable
      items owned and managed by NWCF. This inventory is retained to support military or national
      contingencies. Inventory held for repair is damaged inventory that requires repair to make suitable for
      sale or re-use. OĞen, it is more economical to repair these inventory items than to procure them. The
      NWCF oĞen relies on weapon systems and machinery no longer in production. As a result, NWCF
      supports a process that encourages the repair and rebuilding of certain items. This repair cycle is
      essential to maintaining a ready, mobile, and armed military force.

      Work in process balances include costs related to the production or servicing of items, including direct
      material, direct labor, applied overhead and other direct costs. Work in process also includes the value
      of ﬁnished products or completed services pending the submission of bills to the customer. The work
      in process designation may also be used to accumulate the amount paid to a contractor under cost
      reimbursable contract, to include amounts withheld from payment to ensure performance, and amounts
      paid to other government plants for accrued costs of end items of materiel ordered, but not delivered.
      Work in process includes munitions in production and depot maintenance work with its associated labor,
      applied overhead, and supplies used in the delivery of maintenance services.

      1.N.    Investments
      Not Applicable.

      1.O.    General Property, Plant and Equipment
      In FY 2006, DoD revised the real property capitalization threshold from $100 thousand to $20 thousand.
      The current $100 thousand capitalization threshold remains unchanged for the remaining General PP&E
      categories. The NWCF has not implemented this revised policy due to system and process limitations.

      Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15 thousand, $25 thousand,
      and $50 thousand for FYs 1993, 1994, and 1995, respectively, and an estimated useful life of two or more
      years. General PP&E previously capitalized at amounts below $100 thousand was wriĴen oﬀ of General
      Fund ﬁnancial statements in FY 1998. No adjustment was made for WCF assets that remain capitalized
      and reported on WCF ﬁnancial statements.

      When it is in the best interest of the government, NWCF provides government property to contractors to
      complete contract work. The NWCF either owns or leases such property, or it is purchased directly by the
      contractor for the government based on contract terms. When the value of contractor-procured General
      PP&E exceeds DoD capitalization threshold, Federal accounting standards require that it be reported on
      NWCF’s Balance Sheet.

      The DoD is developing new policies and a contractor reporting process for government furnished
      equipment that will provide appropriate General PP&E information for future ﬁnancial statement
      reporting purposes. Accordingly, NWCF reports only government property in the possession of
      contractors that is maintained in NWCF’s property systems. The DoD has issued new property
      accountability and reporting requirements that require NWCF to maintain, in their property systems,
      information on all property furnished to contractors. This action and other DoD proposed actions are
      structured to capture and report the information necessary for compliance with federal accounting
      standards.




148
2007 Annual Financial Report



1.P.    Advances and Prepayments
The DoD’s policy is to record advances and prepayments in accordance with GAAP. As such, payments
made in advance of the receipt of goods and services are reported as an asset on the Balance Sheet.
The DoD’s policy is to expense and/or properly classify assets when the related goods and services are
received. Not all DoD entities have implemented this policy primarily due to system limitations.

1.Q.    Leases
The NWCF does not have any leases to disclose for this reporting period.

1.R.    Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel
advances and certain contract ﬁnancing payments that are not reported elsewhere on NWCF’s Balance
Sheet.

The NWCF conducts business with commercial contractors under two primary types of contracts: ﬁxed
price and cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term
contracts can cause, NWCF may provide ﬁnancing payments. Contract ﬁnancing payments are deﬁned
in the Federal Acquisition Regulations (FAR), Part 32, as authorized disbursements of monies to a
contractor prior to acceptance of supplies or services by the Federal Government. Contract ﬁnancing
payments clauses are incorporated in the contract terms and conditions and may include advance
payments, performance-based payments, commercial advance and interim payments, progress payments
based on cost, and interim payments under certain cost-reimbursement contracts. Contract ﬁnancing
payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or
progress payments based on a percentage or stage of completion, which the Defense Federal Acquisition
Regulation Supplement authorizes only for construction of real property, shipbuilding, and ship
conversion, alteration, or repair. Progress payments for real property are reported as construction in
progress. It is DoD policy to record certain contract ﬁnancing payments as Other Assets.

1.S.    Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No.
12, “Recognition of Contingent Liabilities Arising from Litigation,” deﬁnes a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The
uncertainty will be resolved when one or more future events occur or fail to occur. The NWCF recognizes
contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the
loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not
exist but there is at least a reasonable possibility of incurring a loss or additional losses. Examples of
loss contingencies include the collectibility of receivables, pending, or threatened litigation, and possible
claims and assessments. The NWCF’s risk of loss and resultant contingent liabilities arise from pending
or threatened litigation or claims and assessments occur due to events such as aircraĞ, ship and vehicle
accidents; medical malpractice, property or environmental damages; and contract disputes.

1.T.    Accrued Leave
The NWCF reports as liabilities military leave and civilian earned leave, except sick leave, that has been
accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported
at the end of the accounting period reﬂects the current pay rates.

1.U.    Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

                                                                                                                   149
                                                                                       Navy Working Capital Fund
                                                                                             Department of the Navy



      Unexpended appropriations represent the amounts of authority that are unobligated and have not been
      rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for which legal
      liabilities for payments have not been incurred. Cumulative results of operations represent the net
      diﬀerence, since inception of an activity, between expenses and losses and ﬁnancing sources (including
      appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results also include
      donations and transfers in and out of assets that were not reimbursed.

      1.V.    Treaties for Use of Foreign Bases
      The DoD has the use of the land, buildings, and other overseas facilities that are obtained through various
      international treaties and agreements negotiated by the Department of State. The NWCF purchases
      capital assets overseas with appropriated funds; however, the host country retains title to land and
      improvements. Generally, treaty terms allow NWCF continued use of these properties until the treaties
      expire. In the event treaties or other agreements are terminated, whereby use of the foreign bases is
      prohibited, losses are recorded for the value of any nonretrievable capital assets. The seĴlement due to
      the U.S. or host nation is negotiated and takes into account the value of capital investments and may be
      oﬀset by the cost of environmental cleanup.

      1.W.    Comparative Data
      Not Applicable.

      1.X.    Unexpended Obligations
      The NWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The
      ﬁnancial statements do not reﬂect this liability for payment for goods and services not yet delivered,
      unless title passes.

      1.Y.    Undistributed Disbursements and Collection
      Undistributed disbursements and collections represent the diﬀerence between disbursements and
      collections matched at the transaction level to a speciﬁc obligation, payable, or receivable in the activity
      ﬁeld records as opposed to those reported by the U.S. Treasury. These amounts should agree with the
      undistributed amounts reported on the monthly accounting reports. In-transit payments are those
      payments that have been made, but have not been recorded in the fund holder’s accounting records.
      These payments are applied to the entities’ outstanding accounts payable balance. In-transit collections
      are those collections from other agencies or entities that have not been recorded in the accounting records.
      These collections are also applied to the entities’ accounts receivable balance.

      The DoD policy is to allocate supported undistributed disbursements and collections between federal and
      nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable
      and accounts receivable. Unsupported undistributed disbursements are recorded in accounts payable.
      Unsupported undistributed collections are recorded in other liabilities.

      1.Z.    Signiﬁcant Events
      Beginning 4th Quarter, FY 2007, DoD began presenting the Statement of Financing (SOF) as a note in
      accordance with OMB Circular A-136. The SOF will no longer be considered a basic statement and is now
      referred to as “Reconciliation of Net Cost of Operations to Budget.”




150
2007 Annual Financial Report



Note 2.          Nonentity Assets
    As of September 30                                      2007                              2006
    (Amounts in Thousands)
    1. Intragovernmental Assets
       A. Fund Balance with Treasury             $                         0    $                             0
       B. Accounts Receivable                                              0                                  0
       C. Total Intragovernmental Assets         $                         0    $                             0

    2.   Nonfederal Assets
         A. Cash and Other Monetary Assets       $                         0    $                             0
         B. Accounts Receivable                                        3,031                              2,822
         C. Other Assets                                                   0                                  0
         D. Total Nonfederal Assets              $                     3,031    $                         2,822

    3.   Total Nonentity Assets                  $                     3,031    $                         2,822

    4.   Total Entity Assets                     $                 18,310,812   $                    19,696,703


    5.   Total Assets                            $                 18,313,843   $                    19,699,525

Standard Disclosures
Nonentity assets are assets for which the Navy Working Capital Fund (NWCF) maintains stewardship
accountability and responsibility to report, but are not available for NWCF operations.

The Nonentity Accounts Receivable amount represents interest, penalties, ﬁnes, and administrative fees.
These fees do not belong to NWCF and will be distributed directly to the U.S. Treasury.


Note 3.          Fund Balance with Treasury
 As of September 30                                             2007                            2006
 (Amounts in Thousands)
 1. Fund Balances
    A. Appropriated Funds                             $                        0    $                          0
    B. Revolving Funds                                                 1,156,401                       1,244,509
    C. Trust Funds                                                             0                               0
    D. Special Funds                                                           0                               0
    E. Other Fund Types                                                        0                               0
    F. Total Fund Balances                            $                1,156,401    $                  1,244,509


 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                      $                1,156,401    $                  1,244,509
    B. Fund Balance per NWCF                                           1,156,401                       1,244,509

 3. Reconciling Amount                                $                         0   $                         0

                                                                                                                    151
                                                                                        Navy Working Capital Fund
                                                                                               Department of the Navy



      Status of Fund Balance with Treasury
       As of September 30                                              2007                         2006
       (Amounts in Thousands)
       1. Unobligated Balance
          A. Available                                       $                 1,464,986   $               2,355,631
          B. Unavailable                                                          60,181                     192,321

       2. Obligated Balance not yet Disbursed                $                12,129,800   $            12,112,507

       3. Nonbudgetary FBWT                                  $                        0    $                      0

       4. NonFBWT Budgetary Accounts                         $            (12,498,566)     $           (13,415,951)

       5. Total                                              $                 1,156,401   $               1,244,508


      Standard Disclosures
      The Status of Fund Balance with Treasury (FBWT) reﬂects the budgetary resources to support FBWT.

      Unobligated Balance represents the cumulative amount of budgetary authority that has not been set
      aside to cover outstanding obligations. Unobligated Balance is classiﬁed as available or unavailable and
      is associated with appropriations expiring at ﬁscal year end that remain available only for obligation
      adjustments until the account is closed.

      Obligated Balance not yet Disbursed represents funds that have been obligated for goods not yet received
      or services not yet performed and goods and services that have been delivered/received but not yet paid.

      Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that do
      not have budgetary authority, such as unavailable receipt accounts or clearing accounts.

      NonFBWT Budgetary Accounts represent adjustments to budgetary accounts that do not aﬀect FBWT.
      This amount is comprised of contract authority, accounts receivable, and unﬁlled orders without advance
      from customers for Navy Working Capital Fund (NWCF). This category reduces the Status of FBWT.

      All unobligated unavailable balances are restricted to future use and are not apportioned for current use.
      The unavailable balance consists of contract and budgetary authority from closed NWCF activities as a
      result of the ﬁnancial closure process.


      Disclosures Related to Suspense/Budget Clearing Accounts
      Per Oﬃce of Under Secretary of Defense (Comptroller) direction, NWCF Suspense/Budget Clearing
      Accounts are being reported under Department of the Navy General Fund, Index 17.




152
2007 Annual Financial Report



Disclosures Related to Problem Disbursements
                                                                                             (Decrease)/
  As of September 30                             2005          2006           2007          Increase from
                                                                                           FY 2006 to 2007
 (Amounts in Thousands)
 1. Total Problem Disbursements,
    Absolute Value
    A. Unmatched Disbursements (UMDs)        $     73,422 $        54,269 $       50,729 $             (3,540)
    B. Negative Unliquidated
       Obligations (NULO)                               0              14             30                   16
    C. In-Transit Disbursements                   476,076          14,275        457,236              442,961
2. Total                                     $    549,498 $        68,558 $      507,995 $            439,437


Standard Disclosures
A portion of the amounts reported on the metric furnished by Defense Finance and Accounting Service
(DFAS) Arlington is not supported by NWCF accounting systems. These discrepancies exist within
DFAS Columbus reports. In the current period, discrepancies in In-transit Disbursements amount to $9.1
million.

Problem Disbursements are reported as an absolute value amount. Absolute value is the sum of the
positive values of debit and credit transactions without regard to the plus or minus signs.

An Unmatched Disbursement occurs when a payment is not matched to a corresponding obligation in
the accounting system.

A Negative Unliquidated Obligation occurs when a payment is made against a valid obligation, but the
payment is greater than the amount of the obligation recorded in the oﬃcial accounting system.

The In-transits represent the absolute value of disbursements and collections made by a Department
of Defense disbursing activity on behalf of an accountable activity and have not yet been posted to the
accounting system.

Beginning with 2nd Quarter, FY 2007, in-transit disbursements have been reported as an absolute value as
opposed to net amounts disclosed in prior years. This reporting change applies to amounts in the note
schedule for both the current and comparative years.


Note 4.           Investments and Related Interest
Not applicable.




                                                                                                                 153
                                                                                     Navy Working Capital Fund
                                                                                                          Department of the Navy



      Note 5.       Accounts Receivable
                                                                2007                                               2006

       As of September 30                                   Allowance For
                                  Gross Amount                                         Accounts                Accounts
                                                             Estimated
                                       Due                                          Receivable, Net         Receivable, Net
                                                            Uncollectibles
       (Amounts in Thousands)
       1. Intragovernmental
          Receivables             $        698,039                         N/A          $       698,039      $        444,251
       2. Nonfederal
          Receivables (From
          the Public)             $            86,107   $                   (29)        $        86,078      $          69,356

       3. Total Accounts
          Receivable              $        784,146      $                   (29)        $       784,117      $        513,607



      Aged Accounts Receivable
                                                                2007                                       2006
      As of September 30
                                                 Intragovernmental         Nonfederal       Intragovernmental      Nonfederal
      (Amounts in Thousands)
      CATEGORY
      Nondelinquent
          Current                                $       806,069       $        37,056      $        699,170      $    40,407
          Noncurrent                                           0                 7,179                     0                0
      Delinquent
          1 to 30 days                           $          10,203     $           7,682    $             2,765   $       2,419
          31 to 60 days                                      1,693                 4,578                  1,220           3,792
          61 to 90 days                                      1,921                 6,171                  3,095             953
          91 to 180 days                                     1,742                 6,468                  2,118           2,135
          181 days to 1 year                                 1,016                 6,493                    470           2,031
          Greater than 1 year and less than
          or equal to 2 years                                1,072                 2,272                    699           3,262
          Greater than 2 years and less than
          or equal to 6 years                                   44                 4,114                      3           2,410
          Greater than 6 years and less than
          or equal to 10 years                                   0                 1,589                      0           1,845
          Greater than 10 years                                  0                 4,737                      0           4,597
      Subtotal                                   $       823,760       $        88,339      $        709,540      $    63,851
         Less Supported Undistributed
         Collections                                     (79,560)              (4,114)             (148,182)           (8,724)
         Less Eliminations                               (46,521)                    0             (106,136)                 0
         Less Other                                           360                1,882              (10,971)            14,256
      Total                                      $       698,039       $        86,107      $        444,251      $    69,383

154
2007 Annual Financial Report



Standard Disclosures
The nondelinquent noncurrent nonfederal accounts receivable represents the remaining balance of the
Guam Water Authority (GWA) debt to Base Support, Navy. The Department of the Navy (DON) ﬁled
a civil suit against the Government of Guam and GWA for failure to pay for water from January 1995 to
October 1999. The court ordered ﬁnal seĴlement allowed the Government of Guam and GWA to pay
the debt of $9 million plus interest by making 105 monthly payments beginning October 1, 2003. Base
Support, Navy has received the scheduled monthly payments to date and the account is current.

The DON is taking various collection actions to eliminate intragovernmental and nonfederal receivables
older than 30 days. The Navy Working Capital Fund (NWCF) and Defense Finance and Accounting
Service (DFAS) are working together to ensure timely collection/resolution of delinquent receivables,
as well as timely submission of receivables to debt collection in accordance with guidance. The NWCF
commands are also actively contacting agencies by phone, email, or one-on-one visits to resolve disputed
accounts receivable. The DFAS is seĴing up a Government Receivables Debt Collection Oﬃce to act as a
liaison between government agencies, ensuring timely collection of government receivables.

In the aging schedule above, the Other consists of required adjustments to reconcile account totals with
the Seller Elimination Report. The NWCF is working with DFAS as part of DON’s Financial Improvement
Program to correct this issue.


Note 6.         Other Assets
 As of September 30                                             2007                         2006
 (Amounts in Thousands)
 1. Intragovernmental Other Assets
    A. Advances and Prepayments                        $                 3,886   $                     1,941
    B. Other Assets                                                          0                             0
    C. Total Intragovernmental Other Assets            $                 3,886   $                     1,941

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments         $                27,116   $                   27,898
    B. Other Assets (With the Public)                                  266,956                      335,567
    C. Total Nonfederal Other Assets                   $               294,072   $                  363,465

 3. Total Other Assets                                 $               297,958   $                  365,406


Standard Disclosures
Other Assets (With the Public) consists of outstanding debt principal, prepayments made to vendors, and
travel advances.

Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights to
the Navy Working Capital Fund (NWCF) that protect the contract work from state or local taxation, liens
or aĴachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy; however,
these rights should not be misconstrued to mean that ownership of the contractor’s work has transferred
to the Federal Government. The Federal Government does not have the right to take the work, except as
provided in contract clauses related to termination or acceptance, and NWCF is not obligated to make
payment to the contractor until delivery and acceptance of a satisfactory product.


                                                                                                                 155
                                                                                     Navy Working Capital Fund
                                                                                                              Department of the Navy



      The Contract Financing Payment balance of $27.1 million is entirely comprised of estimated future
      funded payments that will be paid to the contractor upon future delivery and Federal Government
      acceptance of a satisfactory product. See additional discussion in Note 15, Other Liabilities.

      Other Disclosures
      The outstanding debt principal amount in Other Assets (With the Public) is reported in order to reconcile
      with the amount incorrectly reported by the Federal Financing Bank (FFB). As required by the Oﬃce of
      Under Secretary of Defense (Comptroller) memorandum of January 22, 1999, Transportation, Military
      SealiĞ Command is correctly recording payments to FFB as operating expense. The misclassiﬁcation by
      FFB has generated this long-standing reporting problem. See additional discussion in Note 13, Debt.

      Note 7.           Cash and Other Monetary Assets
      Not applicable.

      Note 8.           Direct Loan and/or Loan Guarantee Programs
      Not applicable.

      Note 9.           Inventory and Related Property
       As of September 30                                                    2007                                 2006
       (Amounts in Thousands)
       1. Inventory, Net                                       $                    12,313,482   $                       13,378,039
       2. Operating Materiels & Supplies, Net                                          357,575                              428,110
       3. Stockpile Materiels, Net                                                           0                                    0
       4. Total                                                $                    12,671,057   $                       13,806,149

      Inventory, Net
                                                                   2007                                2006
       As of September 30                     Inventory,         Revaluation        Inventory,       Inventory,          Valuation
                                             Gross Value         Allowance             Net              Net               Method
       (Amounts in Thousands)
       1. Inventory Categories
          A. Available and
             Purchased for Resale           $   21,379,136      $ (17,906,650)      3,472,486    $    (304,744)          LAC,MAC
          B. Held for Repair                    11,483,090         (2,950,029)      8,533,061        13,288,296          LAC,MAC
          C. Excess, Obsolete, and
             Unserviceable                        1,046,666         (1,046,666)             0                     0        NRV
                                                                                                                         MAC, SP,
          D. Raw Materiels                               0                   0          0                   0            LAC, AC
          E. Work in Process                       307,935                   0    307,935             394,487
          F. Total                          $   34,216,827      $ (21,903,345) 12,313,482        $ 13,378,039


            Legend for Valuation Methods:
            Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
            NRV = Net Realizable Value
            SP = Standard Price
            O = Other
            AC = Actual Cost
            MAC = Moving Average Cost

156
2007 Annual Financial Report



Standard Disclosures
There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

      1)   Distributions without reimbursement are made when authorized by Department of Defense
           (DoD) directives;

      2)   War reserve materiel in the amount of $80.2 million includes repair items that are considered
           restricted; and

      3)   Inventory, with the exception of safety stocks, may be sold to foreign, state, and local
           governments; private parties; and contractors in accordance with current policies and
           guidance or at the direction of the President.

There are no known restrictions on disposition of inventory as related to environmental or other
liabilities.

Inventory available and purchased for resale includes consumable spare and repair parts as well as
repairable items owned and managed by the Navy Working Capital Fund (NWCF) and includes all
materiel available for customer purchase. Inventory held for repair consists of damaged material that
requires repair to make it usable and includes all economically repairable materiel. Excess inventory
includes scrap materiels or items that cannot be economically repaired and are awaiting disposal. Work
in process includes costs related to the production or servicing of items, including direct materiel, direct
labor, applied overhead, and other direct costs. Work in process also includes the value of ﬁnished
products or completed services pending the submission of bills to the customer.

Federal Accounting Standards require disclosure of the amount of inventory held for “future sale.” The
NWCF currently has no inventory held for future sale reported for 4th Quarter, FY 2007 in Inventory Held
for Sale, Net. All inventory is currently planned for sale next ﬁscal year.

Inventory is assigned to categories based on guidance in the DoD Financial Management Regulation
(FMR), Volume 11B, Chapter 55.

Other Disclosures
The Supply Management, Navy’s inventory is reported using the approximation of historical cost method
as discussed in the FMR Volume 11B, Chapter 55. The approximation of historical cost is calculated by
using the latest acquisition cost less the allowance for holding gains and losses. Legacy inventory systems
were designed to capture materiel management information rather than accounting data. Although
these systems provide visibility and accountability over inventory items, they do not maintain historical
cost data necessary to comply with the Statement of Federal Financial Accounting Systems (SFFAS)
No. 3, Accounting for Inventory and Related Property. Since the implementation of the Oﬃce of Under
Secretary of Defense, Comptroller (OUSD(C)) Cost of Goods Sold Model, prior year values in equity,
inventory, and inventory allowance accounts have been impacted and remain noncompliant with SFFAS
No. 3 and generally accepted accounting practices. The Navy Enterprise Resource Planning will value
inventory at moving average cost and will be compliant with necessary guidance.




                                                                                                                   157
                                                                                       Navy Working Capital Fund
                                                                                                   Department of the Navy



      Operating Materiel and Supplies, Net
                                                          2007                              2006
        As of September 30              OM&S          Revaluation                                         Valuation
                                                                       OM&S, Net       OM&S, Net
                                      Gross Value     Allowance                                            Method
        (Amounts in Thousands)
        1. OM&S Categories
           A. Held for Use           $      357,575   $           0    $    357,575     $    428,110    SP, LAC, MAC
           B. Held for Repair                     0               0               0                0    SP, LAC, MAC
           C. Excess, Obsolete,
              and Unserviceable                   0               0               0                0         NRV


          D. Total                   $     357,575    $           0    $    357,575     $    428,110


            Legend for Valuation Methods:
            Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
            NRV = Net Realizable Value
            SP = Standard Price
            O = Other
            AC = Actual Cost
            MAC = Moving Average Cost

      Standard Disclosures
      Operating Materiel and Supplies (OM&S) held for use consists of property that is consumed during
      normal operations and includes consumable spare and repair parts for use on customer work by various
      activities.

      Federal Accounting Standards require disclosure of the amount of OM&S held for “future use.” The
      NWCF reports that $13.0 million of OM&S is held for future use and is included in the “held for use”
      category.

      There are no restrictions with regard to the use, sale, or disposition of OM&S applicable to NWCF
      activities.

      In order to standardize reporting of the categories held for use, held for repair, and excess, obsolete,
      unserviceable, the Department of the Navy implemented OUSD(C) condition code crosswalk as deﬁned
      in the memorandum, Accounting for Excess, Unserviceable, and Obsolete Inventory and Operating
      Materials and Supplies, of August 12, 2002. In addition, the condition code crosswalk was amended to
      include code “V” in the excess, obsolete, unserviceable category in September 2002.


      Stockpile Materiel, Net
      Not applicable.




158
2007 Annual Financial Report



Note 10. General PP&E, Net
                                                                 2007                                            2006
 As of September 30          Depreciation/                                      (Accumulated
                                               Service        Acquisition                        Net Book     Prior FY Net
                             Amortization                                       Depreciation/
                                                Life            Value                             Value       Book Value
                               Method                                           Amortization)
 (Amounts in Thousands)
 1. Major Asset
    Classes
   A. Land                       N/A           N/A        $          41,681              N/A $      41,681 $        45,822
   B. Buildings,
      Structures, and
      Facilities                 S/L          20 or 40            5,992,356 $      (4,036,263)    1,956,093      2,077,944
   C. Leasehold
      Improvements               S/L         lease term                 305              (254)          51              78
   D. Software                   S/L          2-5 or 10             492,208          (334,908)     157,300         196,144
   E. General
      Equipment                  S/L          5 or 10             2,845,027        (2,234,523)     610,504         728,552
   F. Military
      Equipment                  S/L          Various                       0               0            0               0
   G. Assets Under
      Capital Lease              S/L         lease term                     0               0            0               0
   H. Construction-
      in- Progress               N/A           N/A                  635,879              N/A       635,879         718,491
   I. Other                                                           2,802                0         2,802           2,823
   J. Total General
      PP&E                                                $    $10,010,258 $       (6,605,948) $ 3,404,310 $     3,769,854


      Legend for Valuation Methods:
      S/L = Straight Line
      N/A = Not Applicable

Standard Disclosures
There are no known restrictions on the use or convertibility of General Property, Plant, and Equipment
(PP&E), nor are there any adjustments resulting from changes in the accounting standards.

Military equipment is reported on the ﬁnancial statements of the Department of the Navy (DON) General
Fund.

General PP&E, Other consists of assets awaiting disposal.

Heritage assets and stewardship land are reported on the ﬁnancial statements of DON General Fund.


Assets Under Capital Lease
Not applicable.




                                                                                                                              159
                                                                                                  Navy Working Capital Fund
                                                                                                Department of the Navy



      Note 11. Liabilities Not Covered by Budgetary Resources
       As of September 30                                                2007                        2006
       (Amounts in Thousands)
       1. Intragovernmental Liabilities
          A. Accounts Payable                                  $                       0    $                      0
          B. Debt                                                                      0                           0
          C. Other                                                                 3,031                       2,822
          D. Total Intragovernmental Liabilities               $                   3,031    $                  2,822

       2.   Nonfederal Liabilities
            A. Accounts Payable                                $                       0    $                      0
            B. Military Retirement Benefits and Other
               Employment-Related Actuarial Liabilities                         1,047,588                   1,185,040
            C. Environmental Liabilities                                                0                           0
            D. Other Liabilities                                                        0                           0
            E. Total Nonfederal Liabilities                    $                1,047,588   $               1,185,040

       3.   Total Liabilities Not Covered by Budgetary
            Resources                                          $                1,050,619   $               1,187,862

       4.   Total Liabilities Covered by Budgetary
            Resources                                          $                5,281,853   $               5,580,082

       5.   Total Liabilities                                  $                6,332,472   $               6,767,944


      Standard Disclosures
      Liabilities not covered by budgetary resources are liabilities for which congressional action is needed
      before budgetary resources can be provided.

      The amount in liabilities not covered by budgetary resources is comprised of an actuarial liability, which
      is an estimate of what may have to be paid out in future ﬁscal years. Therefore, this liability is not
      covered by current ﬁscal year budgetary resources.

      Other Intragovernmental Liabilities consists of interest, penalties, ﬁnes, and administrative fees. These
      fees do not belong to Navy Working Capital Fund (NWCF), but are assessed to contracts and legal
      documents that cite NWCF lines of accounting. These fees will be distributed directly to the U.S.
      Treasury.

      Military Retirement and Other Federal Employment Beneﬁts not covered by budgetary resources are
      comprised of employee actuarial liability not due and payable during the current ﬁscal year. This liability
      is comprised of Federal Employees’ Compensation Act actuarial liability of $1.0 billion. See Note 17,
      Military Retirement and Other Federal Employment Beneﬁts, for additional disclosures.




160
2007 Annual Financial Report



Note 12. Accounts Payable
                                                              2007                                           2006

 As of September 30                              Interest, Penalties,
                                   Accounts
                                                and Administrative                 Total                     Total
                                   Payable
                                                        Fees
 (Amounts in Thousands)
 1. Intragovernmental
    Payables                   $      207,232   $                    N/A      $        207,232     $                 143,723
 2. Nonfederal
    Payables (to the
    Public)                         3,381,559                            0          3,381,559                     1,485,833

 3. Total                      $    3,588,791   $                        0    $     3,588,791      $              1,629,556


Standard Disclosures
The Navy Working Capital Fund’s systems do not track Intragovernmental transactions by customer at
the transaction level. Therefore, internal Department of Defense buyer-side balances are adjusted to agree
with internal seller-side balances for revenue, accounts receivable, and unearned revenue. Accounts
payable were adjusted by reclassifying amounts between federal and nonfederal accounts payable.


Note 13. Debt
                                                              2007                                      2006
 As of September 30                    Beginning               Net           Ending           Net              Ending
                                        Balance             Borrowing        Balance       Borrowing           Balance
 (Amounts in Thousands)
 1. Agency Debt
    (Intragovernmental)
    A. Debt to the Treasury           $             0   $            0   $             0   $            0     $           0
    B. Debt to the Federal
        Financing Bank                     173,224           (102,527)            70,697         (208,294)          173,224
    C. Total Agency Debt              $    173,224      $    (102,527)   $        70,697   $     (208,294)    $     173,224
 2. Total Debt                        $    173,224      $    (102,527)   $        70,697   $     (208,294)    $     173,224


Standard Disclosures
The Aﬂoat Prepositioning Force program, with congressional approval, provides ships for time charter to
meet requirements not available in the marketplace. These ships are built or converted by private interim
vessel owners using private, nongovernment ﬁnancing obtained from various banking institutions. There
were no payments made by the government during the building/conversion phase. Aﬂoat Prepositioning
Force program time charters are for ﬁve years with four option renewal periods of ﬁve years each, for a
total of 25 years. At the end of the contract, each ship returns to the vessel’s owner.

The Federal Financing Bank (FFB) is one of the institutions that provided loans to the vessel owners.
The FFB reports that Transportation, Military SealiĞ Command (MSC) has a debt in the amount of
$70.7 million, which represents an outstanding principal balance of $69.6 million and accrued interest

                                                                                                                               161
                                                                                                  Navy Working Capital Fund
                                                                                           Department of the Navy



      payable of $1.1 million. The MSC does not owe this debt to FFB. This debt is a public debt owed by the
      private vessel owners. In order to simplify the payments to FFB and to meet its requirements, FFB cross
      disburses the semi-annual principal and interest payments directly from NWCF. This is done instead of
      having MSC make capital hire payments to the vessel owners, who would in turn make loan obligation
      payments to FFB. It is common for the Federal Government to make payments directly to the bank
      (FFB) and mirrors other time charters where payment is assigned directly to a bank. However, when
      establishing the loan, FFB coded the loan as a government debt instead of a public debt.

      As required by the Oﬃce of Under Secretary of Defense (Comptroller) memorandum of January 22, 1999,
      MSC is correctly recording these payments as an operating expense. The outstanding debt principal
      amount is reported on NWCF Balance Sheet as an Other Asset in order to reconcile with the amount
      incorrectly reported by FFB. The misclassiﬁcation by FFB has generated this long-standing reporting
      problem. See Note 6, Other Assets, for additional disclosures.

      As required by the Department of Defense Appropriations Act passed in December 1985, ten percent of
      the ﬁĞh year termination value of the vessels must be obligated from Operation and Maintenance, Navy
      funds. This was completed as each vessel was delivered.


      Note 14. Environmental Liabilities and Disposal Liabilities
      The Navy Working Capital Fund Environmental Liabilities are reported under the Department of the
      Navy General Fund.




162
2007 Annual Financial Report



Note 15. Other Liabilities
                                                             2007                                 2006
 As of September 30                     Current             Noncurrent
                                                                                 Total            Total
                                        Liability            Liability
 (Amounts in Thousands)
 1. Intragovernmental
    A. Advances from Others         $        145,647    $                0   $     145,647    $    190,427
    B. Deposit Funds and
        Suspense Account
        Liabilities                                 0                    0               0                0
    C. Disbursing Officer Cash                      0                    0               0                0
    D Judgment Fund Liabilities                     0                    0               0                0
    E. FECA Reimbursement to
        the Department of Labor                    0                     0               0               0
    F. Other Liabilities                      33,906                     0          33,906          39,763

    G. Total Intragovernmental
       Other Liabilities            $        179,553    $                0   $     179,553    $    230,190
 2. Nonfederal
    A. Accrued Funded Payroll and
       Benefits                     $        703,169    $                0   $     703,169    $    843,552
    B. Advances from Others                  247,232                     0         247,232         207,797
    C. Deferred Credits                            0                     0               0               0
    D. Deposit Funds and Suspense
       Accounts                               (9,881)                    0          (9,881)         95,694
    E. Temporary Early Retirement
       Authority                                    0                    0               0                0
    F. Nonenvironmental Disposal
       Liabilities
       (1) Military Equipment
           (Nonnuclear)                             0                    0               0                0
       (2) Excess/Obsolete
           Structures                               0                    0               0                0
       (3) Conventional Munitions
           Disposal                                 0                    0               0                0
    G. Accrued Unfunded Annual
       Leave                                        0                    0               0                0
     H. Capital Lease Liability                    0                     0               0                0
     I. Other Liabilities                    478,421                26,901         505,322        2,402,892

     J. Total Nonfederal Other
        Liabilities                 $      1,418,941    $           26,901   $   1,445,842    $   3,549,935

 3. Total Other Liabilities         $      1,598,494    $           26,901   $   1,625,395    $   3,780,125


                                                                                                                163
                                                                                    Navy Working Capital Fund
                                                                                                 Department of the Navy



      Standard Disclosures
      Deposit funds and suspense accounts consist of an abnormal unsupported undistributed collections
      balance of $11.9 million for this reporting period. During FY 2007, Navy Working Capital Fund (NWCF)
      and the Defense Finance and Accounting Service (DFAS) reconciled unsupported undistributed
      collections and disbursements, and per Oﬃce of Under Secretary of Defense (Comptroller) policy, 26
      NWCF activities cleared stabilized unsupported undistributed collections and disbursements. However,
      Transportation, Military SealiĞ Command (MSC) did not complete reconciliation of their abnormal
      balance in unsupported undistributed collections during FY 2007. The reconciliation of unsupported
      undistributed collections at MSC will be completed during FY 2008.

      Intragovernmental Other Liabilities consists of retirement beneﬁts, health beneﬁts, custodial liabilities,
      and life insurance.

      Nonfederal Other Liabilities consists of liabilities for depot level repairable carcass returns and liability
      for future contract ﬁnancing payments.

      Contingent Liabilities includes $27.1 million in estimated future contract ﬁnancing payments that will be
      paid to the contractors upon delivery and Federal Government acceptance. In accordance with contract
      terms, speciﬁc rights to the contractor’s work vests with the Federal Government when a speciﬁc type
      of contract ﬁnancing payments is made. This action protects taxpayer funds in the event of contract
      nonperformance. These rights should not be misconstrued as the rights of ownership. The NWCF
      is under no obligation to pay the contractor for amounts greater than the amounts authorized in the
      contract until delivery and Federal Government acceptance. Because it is probable that the contractor
      will complete its eﬀorts and deliver a satisfactory product to NWCF and the amount of potential future
      payments is estimable; NWCF has recognized a contingent liability for estimated future payments, which
      are conditional pending delivery and Federal Government acceptance.


      Capital Lease Liability
      Not applicable.


      Note 16. Commitments and Contingencies
      Standard Disclosures
      The Department of the Navy (DON) is a party in various administrative proceedings and legal actions,
      with claims including environmental damage claims, equal opportunity maĴers, and contractual bid
      protests. These proceedings and actions arise in the normal course of operations and their ultimate
      disposition is unknown. The DON has accrued contingent liabilities for legal actions in those instances
      where DON’s Oﬃce of General Counsel (OGC) considers an adverse decision probable and the amount
      of loss is measurable. In the event of an adverse judgment against the Federal Government, some of the
      liabilities may be payable from the Judgment Fund. Others may be payable from DON’s resources, either
      directly or by reimbursement to the Judgment Fund. The DON General Fund (GF) records all Judgment
      Fund liabilities, including any related to Navy Working Capital Fund (NWCF), in Note 12, Accounts
      Payable. See DON GF Note 12 for details.

      For FY 2007 and FY 2006, NWCF materiality threshold for reporting litigation, claims, and assessments
      was $4.5 million and $5.0 million, respectively. The DON OGC conducts a review of litigation and claims
      threatened or asserted involving NWCF to which DON OGC’s aĴorneys devoted substantial aĴention
      in the form of legal consultation or representation. The NWCF currently has ﬁve cases that meet the
      existing FY 2007 NWCF materiality threshold of $4.5 million. All ﬁve cases are against NWCF and none
      are against the Navy Working Capital Fund-Marine Corps. DON legal counsel was unable to express
      an opinion concerning the likely outcome of these cases. This declaration is fully supported by the

164
2007 Annual Financial Report



preliminary and ﬁnal Legal Representation leĴers and the subsidiary management summary schedule.

Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as to
outcomes except in those relatively few clear cases. In response to a Department of Defense, Inspector
General Audit, DoD Process for Reporting Contingent Legal Liabilities, DON developed a methodology
to determine an estimate for contingent legal liabilities. Beginning with 1st Quarter, FY 2007, DON GF
recognized and disclosed an estimate for contingent legal liabilities. The methodology considers the
likelihood of an unfavorable outcome or potential liability and is provided as an overall assessment of
all cases currently pending and not on an individual case basis. The likelihood of an unfavorable or
potential liability was determined by using an average of the data from the preceding four years and the
current year. This average was calculated by taking the total dollar amount of closed cases and dividing
it by the total dollar amount claimed in those closed cases for each of the last four years plus current year.
This average represents the percentage that has historically been paid on claims. It is based entirely on
historical data. The merits of each individual case have not been taken into consideration. Until suﬃcient
historical data can be collected for NWCF, the estimate recorded on DON GF ﬁnancial statements will
consider all DON funding sources together.

The NWCF does not have obligations related to cancelled appropriations for which there is a contractual
commitment for payment. The NWCF has contractual arrangements, which may require future ﬁnancial
obligations (i.e. undelivered orders). These undelivered orders are estimated at $7.9 billion as of
September 30, 2007.

The NWCF is a party in numerous individual contracts that contain clauses, such as price escalation,
award fee payments, or dispute resolution, that may or may not result in a future outﬂow of
expenditures. Currently, NWCF does not have a systemic process by which it captures or assesses these
potential contingent liabilities; therefore, the amounts reported may not fairly present NWCF’s contingent
liabilities.




                                                                                                                  165
                                                                                      Navy Working Capital Fund
                                                                                                Department of the Navy



      Note 17. Military Retirement and Other Federal Employment
               Beneﬁts
                                                                  2007                                        2006

       As of September 30                             Assumed       (Less: Assets                            Present
                                    Present Value                                       Unfunded
                                                       Interest     Available to                             Value of
                                     of Benefits                                         Liability
                                                      Rate (%)      Pay Benefits)                            Benefits
       (Amounts in Thousands)
       1. Pension and Health
          Actuarial Benefits
          A. Military Retirement
             Pensions              $             0                   $          0   $                0   $              0
          B. Military Retirement
             Health Benefits                     0                              0                    0                  0
          C. Military Medicare-
             Eligible Retiree
             Benefits                            0                              0                    0                  0
          D. Total Pension and
             Health Actuarial
             Benefits              $             0                   $          0   $                0   $              0

       2. Other Actuarial
          Benefits
          A. FECA                  $      1,047,589                  $          0   $      1,047,589     $     1,185,039
          B. Voluntary
             Separation
             Incentive Programs                  0                              0                    0                  0
          C. DoD Education
             Benefits Fund                       0                              0                    0                  0
          D. Total Other
             Actuarial Benefits    $      1,047,589                  $          0   $      1,047,589     $     1,185,039

       3. Other Federal
          Employment Benefits      $             0                   $          0   $                0   $              0


       4. Total Military
          Retirement and Other
          Federal Employment
          Benefits:                $      1,047,589                  $          0   $      1,047,589     $     1,185,039


      Standard Disclosures
      The Department of the Navy (DON) actuarial liability for workers’ compensation beneﬁts is developed by
      the Department of Labor and provided to DON at the end of each ﬁscal year. The liability is distributed
      between the Navy Working Capital Fund and DON General Fund based upon the number of civilian
      employees funded in each entity as reported in the Navy Budget Tracking System. The liability includes
      the expected liability for death, disability, medical, and miscellaneous costs for approved compensation

166
2007 Annual Financial Report



cases. The liability is determined using a method that utilizes historical beneﬁt payment paĴerns to
predict the ultimate payments.

The assumptions relate to Federal Employees’ Compensation Act (FECA). The projected annual beneﬁt
payments are discounted to the present value using Oﬃce of Management and Budget’s economic
assumptions for ten year U.S. Treasury notes and bonds. Cost of living adjustments and medical inﬂation
factors are also taken into consideration when calculating projected future beneﬁts.

The interest rate assumptions utilized when discounting were as follows:

      2007
      4.930% in Year 1
      5.078% in Year 2 and thereaĞer

To provide more speciﬁcity concerning the eﬀects of inﬂation on the liability for future workers’
compensation beneﬁts, wage inﬂation factors (cost of living adjustments or COLAs) or medical inﬂation
factors (consumer price index medical or CPIMs) were applied to the calculation of projected future
beneﬁts. The actual rates for these factors for the charge back year (CBY) 2007 were also used to adjust
the methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

      CBY         COLA         CPIM
      2007        2.63%        3.74%
      2008        2.90%        4.04%
      2009        2.47%        4.00%
      2010        2.37%        3.94%
      2011+       2.30%        3.94%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis
was based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison
of the percentage change in the liability amount by agency to the percentage change in the actual
incremental payments, (3) a comparison of the incremental paid losses per case (a measure of case-
severity) in CBY 2007 to the average paĴern observed during the most current three charge back years,
and (4) a comparison of the estimated liability per case in the 2007 projection to the average paĴern for
the projections of the most recent three years.

There have been changes in the calculation of actuarial liability since the last reporting period. The
interest rate assumptions utilized and the number of civilian employees reported in the Navy Budget
Tracking System have decreased.




                                                                                                                167
                                                                                    Navy Working Capital Fund
                                                                                          Department of the Navy



      Note 18. General Disclosures Related to the Statement of Net
               Cost
       Intragovernmental Costs and Exchange Revenue

       As of September 30                                     2007                           2006

       (Amounts in Thousands)
       1. Intragovernmental Costs                 $                     4,803,661   $                  4,523,181
       2. Public Costs                                                 18,778,518                     19,574,813
       3. Total Costs                             $                    23,582,179   $                 24,097,994
       4. Intragovernmental Earned Revenue        $                  (20,966,636)   $               (21,367,634)
       5. Public Earned Revenue                                       (1,290,930)                    (1,005,772)
       6. Total Earned Revenue                    $                  (22,257,566)   $               (22,373,406)
       7. Net Cost of Operations                  $                    1,324,613    $                 1,724,588


      Standard Disclosures
      Intragovernmental costs and revenues are related to transactions made between two reporting entities
      within the Federal Government.

      Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal
      entity.

      The Navy Working Capital Fund’s (NWCF) ﬁnancial systems do not track intragovernmental transactions
      by customer at the transaction level. Therefore, internal Department of Defense buyer-side balances
      are adjusted to agree with internal seller-side balances for revenue or by other means. Expenses were
      adjusted by reclassifying amounts between federal and nonfederal expenses.

      The Statement of Net Cost is unique because its principles are driven by an understanding of net cost
      of programs and or organizations that the Federal Government supports through appropriations. This
      Statement provides gross and net cost information that can relate to the amount of output for a given
      program and/or organization administered by a responsible reporting entity.

      The NWCF ﬁnancial management systems are unable to meet all of the requirements for full accrual
      accounting. Many of NWCF’s ﬁnancial and nonﬁnancial feeder systems and processes were designed
      and implemented prior to the issuance of Generally Accepted Accounting Principles (GAAP) for
      federal agencies. These systems were not designed to collect and record ﬁnancial information as
      required by GAAP. The NWCF has undertaken eﬀorts to determine the actions required to bring its
      ﬁnancial and nonﬁnancial feeder systems and processes into compliance. Until all of NWCF’s ﬁnancial
      and nonﬁnancial feeder systems and processes are corrected, NWCF’s ﬁnancial data will be based on
      transactions from nonﬁnancial feeder systems, and accruals are made for major items such as payroll
      expenses and accounts payable.




168
2007 Annual Financial Report



Note 19. Disclosures Related to the Statement of Changes in
         Net Position
                                                   2007                               2006

 As of September 30                  Cumulative                         Cumulative
                                                        Unexpended                       Unexpended
                                      Results of                         Results of
                                                       Appropriations                   Appropriations
                                     Operations                         Operations
 (Amounts in Thousands)
 1. Prior Period
    Adjustments Increases
    (Decreases) to Net
    Position Beginning
    Balance
    A. Changes in
       Accounting Standards      $                 0   $            0   $         0     $                0
    B. Errors and Omissions
       in Prior Year
       Accounting Reports                          0                0             0                      0

    C. Total Prior Period
       Adjustments               $                 0   $            0   $         0     $               0

 2. Imputed Financing
    A. Civilian CSRS/FERS
       Retirement                $         177,593     $            0   $   225,349    $                0
    B. Civilian Health                     296,553                  0       332,920                     0
    C. Civilian Life Insurance                 920                  0         1,028                     0
    D. Judgment Fund                             0                  0             0                     0
    E. IntraEntity                               0                  0             0                     0

    F. Total Imputed
       Financing                 $         475,066     $            0   $   559,297    $                0


Standard Disclosures
The Cumulative Results of Operations, Other Financing Sources, Other consists of gains and losses
associated with the ﬁnancial closure of Navy Working Capital Fund activities.

The Cumulative Results of Operations, Budgetary Financing Sources, Other adjustments
(rescissions, etc.) consists of a rescission of an appropriation.




                                                                                                              169
                                                                                  Navy Working Capital Fund
                                                                                            Department of the Navy



      Note 20. Disclosures Related to the Statement of Budgetary
               Resources
       As of September 30                                      2007                           2006
       (Amounts in Thousands)
       1. Net Amount of Budgetary Resources
          Obligated for Undelivered Orders at
          the End of the Period                     $                  7,875,259   $                   7,699,219

       2. Available Borrowing and Contract
          Authority at the End of the Period                                   0                       6,039,690


      Standard Disclosures
      The Navy Working Capital Fund (NWCF) reports all amounts for obligations incurred under
      apportionment category B. Category B apportionments typically distribute budgetary resources by
      activities, projects, objects or a combination of these categories. The NWCF direct and reimbursable
      obligations incurred totaled $599 thousand and $24.0 billion, respectively.

      The Statement of Budgetary Resources (SBR) includes intraentity transactions, which have not been
      eliminated because the statements are presented as combined.

      The SBR is an image of the monthly Report on Budget Execution, Standard Form 133 (SF 133). The
      NWCF reports a diﬀerence of $11.8 million between the unobligated balance and the unobligated balance
      brought forward amounts reported on the SBR and SF 133. This diﬀerence is a result of a prior period
      employee beneﬁt adjustment that is carried forward per guidance. This diﬀerence should be corrected in
      1st Quarter, FY 2008.

      This note has been modiﬁed to accurately report the remaining available balance of borrowing and
      contract authority. Previously, the NWCF reported the amount of the contract/borrowing authority that
      had initially been used and not subsequently replaced by reimbursement or appropriation.




170
2007 Annual Financial Report



Note 21. Reconciliation of Net Cost of Operations to Budget
  As of September 30                                              2007                        2006
  (Amounts in Thousands)

  Resources Used to Finance Activities:
  Budgetary Resources Obligated:
  1. Obligations incurred                                     $      24,043,702       $          22,942,454
  2. Less: Spending authority from offsetting collections
      and recoveries (-)                                           (23,716,555)                 (23,634,600)
  3.   Obligations net of offsetting collections and
       recoveries                                             $           327,147     $            (692,146)
  4.   Less: Offsetting receipts (-)                                            0                          0
  5. Net obligations                                          $           327,147     $            (692,146)
  Other Resources:
  6. Donations and forfeitures of property                                       0                          0
  7. Transfers in/out without reimbursement (+/-)                           17,242                   (89,397)
  8. Imputed financing from costs absorbed by others                       475,066                   559,297
  9. Other (+/-)                                                         (346,274)                   567,376
  10. Net other resources used to finance activities          $           146,034     $            1,037,276
  11. Total resources used to finance activities              $           473,181     $              345,130
  Resources Used to Finance Items not Part of the Net
  Cost of Operations:
  12. Change in budgetary resources obligated for goods,
      services and benefits ordered but not yet provided:
      12a. Undelivered Orders (-)                             $          (176,039)    $            (113,368)
      12b. Unfilled Customer Orders                                      (362,387)                 (530,951)
  13. Resources that fund expenses recognized in prior
      Periods (-)                                                        (137,451)                   (10,441)
  14. Budgetary offsetting collections and receipts that do
      not affect Net Cost of Operations                                       0                            0
  15. Resources that finance the acquisition of assets (-)          (4,263,853)                  (3,154,696)
  16. Other resources or adjustments to net obligated
      resources that do not affect Net Cost of Operations:
      16a. Less: Trust or Special Fund Receipts Related to
           exchange in the Entity’s Budget (-)                                  0                          0
      16b. Other (+/-)                                                    329,032                  (477,979)
  17. Total resources used to finance items not part of
      the Net Cost of Operations                              $     (4,610,698)       $          (4,287,435)
  18. Total resources used to finance the Net Cost of
      Operations                                              $     (4,137,517)       $          (3,942,305)




                                                                                                                 171
                                                                                     Navy Working Capital Fund
                                                                                                 Department of the Navy




       As of September 30                                                 2007                         2006
       (Amounts in Thousands)

       Components of the Net Cost of Operations that will
       not Require or Generate Resources in the Current
       Period:
       Components Requiring or Generating Resources in
       Future Period:
       19. Increase in annual leave liability                       $                   0    $                      0
       20. Increase in environmental and disposal liability                             0                           0
       21. Upward/Downward reestimates of credit subsidy
           expense (+/-)                                                                0                           0
       22. Increase in exchange revenue receivable from the
           public (-)                                                                   0                           0
       23. Other (+/-)                                                                  0                       2,928
       24. Total components of Net Cost of Operations that
           will Require or Generate Resources in future periods     $                   0    $                  2,928
       Components not Requiring or Generating Resources:
       25. Depreciation and amortization                            $              228,829   $               221,880
       26. Revaluation of assets or liabilities (+/-)                            1,930,023                 1,583,686
       27. Other (+/-)
           27a. Trust Fund Exchange Revenue                                             0                          0
           27b. Cost of Goods Sold                                            11,566,742                   3,858,204
           27c. Operating Material and Supplies Used                                    0                          0
           27d. Other                                                         (8,263,464)                        194
       28. Total Components of Net Cost of Operations that
           will not Require or Generate Resources                   $            5,462,130   $             5,663,964
       29. Total components of Net Cost of Operations that
           will not Require or Generate Resources in the
           current period                                           $            5,462,130   $             5,666,892
       30. Net Cost of Operations                                   $            1,324,613   $             1,724,587


      Standard Disclosures
      Due to Navy Working Capital Fund (NWCF) ﬁnancial system limitations, budgetary data is not in
      agreement with proprietary expenses and assets capitalized. The diﬀerence between budgetary and
      proprietary data is a previously identiﬁed deﬁciency. As a result of these system limitations, resources
      that ﬁnance the acquisition of assets on the Reconciliation of Net Cost of Operations to Budget was
      adjusted upward by $17.7 billion (absolute amount) at the end of FY 2007 to bring it into balance with the
      Statement of Net Cost.

      The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead
      of consolidated due to interagency budgetary transactions not being eliminated:
                 Obligations Incurred
                 Less: Spending Authority from OﬀseĴing Collections and Recoveries
                 Obligations Net of OﬀseĴing Collections and Recoveries
                 Less: OﬀseĴing Receipts

172
2007 Annual Financial Report



           Net Obligations
           Undelivered Orders
           Unﬁlled Customer Orders

Other Resources Used to Finance Activities consists of gains and losses associated with the ﬁnancial
closure of NWCF activities.

Other Resources Used to Finance Items not Part of the Net Cost of Operations consist of transfers of assets
out of NWCF.

Other Components not Requiring or Generating Resources consist of overhead costs distributed to work
in process, as well as costs originally recorded into another expense account that are transferred to one of
three accounts: inventory work in process, internal use soĞware in development, or completed assets.

There is a diﬀerence of $137.2 million between the amounts reported as Liabilities not Covered by
Budgetary Resources and amounts reported as Components Requiring or Generating Resources in
Future Periods on the Reconciliation of Net Cost of Operations to Budget. This diﬀerence is aĴributable
to a decrease in the interest rate assumptions utilized and the number of civilian employees registered
in the Navy Budget Tracking System this reporting period in the calculation of actuarial liability. This
decrease was oﬀset by an increase in nonentity receivables through FY 2007, as the collection of nonentity
receivables will not require or generate resources for NWCF. These balances are deposited to U.S.
Treasury and belong to the general cash balances of the Federal Government.


Note 22. Disclosures Related to Incidental Custodial
         Collections
Not applicable.


Note 23. Earmarked Funds
Not applicable.


Note 24. Other Disclosures
Not applicable.


Note 25. Restatements
For Fiscal Year 2007, the Navy Working Capital Fund does not have any restatements.




                                                                                                                  173
                                                                                      Navy Working Capital Fund
      Department of the Navy




174
    2007


                                                            Navy Working Capital Fund Required Supplementary Information
    Navy Working Capital Fund
    Required Supplementary Information

2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                      175
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                          Department of the Navy



                                           Navy Working Capital Fund
                                     General Property, Plant, and Equipment
                                      Real Property Deferred Maintenance
                                      For Fiscal Year Ended September 30, 2007

      The Navy Working Capital Fund real property deferred maintenance for ﬁscal year ended September 30,
      2007 is being reported with the Department of the Navy General Fund real property deferred maintenance.
      See Department of the Navy General Fund Required Supplementary Information.




176
2007 Annual Financial Report



Schedule, Part A DoD Intra-governmental Asset         Treasury     Fund Balance      Accounts       Loans
Balances. ($ Amounts in Thousands)                     Index:      with Treasury    Receivable    Receivable   Investments   Other
Department of Agriculture                                12                   $0          $110            $0            $0       $0
Department of Commerce                                   13                    0           374             0             0           0
Department of the Interior                               14                    0            36             0             0           0
Department of Justice                                    15                    0           130             0             0           0
Navy General Fund                                        17                    0       569,352             0             0           0
United States Postal Service                             18                    0           209             0             0           0
Department of State                                      19                    0             9             0             0           0
Department of the Treasury                               20             1,156,401           30             0             0           0
Army General Fund                                        21                    0        15,411             0             0           0
Oﬃce of Personnel Management                             24                    0            13             0             0           0
National Credit Union Administration                     25                    0             4             0             0           0
Federal Communications Commission                        27                    0             7             0             0           0
Federal Trade Commission                                 29                    0           (23)            0             0           0
John F. Kennedy Center                                   33                    0            51             0             0           0
Department of Veterans Aﬀairs                            36                    0            52             0             0           0
General Service Administration                           47                    0           299             0             0           0
Independent Agencies                                     48                    0           728             0             0           0
National Science Foundation                              49                    0            71             0             0           0
Air Force General Fund                                   57                    0        26,312             0             0           0
Tennessee Valley Authority                               64                    0            35             0             0           0
Environmental Protection Agency                          68                    0         1,553             0             0           0
Department of Transportation                             69                    0           442             0             0           0
Homeland Security                                        70                    0         9,827             0             0           0
Department of Health and Human Services                  75                    0            89             0             0           0
National Aeronautics and Space Administration            80                    0         1,743             0             0           0
National Archives and Records Administration             88                    0            90             0             0           0
Department of Energy                                     89                    0           874             0             0           0
Selective Service System                                 90                    0            10             0             0           0
Department of Education                                  91                    0             0             0             0           0
Independent Agencies                                     95                    0         3,956             0             0           0
US Army Corps of Engineers                               96                    0           269             0             0           0
Other Defense Organizations General Funds                97                    0        53,613             0             0           0
Other Defense Organizations Working Capital Funds     97-4930                  0         6,440             0             0     3,886
Army Working Capital Fund                            97-4930.001               0         3,901             0             0           0
Air Force Working Capital Fund                       97-4930.003               0         2,021             0             0           0
Totals might not match to the Principal Statements    TOTALS          $1,156,401      $698,038            $0            $0    $3,886




                                                                                                                                         177
                                                                                                           Navy Working Capital Fund
                                                                                                                      Department of the Navy



      Schedule, Part B DoD Intra-governmental entity liabilities.    Treasury                          Debts/Borrowings From
      ($ Amounts in Thousands)                                        Index:      Accounts Payable        Other Agencies           Other
      Library of Congress                                               3                        $0                        $0              $673
      Government Printing Oﬃce                                          4                         1                            0              0
      Executive Oﬃce of the President                                   11                        1                            0       19,656
      Department of Agriculture                                         12                        0                            0            164
      Department of Commerce                                            13                        0                            0            126
      Department of the Interior                                        14                        0                            0            (92)
      Department of Justice                                             15                        0                            0       48,215
      Department of Labor                                               16                        0                            0            411
      Navy General Fund                                                 17                   81,232                            0      (5,715)
      United States Postal Service                                      18                    4,016                            0              0
      Department of State                                               19                        0                            0        7,458
      Department of the Treasury                                        20                   (1,078)                   70,697           1,379
      Army General Fund                                                 21                    5,862                            0              1
      Oﬃce of Personnel Management                                      24                   40,339                            0       30,875
      Social Security Administration                                    28                        0                            0            479
      Nuclear Regulatory Commission                                     31                        0                            0        1,480
      John F. Kennedy Center                                            33                        0                            0              2
      Department of Veterans Aﬀairs                                     36                        0                            0            252
      Pennsylvania Avenue Development Corp                              42                        0                            0             21
      General Service Administration                                    47                      934                            0           (424)
      National Science Foundation                                       49                      468                            0        9,634
      Air Force General Fund                                            57                      944                            0              7
      Environmental Protection Agency                                   68                        0                            0            138
      Department of Transportation                                      69                        0                            0            588
      Homeland Security                                                 70                        0                            0       48,423
      Agency for International Development                              72                        0                            0             50
      Department of Health and Human Services                           75                       38                            0            825
      National Aeronautics and Space Administration                     80                      505                            0            209
      Department of Housing and Urban Development                       86                        0                            0              0
      Department of Energy                                              89                       64                            0        1,265
      Other Defense Organizations General Funds                         97                    7,607                            0       10,421
      The General Fund of the Treasury                                  99                        0                            0        3,031
      Other Defense Organizations Working Capital Funds              97-4930                 61,406                            0              0
      Air Force Working Capital Fund                                97-4930.003               4,892                            0              0
      Architect of the Capitol                                                                    0                            0              0
      Totals might not match to the Principal Statements             TOTALS                $207,231                   $70,697        $179,552




178
2007 Annual Financial Report



Schedule, Part C DoD Intra-governmental revenue and related
costs.($ Amounts in Thousands)                                Treasury Index:     Earned Revenue
Library of Congress                                                 3                                 8,733
Congressional Budget Oﬃce                                           8                                     0
Executive Oﬃce of the President                                     11                                  328
Department of Agriculture                                           12                                  665
Department of Commerce                                              13                                6,993
Department of the Interior                                          14                                4,534
Department of Justice                                               15                              117,277
Department of Labor                                                 16                                   46
Navy General Fund                                                   17                         18,299,621
United States Postal Service                                        18                                  643
Department of State                                                 19                               16,002
Department of the Treasury                                          20                                9,742
Army General Fund                                                   21                              297,095
Resolution Trust Corporation                                        22                                    0
Oﬃce of Personnel Management                                        24                                  122
Federal Communications Commission                                   27                                   37
Social Security Administration                                      28                                  445
Federal Trade Commission                                            29                                  (23)
Nuclear Regulatory Commission                                       31                                1,005
John F. Kennedy Center                                              33                                   71
International Trade Commission                                      34                                  412
Department of Veterans Aﬀairs                                       36                                  591
Pennsylvania Avenue Development Corp                                42                                    1
General Service Administration                                      47                                  864
National Science Foundation                                         49                               12,753
Air Force General Fund                                              57                              398,097
Consumer Product Safety Commission                                  61                                   43
Environmental Protection Agency                                     68                                4,011
Department of Transportation                                        69                                4,086
Homeland Security                                                   70                              205,772
Agency for International Development                                72                                  (84)
Department of Health and Human Services                             75                                3,100
National Aeronautics and Space Administration                       80                               89,091
Department of Housing and Urban Development                         86                                    4
National Archives and Records Administration                        88                                  412
Department of Energy                                                89                               28,465
Selective Service System                                            90                                  573
Independent Agencies                                                95                                   70
US Army Corps of Engineers                                          96                                5,399
Other Defense Organizations General Funds                           97                             1,171,623
The General Fund of the Treasury                                    99                                   37
Other Defense Organizations Working Capital Funds                97-4930                             88,134
Army Working Capital Fund                                       97-4930.001                          78,835
Air Force Working Capital Fund                                  97-4930.003                         108,146
Architect of the Capitol                                                                                  0
Totals might not match to the Principal Statements               TOTALS                       $20,963,771


                                                                                                               179
                                                                                Navy Working Capital Fund
                                                                                                    Department of the Navy



      Schedule, Part E DoD Intra-governmental non-exchange revenues.
      ($Amounts in Thousands)                                          Treasury Index:   Transfers In      Transfers Out
      Other Defense Organizations Working Capital Funds                   97-4930               $129,746                   $0
      Totals might not match to the Principal Statements                  TOTALS                $129,746                   $0




180
    2007


                                                            Navy Working Capital Fund Other Accompanying Information
    Navy Working Capital Fund
    Other Accompanying Information

2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                      181
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                             Department of the Navy



      Appropriations, Funds, and Accounts Included in the Financial
      Statements
      Reporting Entity
      Navy Working Capital Fund (NWCF)

      Fund/Account Treasury Symbol and Title:
           97X4930.002

      Navy Working Capital Fund Activity Group Treasury Symbol and Title:
           97X4930.NA1*      Depot Maintenance-Shipyardsa
           97X4930.NA2*      Depot Maintenance-Aviation
           97X4930.NA4A*     Depot Maintenance- Other, Marine Corps
           97X4930.NA3*      Ordnanceb
           97X4930.ND*       Transportation
           97X4930.NE*       Base Support
           97X4930.NH*       Research and Development
           97X4930.NC*       Supply Management
           97X4930.NC2A*     Supply Management, Marine Corps

      Notes
              *   The “*” represents alpha or numeric characters which identify an activity or reporting
                  segment of the activity group.
              a
                  Depot Maintenance, Shipyards became a part of the DON General Fund in FY 2007. The
                  Depot Maintenance, Shipyards information included in this report represents residual NWCF
                  accounting.
              b
                  The Ordnance activity group became a part of the DON General Fund in FY 2000. The
                  Ordnance information included in this report represents residual NWCF accounting for this
                  group.




182
    2007
    United States Marine Corps General Fund
    Principal Statements




                                                                                                             USMC General Fund Principal Statements
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                              Department of the Navy Subsidiary Financial Statements


2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                       183
2007 Annual Financial Report 2007 Annual Financial Report
                                                                Department of the Navy




      Limitations to the Financial
      Statements
      The principal ﬁnancial statements have been
      prepared to report the ﬁnancial position and
      results of operations of the entity, pursuant to the
      requirements of 31 United States Code 3515 (b).
      While the statements have been prepared from the
      books and records of the entity in accordance with
      Generally Accepted Accounting Principles for Federal
      entities and the formats prescribed by the Oﬃce
      of Management and Budget, the statements are in
      addition to the ﬁnancial reports used to monitor and
      control budgetary resources which are prepared from
      the same books and records. The statements should be
      read with the realization that they are for a component
      of the U.S. Government, a sovereign entity.




184
2007 Annual Financial Report




In Fiscal Year (FY) 2006, the Oﬃce of the Under Secretary of Defense (Comptroller), with support
from the Department of the Navy, designated the U.S. Marine Corps a ﬁnancial reporting entity. This
designation allowed the Marine Corps to prepare comprehensive subsidiary ﬁnancial statements and
related notes beginning in FY 2006.

The Marine Corps shares appropriations with the U.S. Navy and in addition maintains accountability
for its own appropriations. The Marine Corps has speciﬁc funds and budget execution unto itself that
are managed by Marine Corps program sponsors. Given this ﬁduciary responsibility, the Marine Corps
is able to fully comply with Statement of Federal Financial Accounting Concepts Number 2, Entity and
Display.


Principal Statements
The FY 2007 U.S. Marine Corps General Fund Principal Statements and related notes are subsidiary
ﬁnancial statements and related notes of the Department of the Navy General Fund, and are presented
in the format prescribed by the Department of Defense Financial Management Regulation 7000.14,
Volume 6B. The statements and related notes summarize ﬁnancial information for individual funds and
accounts within the U.S. Marine Corps General Fund for the ﬁscal year ending September 30, 2007, and
are presented on a comparative basis with information previously reported for the ﬁscal year ending
September 30, 2006.

The following statements comprise the U.S. Marine Corps General Fund Principal Statements:

           Consolidated Balance Sheet

           Consolidated Statement of Net Cost

           Consolidated Statement of Changes in Net Position

           Combined Statement of Budgetary Resources

The Principal Statements and related notes have been prepared to report ﬁnancial position pursuant to
the requirements of the Chief Financial Oﬃcers Act of 1990, as amended by the Government Management
Reform Act of 1994. The accompanying notes should be considered an integral part of the Principal
Statements.




                                                                                                                 185
                                                                       United States Marine Corps General Fund
                                                                                                      Department of the Navy



            Department of Defense
            United States Marine Corps General Fund
            CONSOLIDATED BALANCE SHEET
            As of September 30, 2007 and 2006
               ($ in Thousands)


                                                                             2007 Consolidated      2006 Consolidated
                ASSETS (Note 2)
                 Intragovernmental:
                  Fund Balance with Treasury (Note 3)
                  Entity                                                 $           17,067,669 $           12,774,224
                  Non-Entity Seized Iraqi Cash                                                0                      0
                  Non-Entity - Other                                                    204,152                118,017
                  Investments (Note 4)                                                        0                      0
                  Accounts Receivable (Note 5)                                           57,516                 37,837
                  Other Assets (Note 6)                                                   3,083                  5,774
                     Total Intragovernmental Assets                                  17,332,420             12,935,852

                 Cash and Other Monetary Assets (Note 7)                                 37,783                 59,649
                 Accounts Receivable, Net (Note 5)                                       32,735                 21,282
                 Loans Receivable (Note 8)                                                    0                      0
                 Inventory and Related Property, Net (Note 9)                         5,694,867              5,121,038
                 General Property, Plant and Equipment, Net (Note 10)                 9,209,256              8,497,885
                 Investments (Note 4)                                                         0                      0
                 Other Assets (Note 6)                                                  760,944                519,651
                TOTAL ASSETS                                                         33,068,005             27,155,357

                LIABILITIES (Note 11)
                 Intragovernmental:
                  Accounts Payable (Note 12)                                           282,256                111,464
                  Debt (Note 13)                                                             0                      0
                  Other Liabilities (Note 15 & Note 16)                                307,231                243,876
                     Total Intragovernmental Liabilities                               589,487                355,340

                 Accounts Payable (Note 12)                                           1,302,211               520,609
                 Military Retirement and Other Federal
                  Employment Benefits (Note 17)                                         216,869                214,433
                 Environmental and Disposal Liabilities (Note 14)                       224,645                226,470
                 Loan Guarantee Liability (Note 8)                                            0                      0
                 Other Liabilities (Note 15 & Note 16)                                1,224,741                938,012
                TOTAL LIABILITIES                                                     3,557,953              2,254,864

                NET POSITION
                 Unexpended Appropriations - Earmarked Funds (Note 23)                        0                      0
                 Unexpended Appropriations - Other Funds                             15,749,077             12,443,304
                 Cumulative Results of Operations - Earmarked Funds                         475                    383
                 Cumulative Results of Operations - Other Funds                      13,760,500             12,456,806
                TOTAL NET POSITION                                                   29,510,052             24,900,493

                TOTAL LIABILITIES AND NET POSITION                       $           33,068,005 $           27,155,357




      The accompanying notes are an integral part of the statements.

186
2007 Annual Financial Report



      Department of Defense
      United States Marine Corps General Fund
      CONSOLIDATED STATEMENT OF NET COST
      For the Years Ended September 30, 2007 and 2006
          ($ in Thousands)


                                                                     2007 Consolidated      2006 Consolidated
           Program Costs
             Gross Costs                                         $           24,859,117 $            20,496,639
             Less: Earned Revenue                                             (647,068)               (414,698)
             Net Costs                                                      24,212,049              20,081,941
           Costs Not Assigned to Programs                                            0                       0
           Less: Earned Revenue Not Attributable to Programs                         0                       0
           Net Cost of Operations                                $          24,212,049 $            20,081,941




The accompanying notes are an integral part of the statements.

                                                                                                                      187
                                                                            United States Marine Corps General Fund
                                                                                             Department of the Navy



        Department of Defense
        United States Marine Corps General Fund
         CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
        For the Years Ended September 30, 2007 and 2006
            ($ in Thousands)


                                                                           Earmarked Funds        Other Funds
            CUMULATIVE RESULTS OF OPERATIONS
             Beginning Balances                                        $               383   $         12,456,806
             Prior Period Adjustments:
                Changes in accounting principles (+/-)                                   0                      0
                Correction of errors (+/-)                                               0                      0
             Beginning Balances, as adjusted                                           383             12,456,806
             Budgetary Financing Sources:
              Other adjustments (rescissions, etc) (+/-)                                 0                      0
              Appropriations used                                                        0             25,400,443
              Nonexchange revenue                                                        0                      0
              Donations and forfeitures of cash and cash equivalents                     0                      0
              Transfers in/out without reimbursement (+/-)                             134                      0
              Other budgetary financing sources (+/-)                                    0                      0
             Other Financing Sources:
              Donations and forfeitures of property                                      0                      0
              Transfers in/out without reimbursement (+/-)                               0                  3,535
              Imputed financing from costs absorbed by others                            0                 71,325
              Other (+/-)                                                                0                 40,398
             Total Financing Sources                                                   134             25,515,701
             Net Cost of Operations (+/-)                                               42             24,212,007
             Net Change                                                                 92              1,303,694
             Cumulative Results of Operations                          $               475   $         13,760,500

            UNEXPENDED APPROPRIATIONS
             Beginning Balances                                        $                 0   $         12,443,304
             Prior Period Adjustments (+/-)
               Changes in accounting principles (+/-)                                    0                      0
               Correction of errors (+/-)                                                0                      0
             Beginning Balances, as adjusted                                             0             12,443,304
             Budgetary Financing Sources:
              Appropriations received                                                    0             28,863,583
              Appropriations transferred-in/out (+/-)                                    0                (86,118)
              Other adjustments (rescissions, etc) (+/-)                                 0                (71,249)
              Appropriations used                                                        0            (25,400,443)
             Total Budgetary Financing Sources                                           0              3,305,773
             Unexpended Appropriations                                                   0             15,749,077
             Net Position                                              $               475   $         29,509,577




      The accompanying notes are an integral part of the statements.

188
2007 Annual Financial Report



  Department of Defense
  United States Marine Corps General Fund
  CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
  For the Years Ended September 30, 2007 and 2006
     ($ in Thousands)


                                                                    2007 Consolidated       2006 Consolidated
     CUMULATIVE RESULTS OF OPERATIONS
      Beginning Balances                                        $          12,457,189   $            7,758,562
      Prior Period Adjustments:
         Changes in accounting principles (+/-)                                     0                        0
         Correction of errors (+/-)                                                 0                3,158,868
      Beginning Balances, as adjusted                                      12,457,189               10,917,430
      Budgetary Financing Sources:
       Other adjustments (rescissions, etc) (+/-)                                   0                        0
       Appropriations used                                                 25,400,443               21,463,922
       Nonexchange revenue                                                          0                        0
       Donations and forfeitures of cash and cash equivalents                       0                        0
       Transfers in/out without reimbursement (+/-)                               134                      158
       Other budgetary financing sources (+/-)                                      0                        0
      Other Financing Sources:
       Donations and forfeitures of property                                        0                        0
       Transfers in/out without reimbursement (+/-)                             3,535                   90,379
       Imputed financing from costs absorbed by others                         71,325                   67,241
       Other (+/-)                                                             40,398                        0
      Total Financing Sources                                              25,515,835               21,621,700
      Net Cost of Operations (+/-)                                         24,212,049               20,081,941
      Net Change                                                            1,303,786                1,539,759
      Cumulative Results of Operations                          $          13,760,975   $           12,457,189

     UNEXPENDED APPROPRIATIONS
      Beginning Balances                                        $          12,443,304   $            8,857,933
      Prior Period Adjustments (+/-)
        Changes in accounting principles (+/-)                                      0                        0
        Correction of errors (+/-)                                                  0                        0
      Beginning Balances, as adjusted                                      12,443,304                8,857,933
      Budgetary Financing Sources:
       Appropriations received                                              28,863,583              25,417,616
       Appropriations transferred-in/out (+/-)                                 (86,118)               (106,906)
       Other adjustments (rescissions, etc) (+/-)                              (71,249)               (261,417)
       Appropriations used                                                 (25,400,443)            (21,463,922)
      Total Budgetary Financing Sources                                      3,305,773               3,585,371
      Unexpended Appropriations                                             15,749,077              12,443,304
      Net Position                                              $           29,510,052 $            24,900,493




                                                                                                                    189
                                                                          United States Marine Corps General Fund
                                                                                                Department of the Navy



       Department of Defense
       United States Marine Corps General Fund
       COMBINED STATEMENT OF BUDGETARY RESOURCES
       For the Years Ended September 30, 2007 and 2006
           ($ in Thousands)


                                                                           2007 Combined          2006 Combined
           BUDGETARY FINANCING ACCOUNTS
           Budgetary Resources:
             Unobligated balance, brought forward, October 1           $          2,582,128 $               2,111,332
             Recoveries of prior year unpaid obligations                          1,796,992                 1,569,189
             Budget Authority:
                Earned                                                           28,863,717                25,417,774
                Borrowing authority                                                       0                         0
                Contract authority                                                        0                         0
             Spending authority from offsetting collections:
               Other adjustments (rescissions, etc) (+/-)
                  Collected                                                         617,575                  580,388
                  Change in receivables from Federal sources                         18,097                  (61,287)
                Change in unfilled customer orders
                  Advances received                                                       0                         0
                  Without advance from Federal sources                             (71,500)                  (47,838)
                Anticipated for rest of year, without advances                            0                         0
                Previously unavailable                                                    0                         0
                Expenditure Transfers from trust funds                                    0                         0
               Subtotal                                                          29,427,889                25,889,037
             Nonexpenditure Transfers, net, anticipated and actual                 (86,118)                 (106,906)
             Temporarily not available pursuant to Public Law                             0                         0
             Permanently not available                                             (71,249)                 (261,418)
             Total Budgetary Resources                                           33,649,642                29,201,234

           Status of Budgetary Resources:
             Obligations incurred:
                Direct                                                           29,635,288                25,801,864
                Reimbursable                                                        613,479                   817,242
                Subtotal                                                         30,248,767                26,619,106
             Unobligated balance:
                Apportioned                                                       2,953,053                 2,298,754
                Exempt from apportionment                                                 0                         0
                Subtotal                                                          2,953,053                 2,298,754
             Unobligated balances not available                                     447,822                   283,374
             Total Status of Budgetary Resources                       $         33,649,642 $              29,201,234




      The accompanying notes are an integral part of the statements.

190
2007 Annual Financial Report



  Department of Defense
  United States Marine Corps General Fund
  COMBINED STATEMENT OF BUDGETARY RESOURCES
  For the Years Ended September 30, 2007 and 2006
      ($ in Thousands)


                                                                       2007 Combined         2006 Combined
      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
      Change in Obligated Balance:
       Obligated balance, net
          Unpaid obligations, brought forward, October 1           $         10,418,539 $             7,499,117
          Less: Uncollected customer payments from
             Federal sources, brought forward, October 1                       (207,650)              (316,775)
          Total Unpaid Obligated Balance                                      10,210,889              7,182,342
       Obligations incurred, net (+/-)                                        30,248,767             26,619,106
       Less: Gross outlays                                                  (25,029,079)           (22,130,495)
          Obligated balance transferred, net
          Actual transfers, unpaid obligations (+/-)                                   0                      0
          Actual transfers, uncollected customer
             payments from Federal sources (+/-)                                       0                      0
          Total Unpaid Obligated Balance Transferred, net                              0                      0
       Less: Recoveries of prior year unpaid obligations, actual             (1,796,992)            (1,569,189)
       Change in uncollected customer
          payments from Federal sources (+/-)                                    53,403                 109,126
       Obligated balance, net, end of period
          Unpaid obligations                                                 13,841,236              10,418,539
          Less: Uncollected customer payments from
             Federal sources                                                  (154,247)               (207,650)
          Total Unpaid Obligated Balance, net, end of period                 13,686,989              10,210,889

      Net Outlays:
       Gross Outlays                                                         25,029,079              22,130,495
       Less: Offsetting collections                                           (617,574)               (580,388)
       Less: Distributed Offsetting receipts                                     20,195                   3,296
      Net Outlays                                                  $         24,431,700 $            21,553,403




The accompanying notes are an integral part of the statements.

                                                                                                                    191
                                                                          United States Marine Corps General Fund
      Department of the Navy




192
    2007
    United States Marine Corps General Fund
    Notes to the Principal Statements




                                                                                                             USMC General Fund Notes to the Principal Statements
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                              Department of the Navy Subsidiary Financial Statements


2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                       193
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                            Department of the Navy



      Note 1.         Signiﬁcant Accounting Policies
      1.A.    Basis of Presentation
      The United States Marine Corps (USMC), a component of the Department of the Navy (DON), has
      prepared these ﬁnancial statements to report the ﬁnancial position and results of operations, as required
      by the Chief Financial Oﬃcers (CFO) Act of 1990, expanded by the Government Management Reform
      Act of 1994, and other appropriate legislation. Though USMC produces General Fund (GF) ﬁnancial
      statements as a stand alone entity, USMC remains a subsidiary of DON for ﬁnancial reporting purposes.
      The ﬁnancial statements have been prepared from the books and records of USMC GF in accordance
      with the Department of Defense (DoD), Financial Management Regulation, the Oﬃce of Management
      and Budget (OMB) Circular No. A-136, Financial Reporting Requirements, and to the extent possible,
      generally accepted accounting principles (GAAP). Eﬀective 4th Quarter, Fiscal Year (FY) 2006, DoD no
      longer publishes consolidating/combining ﬁnancial statements. The accompanying ﬁnancial statements
      account for all resources for which USMC GF is responsible unless otherwise noted. Information relative
      to classiﬁed assets, programs, and operations is aggregated and reported in such a manner that it is not
      discernable. In addition to the ﬁnancial statements, and pursuant to OMB directives, USMC GF also
      prepares ﬁnancial reports that are used to monitor and control the use of budgetary resources.

      The USMC GF is unable to fully implement all elements of GAAP and OMB Circular A-136, due to
      limitations of its ﬁnancial and nonﬁnancial management processes and systems that feed into the
      ﬁnancial statements. The USMC GF derives its reported values and information for major asset and
      liability categories largely from nonﬁnancial systems, such as inventory systems and logistic systems.
      These systems were designed to support reporting requirements for maintaining accountability over
      assets and reporting the status of federal appropriations rather than preparing ﬁnancial statements in
      accordance with GAAP. The USMC GF continues to implement process and system improvements
      addressing these limitations.

      The USMC GF has no auditor identiﬁed ﬁnancial statements material weaknesses, other than as part of
      the DON Financial Statements. The USMC GF continues to strengthen its ﬁnancial management and
      ﬁnancial reporting processes. The USMC GF has required the implementation of standard ﬁnancial
      processes throughout the Marine Corps enterprise. Standardization improves transaction processing,
      management controls and information accuracy. The USMC Financial Improvement Initiative program
      has completed an in-depth assessment, evaluation and has implemented several remediation action
      eﬀorts, in progress of completing self evaluation of management controls in compliance with Appendix
      A sections of OMB A-123 requirements. The USMC GF self assessment indicates the existence of the
      following material, or signiﬁcant, ﬁnancial statements weaknesses: (1) Financial Management Systems,
      (2) Environmental Liabilities, (3) General Property, Plant, and Equipment, (4) Operating Materiel and
      Supplies, and (5) Accounts Payable. The USMC GF does not have other identiﬁed ﬁnancial management
      weaknesses that are considered material in USMC GF’s ﬁnancial management and reporting.

      1.B.    Mission of the Reporting Entity
      The USMC was created on November 10, 1775 by an act of the 2nd Continental Congress. The overall
      mission of USMC is to provide trained and equipped forces to Combatant Commanders in support of the
      President’s National Security Strategy. As set forth in the National Security Act of 1947, USMC missions
      are: to seize and defend advanced naval bases and to conduct such land operations as may be essential
      to the prosecution of a naval campaign; to provide detachments and organizations for service in armed
      vessels of the Navy or for protection of naval property on naval stations and bases; to develop, with the
      other Armed Forces, the tactics, techniques, and equipment employed by landing forces in amphibious
      operations; to train and equip, as required, Marine forces for airborne operations; to develop, with the
      other Armed Forces, doctrine, procedures, and equipment of interest to USMC for airborne operations
      which are not provided for by the Army; and to be able to expand from a peacetime posture to meet the
      needs of war in accordance with mobilization plans.

194
2007 Annual Financial Report



1.C.    Appropriations and Funds
The USMC GF receives its appropriations and funds as general, special, and deposit funds. These
appropriations and funds may be either provided solely to USMC GF or shared with other DON
activities. The USMC GF uses these appropriations and funds to execute its mission and subsequently
report on resource usage.

General funds are used for ﬁnancial transactions funded by congressional appropriations, including
military personnel, operation and maintenance, research and development, and procurement.

Special funds accounts are used to record government receipts reserved for a speciﬁc purpose.

Certain special and trust funds may be designated as earmarked funds. Earmarked Funds are ﬁnanced
by speciﬁcally identiﬁed revenues, required by statute to be used for designated activities, beneﬁts or
purposes, and remain available over time. Earmarked funds also have a requirement to account for and
report on the receipt, use and retention of revenues and other ﬁnancing sources that distinguish them
from general revenues.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or
public entity. The USMC GF is acting as an agent or a custodian for funds awaiting distribution.

The asset accounts used to prepare the statements are categorized as either entity or nonentity. Entity
accounts consist of resources that the agency has the authority to use or where management is legally
obligated to use funds to meet entity obligations. Nonentity accounts are assets that are held by an entity
but are not available for use in the operations of the entity.

The USMC GF is a party to allocation transfers to and from other federal agencies receiving entity assets.
Allocation transfers are legal delegations by one department of its authority to obligate budget authority
and outlay funds for another department. Generally, all ﬁnancial activity related to these allocation
transfers (e.g., authority, obligation, outlays) is reported in the ﬁnancial statements of the parent entity.
The USMC GF receives allocation transfers, from DON and DoD.

1.D.    Basis of Accounting
The USMC operates a single general fund accounting system – the Standard Accounting, Budgeting,
and Reporting System (SABRS). Through this system USMC GF records the majority of the ﬁnancial
transactions reﬂected in these ﬁnancial statements. The SABRS is a transaction driven general ledger
accounting system that utilizes standardized transactions for processing. General ledger postings are
derived from centralized posting logic maintained in a table within the accounting system and applied
against detail transactions. The posting logic on this table is maintained in accordance with all applicable
guidance and aĴempts to meet the standards of GAAP. Both budgetary and proprietary general ledgers
are maintained and utilized for reporting. Transactions are entered into the accounting system via
interfaces with ﬁnancial feeder systems, electronically or manually.

The SABRS is interfaced with DoD approved business enterprise systems, such as the Defense Travel
System, Standard Procurement System, Defense Civilian Personnel System, and Wide Area Work Flow.
These interfaces improve ﬁnancial reporting and eliminate manual recording by capturing data from the
source systems. The SABRS is also Standard Financial Information Structure (SFIS) Phase 1 compliant.
The USMC was the ﬁrst and currently only agency to implement SFIS Phase 1. The SFIS will provide
DoD a solution for identifying ﬁnancial events in a like manner for all DoD components.

For FY 2007, USMC GF’s ﬁnancial management systems are unable to meet all requirements for full
accrual accounting. Many of USMC GF’s ﬁnancial and nonﬁnancial feeder systems and processes were
designed and implemented prior to the issuance of GAAP for federal agencies. These systems were

                                                                                                                     195
                                                                           United States Marine Corps General Fund
                                                                                            Department of the Navy



      not designed to collect and record ﬁnancial information on the full accrual accounting basis as required
      by GAAP. Most of USMC GF’s (ﬁnancial and nonﬁnancial) legacy systems were designed to record
      information on a budgetary basis.

      The DoD has undertaken eﬀorts to determine the actions required to bring ﬁnancial and nonﬁnancial
      feeder systems and processes into compliance with GAAP. One such action is the current revision of
      its accounting systems to record transactions based on the U.S. Standard General Ledger (USSGL).
      The USMC GF accounting system, SABRS, is USSGL compliant. Until all of USMC GF’s ﬁnancial and
      nonﬁnancial feeder systems and processes are updated to collect and report ﬁnancial information as
      required by GAAP, USMC GF’s ﬁnancial data will be derived from budgetary transactions (obligations,
      disbursements, and collections), transactions from nonﬁnancial feeder systems, and accruals made for
      major items such as payroll expenses, accounts payable, and environmental liabilities.

      In addition, DoD identiﬁes program costs based upon the major appropriation groups provided by
      the Congress. Current processes and systems do not capture and report accumulated costs for major
      programs based upon the performance measures as required by the Government Performance and
      Results Act (GPRA). The DoD is working towards a cost reporting methodology that meets the need for
      cost information required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
      “Managerial Cost Accounting Concepts and Standards for the Federal Government.”

      1.E.    Revenues and Other Financing Sources
      The USMC GF receives congressional appropriations as ﬁnancing sources for general funds on either an
      annual or a multi-year basis. When authorized by legislation, these appropriations are supplemented by
      revenues generated by sales of goods or services. The USMC GF recognizes revenue as a result of costs
      incurred or services provided to other federal agencies and the public. Full cost pricing is USMC GF’s
      standard policy for services provided as required by OMB Circular A-25, “User Charges.” The USMC GF
      recognizes revenue when earned within the constraints of current system capabilities. In some instances,
      revenue is recognized when bills are issued.

      The USMC GF does not include nonmonetary support provided by U.S. allies for common defense and
      mutual security in the Statement of Net Cost and the Note 21, Reconciliation of Net Cost of Operations to
      Budget. The U.S. has cost sharing agreements with other countries that include both direct and indirect
      sharing of costs that each country incurs in support of the same general purpose. Examples include
      countries where there is a mutual or reciprocal defense agreement, where U.S. troops are stationed, or
      where the U.S. Fleet is in port.

      1.F.    Recognition of Expenses
      For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the period
      incurred. However, because USMC GF’s ﬁnancial and nonﬁnancial feeder systems were not designed to
      collect and record ﬁnancial information on the full accrual accounting basis, accruals are made for major
      items such as payroll expenses, accounts payable, environmental liabilities, and unbilled revenue. In the
      case of Operating Materiels and Supplies (OM&S), operating expenses are generally recognized when the
      items are purchased. Eﬀorts are underway to transition toward the consumption method for recognizing
      OM&S expenses. Operating expenses are adjusted as a result of the elimination of trading partner
      balances between DoD components. Net increases or decreases in unexpended appropriations are
      recognized as a change in the net position. Certain expenses, such as annual and military leave earned
      but not taken, are ﬁnanced in the period in which payment is made.

      1.G.    Accounting for Intragovernmental Activities
      Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among
      entities within DoD or between two or more federal agencies. However, USMC GF, as well as the

196
2007 Annual Financial Report



majority of the Federal Government, cannot consistently and accurately eliminate intragovernmental
transactions by customer because USMC GF’s and many other federal agencies’ systems do not track
buyer and seller data at the transaction level. In an eﬀort to more eﬃciently identify intragovernmental
transactions by customer, USMC GF has implemented a ﬁeld in its accounting system to capture
trading partner data. Generally, seller entities within DoD provide summary seller side balances for
revenue, accounts receivable, and unearned revenue to the buyer side internal DoD accounting oﬃces.
In most cases, the buyer side records are adjusted to agree with DoD seller side balances. IntraDoD
intragovernmental balances are then eliminated. The volume of intragovernmental transactions is so
large that aĞer the fact reconciliation cannot be accomplished eﬀectively with existing or foreseeable
resources. The DoD is developing long term system improvements that will include suﬃcient up front
edits and controls eliminating the need for aĞer the fact reconciliations.

The U.S. Treasury, Financial Management Services is responsible for eliminating transactions between
DoD and other federal agencies. The Treasury Financial Manual, Part 2 Chapter 4700, “Agency Reporting
Requirements for the Financial Report of the United States Government” and the U.S. Treasury’s
“Federal Intragovernmental Transactions Accounting Policy Guide” provide guidance for reporting and
reconciling intragovernmental balances. While USMC GF is unable to fully reconcile intragovernmental
transactions with all federal partners, USMC GF is able to reconcile balances pertaining to Federal
Employees’ Compensation Act transactions with the Department of Labor, and beneﬁt program
transactions with Oﬃce of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not
included. The Federal Government does not apportion debt and its related costs to federal agencies. The
DoD’s ﬁnancial statements, therefore, do not report any portion of the public debt or interest thereon, nor
do the statements report the source of public ﬁnancing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
ﬁnancing ultimately may have been obtained through the issuance of public debt, interest costs have not
been capitalized since the U.S. Treasury does not allocate such interest costs to the beneﬁting agencies.

1.H.    Transactions with Foreign Governments and International Organizations
Each year, USMC GF sells defense articles and services to foreign governments and international
organizations under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of
the Act, DoD has authority to sell defense articles and services to foreign countries and international
organizations, generally at no proﬁt or loss to the U.S. Government. Payment in U.S. dollars is required
in advance.

1.I.    Funds with the U.S. Treasury
The USMC GF monetary ﬁnancial resources are maintained in U.S. Treasury accounts. The disbursing
oﬃces of DFAS, the Military Services, the U.S. Army Corps of Engineers (USACE), and the Department
of State’s ﬁnancial service centers process the majority of USMC GF’s cash collections, disbursements, and
adjustments worldwide. Each disbursing station prepares monthly reports that provide information to
the U.S. Treasury on check issues, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation
on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records this
information to the applicable fund balance with treasury account. Diﬀerences between USMC GF/DON
GF’s recorded balance in the fund balance with treasury accounts and U.S. Treasury’s fund balance with
treasury accounts sometimes result and are subsequently reconciled.

1.J.    Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency,
negotiable instruments, and amounts held for deposits in banks and other ﬁnancial institutions. Foreign
                                                                                                                    197
                                                                          United States Marine Corps General Fund
                                                                                               Department of the Navy



      currency consists of the total U.S. dollar equivalent of both purchased and nonpurchased foreign
      currencies held in foreign currency fund accounts.

      The majority of cash and all foreign currency is classiﬁed as nonentity and is restricted. Amounts
      reported consist primarily of cash and foreign currency held by disbursing oﬃcers to carry out their
      paying, collecting, and foreign currency accommodation exchange missions. Cash seized during
      Operation Iraqi Freedom is restricted for use to assist the Iraqi people and support the restoration of Iraq.

      The USMC GF conducts a signiﬁcant portion of its operations overseas. The Congress established a
      special account to handle the gains and losses from foreign currency transactions for ﬁve general fund
      appropriations: operations and maintenance, military personnel, military construction, family housing
      operations and maintenance, and family housing construction. The gains and losses are computed as
      the variance between the exchange rate current at the date of payment and a budget rate established at
      the beginning of each ﬁscal year. Foreign currency ﬂuctuations related to other appropriations require
      adjustment to the original obligation amount at the time of payment. The USMC GF does not separately
      identify currency ﬂuctuation transactions.

      1.K.    Accounts Receivable
      As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and
      refunds receivable from other Federal entities or from the public. Allowances for uncollectible accounts
      due from the public are based upon analysis of collection history by fund type. The DoD does not
      recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against
      other federal agencies are to be resolved between the agencies in accordance with dispute resolution
      procedures deﬁned in the Intragovernmental Business Rules published in the Treasury Financial Manual
      at hĴp://www.fms.treas.gov/tfm/vol1/07-03.pdf.

      1.L.    Direct Loans and Loan Guarantees
      Not applicable.

      1.M.    Inventories and Related Property
      The USMC GF reports its inventory of repair parts, munitions, and ammunition in related property as
      OM&S. The USMC GF manages only military or government speciﬁc materiel under normal conditions.
      Items commonly used in and available from the commercial sector are not managed in USMC GF
      OM&S management activities. The USMC GF holds material based on military need and support for
      contingencies. Most of USMC GF’s OM&S inventories are currently reported at an approximation of
      historical cost using latest acquisition cost adjusted for holding gains and losses. The USMC GF uses the
      latest acquisition cost method because legacy inventory systems were designed for materiel management
      rather than accounting. Although the legacy systems provide visibility and accountability over items,
      they do not maintain historical cost data necessary to comply with SFFAS No. 3, “Accounting for
      Inventory and Related Property.” Additionally, these systems cannot produce ﬁnancial transactions using
      the USSGL, as required by the Federal Financial Management Improvement Act of 1996 (Public Law
      104 208). Implementation of moving average cost valuation would be both cost prohibitive as well as
      burdensome for USMC GF. In addition, historical cost information is not readily available to implement
      the moving average cost methodology. Consequently, USMC GF has elected to value its OM&S using
      latest acquisition cost for ﬁnancial statements reporting and presentation purpose, as appropriated
      in accordance with SFFAS No. 3. The USMC GF has established an interface between the Operating
      Materials Supply Inventory System and its accounting system, SABRS.

      Other OM&S, including munitions not held for sale, are valued at standard purchase price. The USMC
      GF uses both the consumption method and the purchase method of accounting for OM&S. Items that are
      centrally managed and stored, such as ammunition, tactical missiles, and engines are generally recorded

198
2007 Annual Financial Report



using the consumption method and reported on the Balance Sheet as OM&S. When current systems
cannot fully support the consumption method, USMC GF uses the purchase method. Under this method
materiels and supplies are expensed when purchased. During FY 2007, USMC GF expensed signiﬁcant
amounts using the purchase method because the systems could not support the consumption method or
management deemed that the item was in the hands of the end user. This is a material weakness for the
DoD and long term system corrections are in process. Once the proper systems are in place, these items
will be accounted for under the consumption method of accounting.

The USMC GF determined that the recurring high dollar value of OM&S in need of repair is material
to the ﬁnancial statements and requires a separate reporting category. Many high dollar items, (e.g.,
engines) are categorized as OM&S rather than military equipment.

The USMC GF recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of
disposal is greater than the potential scrap value; therefore, the net value of condemned materiel is zero.
Potentially redistributed materiel, presented in previous years as “Excess, Obsolete, and Unserviceable,”
is included in the “Held for Use” or “Held for Repair” categories according to its condition.

1.N.    Investments in U.S. Treasury Securities
The USMC GF investments in U.S. Treasury securities are reported in the DON General Fund Financial
Statements.

1.O.    General Property, Plant, and Equipment
The SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,”
established GAAP for valuing and reporting military equipment (e.g., ships, aircraĞ, combat vehicles,
weapons) in federal ﬁnancial statements. This Standard provided for the use of the estimated historical
cost for valuing military equipment if obtaining actual historical cost information is not practical. The
DoD used the Bureau of Economic Analysis (BEA) methodology to calculate the value of the military
equipment for reporting periods from October 1, 2002 through March 31, 2006.

Eﬀective 3rd Quarter, FY 2006, DoD replaced BEA’s estimation methodology with one that is based on
internal records for military equipment. The DoD identiﬁed the universe of military equipment by
accumulating information relating to program funding and associated military equipment, equipment
useful life, and program acquisitions and disposals to create a baseline. The military equipment baseline
is updated using expenditure information, and information related to acquisition and disposals.

The DoD is moving away from a standard capitalization threshold for all categories (e.g., real property,
military equipment, etc.) of General Property Plant and Equipment (PP&E) to one that is speciﬁc for
each individual category. In FY 2006, DoD revised the real property capitalization threshold from $100
thousand to $20 thousand. The current $100 thousand capitalization threshold remains unchanged for
the remaining General PP&E categories. Although DoD revised the real property capitalization threshold
to $20 thousand, USMC GF real property capitalization threshold remains $100 thousand due to system
and process limitations.

General PP&E, exclusive of military equipment, is capitalized at historical acquisition cost plus
capitalized improvements when an asset has a useful life of two or more years, and the acquisition cost
equals or exceeds DoD’s capitalization threshold of $100 thousand. The DoD also requires capitalization
of improvement costs over the DoD capitalization threshold of $100 thousand for General PP&E. The
DoD depreciates all General PP&E, other than land, on a straight-line basis. Land is not depreciated.
General PP&E previously capitalized at amounts below $100 thousand were wriĴen oﬀ General Fund
ﬁnancial statements in FY 1998.

When it is in the best interest of the government, USMC GF provides government property to contractors
to complete contract work. The USMC GF either owns or leases such property, or it is purchased directly

                                                                                                                    199
                                                                          United States Marine Corps General Fund
                                                                                              Department of the Navy



      by the contractor for the government based on the contract terms. When the value of contractor-procured
      General PP&E exceeds the DoD capitalization threshold, federal accounting standards require that it be
      reported on USMC GF’s Balance Sheet.

      The DoD is developing new policies and a process for government furnished equipment that will provide
      appropriate General PP&E information for future ﬁnancial statement reporting purposes. Accordingly,
      USMC GF reports only government property in the possession of contractors that is maintained in USMC
      GF’s property systems. The DoD has issued new property accountability and reporting requirements
      that require USMC GF to maintain, in their property systems, information on all property furnished
      to contractors. This action and other DoD proposed actions are structured to capture and report the
      information necessary for compliance with federal accounting standards.

      The USMC GF has established an interface between its accounting system, SABRS, and the Defense
      Property Accountability System in order to decrease the amount of manual journal vouchers and data
      calls and increase the eﬃciency of reported data.

      1.P.    Advances and Prepayments
      The DoD’s policy is to record advances and prepayments in accordance with GAAP. As such, payments
      in advance of the receipt of goods and services are reported as an asset on the Balance Sheet. The DoD’s
      policy is to expense and/or properly classify assets when the related goods and services are received. Not
      all DoD entities have implemented this policy primarily due to system limitations.

      1.Q.    Leases
      Generally, lease payments are for the rental of equipment and operating facilities and are classiﬁed as
      either capital or operating leases. When a lease is essentially equivalent to an installment purchase
      of property (a capital lease), USMC GF records the applicable asset and liability if the value equals or
      exceeds the current DoD capitalization threshold. The USMC GF deems the use of estimates for these
      costs as adequate and appropriate due to the relatively low dollar value of capital leases. The USMC GF
      records the amounts as the lesser of the present value of the rental and other lease payments during the
      lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair market
      value. The discount rate for the present value calculation is either the lessor’s implicit interest rate or
      the government’s incremental borrowing rate at the inception of the lease. The USMC GF as the lessee
      receives the use and possession of leased property, for example real estate or equipment, from a lessor in
      exchange for a payment of funds. An operating lease does not substantially transfer all beneﬁts and risk
      of ownership. Payments for operating leases are charged to expense over the lease term as it becomes
      payable.

      Oﬃce space and leases entered into by USMC GF in support of contingency operations are the
      largest component operating leases. These costs were gathered from existing leases, General Services
      Administration (GSA) bills, and Inter-service Support Agreements. Future year projections use the
      Consumer Price Index (CPI), rather than DoD inﬂation factor. The CPI impacts increases to the leases,
      especially those at commercial lease sites. Equipment leases have a variety of lease terms which are
      not expected to be renewed upon expiration. Other operating leases are generally one-year leases. The
      USMC GF expects to continue to reduce the level of owned assets while increasing the number of leased
      assets. The USMC GF will strive to displace commercial leases with more economical GSA leases.

      1.R.    Other Assets
      Other Assets includes those assets, such as military and civil service employee pay advances, travel
      advances, and certain contracting ﬁnancing payments that are not reported elsewhere on USMC GF’s
      Balance Sheet.

      The USMC GF conducts business with commercial contractors under two primary types of contracts:
      ﬁxed price and cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-

200
2007 Annual Financial Report



term contracts can cause, USMC GF may provide ﬁnancing payments. The USMC GF does not make
ﬁnancing payment for real property construction; USMC GF construction projects are managed by the
Navy and reported in DON Balance Sheet and related notes. Contract ﬁnancing payments are deﬁned in
the Federal Acquisition Regulations (FAR), Part 32, as authorized disbursements of monies to a contractor
prior to acceptance of supplies or services by the Federal Government. Contract ﬁnancing payment
clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advance and interim payments, progress payments based on
cost, and interim payments under certain cost-reimbursement contracts.

Contract ﬁnancing payments do not include invoice payments, payments for partial deliveries, lease
and rental payments, or progress payments based on a percentage or stage of completion, which the
Defense Federal Acquisition Regulation Supplement authorizes only for construction of real property,
shipbuilding, and ship conversion, alteration, or repair. It is DoD policy to record contract ﬁnancing
payments as Other Assets.

In addition, based on FAR, USMC GF makes ﬁnancing payments under ﬁxed price contracts that are not
based on a percentage of completion. The USMC GF reports these ﬁnancing payments as “Other Assets.”
The USMC GF treats these payments as advances or prepayment because USMC GF becomes liable only
aĞer the contractor delivers the goods in conformance with the contract terms. If the contractor does not
deliver a satisfactory product, USMC GF is not obligated to reimburse the contractor for its costs and the
contractor is liable to repay USMC GF for the full amount of the advance.

1.S.    Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by the SFFAS
No 12., “Recognition of Contingent Liabilities Arising from Litigation,” deﬁnes a contingency as an
existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or
loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The USMC
GF recognizes contingent liabilities when past events or exchange transactions occur, a future loss is
probable and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not
exist but there is at least a reasonable possibility of incurring a loss or additional losses. Examples of loss
contingencies include the collectibility of receivables, pending or threatened litigation, possible claims
and assessments. The USMC GF’s risk of loss and resultant contingent liabilities arise from pending or
threatened litigation or claims and assessments due to events such as aircraĞ, ship, and vehicle accidents;
medical malpractice; property or environmental damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for USMC GF’s assets. This type of liability
has two components: nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting
for Property, Plant, and Equipment,” recognition of an anticipated environmental disposal liability begins
when the asset is placed into service. Nonenvironmental disposal liabilities are recognized for assets
when management decides to dispose of the asset based upon DoD’s policy, which is consistent with
SFFAS No. 5, “Accounting for Liabilities of Federal Government.” The DoD recognizes nonenvironmental
disposal liabilities for military equipment nuclear powered assets when placed in service. Such amounts
are developed in conjuction with, and not easily identiﬁable from, environmental disposal costs. The
USMC GF does not have nuclear-powered assets, therefore, does not recognize nonenvironmental
disposal liabilities for military equipment nuclear powered assets.

1.T.    Accrued Leave
The USMC GF reports as liabilities military leave and civilian earned leave, except sick leave, that has
been accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability
reported at the end of the accounting period reﬂects the current pay rates.
                                                                                                                      201
                                                                            United States Marine Corps General Fund
                                                                                             Department of the Navy




      1.U.    Net Position
      Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
      appropriations represent the amounts of authority that are unobligated and have not been rescinded or
      withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for
      payments have not been incurred. Cumulative results of operations represent the net diﬀerence, since
      inception of an activity, between expenses and losses and ﬁnancing sources (including appropriations,
      revenue, and gains). Beginning with FY 1998, the cumulative results also include donations and transfers
      in and out of assets that were not reimbursement.

      1.V.    Treaties for Use of Foreign Bases
      The DoD has the use of the land, buildings, and other overseas facilities that are obtained through various
      international treaties and agreements negotiated by the Department of State. The USMC GF purchases
      capital assets overseas with appropriated funds; however, the host country retains the title to land and
      improvements. Generally, treaty terms allow USMC GF continued use of these properties until the
      treaties expire. In the event treaties or other agreements are terminated, whereby use of the foreign bases
      is prohibited, losses are recorded for the value of any nonretrievable capital assets. The seĴlement due to
      the U.S. or host nation is negotiated and takes into account the value of capital investments and may be
      oﬀset by the cost of environmental cleanup.

      1.W.    Comparative Data
      Not applicable.

      1.X.    Unexpended Obligations
      The USMC GF obligates funds to provide goods and services for outstanding orders not yet delivered.
      The ﬁnancial statements do not reﬂect this liability for payment for goods and services not yet delivered
      unless title passes.

      1.Y.    Undistributed Disbursements and Collection
      Undistributed disbursements and collections represent the diﬀerence between disbursements and
      collections matched at the transaction level to a speciﬁc obligation, payable, or receivable in the activity
      ﬁeld records as opposed to those reported by the U.S. Treasury. These amounts should agree with
      undistributed amounts reported on the monthly accounting reports. In transit payments are those
      payments that have been made, but have not been recorded in the fund holder’s accounting records.
      These payments are applied to the entities’ outstanding accounts payable balance. In transit collections
      are those collections from other agencies or entities that have not been recorded in the accounting records.
      These collections are also applied to the entities’ accounts receivable balance.

      The DoD policy is to allocate supported undistributed disbursements and collections between federal and
      nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable
      and accounts receivable. Unsupported undistributed disbursements are recorded in accounts payable.
      Unsupported undistributed collections are recorded in other liabilities. The USMC GF does not follow
      this procedure. For USMC GF, undistributed collections are allocated and recorded against federal and
      nonfederal accounts receivable based on the percentage of reimbursable receivables in each category.
      Undistributed collections are not recorded as other liabilities since the majority of time they remain
      USMC GF collections that were not processed due to timing diﬀerence. Undistributed disbursements are
      recorded against nonfederal accounts payable. Undistributed disbursements are not allocated to federal
      accounts payable as federal accounts payable must agree with trading partner eliminations.




202
2007 Annual Financial Report



1.Z.    Signiﬁcant Events
Beginning 4th Quarter, FY 2007, DoD began presenting the Statement of Financing (SOF) as a note in
accordance with OMB Circular A-136. The SOF will no longer be considered a basic statement; but is
now referred to as “Reconciliation of Net Cost of Operations to Budget.”


Note 2.         Nonentity Assets
 As of September 30                                              2007                        2006
 (Amounts in Thousands)
 1. Intragovernmental Assets
    A. Fund Balance with Treasury                      $                204,152   $                  118,017
    B. Accounts Receivable                                                    0                            0
    C. Total Intragovernmental Assets                  $                204,152   $                  118,017

 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                  $                 37,783   $                    59,649
    B. Accounts Receivable                                                  278                           199
    C. Other Assets                                                           0                             0
    D. Total Nonfederal Assets                         $                 38,061   $                    59,848

 3. Total Nonentity Assets                             $                242,213   $                  177,865

 4. Total Entity Assets                                $             32,825,792   $               26,977,492


 5. Total Assets                                       $             33,068,005   $               27,155,357


Standard Disclosures
Nonentity assets are assets for which the United States Marine Corps General Fund (USMC GF)
maintains stewardship accountability and responsibility to report, but are not available for USMC’s
operations.

The nonentity fund balance with treasury represents amounts in USMC GF deposit fund accounts. The
deposit fund accounts contain various withholdings from Marines’ pay such as taxes, allotments, and
garnishments held until the appropriate disbursement date. The USMC GF maintains stewardship
accountability and reporting responsibility for these assets, but the assets are not available for use in
operations.

Nonentity cash and other monetary assets represent disbursing oﬃcers’ cash and foreign currency as
reported on the Statement of Accountability. These assets are held by USMC disbursing oﬃcers, as agents
of the U.S. Treasury, and are not available for use in USMC’s operations.

The nonentity nonfederal accounts receivable represents interest, ﬁnes, and penalties receivable on
aged delinquent debt. Once collected, nonentity receivables are deposited to the U.S. Treasury as
miscellaneous receipts.




                                                                                                                   203
                                                                         United States Marine Corps General Fund
                                                                                             Department of the Navy



      Note 3.         Fund Balance with Treasury
       As of September 30                                                2007                       2006
       (Amounts in Thousands)
       1. Fund Balances
          A. Appropriated Funds                                 $               17,067,169    $       12,773,794
          B. Revolving Funds                                                             0                     0
          C. Trust Funds                                                                 0                     0
          D. Special Funds                                                             500                   430
          E. Other Fund Types                                                      204,152               118,017
          F. Total Fund Balances                                $               17,271,821    $       12,892,241


       2. Fund Balances Per Treasury Versus Agency
          A. Fund Balance per Treasury                          $               15,543,476    $       11,573,192
          B. Fund Balance per Marine Corps                                      17,271,821            12,892,241

       3. Reconciling Amount                                    $             (1,728,345)     $       (1,319,049)

      Standard Disclosures
           Explanation of Reconciliation Amount
           (In Thousands)
           Shared Appropriations per United States Marine Corps
                        General Fund (USMC GF)*                          $1,792,444
           Suspense and Deposit Accounts per USMC GF**                     (20,628)
           Canceling Year Appropriations***                                (43,471)
           Total Reconciling Amount                                      $1,728,345

      *This amount is the Fund Balance With Treasury (FBWT) for USMC GF portion of appropriations shared
      with the U.S. Navy: Research and Development, Test and Evaluation; Procurement of Ammunition;
      Wildlife Conservation on Military Reservations, Navy; and Family Housing Operation and Maintenance,
      Navy and Marine Corps. The U.S. Treasury maintains and reports fund balances at the Treasury Index
      appropriation level. As a result, the U.S. Treasury does not separately identify USMC GF portion of fund
      balance with treasury for the shared appropriations.

      **This amount is the FBWT for suspense and deposit accounts shared with the Department of the Navy:
      Disbursing Oﬃcer Suspense Account; Lost or Cancelled Treasury Checks Suspense Account; Interfund/
      Intragovernmental Payment and Collection (IPAC) Suspense Account; and Small Escrow Amounts
      Deposit Account. The U.S. Treasury does not separately identify USMC GF portion of fund balance with
      treasury for the shared suspense and deposit accounts.

      ***This amount is the total FBWT for the appropriations that are canceling in FY 2007. This amount is not
      included in the ﬁnal reports per applicable guidance.

      Other Information
      Other fund types represent USMC GF deposit fund accounts. The deposit fund accounts contain various
      withholdings from Marines’ pay such as taxes, allotments, and garnishments held until the appropriate
      disbursement date. The USMC GF maintains stewardship accountability and reporting responsibility for
      these assets, but the assets are not available for use in USMC GF operations.



204
2007 Annual Financial Report



Status of Fund Balance with Treasury
 As of September 30                                           2007                           2006
 (Amounts in Thousands)
 1. Unobligated Balance
    A. Available                                    $                 2,953,053     $               2,298,754
    B. Unavailable                                                      447,822                       283,374

 2. Obligated Balance not yet Disbursed             $                13,841,236     $             10,418,539

 3. Nonbudgetary FBWT                               $                  183,957      $                  99,224

 4. NonFBWT Budgetary Accounts                      $                 (154,247)     $               (207,650)

 5. Total                                           $                17,271,821     $             12,892,241


Standard Disclosures
The Status of FBWT reﬂects the budgetary resources to support the FBWT.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set
aside to cover outstanding obligations. Unobligated balance is classiﬁed as available or unavailable and
is associated with appropriations expiring at ﬁscal year end that remain available only for obligation
adjustments until the account is closed.

Obligated balance not yet disbursed represents funds that have been obligated for goods that have not
been received, services that have not been performed, and goods and services that have been delivered/
received but not yet paid.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that do
not have budgetary authority, such as unavailable receipt accounts or clearing accounts. Nonbudgetary
FBWT is comprised of the FBWT for the Disbursing Oﬃcer Suspense Account, Lost or Cancelled Treasury
Checks Suspense Account, Interfund/IPAC Suspense Account, Small Escrow Accounts Deposit Account,
and the Pay of the Marine Corps Deposit Account.

NonFBWT Budgetary Accounts represent adjustments to budgetary accounts that do not aﬀect FBWT.
NonFBWT budgetary accounts are comprised of unﬁlled customer orders without advance and
reimbursements and other income earned-receivable. This category reduces the Status of FBWT.

Unobligated balances are segregated to show available and unavailable amounts in the note schedule.
Certain unobligated balances may be restricted to future use and are not apportioned for current use.
The USMC GF has no restrictions on unavailable/unobligated balances.




                                                                                                                   205
                                                                         United States Marine Corps General Fund
                                                                                               Department of the Navy



      Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                                    (Decrease)/
       As of September 30                                    2005         2006          2007       Increase from
                                                                                                   FY 2006 - 2007
      (Amounts in Thousands)
      Account
       F3845 – Personal Property Proceeds               $           0 $        0 $        0            $            0
       F3875 – Disbursing Officer Suspense                   (15,167)   (18,771)   (20,452)                   (1,681)
       F3880 – Lost or Cancelled Treasury Checks                 (43)       (32)        257                       289
       F3882 – Uniformed Services Thrift Savings
               Plan Suspense                                     0          0                  0                    0
       F3885 – Interfund/IPAC Suspense                       (287)          9                  0                  (9)
       F3886 – Thrift Savings Plan Suspense                      0          0                  0                    0
      Total                                             $ (15,497) $ (18,794)         $ (20,195)       $      (1,401)


      Standard Disclosures
      The F3875 suspense clearing represents the disbursing oﬃcer’s suspense. Account F3885 represents the
      Interfund/IPAC suspense. These suspense accounts temporarily hold collections or disbursements until
      they can be assigned or identiﬁed to a valid appropriation.

      The F3880 suspense account represents the balance of U.S. Treasury checks that: (1) have either been lost
      by the payee and need to be reissued, (2) have never been cashed by the payee, or (3) have been cancelled
      by the U.S. Treasury and need to be transferred to the original appropriation.


      Disclosures Related to Problem Disbursements and In-Transit
      Disbursements
                                                                                                      (Decrease)/
        As of September 30                            2005              2006           2007        Increase from FY
                                                                                                     2006 to 2007
       (Amounts in Thousands)
       1. Total Problem Disbursements,
           Absolute Value
           A. Unmatched Disbursements
              (UMDs)                            $       36,589      $    34,640   $      14,108    $        (20,532)
           B. Negative Unliquidated Obligations
              (NULO)                                    5,633             2,905           3,556                  651
          C. In-Transit Disbursements                 524,623           324,330         134,408            (189,922)
       Total                                    $     566,845       $   361,875   $     152,072    $       (209,803)

      Standard Disclosures
      Problem Disbursements are reported as an absolute value amount. Absolute value is the sum of the
      positive values of debit and credit transactions without regard to the plus or minus signs.

      An Unmatched Disbursement occurs when a payment is not matched to a corresponding obligation in
      the accounting system.
206
2007 Annual Financial Report



A Negative Unliquidated Obligation occurs when a payment is made against a valid obligation, but the
payment is greater than the amount of the obligation recorded in the oﬃcial accounting system. These
payments have been made using available funds and are based on valid receiving reports for goods and
services delivered under valid contracts.

The In-transits represent the absolute value of disbursements and collections made by a Department
of Defense disbursing activity on behalf of an accountable activity and have not been posted to the
accounting system.

Beginning with 2nd Quarter, FY 2007, in-transit disbursements are reported as an absolute value as
opposed to net amounts disclosed in prior years. This reporting change applies to amounts in the note
schedule for both the current and comparative years.


Note 4.         Investments and Related Interest
The United States Marine Corps General Fund investments and related interest are reported under the
Department of the Navy General Fund.


Note 5.         Accounts Receivable
 As of September 30                                        2007                                      2006
                                                      Allowance For
                                   Gross                                  Accounts              Accounts
                                                       Estimated
                                 Amount Due                             Receivable, Net      Receivable, Net
                                                      Uncollectibles
 (Amounts in Thousands)
 1. Intragovernmental
    Receivables                  $       57,516                   N/A   $          57,516    $            37,837
 2. Nonfederal Receivables
    (From the Public)            $       40,556   $           (7,821)   $          32,735    $            21,282
 3. Total Accounts
    Receivable                   $       98,072   $           (7,821)   $          90,251    $            59,119




                                                                                                                      207
                                                                            United States Marine Corps General Fund
                                                                                         Department of the Navy



      Aged Accounts Receivable
       As of September 30                         2007                                2006
                                    Intragovernmental     Nonfederal     Intragovernmental    Nonfederal
       (Amounts in Thousands)
       CATEGORY
       Nondelinquent
           Current                  $           62,067    $    36,123    $          46,286    $     12,684
           Noncurrent                                0              0                    0               0
       Delinquent
           1 to 30 days             $              320    $     6,672    $             743    $      2,034
           31 to 60 days                            46            860                    8             537
           61 to 90 days                            12          1,244                  135           1,659
           91 to 180 days                          114          1,424                   85           1,574
           181 days to 1 year                       36          1,686                   22           2,096
           Greater than 1 year
           and less than or equal
           to 2 years                                0          2,216                   35             798
           Greater than 2 years
           and less than or equal
           to 6 years                                0            524                    0             691
           Greater than 6 years
           and less than or equal
           to 10 years                               0            206                    0              59
           Greater than 10 years                     0             60                    0              36
       Subtotal                     $           62,595    $    51,015    $          47,314    $     22,168
          Less Supported
          Undistributed
          Collections                          (15,436)       (10,459)              (2,130)              0
          Less Eliminations                      10,357              0              (7,347)              0
          Less Other                                  0              0                    0              0
       Total                        $           57,516    $    40,556    $          37,837    $     22,168


      Information Related to Aged Accounts Receivable
      The total delinquent balance for FY 2007 is $15.4 million, of which $8.1 million of the balance are
      outstanding receivables in the United States Marine Corps General Fund reimbursable program. The
      remaining $7.3 million of the delinquent balance are refunds receivable that are managed by Defense
      Finance and Accounting Services Debt Management Oﬃce (DMO). The DMO is working these amounts
      by referring them to the U.S. Treasury for oﬀset or due process.




208
2007 Annual Financial Report



Note 6.         Other Assets
 As of September 30                                            2007                          2006
 (Amounts in Thousands)
 1. Intragovernmental Other Assets
    A. Advances and Prepayments                      $                   3,083       $                   5,774
    B. Other Assets                                                          0                               0
    C. Total Intragovernmental Other Assets          $                   3,083       $                   5,774

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing
       Payments                                      $                 740,207       $                505,172
    B. Other Assets (With the Public)                                   20,737                         14,479
    C. Total Nonfederal Other Assets                 $                 760,944       $                519,651

 3. Total Other Assets                               $                 764,027       $                525,425


Standard Disclosures
Other Assets (With the Public) is comprised of travel advances made to Marines and civilian personnel.

Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights
to United States Marine Corps General Fund (USMC GF) that protect the contract work from state or
local taxation, liens or aĴachment by the contractor’s creditors, transfer of property, or disposition in
bankruptcy; however, these rights should not be misconstrued to mean that ownership of the contractor’s
work has transferred to the Government. The Government does not have the right to take the work,
except as provided in contract clauses related to termination or acceptance, and USMC GF is not
obligated to make payment to the contractor until delivery and acceptance.

The Contract Financing Payment balance of $740.2 million is comprised of $688.5 million in contract
ﬁnancing payments and an additional $51.7 million in estimated future payments that will be paid to the
contractor upon future delivery and Government acceptance of a satisfactory product. (See additional
discussion in Note 15, Other Liabilities).


Note 7.         Cash and Other Monetary Assets
 As of September 30                                        2007                             2006
 (Amounts in Thousands)
 1. Cash                                       $                      37,768     $                      59,639
 2. Foreign Currency                                                      15                                10
 3. Other Monetary Assets                                                  0                                 0
 4. Total Cash, Foreign Currency, &
    Other Monetary Assets                      $                      37,783     $                      59,649


Standard Disclosures
Cash and foreign currency are nonentity assets and, as such, are considered restricted assets that are held
by the United States Marine Corps General Fund (USMC GF) but not available to use in its operations.

                                                                                                                    209
                                                                          United States Marine Corps General Fund
                                                                                                                  Department of the Navy



      Cash of $37.8 million and foreign currency of $15.0 thousand are restricted. These assets are held by
      USMC disbursing oﬃcers as agents of the U.S. Treasury.

      The amounts reported as cash and foreign currency consist primarily of cash held by disbursing oﬃcers
      to carry out their payment, collection, and foreign currency accommodation exchange mission. The
      primary source of the amounts reported is the Statement of Accountability, a DoD disbursing oﬃcer’s
      report.

      The amount of foreign currency reported was valued using U.S. Treasury prevailing rate of exchange, the
      most favorable rate available to U.S. Government when acquiring foreign currency. Foreign currency is
      used to make oﬃcial disbursements and to provide foreign currency for the exchange of U.S. dollars for
      military personnel.


      Note 8.           Direct Loan and/or Loan Guarantee Programs
      Not applicable.


      Note 9.           Inventory and Related Property
       As of September 30                                                      2007                                 2006
       (Amounts in Thousands)
       1. Inventory, Net                                       $                               0       $                             0
       2. Operating Materiel & Supplies, Net                                           5,694,867                             5,121,038
       3. Stockpile Materiel, Net                                                              0                                     0
       4. Total                                                $                       5,694,867       $                     5,121,038

      Inventory, Net
      Not applicable.

      Operating Materiel and Supplies, Net
                                                                   2007                                    2006
       As of September 30                 OM&S             Revaluation                                                     Valuation
                                                                                 OM&S, Net         OM&S, Net
                                        Gross Value        Allowance                                                        Method
       (Amounts in Thousands)
       1. OM&S Categories
          A. Held for Use              $     5,179,630     $              0     $     5,179,630    $       4,553,141        SP, LAC
          B. Held for Repair                   515,237                    0             515,237              567,897        SP, LAC
          C. Excess,
             Obsolete, and
             Unserviceable                      42,099              (42,099)                 0                     0         NRV


           D. Total                    $     5,736,966     $        (42,099)    $     5,694,867    $       5,121,038


            Legend for Valuation Methods:
            Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
            NRV = Net Realizable Value
            SP = Standard Price


210
2007 Annual Financial Report



Standard Disclosures
General Composition of Operating Materiels and Supplies (OM&S)
The OM&S includes (1) ammunition and munitions that consists of spare and repair parts and
conventional missiles, and (2) Appropriation Purchase Account (APA) Secondary Inventory that consists
of spare and repair parts, clothing and textiles, medical and dental supplies, and fuel.

Restrictions on Operating Materiels and Supplies
There are no restrictions on the use of OM&S.

Decision Criteria for Identifying the Category to which Operating Materiels and Supplies are Assigned
In order to standardize reporting of the categories held for use, held for repair, and excess, obsolete,
unserviceable, United States Marine Corps General Fund (USMC GF) implemented the Oﬃce of
the Under Secretary of Defense (Comptroller) (OUSD(C)) condition code criterion as deﬁned in the
memorandum, “Accounting for Excess, Unserviceable, and Obsolete Inventory and Operating Materials
and Supplies” dated, August 12, 2002. In addition, the condition code criterion was amended to include
code “V” in the excess, obsolete, unserviceable category in September 2002.

The OM&S was reported as follows:

      OM&S Category                        Condition Codes
      Held for Use                         A, B, C, D
      Held for Repair                      E, F, G, J, K, L, M, N, R
      Excess, Obsolete, Unserviceable      P, H, S, V

In addition to the account balances, the Statement of Federal Financial Accounting Standards No. 3,
Accounting for Inventory and Related Property requires disclosure of the amount of OM&S held for
“future use.” This information is not captured by current OM&S systems which were designed for
material management rather than accounting purposes.

Valuation Method for OM&S.
The USMC GF continues to value its OM&S using both standard price and latest acquisition cost adjusted
for gains and losses. The USMC GF values certain aged ammunition and munitions, using the standard
purchase price. The USMC GF values other OM&S, including ammunition and munitions using latest
acquisition cost, adjusted for gains and losses. The USMC GF does not include a revaluation allowance
for OM&S held for use or held for repair, but transfers items from these categories to excess, obsolete, and
unserviceable where the revaluation allowance is reported. Of the gross $5.7 billion OM&S, $4.9 billion is
valued using latest acquisition cost adjusted for gains and losses, the remaining, $817.3 million is valued
at standard price.


Stockpile Materiel, Net
Not applicable.




                                                                                                                    211
                                                                          United States Marine Corps General Fund
                                                                                                        Department of the Navy



      Note 10. General PP&E, Net
                                                                      2007                                             2006
       As of September 30        Depreciation/                                   (Accumulated
                                                  Service         Acquisition                        Net Book       Prior FY Net
                                 Amortization                                    Depreciation/
                                                   Life             Value                             Value         Book Value
                                   Method                                        Amortization)
       (Amounts in Thousands)
       1. Major Asset Classes
          A. Land                    N/A           N/A        $     164,118               N/A $        164,118 $ 155,378
          B. Buildings,
             Structures, and
             Facilities              S/L          20 or 40        7,775,077 $ (4,207,596)            3,567,481       3,529,432
          C. Leasehold
             Improvements            S/L         lease term                  0                   0              0             0
          D. Software                S/L          2-5 or 10                  0                   0              0             0
          E. General
             Equipment               S/L          5 or 10           187,795          (145,041)          42,754          34,324
          F. Military
             Equipment               S/L          Various         7,345,876        (1,910,973)       5,434,903       4,778,751
          G. Assets Under
             Capital Lease           S/L         lease term                  0                   0              0             0
          H. Construction-in-
             Progress                N/A           N/A                       0            N/A                   0             0
          I. Other                                                           0              0                   0             0
          J. Total General
             PP&E                                             $ 15,472,866 $ (6,263,610) $           9,209,256 $ 8,497,885


      Standard Disclosures
      Restrictions on the use or convertibility of General Property, Plant, and Equipment (PP&E), Net
      For United States Marine Corps General Fund (USMC GF) sites outside of the continental U.S., there are
      no restrictions on the use or convertibility of General PP&E in accordance with international agreements.

      Heritage Assets
      The processes used to deﬁne items as having heritage signiﬁcance vary between categories and type of
      assets being evaluated. Subject maĴer experts, including historians and curators, play a signiﬁcant role in
      the deﬁnition process in addition to other criteria such as being listed on the National Register of Historic
      Places. In all cases, a myriad of federal statutes, service regulations, and other guidelines mandate
      heritage signiﬁcance or provide guidance in its determination.

      The methodology used to report the condition of the heritage assets was a combination of visual
      assessment of the objects, historic value to USMC GF collection, and general display and storage
      standards for historic collections. The overall condition of the collection objects is good.

      Any additional information regarding heritage assets, multi-use heritage assets, and stewardship land is
      reported in Required Supplementary Information.

      Museums
      Museums are buildings, places, or institutions devoted to the acquisition, conservation, study, exhibition,
      and educational interpretation of objects having scientiﬁc, historical, or artistic value. The Secretary of the

212
2007 Annual Financial Report



Navy Instruction 5755.1A, Navy Museums, deﬁnes the scope of the Navy Museum program.

Stewardship Land
The USMC GF follows Department of Defense (DoD) Financial Management Regulation deﬁnition of
stewardship land to include public domain, land set aside, and donated land. Within the deﬁnition of
stewardship land, land can be further categorized as improved, semi-improved or in the other category of
land.

Military Equipment
In accordance with the requirements of Statement of Federal Financial Accounting Standards (SFFAS)
No. 23, Eliminating the Category National Defense Property, Plant, and Equipment, beginning in FY 2003,
the DoD capitalized military equipment into General PP&E at estimated historical cost using information
and methodology obtained from the Bureau of Economic Analysis (BEA). Eﬀective 3rd Quarter, FY 2006,
DoD replaced the BEA estimation methodology with one that is based on internal records for military
equipment.


Assets Under Capital Lease
Not applicable.


Note 11. Liabilities Not Covered by Budgetary Resources
 As of September 30                                         2007                           2006
 (Amounts in Thousands)
 1. Intragovernmental Liabilities
    A. Accounts Payable                           $                     606    $                           0
    B. Debt                                                               0                                0
    C. Other                                                         79,885                           79,677
    D. Total Intragovernmental Liabilities        $                  80,491    $                      79,677

 2. Nonfederal Liabilities
    A. Accounts Payable                           $                   3,230    $                       2,186
    B. Military Retirement and
       Other Federal Employment Benefits                             215,229                        214,433
    C. Environmental Liabilities                                     224,645                        226,470
    D. Other Liabilities                                             627,458                        651,450
    E. Total Nonfederal Liabilities               $                1,070,562   $                  1,094,539

 3. Total Liabilities Not Covered by
    Budgetary Resources                           $                1,151,053   $                  1,174,216

 4. Total Liabilities Covered by Budgetary
    Resources                                     $                2,406,900   $                  1,080,648

 5. Total Liabilities                             $                3,557,953   $                  2,254,864




                                                                                                                  213
                                                                        United States Marine Corps General Fund
                                                                                               Department of the Navy



      Standard Disclosures
      Liabilities not covered by budgetary resources are liabilities for which congressional action is needed
      before budgetary resources can be provided.

      Material Amounts Not Covered by Budgetary Resources
      The Military Retirement and Other Federal Employment Beneﬁts nonfederal liabilities (Federal Employees
      Compensation Act (FECA) Actuarial), $215.2 million; Environmental Liabilities, $224.6 million; and
      accounts payable from cancelling years –nonfederal liabilities, $3.2 million, are liabilities not covered by
      budgetary resources. These liabilities are not covered by realized budgetary resources as of the Balance
      Sheet date. Budgetary authority to satisfy these liabilities is expected to be provided in a future Defense
      Appropriations Act. The environmental liabilities are not funded by budgetary resources because they
      are estimates that may be cleaned up in future years. When that future budgetary authority is provided,
      these respective liabilities will be recorded as covered by budgetary resources with an associated funded
      expense.

      Intragovernmental liabilities – other, not covered by budgetary resources includes FECA, $51.0 million
      and unemployment compensation, $28.6 million.

      Nonfederal liabilities - other liabilities (not covered by budgetary resources) includes civilian and military
      annual leave liability, $586.7 million.

      Military Retirement and Other Federal Employment Beneﬁts not covered by budgetary resources are
      comprised of various employee actuarial liabilities not due and payable during the current ﬁscal year.
      These liabilities are primarily comprised of FECA, $215.2 million. Refer to Note 17, Military Retirement
      and Other Federal Employment Beneﬁts, for additional details and disclosures.


      Note 12. Accounts Payable
                                                                   2007                                   2006

       As of September 30                                      Interest, Penalties,
                                        Accounts Payable      and Administrative          Total           Total
                                                                      Fees
       (Amounts in Thousands)
       1. Intragovernmental
          Payables                      $          282,256    $           N/A         $    282,256    $    111,464
       2. Nonfederal Payables
          (to the Public)                         1,302,211                       0       1,302,211        520,609
       3. Total                         $         1,584,467   $                   0   $   1,584,467   $    632,073

      Standard Disclosures
      The United States Marine Corps General Fund systems do not track intragovernmental transactions
      by customer at the transaction level. Therefore, internal Department of Defense buyer-side balances
      are adjusted to agree with internal seller-side balances for revenue, accounts receivable, and unearned
      revenue. Accounts payable were adjusted by reclassifying amounts between federal and nonfederal
      accounts payable.


      Note 13.          Debt
      Not applicable.

214
2007 Annual Financial Report



Note 14. Environmental Liabilities and Disposal Liabilities
                                                                       2007                              2006
 As of September 30                             Current             Noncurrent
                                                                                         Total           Total
                                                Liability            Liability
 (Amounts in Thousands)
 1. Environmental Liabilities--Nonfederal
 A. Accrued Environmental Restoration
    Liabilities
    1. Active Installations—Installation
        Restoration Program (IRP) and
        Building Demolition and Debris
        Removal (BD/DR)                     $               0   $                0   $           0   $            0
    2. Active Installations—Military
        Munitions Response Program
        (MMRP)                                              0                    0               0                0
    3. Formerly Used Defense Sites—IRP
        and BD/DR                                           0                    0               0                0
    4. Formerly Used Defense Sites—
        MMRP                                                0                    0               0                0
 B. Other Accrued Environmental
    Liabilities—Active Installations
     1. Environmental Corrective Action                198               30,758            30,956           40,637
     2. Environmental Closure
     Requirements                                      179              193,510           193,689          185,833
     3. Environmental Response at
     Operational Ranges                                     0                    0               0                0
     4. Other                                               0                    0               0                0
 C. Base Realignment and Closure (BRAC)
    1. Installation Restoration Program                     0                    0               0                0
    2. Military Munitions Response
        Program                                             0                    0               0                0
    3. Environmental Corrective Action /
        Closure Requirements                                0                    0               0                0
    4. Other                                                0                    0               0                0
 D. Environmental Disposal for Weapons
    Systems Programs
    1. Nuclear Powered Aircraft Carriers                    0                    0               0                0
    2. Nuclear Powered Submarines                           0                    0               0                0
    3. Other Nuclear Powered Ships                          0                    0               0                0
    4. Other National Defense Weapons
        Systems                                             0                    0               0                0
    5. Chemical Weapons Disposal
        Program                                          0                    0                 0                0
    6. Other                                             0                    0                 0                0
 2. Total Environmental Liabilities         $          377      $       224,268      $    224,645    $     226,470


                                                                                                                        215
                                                                              United States Marine Corps General Fund
                                                                                             Department of the Navy



      Standard Disclosures
      Environmental Liabilities Nonfederal Other Accrued Environmental Liabilities – Active Installations
      In the 4th Quarter, FY 2007, the United States Marine Corps General Fund (USMC GF) reported $31.0
      million in Environmental Corrective Action and $193.7 million in Environmental Closure Requirements.
      The USMC GF is continuing eﬀorts to complete their survey and estimations of USMC GF environmental
      liabilities of closure/decommissioning requirements for ongoing operations.

      Applicable Laws and Regulations for Cleanup Requirements
      The following is a summary of signiﬁcant laws that aﬀect USMC GF’s conduct of environmental policy
      and regulations for cleanup requirements:

      The Resource Conservation and Recovery Act (RCRA) of 1976 as amended by the Hazardous and Solid
      Waste Amendments of 1984, was the ﬁrst comprehensive federal eﬀort to deal with safe disposal of
      all types of hazardous wastes, and provides for “cradle to grave” tracking of hazardous wastes. The
      RCRA addresses and requires permits for solid waste and hazardous waste closure and corrective
      action, including solid waste landﬁll and hazardous waste permiĴed storage facility closures. Permits
      are required for treatment, storage or disposal. Requirements for underground storage tanks are also
      contained in RCRA.

      The Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (CERCLA),
      commonly referred to as the Superfund legislation, provided for Federal agencies authority to respond
      to the release or the substantial threat of release of hazardous substances into the environment. The
      CERCLA was amended several times; one of the amendments was the Superfund Amendment and
      Reauthorization Act of 1986. This amendment established procedures to ensure that actual or threatened
      hazardous substance releases have proper responses. The procedures address reporting, investigating,
      remedy selection, and responsive provisions.

      The Clean Water Act (CWA) of 1977, Section 405 Disposal of Sewage Sludge, amended the Federal
      Water Pollution Control Act. The purpose of CWA is to restore and maintain the integrity of the nation’s
      waters. Facilities may dispose of sewage sludge on site from the operation of a treatment works. The
      CWA implementing regulations established closure and post closure requirements for sewage sludge
      disposal. To help protect the nation’s drinking water supply, including underground injections through
      a permiĴing scheme implemented by the states is the purpose of the Safe Drinking Water Act (SDWA)
      of 1974, amended in 1986 to include Wellhead Protection Areas. The SDWA regulates the underground
      disposal of wastes in deep wells and establishes a program to protect public water supply wells. One
      requirement to protect public water supply wells addresses closure of Class I injection wells used for
      industrial hazardous, industrial nonhazardous and municipal (nonhazardous) waste.

      Methodology Used to Estimate NonDefense Environmental Restoration Program (Non-DERP)
      Environmental Liabilities
      The Non-DERP environmental liability estimates are based on the following:

                 Execution/payment amounts,
                 Historical references (e.g., prior projects, investigations, monitoring),
                 Current projects of comparable scope (similar sites),
                 Estimates from vendors/contractors,
                 Estimates from Military Construction Data Project form,
                 Program Objectives Memorandum Guidebook, and
                 Professional experience.


216
2007 Annual Financial Report



Description of the Types of Environmental Liabilities and Disposal Liabilities
Other Accrued Environmental Costs (Non-DERP), Cost, Base Realignment and Closure (BRAC), and
Environmental Disposal for Weapons systems Programs
The USMC GF deﬁnes Non-DERP environmental sites/units as those sites/units associated with on-
going operations such as solid waste management unit cleanup, landﬁll closure, permiĴed facilities,
removal, replacement, retro ﬁll, and/or disposal of the Polychlorinated Biphenyls (PCB) transformers,
underground storage tank remedial investigation and closure. The USMC GF has reported NonDERP
environmental liabilities for USMC GF installations totaled 225 projects and covered approximately 3,290
sites. The projects span the following Non-DERP reporting categories: (1) closure for units or sites put
into service prior to September 30, 1997, (2) closure for units or sites put into service aĞer September 30,
1997, and (3) corrective actions. There are no projects that are categorized as NonDERP environmental
liability for “response at active ranges” and other reporting categories. For units or sites put into service
aĞer September 30, 1997, the number of years of service was used to allocate the liability for the current
ﬁscal year and the accumulated liability to date.

Accrued Environmental Restoration Defense Environmental Restoration Program (DERP) Funded
The U.S. Navy centrally manages and executes DERP and BRAC portion at Department of the Navy
(DON) level. Therefore, USMC GF does not report DERP or BRAC environmental liabilities.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inﬂation,
Deﬂation, Technology, or Applicable Laws and Regulations
NonDERP environmental liabilities can change in the future because of changes in laws/regulations and
regulatory agencies agreements, and technology advances.

Description of the Level of Uncertainty Regarding the Accounting Estimates used to Calculate the
Reported Environmental Liabilities
The environmental liabilities for USMC GF are based on accounting estimates that require certain
judgments and assumptions that we believe are reasonable based upon information available to us at the
time of calculating the estimates. The actual results may vary materially from the accounting estimates if
laws/regulations change requiring a diﬀerent closure method, or if agreements with regulatory agencies
require remediation to a diﬀerent degree than anticipated when calculating the estimates. The liabilities
can be further impacted if further investigation of the environmental sites discloses contamination
diﬀerent than known at the time of the estimates.


Environmental Disclosures
Line A. The USMC GF reported an estimate for Other Environmental Liabilities (OEL). The USMC GF
is determining what portion of OEL relates to units put into service aĞer October 1, 1997. Therefore,
detailed data is not available at this time.

Lines B and C. The USMC GF does not have any changes in the environmental liability estimates due to
changes in laws, regulations, and technology.




                                                                                                                     217
                                                                           United States Marine Corps General Fund
                                                                                                Department of the Navy



      Note 15. Other Liabilities
                                                                       2007                               2006
       As of September 30                          Current         Noncurrent
                                                                                        Total             Total
                                                   Liability        Liability
       (Amounts in Thousands)
       1. Intragovernmental
          A. Advances from Others              $               0   $            0   $           0    $             0
          B. Deposit Funds and Suspense
             Account Liabilities                      183,957                   0         183,957             99,224
          C. Disbursing Officer Cash                   37,783                   0          37,783             59,649
          D. Judgment Fund Liabilities                      0                   0               0                  0
          E. FECA Reimbursement to the
             Department of Labor                       22,421            28,537            50,958             50,081
          F. Other Liabilities                         34,533                 0            34,533             34,922

          G. Total Intragovernmental
             Other Liabilities                 $      278,694      $     28,537     $     307,231    $      243,876
       2. Nonfederal
          A. Accrued Funded Payroll and
             Benefits                          $      539,303      $            0   $     539,303    $       173,846
          B. Advances from Others                           0                   0               0                  0
          C. Deferred Credits                               0                   0               0                  0
          D. Deposit Funds and Suspense
             Accounts                                          0                0               0                  0
          E. Temporary Early Retirement
             Authority                                         0                0               0                  0
          F. Nonenvironmental Disposal
             Liabilities
              (1) Military Equipment
              (Nonnuclear)                                   0                0                 0                  0
              (2) Excess/Obsolete Structures             5,282           34,110            39,392             39,392
              (3) Conventional Munitions
              Disposal                                         0                0               0                  0
          G. Accrued Unfunded Annual
             Leave                                    586,677                   0         586,677           608,058
           H. Capital Lease Liability                        0                0                 0                  0
           I. Other Liabilities                          4,348           55,021            59,369            116,716

          J. Total Nonfederal Other
             Liabilities                       $    1,135,610      $     89,131     $   1,224,741    $       938,012
       3. Total Other Liabilities              $    1,414,304      $    117,668     $   1,531,972    $     1,181,888


      Standard Disclosures
      Intragovernmental other liabilities-others includes liabilities for unemployment and employee beneﬁts.

218
2007 Annual Financial Report



Nonfederal other liabilities-other includes future contract ﬁnancing payments.

Contingent liabilities balance includes $51.7 million in estimated future contract ﬁnancing payments
that will be paid to the contractor upon delivery and Government acceptance. In accordance with
contract terms, speciﬁc rights to the contractor’s work vests with the Government when a speciﬁc type
of contract ﬁnancing payments is made. This action protects taxpayer funds in the event of the contract
nonperformance. These rights should not be misconstrued as the right of ownership. The United States
Marine Corps General Fund (USMC GF) is under no obligation to pay the contractor for amounts greater
than the amounts authorized in the contract until delivery and Government acceptance. Because it is
probable that the contractor will complete its eﬀorts and deliver a satisfactory product to USMC GF and
the amount of potential future payments are estimable; USMC GF has recognized a contingent liability
for estimated future payments, which are conditional pending delivery and Government acceptance.

Contingent liabilities balance, also, includes $1.4 million in estimated legal liabilities. The 1st Quarter, FY
2007, Department of Navy GF and USMC GF began recognizing and disclosing an estimate for contingent
legal liabilities. The methodology to determine an estimate for contingent legal liabilities considers the
likelihood of an unfavorable outcome or potential liability is provided as an overall assessment of all
cases currently pending and not on an individual case basis. For more details, see Note 16, Commitments
and Contingencies.


Capital Lease Liability
Not applicable.


Note 16. Commitments and Contingencies
Standard Disclosures
The United States Marine Corps General Fund (USMC GF), a sub-entity of the Department of the Navy
(DON) General Fund (GF), is a party in various administrative proceedings and legal actions, with claims
including environmental damage claims, equal opportunity maĴers, and contractual bid protests which
may ultimately result in seĴlements or decisions adverse to the Federal Government. These proceedings
and actions arise in the normal course of operations and their ultimate disposition is unknown. The
USMC GF has accrued contingent liabilities for legal actions where Oﬃce of Navy General Counsel
considers an adverse decision probable and the amount of the loss is measurable. In the event of an
adverse judgment against the Government, some of the liabilities may be payable from the Judgment
Fund. Others may be payable from DON resources, either directly or by reimbursement to the Judgment
Fund. The USMC GF records Judgment Fund liabilities in Note 12, “Accounts Payable,” or Note 15,
“Other Liabilities.”

The Oﬃce of Navy General Counsel completed a review of litigation and claims threatened or asserted
involving the USMC GF to which DON aĴorneys devoted substantial aĴention in the form of legal
consultation or representation. This review reﬂects a threshold of materiality of $3.6 million applied
to individual and aggregate claims, litigation, and assessments arising out of a single event or series of
events, and includes maĴers that existed on October 1, 2006 through September 30, 2007. The USMC GF
has two cases that meet the existing FY 2007 USMC GF materiality threshold of $3.6 million. The DON
legal counsel was unable to express an opinion concerning the likely outcome of these cases. Based on
information contained in the FY 2007 Preliminary and Final Legal Representation LeĴers, management
does not have suﬃcient reason to believe that it is likely that the Government will be liable for the
amounts claimed in individual or aggregated cases.

Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments
as to outcomes except in those relatively few clear cases. In response to a Department of Defense,

                                                                                                                      219
                                                                            United States Marine Corps General Fund
                                                                                             Department of the Navy



      Inspector General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON developed
      a methodology to determine an estimate for contingent legal liabilities. The DON/USMC began
      recognizing and disclosing an estimate for contingent legal liabilities beginning 1st Quarter, FY 2007. The
      methodology considers the likelihood of an unfavorable outcome or potential liability is provided as an
      overall assessment of all cases currently pending and not on an individual case basis. The likelihood of
      an unfavorable or potential liability was determined by using an average of the data from the preceding
      four years and the current year. The total dollar amount of the cases closed was divided by the total
      dollar amount claimed in those closed cases for each of the last four years plus current year which were
      then used to calculate the average. This average represents the percentage that has historically been paid
      on claims. It is based entirely on historical data. The merits of each individual case have not been taken
      into consideration. Until suﬃcient historical data can be collected for the Navy Working Capital Fund—
      Marine Corps, this estimate will consider all USMC funding sources together.

      The estimate for those aggregate of cases considered reasonably possible to result in an adverse judgment
      against USMC is $17.6 million. Also, in Note 15, Other Liabilities, nonfederal other liabilities, USMC GF
      recognized an estimate for contingent legal liabilities that probably may result in an adverse judgment.

      Other Commitments and Contingencies
      The USMC GF is a party in numerous individual contracts that contain clauses, such as price escalation,
      award fee payments, or dispute resolution, that may or may mot result in a future outﬂow of
      expenditures. Currently, USMC GF does not have a systemic process by which it captures or assesses
      these potential contingent liabilities; therefore, the amounts reported may not fairly present USMC GF’s
      contingent liabilities. The USMC GF contingent liabilities for obligations related to undelivered orders for
      open contracts citing canceled appropriations, which remain unﬁlled or unreconciled, and for contractual
      arrangements are reported at DON level.




220
2007 Annual Financial Report



Note 17. Military Retirement and Other Federal Employment
         Related Beneﬁts
                                                             2007                                        2006

 As of September 30                              Assumed       (Less: Assets                            Present
                                Present Value                                      Unfunded
                                                  Interest     Available to                             Value of
                                 of Benefits                                        Liability
                                                 Rate (%)      Pay Benefits)                            Benefits
 (Amounts in Thousands)
 1. Pension and Health
    Actuarial Benefits
    A. Military Retirement
       Pensions                  $           0                $            0   $            0       $              0
    B. Military Retirement
       Health Benefits                       0                             0                0                      0
    C. Military Medicare-
       Eligible Retiree
       Benefits                              0                             0                    0                  0
    D. Total Pension and
       Health Actuarial
       Benefits                 $            0                $            0   $            0       $              0

 2.   Other Actuarial
      Benefits
      A. FECA                   $      215,229                $            0   $       215,229      $     214,433
      B. Voluntary
         Separation Incentive
         Programs                            0                             0                    0                  0
      C. DoD Education
         Benefits Fund                       0                             0                    0                  0
      D. Total Other
         Actuarial Benefits     $      215,229                $            0   $      215,229       $     214,433

   3. Other Federal
      Employment Benefits       $        1,640                $      (1,640)   $            0       $              0
   4. Total Military
      Retirement and Other
      Federal Employment
      Benefits:                 $      216,869                $      (1,640)   $      215,229       $     214,433


Standard Disclosures
Military Retirement Pensions
The portion of the military retirement beneﬁts actuarial liability applicable to the United States Marine
Corps General Fund (USMC GF) is reported on the ﬁnancial statements of the Military Retirement Fund.

Military Retirement Health Beneﬁts.
Health beneﬁts are funded centrally at the Department of Defense (DoD) level. As such, the portion of
the health beneﬁts actuarial liability that is applicable to USMC GF is reported only on DoD Agency wide
                                                                                                                       221
                                                                         United States Marine Corps General Fund
                                                                                              Department of the Navy



      Financial Statements and the Medicare-Eligible Retiree Health Care Fund Financial Statements.

      Federal Employees Compensation Act (FECA)
      Actuarial Cost Method Used and Assumptions: The USMC GF actuarial liability for workers’
      compensation beneﬁts is developed by Department of Labor and provided to USMC GF at the end of
      each ﬁscal year. The future workers’ compensation beneﬁts include the expected liability for death,
      disability, medical, and miscellaneous costs for approved compensation cases, plus a component for
      incurred but not reported claims. The liability is determined using a method that utilizes historical
      beneﬁt payment paĴerns related to a speciﬁc incurred period to predict the ultimate payments related to
      that period. Consistent with past practice, these projected annual beneﬁt payments have been discounted
      to present value using the Oﬃce of Management and Budget’s economic assumptions for 10 year U.S.
      Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:

            Fiscal Year 2007
            4.930% in Year 1
            5.078% in Year 2 and thereaĞer

      To provide more speciﬁcally for the eﬀects of inﬂation on the liability for future workers’ compensation
      beneﬁts, wage inﬂation factors (cost of living adjustments or COLAs) and medical inﬂation factors
      (consumer price index medical or CPIMs) were applied to the calculation of projected future beneﬁts.
      The actual rates for these factors for the charge back year (CBY) 2007 were also used to adjust the
      methodology’s historical payments to current year constant dollars.

      The compensation COLAs and CPIMs used in the projections for various CBY were as follows:

            CBY       COLA         CPIM
            2007      2.63%        3.74%
            2008      2.90%        4.04%
            2009      2.47%        4.00%
            2010      2.37%        3.94%
            2011+     2.30%        3.94%

      The model’s resulting projections were analyzed to ensure that the estimates were reliable. The
      analysis was based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a
      comparison of the percentage change in the liability amount by agency to the percentage change in the
      actual incremental payments, (3) a comparison of the incremental paid losses per case (a measure of case
      severity) in CBY 2007 to the average paĴern observed during the most current three charge back years,
      and (4) a comparison of the estimated liability per case in the 2007 projection to the average paĴern for
      the projections of the most recent three years. The estimated actuarial liability is updated only at the end
      of each ﬁscal year. The change in actuarial liability for ﬁscal year 2007 is an increase of $796.2 thousand.

      The estimate was allocated between USMC GF and Navy Working Capital Fund-Marine Corps based on
      the number of civilian employees from the Navy Budget Tracking System.

      Other Federal Employment Beneﬁts
      Other federal employment beneﬁts consist primarily of voluntary separation incentive pay for former
      employees.




222
2007 Annual Financial Report



Note 18. General Disclosures Related to the Statement of Net
         Cost
 As of September 30                                     2007                             2006

 (Amounts in Thousands)
 1. Intragovernmental Costs                 $                   6,192,075   $                     5,829,850
 2. Public Costs                                               18,667,042                        14,666,789
 3. Total Costs                             $                  24,859,117   $                    20,496,639
 4. Intragovernmental Earned Revenue        $                   (457,705)   $                     (304,356)
 5. Public Earned Revenue                                       (189,363)                         (110,342)
 6. Total Earned Revenue                    $                   (647,068)   $                     (414,698)
 7. Net Cost of Operations                  $                  24,212,049   $                    20,081,941


Standard Disclosures
Intragovernmental costs and revenues are related to transactions made between two reporting entities
within the Federal Government.

Public costs and revenues are exchange transactions made between the United States Marine Corps
General Fund (USMC GF) and a nonfederal entity.

The USMC GF systems do not track intragovernmental transactions by customer at the transaction level.
Therefore, internal DOD buyer-side balances are adjusted to agree with internal seller-side balances for
revenue. Expenses were adjusted by reclassifying amounts between federal and nonfederal expenses.

The Statement of Net Cost is unique because its principles are driven on understanding the net cost of
programs and/or organizations that the Federal Government supports through appropriations or other
means. This statement provides gross and net cost information that can be related to the amount of
output or outcome for a given program and/or organization administered by a responsible reporting
entity.

The USMC GF accounting system meets accounting standards and records transactions based on the
U.S. Standard General Ledger. The information presented is not based on budgetary obligations,
disbursements, and collection transactions.

The USMC GF accounting system does not capture information relative to heritage assets separately and
distinctly from normal operations. The USMC GF does not report any amounts for the costs of acquiring,
constructing, improving, reconstructing, or renovating heritage assets (other than multi use heritage
assets); nor costs for acquiring stewardship land and preparing stewardship for its intended use.




                                                                                                                  223
                                                                        United States Marine Corps General Fund
                                                                                          Department of the Navy



      Note 19. Disclosures Related to the Statement of Changes in
               Net Position
                                                           2007                               2006
       As of September 30                    Cumulative                       Cumulative
                                                              Unexpended                         Unexpended
                                              Results of                       Results of
                                                             Appropriations                     Appropriations
                                             Operations                       Operations
       (Amounts in Thousands)
       1. Prior Period Adjustments
          Increases (Decreases) to Net
          Position Beginning Balance

          A. Changes in Accounting
             Standards                      $            0   $            0   $          0      $            0
          B. Errors and Omissions in
             Prior Year Accounting
             Reports                                    0                 0       3,158,868                  0

          C. Total Prior Period
             Adjustments                    $           0    $            0   $   3,158,868     $            0

       2. Imputed Financing
          A. Civilian CSRS/FERS
             Retirement                     $       23,214   $            0   $     23,303      $            0
          B. Civilian Health                        47,493                0         42,640                   0
          C. Civilian Life Insurance                   157                0            141                   0
          D. Judgment Fund                             461                0          1,157                   0
          E. IntraEntity                                 0                0              0                   0
                                                                                                             0
          F. Total Imputed Financing        $       71,325   $            0   $     67,241      $            0


      Standard Disclosures
      The diﬀerence of $134.0 thousand between appropriations received on the Statement of Budgetary
      Resources (SBR) and appropriations received on the Statement of Change of Net Position (SCNP) is the
      amount of special receipts from the United States Marine Corps General Fund (USMC GF) portion of the
      Wildlife Conservation on Military Reservations appropriation. This amount is included as appropriations
      received on the SBR, but not on the SCNP. Refer to Note 20 for additional details.




224
2007 Annual Financial Report



Note 20. Disclosures Related to the Statement of Budgetary
         Resources
 As of September 30                                              2007                          2006
 (Amounts in Thousands)
 1. Net Amount of Budgetary Resources
    Obligated for Undelivered Orders at the End
    of the Period                                      $             12,430,461       $               10,014,842

 2. Available Borrowing and Contract Authority
    at the End of the Period                                                   0                               0

Standard Disclosures
The United States Marine Corps General Fund (USMC GF) Report on Budget Execution accurately
reﬂects $20.7 billion direct obligations in category A, amounts apportioned quarterly; $8.9 billion direct
obligations in category B, amounts apportioned on a basis other than quarterly; and $613.5 million
reimbursable obligations in category B.

The Statement of Budgetary Resources (SBR) reﬂects total direct obligations of $29.6 billion and $613.5
million in reimbursable obligations.

The SBR includes intraentity transactions because the statements are presented as combined and
combining.

Appropriations Received on SBR does not agree with Appropriations Received on the Statement of
Changes in Net Position (SCNP) because of diﬀerences between proprietary and budgetary accounting
concepts and reporting concepts. The diﬀerence of $134.0 thousand is the amount of special receipts from
USMC GF portion of the Wildlife Conservation on Military Reservations appropriation. This amount is
included on the SBR, but not on SCNP.




                                                                                                                     225
                                                                           United States Marine Corps General Fund
                                                                                             Department of the Navy



      Note 21. Reconciliation of Net Cost of Operations to Budget
       As of September 30                                                  2007                     2006
       (Amounts in Thousands)
       Resources Used to Finance Activities:
       Budgetary Resources Obligated:
       1. Obligations incurred                                         $     30,248,767      $          26,619,106
       2. Less: Spending authority from offsetting collections
           and recoveries (-)                                                (2,361,164)               (2,040,452)
       3.   Obligations net of offsetting collections and recoveries   $     27,887,603      $          24,578,654
       4.   Less: Offsetting receipts (-)                                        20,195                      3,296
       5. Net obligations                                              $     27,907,798      $          24,581,950
       Other Resources:
       6. Donations and forfeitures of property                                         0                        0
       7. Transfers in/out without reimbursement (+/-)                              3,535                   90,379
       8. Imputed financing from costs absorbed by others                          71,325                   67,241
       9. Other (+/-)                                                              40,398                        0
       10. Net other resources used to finance activities              $          115,258    $             157,620
       11. Total resources used to finance activities                  $     28,023,056      $          24,739,570
       Resources Used to Finance Items not Part of the Net Cost
       of Operations:
       12. Change in budgetary resources obligated for goods,
           services and benefits ordered but not yet provided:
           12a. Undelivered Orders (-)                                 $     (2,415,619)     $         (3,066,878)
           12b. Unfilled Customer Orders                                        (71,500)                  (47,838)
       13. Resources that fund expenses recognized in prior
           Periods (-)                                                            (33,592)                     (27)
       14. Budgetary offsetting collections and receipts that do
           not affect Net Cost of Operations                                    (20,194)                   (3,296)
       15. Resources that finance the acquisition of assets (-)              (2,068,268)               (2,875,425)
       16. Other resources or adjustments to net obligated
           resources that do not affect Net Cost of Operations:
           16a. Less: Trust or Special Fund Receipts Related to
                exchange in the Entity’s Budget (-)                                      0                        0
           16b. Other (+/-)                                                       (43,934)                 (90,379)
       17. Total resources used to finance items not part of the
           Net Cost of Operations                                      $     (4,653,107)     $         (6,083,843)
       18. Total resources used to finance the Net Cost of
           Operations                                                  $     23,369,949      $          18,655,727




226
2007 Annual Financial Report




 As of September 30                                              2007                          2006
 (Amounts in Thousands)
 Components of the Net Cost of Operations that
 will not Require or Generate Resources in the
 Current Period:
 Components Requiring or Generating Resources in
 Future Period:
 19. Increase in annual leave liability                 $                    8,003   $                       0
 20. Increase in environmental and disposal liability                            0                     226,470
 21. Upward/Downward re-estimates of credit
     subsidy expense (+/-)                                                       0                           0
 22. Increase in exchange revenue receivable from
     the public (-)                                                              0                           0
 23. Other (+/-)                                                             2,345                     106,134
 24. Total components of Net Cost of Operations
     that will Require or Generate Resources in
     future periods                                     $                  10,348    $                 332,604
 Components not Requiring or Generating
 Resources:
 25. Depreciation and amortization                      $                 770,514    $                1,458,802
 26. Revaluation of assets or liabilities (+/-)                            26,298                      (25,176)
 27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                           0                             0
     27b. Cost of Goods Sold                                                    0                             0
     27c. Operating Materiel and Supplies Used                             28,429                     (338,188)
     27d. Other                                                             6,511                       (1,828)
 28. Total Components of Net Cost of Operations
     that will not Require or Generate Resources        $                 831,752    $                1,093,610
 29. Total components of Net Cost of Operations
     that will not Require or Generate Resources
     in the current period                              $                 842,100    $                1,426,214
 30. Net Cost of Operations                             $               24,212,049   $              20,081,941


Standard Disclosures
The following Statement of Financing (SOF) lines are presented as combined instead of consolidated due
to interagency budgetary transactions not being eliminated:
      Obligations incurred
      Less: Spending authority from oﬀseĴing collections and recoveries
      Obligations Net of OﬀseĴing Collections and Recoveries
      Less: OﬀseĴing Receipts
      Net Obligations
      Undelivered Orders
      Unﬁlled Customer Orders

The SOF line, “Resources Used to Finance Activities, Other” is primarily comprised of a gain on real
property and a loss on ammunition.
                                                                                                                   227
                                                                         United States Marine Corps General Fund
                                                                                              Department of the Navy



      The SOF line, “Other Resources or Adjustments to Net Obligated Resources That Do Not Aﬀect Net Cost
      of Operations, Other” is comprised of the transfer-in of donated fuel from Defense Logistics Agency
      (DLA) and the transfer-in of equipment from the Department of Air Force. In 1st Quarter, FY 2007, DLA
      received a donation of fuel from foreign countries with no requirement for reimbursement. The DLA
      then transferred a portion of the donated fuel to USMC GF.

      The SOF line, “Components not Requiring or Generating Resources, Other” is primarily comprised of the
      bad debt expense for public accounts receivables.

      The SOF line, “Components Requiring or Generating Resources Future Period, Other” is comprised of
      the year-to-date change in Federal Employee Compensation Act (FECA) actuarial liability, the year-to-
      date change in accrued FECA liability, year-to-date change in unemployment unfunded liability, accrual
      of a contingent liability for legal liabilities for 4th Quarter, FY 2007 and payables from cancelled years.

      The SOF line, “Components Requiring or Generating Resources in Future Period” are costs not funded
      in the period the costs are incurred. The expense and the corresponding liability are recognized in the
      current period but the budgetary resource will not be provided until a subsequent period. In general,
      the changes in liabilities not covered by budgetary resources as shown on the Balance Sheet are reﬂected
      on the SOF. Diﬀerences are a result of $10.3 million in components of the net cost of operations that
      will require or generate resources in the future period, $33.6 million in resources that fund expenses
      recognized in prior periods, and $81 thousand in custodial liabilities covered by current unobligated
      budgetary resources.


      Note 22. Disclosures Related to the Statement of Custodial
               Activity
      Not applicable.




228
2007 Annual Financial Report



Note 23. Earmarked Funds
 BALANCE SHEET                                                 Other
 As of September 30                       MRF       MERHCF   Earmarked     Eliminations         Total
 (Amounts in Thousands)                                        Funds
 ASSETS
 Fund balance with Treasury           $         0   $    0   $     501    $             0   $       501
 Investments                                    0        0           0                  0             0
 Accounts and Interest Receivable               0        0           0                  0             0
 Other Assets                                   0        0           0                  0             0
 Total Assets                         $         0   $    0   $     501    $             0   $       501

 LIABILITIES and NET POSITION
 As of September 30
 Military Retirement Benefits and
 Other Employment Related
 Actuarial Liabilities                $         0   $    0   $        0   $             0   $            0
 Other Liabilities                              0        0           26                 0               26
 Total Liabilities                    $         0   $    0   $       26   $             0   $           26


 Unexpended Appropriations                      0        0           0                  0             0
 Cumulative Results of Operations               0        0         475                  0           475
 Total Liabilities and Net Position   $         0   $    0   $     501    $             0   $       501


 STATEMENT OF NET COST
 As of September 30

 Program Costs                        $         0   $    0   $       42   $             0   $           42
 Less Earned Revenue                            0        0            0                 0                0
 Net Program Costs                    $         0   $    0   $       42   $             0   $           42
 Less Earned Revenues Not
 Attributable to Programs                       0        0            0                 0                0
 Net Cost of Operations               $         0   $    0   $       42   $             0   $           42


 STATEMENT OF CHANGES IN NET POSITION
 As of September 30

 Net Position Beginning of the
 Period                               $         0   $    0   $     383    $             0   $       383
 Net Cost of Operations                         0        0          42                  0            42
 Budgetary Financing Sources                    0        0         134                  0           134
 Other Financing Sources                        0        0           0                  0             0
 Change in Net Position               $         0   $    0   $      92    $             0   $        92
 Net Position End of Period           $         0   $    0   $     475    $             0   $       475


                                                                                                             229
                                                                   United States Marine Corps General Fund
                                                                                                Department of the Navy



      Wildlife Conservation, Military Reservations, 16 USC 670
      This fund provides for the development and conservation of ﬁsh and wildlife and recreational facilities
      on military installations. Proceeds from the sale of ﬁshing and hunting permits are used for these
      programs at Navy and Marine Corps installations charging such user fees. These programs are carried
      out through cooperative plans agreed upon by the local representatives of the Secretary of Defense,
      the Secretary of the Interior, and the appropriate agency of the state in which the installation is located.
      During this reporting period, legislation regarding the purpose and use of the Wildlife Conservation,
      Military Reservation has not changed.

      The nonexchange revenue in the amount of $134.0 thousand for 4th Quarter, FY 2007 is from the proceeds
      of the sale of ﬁshing and hunting permits.


      Note 24. Other Disclosures
      Other Information
      Currently, the United States Marine Corps General Fund (USMC GF) does not record or report operating
      leases; however, under its Financial Improvement Initiative program, USMC GF has began to implement
      a strategy to identify operating leases and to develop a process to report operating leases in the USMC
      GF ﬁnancial statements. The development of our process is in its early stages, therefore, at this time, a
      completion date has not been established.


      Note 25. Restatements
      For FY 2007, the United States Marine Corps General Fund does not have any restatements.




230
    2007
    United States Marine Corps General Fund




                                                                                                             USMC General Fund Required Supplementary Stewardship Information
    Required Supplementary Stewardship
    Information

2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                              Department of the Navy Subsidiary Financial Statements


2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                       231
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                               Department of the Navy



                                    Investments in Research and Development
                                  Yearly Investment in Research and Development
                                            For Fiscal Years 2006 and 2007
                                                    ($ in Millions)

      Categories                                                                              FY07              FY06
      Development
          Advanced Technology Development                                                 $      5          $     36
          Advanced Component Development and Prototypes                                         64               302
          System Development and Demonstration                                                   8                13
          Research, Development, Test, and Evaluation Management Support                        48                48
          Operational Systems Development                                                      359               284
      Total                                                                               $    494         $     683

      Narrative Statement:
      Investments in Research and Development
      Fiscal Year (FY) 2007 is the second year that the United States Marine Corps (USMC) General Fund (GF)
      is reporting as a separate entity and therefore only is reporting one comparative year for the Investment
      in Research and Development schedule. The USMC GF Research, Development, Test, and Evaluation
      (RDT&E) investments are all in Development; there are no basic and applied research investments. The
      values included in the table above are based on Development outlays (expenditures). Outlays are used
      because current USMC GF systems are unable to fully capture and summarize costs in accordance with
      standards promulgated by the Federal Accounting Standards Advisory Board.

      Development
      Development takes what has been discovered or learned from basic and applied research and uses it to
      establish technological feasibility, assessment of operability, and production capability. Development is
      comprised of ﬁve stages, as deﬁned below.

            1.   Advanced Technology Development is the systematic use of the knowledge or understanding
                 gained from research directed toward proof of technological feasibility and assessment of
                 operational and production rather than the development of hardware for service use. It
                 employs demonstration activities intended to prove or test a technology or method.

            2.   Advanced Component Development and Prototypes evaluates integrated technologies in as
                 realistic an operating environment as possible to assess the performance or cost reduction
                 potential of advanced technology. Programs in the phase are generally system speciﬁc. Major
                 outputs of Advanced Component Development and Prototypes are hardware and soĞware
                 components or complete weapon systems, ready for operational and developmental testing
                 and ﬁeld use.

            3.   System Development and Demonstration concludes the program or project and prepares it for
                 production. It consists primarily of preproduction eﬀorts, such as logistics and repair studies.
                 Major outputs are weapons systems ﬁnalized for complete operational and development
                 testing.

            4.   RDT&E Management Support is support for installations and operations for general research
                 and development use. This category includes costs associated with test ranges, military
                 construction maintenance support for laboratories, operation and maintenance of test aircraĞ
                 and ships, and studies and analyses in support of the Research and Development program.

232
2007 Annual Financial Report



      5.   Operational Systems Development is concerned with development projects in support of
           programs or upgrades that are still in engineering and manufacturing development. These
           projects have received approval for production, for which production funds have been
           budgeted in subsequent ﬁscal years.

The following are two representative program examples for the Development category.

United States Marine Corps Increases Eﬀorts to Modernize Truck Fleets
The United States Marine Corps General Fund has several initiatives to restore and upgrade its aging
and combat-baĴered ﬂeets of tactical trucks from relatively lightweight Humvees to heavy-duty cargo
haulers. One of the ﬁrst initiatives, for which contracts have been awarded, involves conceptual designs
for a family of Joint Light Tactical Vehicles (JLTV) that the Marines and the Army need to replace the thin-
skinned, 20-year-old Humvee. The Humvee, more formally known as the High Mobility Multipurpose
Wheeled Vehicle, is the agile, all terrain military truck that the Military Services chose in the mid-1980s to
supplant the World War II-era jeep.

The JLTV will be designed with factory-built armor but will accommodate additional protection that
can be installed and removed in the ﬁeld as needed. Each of the variants will be equipped with a
compatible trailer and able to tow up to 10,000 pounds both on roads and cross country. The JLTV is
being developed separately from the Marine Corps planned Internally Transportable Vehicle (ITV) and
the Reconnaissance, Surveillance, and Targeting Vehicle (RST-V).

The ITV, a second initiative and part of the new expeditionary ﬁre support system, is intended to
transport up to four Marines, mount heavy machine guns, and tow a 120 mm mortar. It is being designed
to ﬁt inside the CH-53 Sea Stallion heavy transport helicopter and the MV-22 Osprey tilt-rotor aircraĞ,
which neither the Humvee nor the JLTV can do.

The Marines are testing the latest version of the RST-V at Aberdeen Proving Ground, Maryland. It has
a mission similar to the reconnaissance variant of the JLTV, and like the ITV, it is to be transported in the
Osprey. However, unlike the JLTV and the ITV, the RST-V is to be powered by a hybrid electric-drive
system that will allow it to be propelled by diesel, baĴeries, or a combination of the two. The idea is for
the RST-V to be able to operate frequently with a mixture of diesel, electric, and baĴery power in order
to conserve fuel and, for brief periods, to function using only stored baĴery energy, enabling it to move
stealthily behind enemy lines.

Another Marine Corps initiative is the upgrading of its heavier trucks. A seven-ton transport, known as
the Medium Tactical Vehicle Replacement (MTVR), has replaced the former ﬁve ton M-809 and M-939
series trucks. The MTVR can negotiate terrain twice as rough as its predecessors, which were based on a
pre-Korean war design. It has been designed to operate 70 percent oﬀ road and 30 percent on road, just
the reverse of the ﬁve-ton models.

The MTVR can carry 7.1 tons of payload cross-country and 15 tons on pavement. It can carry cargo,
personnel, bulk fuel, and virtually anything required on the baĴleﬁeld. The MTVR can traverse grades
of 60 percent and side slopes of 30 percent, and it can ford ﬁve feet of water. On primary and secondary
roads, it can cruise at 65 mph. It has an aluminum cab that folds down under the hood to make it easier
to ship.

The Logistics Vehicle System Replacement (LVSR) is another initiative to update the Marine Corps’ ﬂeet
of tactical trucks. The LVSR is a trailer-pulling variant of the Logistics Vehicle System (LVS), which is two
decades old. Like the LVS, the LVSR will be used primarily for moving large amounts of supplies, such
as ammunition, fuel, water, and heavy equipment. It can carry 33,000 pounds of oﬀ-road payload, more
than twice that of its predecessor.


                                                                                                                      233
                                                                            United States Marine Corps General Fund
                                                                                               Department of the Navy



      The LVSR oﬀers improved survivability. It is the ﬁrst vehicle that the Marine Corps has required to have
      armor as part of its design. The vehicle will be built with mounting points and hardware for add-on
      armor to reduce the time required to increase protection when needed.

      Heliplane and the XHawk
      The Heliplane and the XHawk are two vertical takeoﬀ and landing (VTOL) aircraĞ under development.
      Like the MV 22 Osprey, which the Marine Corps currently uses, the VTOL aircraĞ combine the vertical
      takeoﬀ and landing capabilities of a helicopter. Both the Heliplane and the XHawk are based on concepts
      that originated decades ago, but technological breakthroughs and modern warfare requirements have
      spawned development.

      The Heliplane, a proof of concept for combat search and rescue roles, has both helicopter style rotor
      blades that produce liĞ and ﬁxed wing style turbofan engines that produce thrust. It is slower than
      an airplane but much faster than a helicopter. It can hover and take oﬀ and land vertically without a
      runway. It will be potentially easier to operate and less expensive to maintain than a helicopter. It will
      also be safer, having the capability to land in the event of a power failure.

      The Heliplane builds upon the Fairey Rotodyne, an experimental aircraĞ with a similar rotor system
      that ﬁrst ﬂew in 1957 and reached a speed of 191 mph. The Heliplane will be designed to ﬂy twice as
      fast as the Rotodyne. If the Heliplane is successful, it has the potential to revolutionize VTOL systems.
      Not every mission performed by a helicopter today can be performed beĴer by a Heliplane, but many of
      today’s helicopters, both military and commercial, could be replaced by Heliplanes.

      The XHawk is based on fancraĞ technology, which incorporates an enclosed rotor or “fan” at both ends
      of the aircraĞ. Though the concept has been around for a half century, two principal technological
      breakthroughs have facilitated revival of the concept. Adaptable ducts permit high speed operations
      of up to 140 knots, and a vane control system provides lateral stability and control. One of the great
      innovations of this conﬁguration is to place control vanes on the intake side of the duct. That innovation
      almost doubles the lateral control power of the vehicle. This semi autonomous automatic ﬂight control
      system, or stabilization system, allows the pilot independent access to all six degrees of freedom.
      Developers are exploring the potential of adding wings that fold out from underneath the body of the
      aircraĞ in forward ﬂight, thus oﬄoading the main liĞ fans further. Such wings could potentially enable
      speeds of 160 to 180 knots.

      Unlike conventional helicopters, which can be heard from long distances, the XHawk is expected to be
      relatively quiet, thereby improving survivability. Quiet operation coupled with a small footprint increase
      ﬂexibility. Speciﬁcally, the XHawk will be able to ﬂy alongside buildings and among other structures to
      assist in confronting insurgents.

      NON-Federal PHYSICAL PROPERTY
      The USMC GF does not fund this type of Activity.




234
    2007
    United States Marine Corps General Fund
    Required Supplementary Information




                                                                                                             USMC General Fund Required Supplementary Information
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                              Department of the Navy Subsidiary Financial Statements


2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                       235
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                                                  Department of the Navy



                                                           United States Marine Corps
                                                    General Property, Plant, and Equipment
                                                     Real Property Deferred Maintenance
                                                    For Fiscal Year Ended September 30, 2007
                                                                 ($ in Thousands)

                                                                                      1. Plant                 2. Required
                                                                                    Replacement               Work (Deferred
       Property Type                                                                   Value                  Maintenance)                3. Percentage
       Category 1: Buildings, Structures, and Utilities                                 $ 36,131,046                   $ 1,065,134                   2.95%
       Category 2: Buildings, Structures, and Utilities                                   $ 1,046,487                             $ -                0.00%
       Category 3: Buildings, Structures, and Utilities
       (Heritage Assets)                                                                  $ 1,113,001                 $      32,811                  2.95%

      NOTE: The table above presents real property deferred maintenance data for both U.S. Marine Corps (USMC) General Fund and Navy Working Capital Fund-
      Marine Corps.


      Narrative Statement:
      1. The method used to assess facilities conditions is a facilities inspection, which categorizes buildings as
      Adequate, Substandard or Inadequate. Those ratings are converted to Q-ratings of 100%-90% Q1; 90%-
      80% Q2; 80%-60% Q3; and less than 60% Q4 by assessing facilities that are rated as Adequate and less
      than 25 years old as Q1; facilities that are over 25 years old and rated as Adequate as Q2; facilities rated as
      Substandard as Q3; and Inadequate facilities as Q4.

      2. There is no change since this is the ﬁrst submission.

      3. The USMC follows the Oﬃce of the Secretary of Defense installation strategic plan goal of having
      facilities at a Q2 level on average as an acceptable rating. This represents an average level of 15% of
      Plant Replacement Value (PRV) as an acceptable level of deferred maintenance. The table above shows
      that USMC is approximately 2.95% of below PRV. The percentage for categories 1 and 3 facilities are
      the same because USMC cannot break out the deferred maintenance between those categories at this
      time. Category 2 is zero because USMC does not hold deferred maintenance backlogs on facilities to be
      demolished.

      Facility Categories are as follows:
                      Category 1: Buildings, Structures, and Utilities that are enduring and required to support an
                      ongoing mission including multi-Heritage Assets.

                      Category 2: Buildings, Structures, and Utilities that are excess to requirements or planned for
                      replacement or disposal including multi-use Heritage Assets.

                      Category 3: Buildings, Structures, and Utilities that are Heritage Assets.




236
2007 Annual Financial Report



                                            Military Equipment
                                      Deferred Maintenance Amounts
                                         As of September 30, 2007
                                              ($ in Thousands)

                          Major Type                                           Amount
                          Missiles                                         $       750
                          Combat Vehicles                                      359,725
                          Other Weapons Systems                                 82,937
                          Total                                            $ 443,412

Narrative Statement:
Missile Maintenance
Four categories are used to determine missile maintenance: missiles, tactical missiles, soĞware
maintenance, and other. Deferred maintenance is deﬁned as the diﬀerence between the total weapon
maintenance requirement as determined by requirements modeling processes and the weapon
maintenance that is funded in accordance with the annual budget controls for the missile maintenance
program. The maintenance requirements model projects the quantity of missiles and missile components
per weapon system that are required to be maintained or reworked annually.

Combat Vehicles
The combat vehicles category refers to deferred vehicle maintenance for the active and reserve Marine
Corps assets. The combat vehicle category consists of weapons systems, such as the M1A1 Tank, the
Amphibious Assault Vehicle, the Hercules Recovery Vehicle, and the Light Armored Vehicle. The total
requirement is the planned quantity of combat vehicles that require depot level maintenance in a year as
determined by program managers and the operating forces with requirements validated by a modeling
process. The deferred maintenance is the diﬀerence between the validated requirements and funding
received for that ﬁscal year.

Other Weapons Systems
The Other Weapons Systems category is comprised of ordnance, end item maintenance for support
equipment, camera equipment, landing aids, calibration equipment, air traﬃc control equipment,
target systems, expeditionary airﬁeld equipment, special weapons, target maintenance, and repair
of repairable components. Three categories deﬁne ordnance maintenance: ordnance maintenance,
soĞware maintenance, and other. Although the various programs diﬀer in the methodology in
deﬁning requirements, all programs deﬁne deferred maintenance as the diﬀerence between validated
requirements and funding.

                                               Heritage Assets
                                   For Fiscal Year Ended September 30, 2007

                                  Measurement       As of Oct 1,                                    As of Sep 30,
                                   Quantity            2006        Additions         Deletions          2007
Museums                                Each                 6          -                   (1)                5
Monuments and Memorials                Each                 0          -                    -                 -
Cemeteries                             Sites                0          -                    -                 -
Archeological Sites                    Sites                0          -                    -                 -
Buildings and Structures               Each                 0          -                    -                 -
Major Collections                 See table, “Major Collections”

                                                                                                                         237
                                                                               United States Marine Corps General Fund
                                                                                                 Department of the Navy



      Narrative Statement:
      Fiscal Year (FY) 2007 is the second year that the USMC GF is reporting as a separate entity. The USMC GF
      is required to report Heritage Assets in accordance with the following public laws and regulations:

                 Antiquities Act of 1906

                 Historic Sites Act of 1935

                 USC 470 National Historic Preservation Act of 1966

                 National Environmental Policy Act of 1969

                 American Indian Religious Freedom Act of 1978

                 Archaeological Resources Protection Act of 1979

                 Native American Graves Protection & Repatriation Act of 1990

                 Presidential Memorandum for Heads of Executive Departments and Agencies: Government
                 Relations with Native American Tribal Governments Act of 1994

                 36 CFR 79 – Curation of Federally Owned and Administered Archaeological Collections

                 36 CFR 60.4 – National Register of Historic Places

                 Federal Accounting standards Advisory Board (FASAB) Standard 29, “Heritage Assets and
                 Stewardship Land”

                 Executive Order 13237 – Preserve America – of 2003

                 Executive Order 13327 – Federal Real Property Asset Management – of 2004

      Heritage Assets are deﬁned as items that are unique for one or more of the following reasons: historical
      or natural signiﬁcance; cultural, educational, or artistic importance; or signiﬁcant architectural
      characteristics. Monetary values are not required for Heritage Asset reporting; only physical units of
      measure are reported.

      Process used to deﬁne assets as Heritage Assets
      The processes used to deﬁne items as having heritage signiﬁcance vary among categories and type of
      assets being evaluated. Subject maĴer experts, including historians and curators, play a signiﬁcant role
      in the deﬁnition process in addition to other criteria, such as a listing in the National Register of Historic
      Places. In all cases, a myriad of Federal statutes, service regulations, and other guidelines mandate
      heritage signiﬁcance or provide guidance in its determination.

      Multi-Use Heritage Assets. Per DoD FMR Volume 6B, “Form and Content of the Department of Defense
      Audited Financial Statements,” Multi-Use Heritage Assets are reported both as Heritage Assets in the
      Required Supplementary Stewardship Information and on the Balance Sheet as Real Property.

      Information Pertaining to the Condition of USMC Heritage Assets. The methodology used to report the
      condition of the heritage assets was a combination of a visual assessment of the objects, historic value
      to the USMC collection, and general display and storage standards for historic collections. The overall
      condition of the collection objects is good.




238
2007 Annual Financial Report



Museums
Museums are buildings, places, or institutions devoted to the acquisition, conservation, study, exhibition,
and educational interpretation of objects having scientiﬁc, historical, or artistic value. Secretary of the
Navy Instruction 5755.1A, “Navy Museums,” deﬁnes the scope of the Navy Museum program.

The FY 2006 ending balance for museums was overstated by one, due to the USMC museum at the
Washington Navy Yard being reported in error. The museum was closed during FY 2006.

Supplemental Reporting
In addition to the data presented in the table, “Heritage Assets,” above, the following supplemental
information on Major Collections was reported as of September 30, 2007:

Major Collections
                               Measurement           As of Oct 1,                                As of Sep 30,
Category                        Quantity                2006         Additions    Deletions          2007
Archeological Artifacts          Cubic Feet                   915          22.5              0              937.5
Archival                         Linear Feet               25,726        617.74          453           25,890.74
Artwork                             Item                    8,946          158               0              9,104
Historical Artifacts                Item                   53,432          767               9            54,190

                                         STEWARDSHIP LAND
                                For Fiscal Year Ended September 30, 2007
                                            (Acres in Thousands)

Land Use                       As of Oct 1, 2006         Additions         Deletions          As of Sep 30, 2007
Mission                                        680                   0                   0                    680
Parks and Historic Sites                        0                    0                   0                       0
Totals                                         680                   0                   0                    680

Narrative Statement:
Per the DoD FMR, USMC GF Stewardship Land includes Public Domain, Land Set Aside, and Donated
Land. Within the deﬁnition of Stewardship Land, land can be further categorized as Improved, Semi-
Improved or Other.




                                                                                                                       239
                                                                             United States Marine Corps General Fund
      Department of the Navy




240
    2007
    United States Marine Corps General Fund
    Other Accompanying Information




                                                                                                             USMC General Fund Other Accompanying Information
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                              Department of the Navy Subsidiary Financial Statements


2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                       241
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                        Department of the Navy



      Appropriations, Funds, and Accounts Included in the Principal
      Statements
      Entity Accounts
      General Accounts
             17 1001     Medicare Eligible Retiree Health Care Fund, Military Personnel Marine Corps
             17 1003     Medicare Eligible Retiree Health Care Fund, Reserve Personnel Marine Corps
             17 1105     Military Personnel, Marine Corps
             17 1106     Operation and Maintenance, Marine Corps
             17 1107     Operation and Maintenance, Marine Corps Reserve
             17 1108     Reserve Personnel, Marine Corps
             17 1109     Procurement, Marine Corps

      Shared Appropriations (Appropriations from which US Marine Corps receives allocations)
             17 0703    Family Housing, Navy and Marine Corps
             17 1319    Research and Development, Test and Evaluation, Navy
             17 1508    Procurement of Ammunition, Navy and Marine Corps

      Shared Earmarked Funds
             17X5095   Wildlife Conservation

      Non-Entity Accounts
             17X6026     Pay of the Marine Corps, Deposit Fund Receipts

      Shared Non-Entity Accounts
             17 3XXX Receipt Accounts
             17X6XXX Deposit Funds




242
    2007
    Navy Working Capital Fund – Marine Corps
    Principal Statements




                                                                                                              Navy Working Capital Fund-MC Principal Statements
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                               Department of the Navy Subsidiary Financial Statements


2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                        243
2007 Annual Financial Report 2007 Annual Financial Report
                                                                Department of the Navy




      Limitations to the Financial
      Statements
      The principal ﬁnancial statements have been
      prepared to report the ﬁnancial position and
      results of operations of the entity, pursuant to the
      requirements of 31 United States Code 3515 (b).
      While the statements have been prepared from the
      books and records of the entity in accordance with
      Generally Accepted Accounting Principles for Federal
      entities and the formats prescribed by the Oﬃce
      of Management and Budget, the statements are in
      addition to the ﬁnancial reports used to monitor and
      control budgetary resources which are prepared from
      the same books and records. The statements should be
      read with the realization that they are for a component
      of the U.S. Government, a sovereign entity.




244
2007 Annual Financial Report




In Fiscal Year (FY) 2006, the Oﬃce of the Under Secretary of Defense (Comptroller), with support
from the Department of the Navy, designated the U.S. Marine Corps a ﬁnancial reporting entity. This
designation allowed the Marine Corps to prepare comprehensive subsidiary ﬁnancial statements and
related notes beginning in FY 2006.

The Marine Corps shares appropriations with the U.S. Navy and in addition maintains accountability
for its own appropriations. The Marine Corps has speciﬁc funds and budget execution unto itself that
are managed by Marine Corps program sponsors, maintained in a single core integrated Working
Capital Fund accounting and budgeting reporting system, and supported by Marine Corps managerial
accountants and the Defense Finance and Accounting Service-Kansas City. Given this ﬁduciary
responsibility, the Marine Corps is able to fully comply with Statement of Federal Financial Accounting
Concepts Number 2, Entity and Display.


Principal Statements
The FY 2007 Navy Working Capital Fund – Marine Corps Principal Statements and related notes are
subsidiary ﬁnancial statements and related notes of the Navy Working Capital Fund, and are presented in
the format prescribed by the Department of Defense Financial Management Regulation 7000.14,
Volume 6B. The statements and related notes summarize ﬁnancial information for individual activity
groups and activities within the Navy Working Capital Fund – Marine Corps for the ﬁscal year ending
September 30, 2007, and are presented on a comparative basis with information previously reported for
the ﬁscal year ending September 30, 2006.

The following statements comprise the Navy Working Capital Fund – Marine Corps Principal Statements:

           Consolidated Balance Sheet

           Consolidated Statement of Net Cost

           Consolidated Statement of Changes in Net Position

           Combined Statement of Budgetary Resources

The Principal Statements and related notes have been prepared to report ﬁnancial position pursuant to
the requirements of the Chief Financial Oﬃcers Act of 1990, as amended by the Government Management
Reform Act of 1994. The accompanying notes should be considered an integral part of the Principal
Statements.




                                                                                                                  245
                                                                       Navy Working Capital Fund - Marine Corps
                                                                                                     Department of the Navy



            Department of Defense
            Navy Working Capital Fund - Marine Corps
            CONSOLIDATED BALANCE SHEET
            As of September 30, 2007 and 2006
               ($ in Thousands)


                                                                             2007 Consolidated     2006 Consolidated
                ASSETS (Note 2)
                 Intragovernmental:
                  Fund Balance with Treasury (Note 3)
                  Entity                                                 $              67,119 $              30,193
                  Non-Entity Seized Iraqi Cash                                               0                     0
                  Non-Entity - Other                                                         0                     0
                  Investments (Note 4)                                                       0                     0
                  Accounts Receivable (Note 5)                                          24,848                33,906
                  Other Assets (Note 6)                                                    684                     0
                     Total Intragovernmental Assets                                     92,651                64,099

                 Cash and Other Monetary Assets (Note 7)                                     0                     0
                 Accounts Receivable, Net (Note 5)                                          74                   327
                 Loans Receivable (Note 8)                                                   0                     0
                 Inventory and Related Property, Net (Note 9)                          475,126               558,068
                 General Property, Plant and Equipment, Net (Note 10)                   45,925                48,275
                 Investments (Note 4)                                                        0                     0
                 Other Assets (Note 6)                                                     127                   519
                TOTAL ASSETS                                                           613,903               671,288

                LIABILITIES (Note 11)
                 Intragovernmental:
                  Accounts Payable (Note 12)                                              5,768                 6,382
                  Debt (Note 13)                                                              0                     0
                  Other Liabilities (Note 15 & Note 16)                                     858                   917
                     Total Intragovernmental Liabilities                                  6,626                 7,299

                 Accounts Payable (Note 12)                                             79,541                67,846
                 Military Retirement and Other Federal
                  Employment Benefits (Note 17)                                         27,624                29,595
                 Environmental and Disposal Liabilities (Note 14)                            0                     0
                 Loan Guarantee Liability (Note 8)                                           0                     0
                 Other Liabilities (Note 15 & Note 16)                                   9,141                30,673
                TOTAL LIABILITIES                                                      122,932               135,413

                NET POSITION
                 Unexpended Appropriations - Earmarked Funds (Note 23)                       0                     0
                 Unexpended Appropriations - Other Funds                                32,400                     0
                 Cumulative Results of Operations - Earmarked Funds                          0                     0
                 Cumulative Results of Operations - Other Funds                        458,571               535,875
                TOTAL NET POSITION                                                     490,971               535,875

                TOTAL LIABILITIES AND NET POSITION                       $             613,903 $             671,288




      The accompanying notes are an integral part of the statements.

246
2007 Annual Financial Report



      Department of Defense
      Navy Working Capital Fund - Marine Corps
      CONSOLIDATED STATEMENT OF NET COST
      For the Years Ended September 30, 2007 and 2006
          ($ in Thousands)


                                                                     2007 Consolidated      2006 Consolidated
           Program Costs
             Gross Costs                                         $              665,405 $               730,863
             Less: Earned Revenue                                             (608,572)               (708,962)
             Net Costs                                                          56,833                  21,901
           Costs Not Assigned to Programs                                            0                       0
           Less: Earned Revenue Not Attributable to Programs                         0                       0
           Net Cost of Operations                                $              56,833 $                21,901




The accompanying notes are an integral part of the statements.

                                                                                                                     247
                                                                          Navy Working Capital Fund - Marine Corps
                                                                                                   Department of the Navy



        Department of Defense
        Navy Working Capital Fund - Marine Corps
        CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
        For the Years Ended September 30, 2007 and 2006
           ($ in Thousands)


                                                                           2007 Consolidated        2006 Consolidated
            CUMULATIVE RESULTS OF OPERATIONS
             Beginning Balances                                        $             535,875   $               635,690
             Prior Period Adjustments:
                Changes in accounting principles (+/-)                                     0                         0
                Correction of errors (+/-)                                                 0                         0
             Beginning Balances, as adjusted                                         535,875                   635,690
             Budgetary Financing Sources:
              Other adjustments (rescissions, etc) (+/-)                                   0                         0
              Appropriations used                                                          0                         0
              Nonexchange revenue                                                          0                         0
              Donations and forfeitures of cash and cash equivalents                       0                         0
              Transfers in/out without reimbursement (+/-)                            63,393                         0
              Other budgetary financing sources (+/-)                                      0                         0
             Other Financing Sources:
              Donations and forfeitures of property                                        0                         0
              Transfers in/out without reimbursement (+/-)                                 0                   (90,240)
              Imputed financing from costs absorbed by others                         12,325                    12,327
              Other (+/-)                                                            (96,189)                        0
             Total Financing Sources                                                 (20,471)                  (77,913)
             Net Cost of Operations (+/-)                                             56,833                    21,901
             Net Change                                                              (77,304)                  (99,814)
             Cumulative Results of Operations                          $             458,571 $                 535,876

            UNEXPENDED APPROPRIATIONS
             Beginning Balances                                        $                   0   $                     0
             Prior Period Adjustments (+/-)
               Changes in accounting principles (+/-)                                      0                         0
               Correction of errors (+/-)                                                  0                         0
             Beginning Balances, as adjusted                                               0                         0
             Budgetary Financing Sources:
              Appropriations received                                                 32,400                         0
              Appropriations transferred-in/out (+/-)                                      0                         0
              Other adjustments (rescissions, etc) (+/-)                                   0                         0
              Appropriations used                                                          0                         0
             Total Budgetary Financing Sources                                        32,400                         0
             Unexpended Appropriations                                                32,400                         0
             Net Position                                              $             490,971   $                     0




      The accompanying notes are an integral part of the statements.

248
2007 Annual Financial Report



 Department of Defense
 Navy Working Capital Fund - Marine Corps
  COMBINED STATEMENT OF BUDGETARY RESOURCES
 For the Years Ended September 30, 2007 and 2006
     ($ in Thousands)


                                                                     2007 Combined          2006 Combined
     BUDGETARY FINANCING ACCOUNTS
     Budgetary Resources:
       Unobligated balance, brought forward, October 1           $            177,371 $                227,700
       Recoveries of prior year unpaid obligations                                  0                        0
       Budget Authority:
          Appropriations received                                               32,400                       0
          Borrowing authority                                                        0                       0
          Contract authority                                                  (49,945)                  16,540
       Spending authority from offsetting collections:
          Earned
            Collected                                                         626,041                  621,225
            Change in receivables from Federal sources                        (21,618)                  17,585
          Change in unfilled customer orders
            Advances received                                                      520                    (110)
            Without advance from Federal sources                              (20,741)                 (11,164)
          Anticipated for rest of year, without advances                             0                        0
          Previously unavailable                                                     0                        0
          Expenditure Transfers from trust funds                                     0                        0
         Subtotal                                                             566,657                  644,076
       Nonexpenditure Transfers, net, anticipated and actual                    63,393                        0
       Temporarily not available pursuant to Public Law                              0                        0
       Permanently not available                                              (32,400)                        0
       Total Budgetary Resources                                              775,021                  871,776

     Status of Budgetary Resources:
       Obligations incurred:
          Direct                                                                    0                        0
          Reimbursable                                                        595,206                  694,405
          Subtotal                                                            595,206                  694,405
       Unobligated balance:
          Apportioned                                                         116,422                  177,371
          Exempt from apportionment                                            63,393                        0
          Subtotal                                                            179,815                  177,371
       Unobligated balances not available                                           0                        0
       Total Status of Budgetary Resources                       $            775,021 $                871,776




The accompanying notes are an integral part of the statements.

                                                                                                                   249
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                                Department of the Navy



        Department of Defense
        Navy Working Capital Fund - Marine Corps
        COMBINED STATEMENT OF BUDGETARY RESOURCES
        For the Years Ended September 30, 2007 and 2006
            ($ in Thousands)


                                                                            2007 Combined          2006 Combined
           RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
           Change in Obligated Balance:
            Obligated balance, net
               Unpaid obligations, brought forward, October 1           $           333,699 $                292,725
               Less: Uncollected customer payments from
                  Federal sources, brought forward, October 1                      (340,071)                (333,650)
               Total Unpaid Obligated Balance                                         (6,372)                (40,925)
            Obligations incurred, net (+/-)                                          595,206                  694,405
            Less: Gross outlays                                                    (685,430)                (653,431)
            Obligated balance transferred, net
               Actual transfers, unpaid obligations (+/-)                                   0                      0
               Actual transfers, uncollected customer
                  payments from Federal sources (+/-)                                       0                      0
               Total Unpaid Obligated Balance Transferred, net                              0                      0
            Less: Recoveries of prior year unpaid obligations, actual                       0                      0
            Change in uncollected customer
               payments from Federal sources (+/-)                                   42,360                   (6,421)
            Obligated balance, net, end of period
               Unpaid obligations                                                   243,475                  333,699
               Less: Uncollected customer payments from
                  Federal sources                                                  (297,712)                (340,071)
               Total Unpaid Obligated Balance, net, end of period                   (54,237)                  (6,372)

           Net Outlays:
            Gross Outlays                                                            685,430                  653,431
            Less: Offsetting collections                                           (626,562)                (621,115)
            Less: Distributed Offsetting receipts                                          0                        0
           Net Outlays                                                  $             58,868 $                 32,316




      The accompanying notes are an integral part of the statements.

250
    2007


                                                                                                       Navy Working Capital Fund-MC Notes to the Principal Statements
    Navy Working Capital Fund–MC
    Notes to the Principal Statements

2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                        Department of the Navy Subsidiary Financial Statements


2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                 251
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                             Department of the Navy



      Note 1.         Signiﬁcant Accounting Policies
      1.A.    Basis of Presentation
      These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of
      the Navy Working Capital Fund-Marine Corps (NWCF-MC), as required by the “Chief Financial Oﬃcers
      Act of 1990,” expanded by the “Government Management Reform Act of 1994,” and other appropriate
      legislation. The ﬁnancial statements have been prepared from the books and records of NWCF-MC in
      accordance with the “Department of Defense (DoD), Financial Management Regulation,” the Oﬃce of
      Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, and to the extent
      possible generally accepted accounting principles (GAAP). Eﬀective 4th Quarter, Fiscal Year (FY) 2006,
      DoD no longer publishes consolidating/combining ﬁnancial statements. The accompanying ﬁnancial
      statements account for all resources for which NWCF-MC is responsible unless otherwise noted.

      The NWCF-MC is unable to fully implement all elements of GAAP and OMB Circular A-136, due
      to limitations of its ﬁnancial and nonﬁnancial management processes and systems that feed into the
      ﬁnancial statements. The NWCF-MC derives its reported values and information for major asset and
      liability categories largely from nonﬁnancial systems, such as inventory systems and logistic systems.
      These systems were designed to support reporting requirements for maintaining accountability over
      assets and reporting the status of federal appropriations rather than preparing ﬁnancial statements in
      accordance with GAAP. The DoD currently has several auditor identiﬁed ﬁnancial statement material
      weaknesses. Of these, the Department of the Navy-NWCF (DON-NWCF) has the following material
      weaknesses: Fund Balance with Treasury, General Property, Plant, and Equipment, Inventory, and
      Accounts Payable. The NWCF-MC has no material weaknesses identiﬁed other than as part of DON-
      NWCF. However, NWCF-MC continues to implement business processes and system improvements
      addressing known limitations.

      1.B.    Mission of the Reporting Entity
      The United States Marine Corps (USMC) was created on November 10, 1775 as an act of the 2nd
      Continental Congress. The overall mission of USMC is to defend advanced naval bases and to conduct
      such land operations as may be essential to the prosecution of a naval campaign. The NWCF-MC
      provides goods and quality products, responsive maintenance support services required to support
      mobilization, surge and reconstitution requirements to DON and other DoD customers to ensure the
      operating forces are equipped for war in accordance with mobilization plans. In addition, NWCF-MC
      supports other government and non-governmental customers.

      1.C.    Appropriations and Funds
      The NWCF-MC receives its appropriations and funds as working capital (revolving) funds. The
      NWCF-MC uses these appropriations and funds to execute its missions and subsequently report on
      resource usage. Working capital funds (WCF) received funding to establish an initial corpus through
      an appropriation or a transfer of resources from existing appropriations or funds. The corpus ﬁnances
      operations and transactions that ﬂow through the fund. The WCF resources the goods and services
      sold to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts fund future
      operations and generally are available in their entirety for use without further congressional action. At
      various times, Congress provides additional appropriations to supplement the WCF as an infusion of
      cash when revenues are inadequate to cover costs within the corpus.

      1.D.    Basis of Accounting
      For FY 2007, NWCF-MC ﬁnancial management systems are unable to meet all of the requirements for
      full accrual accounting. Many of NWCF-MC’s ﬁnancial and nonﬁnancial feeder systems and processes
      were designed and implemented prior to the issuance of GAAP for federal agencies. These systems were
      not designed to collect and record ﬁnancial information on the full accrual accounting basis as required

252
2007 Annual Financial Report



by GAAP. The NWCF-MC and the Defense Finance and Accounting Service (DFAS) continue with the
implementation of new accounting systems designed to produce both proprietary and budgetary reports
and use the United States Standard General Ledger (USSGL). Until the implementation is completed, the
amounts recorded are primarily proprietary.

The DoD has undertaken eﬀorts to determine the actions required to bring its ﬁnancial and nonﬁnancial
feeder systems and processes into compliance with GAAP. One such action is the current revision of
its accounting systems to record transactions based on USSGL. Until all of NWCF-MC’s ﬁnancial and
nonﬁnancial feeder systems and processes are updated to collect and report ﬁnancial information as
required by GAAP, NWCF-MC ﬁnancial data will be derived from transactions from nonﬁnancial feeder
systems, and accruals made for major items such as payroll expenses, and accounts payable.

In addition, DoD identiﬁes program costs based upon the major appropriation groups provided by
the Congress. Current processes and systems do not capture and report accumulated costs for major
programs based upon the performance measures as required by the Government Performance and
Results Act. The DoD is working towards a cost reporting methodology that meets the need for cost
information required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
“Managerial Cost Accounting Concepts and Standards for the Federal Government.”

1.E.    Revenues and Other Financing Sources
Depot Maintenance WCF activities recognize revenue according to the percentage of completion method.
Supply Management WCF activities recognize revenue from the sale of inventory items.

1.F.    Recognition of Expenses
For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. However, because NWCF-MC’s ﬁnancial and nonﬁnancial feeder systems were not designed
to collect and record ﬁnancial information on the full accrual accounting basis, accruals are made for
major items such as payroll expenses, accounts payable, and unbilled revenue. In the case of Operating
Materiels and Supplies (OM&S), operating expenses are generally recognized when the items are
purchased. Eﬀorts are underway to transition towards the consumption method for recognizing OM&S
expenses.

1.G.    Accounting for Intragovernmental Activities
Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among
entities within DoD or between two or more federal agencies. However, NWCF-MC cannot accurately
eliminate intragovernmental transactions by customer because NWCF-MC’s systems do not track at
the transaction level. Generally, seller entities within DoD provide summary seller-side balances for
revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD accounting oﬃces.
In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances. IntraDoD
intragovernmental balances are then eliminated. The volume of intragovernmental transactions is so
large that aĞer-the-fact reconciliation cannot be accomplished eﬀectively with existing or foreseeable
resources. The DoD is developing long-term system improvements to ensure accurate intragovernmental
information, to include suﬃcient up-front edits and controls eliminating the need for aĞer-the-fact
reconciliations.

The U.S. Treasury Financial Management Service is responsible for eliminating transactions between
DoD and other federal agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency
Reporting Requirements for the Financial Report of the United States Government” and U.S. Treasury’s
“Federal Intra-governmental Transactions Accounting Policy Guide” provide guidance for reporting and
reconciling intragovernmental balances. While NWCF-MC is unable to fully reconcile intragovernmental
transactions with all federal partners, NWCF-MC is able to reconcile balances pertaining to investments

                                                                                                                 253
                                                                      Navy Working Capital Fund - Marine Corps
                                                                                            Department of the Navy



      in federal securities, borrowings from U.S. Treasury and the Federal Financing Bank, Federal Employees’
      Compensation Act transactions with the Department of Labor, and beneﬁt program transactions with
      the Oﬃce of Personnel Management. The DoD’s proportionate share of public debt and related expenses
      to the Federal Government are not included. The Federal Government does not apportion debt and its
      related costs to federal agencies. The DoD’s ﬁnancial statements, therefore, do not report any portion of
      the public debt or interest thereon, nor do the statements report the source of public ﬁnancing whether
      from issuance of debt or tax revenues.

      Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
      ﬁnancing ultimately may have been obtained through the issuance of public debt, interest costs have not
      been capitalized since U.S. Treasury does not allocate such interest costs to the beneﬁting agencies.

      1.H.    Transactions with Foreign Governments and International Organizations
      Each year, NWCF-MC sells defense articles and services to foreign governments and international
      organizations under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of
      the Act, DoD has authority to sell defense articles and services to foreign countries and international
      organizations generally at no proﬁt or loss to U.S. Government. Payment in U.S. dollars is required in
      advance.

      1.I.    Funds with the U.S. Treasury
      The NWCF-MC’s monetary ﬁnancial resources are maintained in U.S. Treasury accounts. The disbursing
      oﬃces of DFAS, the Military Services, U.S. Army Corps of Engineers (USACE), and the Department of
      State’s ﬁnancial service centers process the majority of NWCF-MC cash collections, disbursements, and
      adjustments worldwide. Each disbursing station prepares monthly reports that provide information to
      U.S. Treasury on check issues, electronic fund transfers, interagency transfers, and deposits.

      In addition, DFAS sites and USACE Finance Center submit reports to U.S. Treasury by appropriation
      on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records this
      information to the applicable Fund Balance with Treasury (FBWT) account. Diﬀerences between
      NWCF-MC’s recorded balance in FBWT accounts and U.S. Treasury’s FBWT accounts sometimes result
      and are subsequently reconciled.

      1.J. Foreign Currency
      Not applicable.

      1.K.    Accounts Receivable
      As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable
      from other federal entities or from the public. Allowances for uncollectible accounts due from the public
      are based upon an estimate of uncollectible accounts receivable. This estimate is a percentage of the
      billed amount aĞer the total project cost has been adjusted to reﬂect the advance deposit. The NWCF-MC
      requires an advance deposit from all public entities prior to the commencement of work. Therefore, an
      assumption is made that the amount of uncollectible accounts should be negligible. The DoD does not
      recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against
      other federal agencies are to be resolved between the agencies in accordance with dispute resolution
      procedures deﬁned in the Intragovernmental Business Rules published in the Treasury Financial Manual
      at hĴp://www.fms.treas.gov/tfm/vol1/07-03.pdf.

      1.L.    Direct Loans and Loan Guarantees
      Not applicable.



254
2007 Annual Financial Report



1.M.    Inventories and Related Property
The NWCF-MC values and reports its resale inventories at an approximation of historical cost using
Latest Acquisition Cost (LAC) adjusted for holding gains and losses. The LAC method is used because
legacy inventory systems were designed for materiel management rather than accounting. Although
these systems provide visibility and accountability over inventory items, they do not maintain historical
cost data necessary to comply with the SFFAS No. 3, “Accounting for Inventory and Related Property.”
Additionally, these systems cannot produce ﬁnancial transactions using USSGL as required by the
“Federal Financial Management Improvement Act of 1996 (P.L. 104-208).” By utilizing new systems
development processes, NWCF-MC is continuing to transition the balance of the inventories to the
moving average cost method. However, since the on-hand balances which transitioned were not, for the
most part, baselined to auditable historical cost, the reported values remain non-compliant with SFFAS
No. 3 and GAAP.

The NWCF-MC manages only military or government speciﬁc materiel under normal conditions.
Materiel is a unique term that relates to military force management, and includes all items (including
tanks, self-propelled weapons, etc., and related spares, repair parts, and support equipment, but
excluding real property, installations, and utilities) necessary to equip, operate, maintain, and support
military activities without distinction as to its application for administrative or combat purposes. Items
commonly used in and available from the commercial sector are not managed in NWCF-MC materiel
management activities. Operational cycles are irregular, and the military risks associated with stock-
out positions have no commercial parallel. The NWCF-MC holds materiel based on military need and
support for contingencies. Materiel held in reserve for future sale is included in inventories and related
materiel property line item on the ﬁnancial statements with a separate disclosure in the footnotes based
on SFFAS No. 3 deﬁnitions.

Related property includes OM&S and stockpile materials. The OM&S, including munitions not held
for sale, are valued at standard purchase price. The NWCF-MC uses both the consumption method
and the purchase method of accounting for OM&S. Items that are centrally managed and stored, such
as ammunition and engines, are generally recorded using the consumption method and are reported
on the Balance Sheet as OM&S. When current systems cannot fully support the consumption method,
NWCF-MC uses the purchase method. Under this method, materials and supplies are expensed when
purchased. During FY 2007, NWCF-MC expensed signiﬁcant amounts using the purchase method
because the systems could not support the consumption method or management deemed that the item
was in the hands of the end user. This is a material weakness for DoD and long-term system corrections
are in process. Once the proper systems are in place, these items will be accounted for under the
consumption method of accounting.

The NWCF-MC recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of
disposal is greater than the potential scrap value; therefore, the net value of condemned materiel is zero.
Potentially redistributed materiel, presented in previous years as “Excess, Obsolete, and Unserviceable,”
is included in the “Held for Use” or “Held for Repair” categories according to its condition.

Past audits identiﬁed uncertainties about the completeness and existence of reported values of inventory.
Inventory available and purchased for resale includes consumable spare, repair parts, and repairable
items owned and managed by NWCF-MC. This inventory is retained to support military or national
contingencies. Inventory held for repair is damaged inventory that requires repair to make suitable for
resale. OĞen, it is more economical to repair these inventory items rather than to procure these items.
The NWCF-MC oĞen relies on weapon systems and machinery no longer in production. As a result,
NWCF-MC supports a process that encourages the repair and rebuilding of certain items. This repair
cycle is essential to maintaining a ready, mobile, and armed military force. Work in process balances
include costs related to the production or servicing of items, including direct material, direct labor,
applied overhead, and other direct costs. Work in process also includes the value of ﬁnished products

                                                                                                                   255
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                             Department of the Navy



      or completed services that are yet to be placed in service and transferred to an asset account. The work
      in process designation may also be used to accumulate the amount paid to a contractor under cost
      reimbursable contracts, to include amounts withheld from payment to ensure performance and amounts
      paid to other government plants for accrued costs of end items of materiel ordered, but not delivered.
      Work in process includes munitions in production and depot maintenance work with its associated labor,
      applied overhead, and supplies used in the delivery of maintenance services.

      1.N.    Investments
      Not applicable.

      1.O.    General Property, Plant and Equipment
      In FY 2006, DoD revised the real property capitalization threshold from $100 thousand to $20 thousand.
      The current $100 thousand capitalization threshold remains unchanged for the remaining General
      Property, Plant, and Equipment (PP&E) categories. Not all Military Departments have implemented this
      revised policy due to system and process limitations.

      General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an
      asset has a useful life of two or more years and the acquisition cost equals or exceeds DoD capitalization
      threshold of $100 thousand. The DoD also requires capitalization of improvement costs over DoD
      capitalization threshold of $100 thousand for General PP&E. The DoD depreciates all General PP&E,
      other than land, on a straight-line basis.

      Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15 thousand, $25
      thousand, and $50 thousand for FYs 1993, 1994, and 1995, respectively, and an estimated useful life of
      two or more years. General PP&E previously capitalized at amounts below $100 thousand were wriĴen
      oﬀ General Fund ﬁnancial statements in FY 1998. No adjustment was made for WCF assets that remain
      capitalized and reported on WCF ﬁnancial statements. For WCF activities, all General PP&E used in the
      performance of their mission is categorized as General PP&E, whether or not it meets the deﬁnition of
      any other General PP&E categories.

      1.P.    Advances and Prepayments
      The DoD’s policy is to record advances and prepayments in accordance with GAAP. As such, payments
      made in advance of the receipt of goods and services are reported as an asset on the Balance Sheet.
      The DoD’s policy is to expense and/or properly classify assets when the related goods and services are
      received. Not all DoD entities have implemented this policy primarily due to system limitations.

      1.Q.    Leases
      Not applicable.

      1.R.    Other Assets
      Other assets include those assets, such as military and civil service employee pay advances, travel
      advances, and certain contract ﬁnancing payments that are not reported elsewhere on NWCF-MC’s
      Balance Sheet.

      The NWCF-MC conducts business with commercial contractors under two primary types of contracts:
      ﬁxed price and cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-
      term contracts can cause, NWCF-MC may provide ﬁnancing payments. Contract ﬁnancing payments
      are deﬁned in the Federal Acquisition Regulations, Part 32, as authorized disbursements of monies to a
      contractor prior to acceptance of supplies or services by the Government. Contract ﬁnancing payments
      clauses are incorporated in the contract terms and conditions and may include advance payments,
      performance-based payments, commercial advance and interim payments, progress payments based on

256
2007 Annual Financial Report



cost, and interim payments under certain cost-reimbursement contracts. Contract ﬁnancing payments
do not include invoice payments, payments for partial deliveries, lease and rental payments, or progress
payments based on a percentage or stage of completion, which the Defense Federal Acquisition
Regulation Supplement authorizes only for construction of real property. Progress payments for real
property are reported as Construction in Progress. It is DoD policy to record certain contract ﬁnancing
payments as Other Assets.

1.S.    Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12,
“Recognition of Contingent Liabilities Arising from Litigation,” deﬁnes a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The
uncertainty will be resolved when one or more future events occur or fail to occur.

The NWCF-MC is unable to identify specify legal contingencies primarily due to uncertainties of
litigation and diﬃculty identifying data and method of computation. During 1st Quarter, FY 2007,
DON worked with the Oﬃce of General Counsel and the Oﬃce of the Under Secretary of Defense
(Comptroller) to develop and implement a methodology to produce an estimate for Contingent Legal
Liabilities. This methodology was able to recognize contingent legal liabilities at DON and corporate
Marine Corps levels only; but not at NWCF-MC level.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not
exist but there is at least a reasonable possibility of incurring a loss or additional losses. Examples of
loss contingencies include the collectibility of receivables, pending or threatened litigation, and possible
claims and assessments. The NWCF-MC’s risk of loss and resultant contingent liabilities arise from
pending or threatened litigation or claims and assessments due to events such as vehicle accidents;
medical malpractice; property damages; and contract disputes.

1.T.    Accrued Leave
The NWCF-MC reports as liabilities military leave and civilian earned leave, except sick leave, that has
been accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability
reported at the end of the accounting period reﬂects the current pay rates.

1.U.    Net Position
Net Position consists of cumulative results of operations (CRO). The CRO represent the net diﬀerence,
since inception of an activity, between expenses and losses and ﬁnancing sources (including
appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results also include
donations and transfer in and out of assets without reimbursement.

1.V.    Treaties for Use of Foreign Bases
Not applicable.

1.W.    Comparative Data
Not applicable.

1.X.    Unexpended Obligations
The NWCF-MC obligates funds to provide goods and services for outstanding orders not yet delivered.
The ﬁnancial statements do not reﬂect this liability for payment for goods and services not yet delivered,
unless title passes.




                                                                                                                     257
                                                                          Navy Working Capital Fund - Marine Corps
                                                                                             Department of the Navy



      1.Y.    Undistributed Disbursements and Collections
      Undistributed disbursements and collections represent the diﬀerence between disbursements and
      collections matched at the transaction level to a speciﬁc obligation, payable, or receivable in the activity
      ﬁeld records as opposed to those reported by U.S. Treasury. These amounts should agree with the
      undistributed amounts reported on the monthly accounting reports. In-transit payments are those
      payments that have been made, but have not been recorded in the fund holder’s accounting records.
      These payments are applied to the entities’ outstanding accounts payable balance. In-transit collections
      are those collections from other agencies or entities that have not been recorded in the accounting records.
      These collections are also applied to the entities’ accounts receivable balance.

      The DoD policy is to allocate supported undistributed disbursements and collections between federal
      and nonfederal categories based on the percentage distributed federal and nonfederal accounts payable
      and accounts receivable. Unsupported undistributed disbursements are recorded in accounts payable.
      Unsupported undistributed collections are recorded in other liabilities. The NWCF-MC does not follow
      this procedure. Unsupported collections are allocated to federal accounts receivable and unsupported
      disbursements to nonfederal accounts payable.

      1.Z.    Signiﬁcant Events
      Beginning 4th Quarter, FY 2007, DoD began presenting Statement of Financing (SOF) as a note in
      accordance with OMB Circular A-136. The SOF will no longer be considered a basic statement and is now
      referred to as “Reconciliation of Net Cost of Operations to Budget.”


      Note 2.         Nonentity Assets
       As of September 30                                           2007                         2006
       (Amounts in Thousands)
       1. Intragovernmental Assets
          A. Fund Balance with Treasury                  $                         0   $                        0
          B. Accounts Receivable                                                   0                            0
          C. Total Intragovernmental Assets              $                         0   $                        0

       2. Nonfederal Assets
          A. Cash and Other Monetary Assets              $                         0   $                        0
          B. Accounts Receivable                                                   0                            0
          C. Other Assets                                                          0                            0
          D. Total Nonfederal Assets                     $                         0   $                        0

       3. Total Nonentity Assets                         $                         0   $                        0

       4. Total Entity Assets                            $                   613,903   $                 671,288


       5. Total Assets                                   $                   613,903   $                 671,288


      Information Related to Nonentity Assets
      The Navy Working Capital Fund-Marine Corps does not have nonentity assets.




258
2007 Annual Financial Report



Note 3.         Fund Balance with Treasury
 As of September 30                                              2007                         2006
 (Amounts in Thousands)
 1. Fund Balances
    A. Appropriated Funds                              $                        0   $                       0
    B. Revolving Funds                                                     67,119                      30,193
    C. Trust Funds                                                              0                           0
    D. Special Funds                                                            0                           0
    E. Other Fund Types                                                         0                           0
    F. Total Fund Balances                             $                   67,119   $                  30,193


 2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                      $                   67,119   $                  30,193
     B. Fund Balance per United States Marine
        Corps (USMC)                                                       67,119                      30,193

 3. Reconciling Amount                                 $                        0   $                        0


The Navy Working Capital Fund-Marine Corps (NWCF-MC) has no reconciling amount to report this
period.


Status of Fund Balance with Treasury
 As of September 30                                             2007                          2006
 (Amounts in Thousands)
 1. Unobligated Balance
    A. Available                                      $                  179,815    $                 177,371
    B. Unavailable                                                             0                            0

 2. Obligated Balance not yet Disbursed               $                  243,475    $                 333,699

 3. Nonbudgetary FBWT                                 $                        0    $                        0

 4. NonFBWT Budgetary Accounts                        $                 (356,172)   $             (1,572,615)

 5. Total                                             $                   67,119    $             (1,061,545)

Standard Disclosures
The Status of Fund Balance with Treasury (FBWT) reﬂects the budgetary resources to support FBWT.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set
aside to cover outstanding obligations. Unobligated Balance is classiﬁed as available or unavailable and
is associated with appropriations expiring at ﬁscal year end that remain available only for obligation
adjustments until the account is closed.


                                                                                                                   259
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                              Department of the Navy



      Obligated balance not yet disbursed represents funds that have been obligated for goods that have not
      been received, services that have not been performed, and goods and services that have been delivered/
      received but not yet paid.

      NonBudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that
      do not have budgetary authority, such as unavailable receipt accounts or clearing accounts. There is no
      NonBudgetary FBWT reported this period.

      NonFBWT Budgetary Accounts represent adjustments to budgetary accounts that do not aﬀect FBWT.
      For NWCF-MC, NonFBWT budgetary accounts are comprised of contract authority for capital assets in
      depot maintenance and operating expenses in supply management, accounts receivable, and unﬁlled
      orders from customers. This category reduces the Status of FBWT.

      Unobligated balances are segregated to show available and unavailable amounts in the note schedule.
      For this reporting period, there are no unobligated unavailable balances for NWCF-MC. Unobligated
      available balances are not restricted to future use and are not apportioned for current use.


      Disclosures Related to Suspense/Budget Clearing Accounts
      Information Related to Suspense/Budget Clearing Accounts
      The NWCF-MC Suspense/Budget Clearing Accounts are being reported under United States Marine
      Corps-General Fund.


      Disclosures Related to Problem Disbursements
                                                                                                (Decrease)/
       As of September 30                              2005        2006          2007          Increase from
                                                                                              FY 2006 to 2007
       (Amounts in Thousands)
       1. Total Problem Disbursements,
          Absolute Value
             A. Unmatched Disbursements (UMDs) $         5,719 $     4,088 $      1,316   $                (2,772)
          B. Negative Unliquidated Obligations
              (NULO)                                          0          2            0                         (2)
          C. In-Transit Disbursements                   (6,565)      6,346       11,431                      5,085
      2. Total                                  $         (846)   $ 10,436   $   12,747   $                  2,311

      Standard Disclosures
      Problem Disbursements
      Problem Disbursements are reported as an absolute value amount. Absolute value is the sum of the
      positive values of debit and credit transactions without regard to the plus or minus signs.

      Unmatched Disbursements
      An Unmatched Disbursement occurs when a payment is not matched to a corresponding obligation in
      the accounting system.

      Negative Unliquidated Obligations
      A Negative Unliquidated Obligation occurs when a payment is made against a valid obligation, but the
      payment is greater than the amount of the obligation recorded in the oﬃcial accounting system. These
      payments have been made using available funds and are based on valid receiving reports for goods and
      services delivered under valid contracts.
260
2007 Annual Financial Report



In-transits
The In-transits represent the absolute value of disbursements and collections made by NWCF-MC
disbursing activity on behalf of an accountable activity and have not been posted to the accounting
system.

Other Disclosures
The NWCF-MC does not have any discrepancies between amounts reported in the problem disbursement
metric furnished to DFAS Arlington and the Note 3 schedule. Beginning with 2nd Quarter, FY 2007,
in-transit disbursements are reported as an absolute value as opposed to net amounts disclosed in
prior years. This reporting change applies to amounts in the note schedule for both the current and
comparative years.


Note 4.           Investments and Related Interest
Not applicable.


Note 5.           Accounts Receivable
                                                     2007                                           2006
 As of September 30                            Allowance For
                               Gross Amount                            Accounts                   Accounts
                                                Estimated
                                   Due                              Receivable, Net            Receivable, Net
                                               Uncollectibles
 (Amounts in Thousands)
 1. Intragovernmental
    Receivables                $      24,848            N/A     $              24,848      $               33,906

 2. Nonfederal
    Receivables
    (From the Public)          $         74    $            0   $                     74   $                 327

 3. Total Accounts
    Receivable                 $      24,922   $            0   $              24,922      $               34,233




                                                                                                                    261
                                                                         Navy Working Capital Fund - Marine Corps
                                                                                             Department of the Navy



      Aged Accounts Receivable
                                                      2007                                  2006
       As of September 30
                                       Intragovernmental      Nonfederal     Intragovernmental      Nonfederal
       (Amounts in Thousands)
       CATEGORY
       Nondelinquent
          Current                     $              24,064   $        83    $            33,633    $         320
          Noncurrent                                      0             0                      0                0
       Delinquent
          1 to 30 days                $                 446   $          0   $                 9    $           0
          31 to 60 days                                 342            (0)                   322              (0)
          61 to 90 days                                 394              0                   254                0
          91 to 180 days                                976              0                   131                2
          181 days to 1 year                            318            (9)                    89                2
          Greater than 1 year and
          less than or equal to
          2 years                                       416            (0)                   163                3
          Greater than 2 years
          and less
          than or equal to 6 years                        0             0                      0                0
          Greater than 6 years
          and less than or equal
          to 10 years                                     0             0                      0                0
          Greater than 10 years                           0             0                      0                0
       Subtotal                       $              26,956   $        74    $            34,601    $         327
          Less Supported
          Undistributed
          Collections                              (13,721)              0                      0               0
          Less Eliminations                          11,613              0                  (695)               0
          Less Other                                      0              0                      0               0
       Total                          $              24,848   $        74    $            33,906    $         327


      Standard Disclosures
      Current systems do not allow for the identiﬁcation of the aging of any undistributed amounts. Aging
      information is not automatically generated and is not readily available in all feeder ﬁnancial systems and
      must be manually reported.

      A monthly aged accounts receivable report, which is manually produced by Defense Finance and
      Accounting Service (DFAS) and Navy Working Capital Fund-Marine Corps (NWCF-MC), is used to
      complete the various categories shown in the above chart. The boĴom portion of the chart is derived
      from the accounting adjustments required in the preparation of the ﬁnancial statements to account for
      trading partner reported data and to reconcile delinquent and nondelinquent data with the total accounts
      receivables recorded in NWCF-MC accounting records. To complete the chart, unallocated adjustments,
      if any, are made to the “other” line and DFAS will work with the various ﬁeld sites to identify the correct
      category for this amount and subsequently post in the proper category as necessary.


262
2007 Annual Financial Report



The $11.6 million identiﬁed in the eliminations line in the chart represents the amount identiﬁed by
Department of Defense (DoD) trading partners, including internal NWCF-MC accounting records as
accounts payable to NWCF-MC Depot Maintenance Activity Group and Supply Management Activity
Group accounts.

Other Disclosures
On an ongoing basis, NWCF-MC and DFAS utilize several processes, including automated DoD
inventory management system inquiry as well as wriĴen and verbal communication tools to request
payment of delinquent accounts receivables. AĞer several collection aĴempts have been exhausted,
the aged accounts receivable are wriĴen oﬀ as required. Information received as to why payment has
not been made is directly related to either cash posture or data reconciliation requiring labor intensive
processes to be completed by the sources of supply.


Note 6.           Other Assets
 As of September 30                                                2007                         2006
 (Amounts in Thousands)
 1. Intragovernmental Other Assets
    A. Advances and Prepayments                          $                    684     $                        0
    B. Other Assets                                                             0                              0
    C. Total Intragovernmental Other Assets              $                    684     $                        0

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments           $                     81     $                     501
    B. Other Assets (With the Public)                                          46                            18
    C. Total Nonfederal Other Assets                     $                    127     $                     519

 3. Total Other Assets                                   $                    811     $                     519


Standard Disclosures
Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights to
the Navy Working Capital Fund-Marine Corps (NWCF-MC) that protect the contract work from state
or local taxation, liens or aĴachment by the contractor’s creditors, transfer of property, or disposition in
bankruptcy; however, these rights should not be misconstrued to mean that ownership of the contractor’s
work has transferred to the Government. The Government does not have the right to take the work,
except as provided in contract clauses related to termination or acceptance, and NWCF-MC is not
obligated to make payment to the contractor until delivery and acceptance.

The Contract Financing Payment balance of $81.0 thousand is the estimated future payments that will be
paid to the contractor upon future delivery and Government acceptance of a satisfactory product. (See
additional discussion in Note 15, Other Liabilities).

Composition of Other Assets (With the Public)
The composition of Other Assets (With the Public) includes travel advances. This represents the value
of unliquidated advances of funds made to civilian employees for the payment of meals and incidental
expenses, mileage, other expenses, and relocation expenses for oﬃcial government travel.


Note 7.           Cash and Other Monetary Assets
Not applicable.
                                                                                                                     263
                                                                          Navy Working Capital Fund - Marine Corps
                                                                                                                 Department of the Navy



      Note 8.           Direct Loan and/or Loan Guarantee Programs
      Not applicable.


      Note 9.           Inventory and Related Property
       As of September 30                                                  2007                                     2006
       (Amounts in Thousands)
       1. Inventory, Net                                     $                          318,682       $                       431,512
       2. Operating Materiel & Supplies, Net                                            156,444                               126,556
       3. Stockpile Materiel, Net                                                             0                                     0
       4. Total                                              $                          475,126       $                       558,068

      Inventory, Net
                                                                    2007                                     2006
       As of September 30                       Inventory,       Revaluation        Inventory,            Inventory,       Valuation
                                               Gross Value       Allowance             Net                   Net            Method
       (Amounts in Thousands)
       1. Inventory Categories
          A. Available and Purchased
             for Resale                        $      413,928     $   (330,162)     $     83,766          $   236,253   LAC, MAC
          B. Held for Repair                          234,792                 0          234,792              194,387   LAC, MAC
          C. Excess, Obsolete, and
             Unserviceable                                   0                  0                 0                 0       NRV
                                                                                                                           MAC, SP,
           D. Raw Materiel                                   0                  0              0                   0        LAC
           E. Work in Process                              124                  0            124                 872         AC

           F. Total                            $      648,844     $   (330,162)     $ 318,682             $   431,512
       L      df V l       ti    M th d
            Legend for Valuation Methods:
            Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
            NRV = Net Realizable Value
            SP = Standard Price
            AC = Actual Cost
            MAC = Moving Average Cost


      Standard Disclosures
      Restrictions of Inventory Use, Sale, or Disposition
      Generally, there are no restrictions with regard to the use, sale, or disposition of inventory to applicable
      Department of Defense (DoD) activities and personnel. Other than speciﬁed safety and war reserve
      levels, established as a result of DoD and Marine Corps (MC) regulatory operations, inventory may be
      sold to foreign countries, state and local governments, private parties and contractors in accordance with
      DoD and MC policies and guidance or at the direction of the President.




264
2007 Annual Financial Report



Composition of Inventory
Except for the work in process, all inventory categories shown in the table above apply to the Supply
Management Activities.

Inventory Categories
Inventory represents property that is held for (a) sale to customers, (b) in the process of supporting
production for eventual sale to customers, (c) to be consumed in the production of goods for sale, or (d) in
the provision of providing services for a fee.

Inventory Available and Purchased for Resale includes consumable spare and repair parts and repairable
items owned and managed by Navy Working Capital Fund-Marine Corps (NWCF-MC) as well as
consumable and repairable items that are managed by other Military Services, such as the Defense
Logistics Agency or the General Services Administration where the Marine Corps has permission to
stock, store and sale. Materiel available and purchased for resale includes materiel held, due to various
managerial decisions to support military or national contingencies.

Included in “Inventory Available and Purchased for Resale,” is an amount of $80.2 million for War
Reserve Material for Supply Management, Marine Corps.

Federal Accounting Standards requires disclosure of the amount of Inventory Held for “Future Sale.”
The NWCF-MC currently has no Inventory included in this reporting period, which is being held for
future sale. All inventory, included in Inventory Net through 4th Quarter, FY 2007 is currently planned for
sale to customers or retained for military or national contingencies. There is no management or valuation
diﬀerence between the two categories.

Inventory Held for Repair is inventory that is in less than “ready for issue/sale” condition and requires
repair to make suitable for sale. Some of the inventory items are more economical to repair than to
procure. For warﬁghting readiness, since many weapon systems and machinery are no longer in
commercial production, this leaves relatively no ready and economical sources of replenishment via
new purchase. The MC supports its customers’ requests for purchase of certain items by repairing
or rebuilding these items vice new acquisitions. The repair/rebuild process is an essential part of the
Marine Corps’ commitment as a “Force in Readiness” as well as supporting our other DoD customers in
maintaining a ready, mobile, and armed military force.

Work in Process balances include costs related to the production or servicing of items, including direct
materiel, direct labor, applied overhead and other direct costs. Work in Process also includes the value
of ﬁnished products or completed services pending billing to the customer. Work in Process designation
may also be used to accumulate the amount paid to a contractor under cost reimbursable contracts,
including the amount withheld from payment to ensure performance, and the amount paid to other
Government plants for accrued costs of end items of materiel ordered but not delivered.

Inventory Work in Process
Work in Process at MC Depot Maintenance activities is $124.0 thousand and is included as inventory.
This amount represents work that has been completed, expenses incurred, and waiting to be billed to the
customer.




                                                                                                                   265
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                                            Department of the Navy



      Operating Materiel and Supplies, Net
                                                                    2007                                  2006
       As of September 30                      OM&S              Revaluation                                         Valuation
                                                                                    OM&S, Net         OM&S, Net
                                             Gross Value         Allowance                                            Method
       (Amounts in Thousands)
       1. OM&S Categories
          A. Held for Use                   $       156,444    $               0    $       156,444   $   126,556     SP, LAC
          B. Held for Repair                              0                    0                  0             0     SP, LAC
          C. Excess, Obsolete, and
             Unserviceable                                0                    0                  0             0       NRV
          D. Total                          $       156,444    $               0    $       156,444   $   126,556


            Legend for Valuation Methods:
            Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
            NRV = Net Realizable Value
            SP = Standard Price


      Standard Disclosures
      Restrictions on OM&S
      Generally, there are no restrictions with regard to the use, sale, or disposition of OM&S applicable to DoD
      activities.

      Composition of Operating Materiels and Supplies (OM&S)
      OM&S Held for Use represents property that is consumed during normal operations and includes
      consumable spare and repair parts for use on customer work by various activities. The items are
      recorded using diﬀerent methodologies including actual, weighted-average and historical cost.

      Federal Accounting Standards requires disclosure of the amount of OM&S Held for “Future Use.”
      The NWCF-MC reports that $156.4 million of OM&S is categorized as Held for Future Use. All OM&S
      categories shown in the table above apply to the Depot Maintenance Activity Group, Marine Corps only.

      Government Furnished Materiel (GFM) and Contractor Acquired Materiel (CAM)
      Generally, the values of the NWCF-MC’s GFM and CAM in the hands of contractors are not included
      in the OM&S values reported above. The DoD is presently reviewing its process for reporting these
      amounts in an eﬀort to determine the appropriate accounting treatment and the best method to annually
      collect and report required information without duplicating information already in other existing logistics
      systems in accordance with Volume 6B, Chapter 10 of DoD Financial Management Regulation.


      Stockpile Materiel, Net
      Not applicable.




266
2007 Annual Financial Report



Note 10. General PP&E, Net
                                                              2007                                         2006
 As of September 30          Depreciation/                               (Accumulated
                                              Service     Acquisition                    Net Book      Prior FY Net
                             Amortization                                Depreciation/
                                               Life         Value                         Value        Book Value
                               Method                                    Amortization)
 (Amounts in Thousands)
 1. Major Asset
    Classes
    A. Land                      N/A           N/A        $          0            N/A $           0   $        0
    B. Buildings,
        Structures, and
        Facilities                            20 or 40        71,843 $        (41,770)      30,073           31,532
    C. Leasehold
        Improvements             S/L         lease term              0               0            0                0
    D. Software                  S/L          2-5 or 10              0               0            0                0
    E. General
        Equipment                S/L          5 or 10         69,813          (58,120)      11,693           11,146
    F. Military
        Equipment                S/L          Various                0               0            0                0
    G. Assets Under
        Capital Lease            S/L         lease term              0               0            0                0
    H. Construction-
        in- Progress             N/A           N/A              4,159             N/A         4,159            5,597
    I. Other                                                        0               0             0                0
    J. Total General
        PP&E                                              $   145,815 $       (99,890) $ 45,925        $     48,275

      Legend for Valuation Methods:
      S/L = Straight Line
      N/A = Not Applicable


Standard Disclosures
Military Equipment
Military equipment is reported on the ﬁnancial statements of the United States Marine Corps General
Fund (USMC GF).

Heritage Assets and Stewardship Land
Heritage assets and stewardship land are reported on the ﬁnancial statements of USMC GF.

Other Disclosures
Generally, for Navy Working Capital Fund-Marine Corps (NWCF-MC), there are no restrictions on
General Property, Plant and Equipment (PP&E).


Assets Under Capital Lease
Not applicable.



                                                                                                                         267
                                                                              Navy Working Capital Fund - Marine Corps
                                                                                            Department of the Navy



      Note 11. Liabilities Not Covered by Budgetary Resources
       As of September 30                                            2007                       2006
       (Amounts in Thousands)
       1. Intragovernmental Liabilities
          A. Accounts Payable                              $                      0   $                         0
          B. Debt                                                                 0                             0
          C. Other                                                                0                             0
          D. Total Intragovernmental Liabilities           $                      0   $                         0

       2. Nonfederal Liabilities
          A. Accounts Payable                              $                      0   $                         0
          B. Military Retirement Benefits and
             Other Employment-Related Actuarial
             Liabilities                                                     27,624                      29,595
          C. Environmental Liabilities                                            0                           0
          D. Other Liabilities                                                    0                           0
          E. Total Nonfederal Liabilities                  $                 27,624   $                  29,595

       3. Total Liabilities Not Covered by Budgetary
          Resources                                        $                 27,624   $                  29,595

       4. Total Liabilities Covered by Budgetary
          Resources                                        $                 95,308   $                 105,818

       5. Total Liabilities                                $                122,932   $                 135,413


      Standard Disclosures
      Liabilities Not Covered by Budgetary Resources are liabilities for which congressional action is needed
      before budgetary resources can be provided.

      Composition of Intragovernmental Other Liabilities
      Intragovernmental Other Liabilities is made up of interest, penalties, and administrative fees owed to
      the U.S. Treasury for services of the Debt Management Oﬃce to handle and recover delinquent accounts
      receivable from public customers.

      Other Disclosures Related to Liabilities Not Covered by Budgetary Resources
      The $27.6 million included for Military Retirement Beneﬁts and Other Federal Employment Beneﬁts
      are related to the Department of Labor’s Oﬃce of Inspector General estimated liability for future Navy
      Working Capital Fund-Marine Corps workers’ compensation beneﬁts. This liability is recorded as
      actuarial since it is based on guidelines issued by the Oﬃce of Management and Budget and represents
      estimated values, which may or may not materialize.

      Military Retirement and Other Federal Employment Beneﬁts not covered by budgetary resources are
      comprised of various employee actuarial liabilities not due and payable during the current ﬁscal year.
      This liability is primarily comprised of $27.6 million, which represent the beneﬁts described. Refer
      to Note 17, Military Retirement and Other Federal Employment Beneﬁts, for additional details and
      disclosures.

268
2007 Annual Financial Report



Note 12. Accounts Payable
                                                       2007                                     2006

 As of September 30                              Interest, Penalties,
                                   Accounts
                                                and Administrative          Total               Total
                                   Payable
                                                        Fees
 (Amounts in Thousands)
 1. Intragovernmental
    Payables                   $        5,768   $               N/A     $      5,768    $                6,382
 2. Nonfederal Payables
    (to the Public)                    79,541                       0         79,541                    67,846
 3. Total                      $       85,309   $                   0   $     85,309    $               74,228


Standard Disclosures
The Navy Working Capital Fund-Marine Corps’ systems do not track intragovernmental transactions
by customer at the transaction level. Therefore, internal Department of Defense buyer-side balances
are adjusted to agree with internal seller-side balances for revenue, accounts receivable, and unearned
revenue. Accounts payable were adjusted by reclassifying amounts between federal and nonfederal
accounts payable.


Note 13. Debt
Not applicable.


Note 14. Environmental Liabilities and Disposal Liabilities
Standard Disclosures
Environmental Liabilities are reported under the United States Marine Corps General Fund.


Environmental Disclosures
Not applicable.




                                                                                                                   269
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                            Department of the Navy



      Note 15. Other Liabilities
                                                                 2007                                2006
      As of September 30                     Current         Noncurrent
                                                                                Total                Total
                                             Liability        Liability
      (Amounts in Thousands)
      1. Intragovernmental
         A. Advances from Others         $               0   $          0   $              0    $              0
         B. Deposit Funds and Suspense
             Account Liabilities                         0                                                     0
         C. Disbursing Officer Cash                      0              0                  0                   0
         D. Judgment Fund Liabilities                    0              0                  0                   0
         E. FECA Reimbursement to the
             Department of Labor                      0                 0                  0                   0
         F. Other Liabilities                       858                 0                858                 917

         G. Total Intragovernmental
             Other Liabilities           $          858      $          0   $            858    $            917
      2. Nonfederal
         A. Accrued Funded Payroll and
             Benefits                    $        8,720      $          0   $       8,720       $         10,236
         B. Advances from Others                    555                 0             555                     35
         C. Deferred Credits                          0                 0               0                      0
         D. Deposit Funds and Suspense
             Accounts                                    0              0                  0                   0
         E. Temporary Early Retirement
             Authority                                   0              0                  0                   0
         F. Nonenvironmental Disposal
             Liabilities                                 0              0                  0
            (1) Military Equipment
                (Nonnuclear)                             0              0                  0                   0
            (2) Excess/Obsolete
                Structures                               0              0                  0                   0
            (3) Conventional Munitions
                Disposal                                 0              0                  0                   0
         G. Accrued Unfunded Annual
             Leave                                       0              0                  0                   0
        H. Capital Lease Liability                       0             0                    0                  0
        I. Other Liabilities                             0         (134)                (134)             20,402

        J.  Total Nonfederal Other
            Liabilities                  $        9,275      $     (134)    $       9,141       $         30,673
      3. Total Other Liabilities         $       10,133      $     (134)    $       9,999       $         31,590




270
2007 Annual Financial Report



Standard Disclosures
Composition of Intragovernmental Other Liabilities (Line 1.F)
Intragovernmental other liabilities include amounts presented in Navy Working Capital Fund-Marine
Corps (NWCF-MC) balance sheet. A breakout of the major components of intragovernmental other
liabilities are as follows:

      a.   Liabilities for Health and Life Insurance, Retirement and other employee beneﬁts and
           entitlements representing government contributions.

      b.   Liabilities owed to the United States Treasury, Debt Management Oﬃce for interest, penalties,
           and administrative fees related to services for collection of accounts receivable from public
           customers.

Composition of Nonfederal Other Liabilities (Line 2.I)
Nonfederal other liabilities include amounts that are signiﬁcant portions of the total liabilities presented
in NWCF-MC balance sheet. A breakout of the major components of nonfederal other liabilities are as
follows:

      a.   Accrued cost for travel advances, base support, and contracts for work performed by civilian
           personnel, contractors and other agencies in which a request for payment has not been
           received.

      b.   Estimated future payments for contract ﬁnancing balances payments that will be paid to
           contractors upon future delivery and government acceptance of a satisfactory product.

Disclosures Related to Other Liabilities
Contingent Liabilities includes $81.0 thousand in estimated future contract ﬁnancing payments
that will be paid to the contractors upon delivery and Government acceptance. In accordance with
contract terms, speciﬁc rights to the contractor’s work vests with the Government when a speciﬁc type
of contract ﬁnancing payments is made. This action protects taxpayer funds in the event of contract
nonperformance. These rights should not be misconstrued as the rights of ownership. The NWCF-MC is
under no obligation to pay the contractor for amounts greater than the amounts authorized in the contract
until delivery and Government acceptance. Because it is probable that the contractor will complete its
eﬀorts and deliver a satisfactory product to NWCF-MC and the amount of potential future payments is
estimable; NWCF-MC has recognized a contingent liability for estimated future payments, which are
conditional pending delivery and Government acceptance.

Abnormalities Related to Other Liabilities
Other Liabilities has an abnormal balance in the amount of $134.0 thousand. This is due to the net
eﬀect of a $215.0 thousand debit posting to contract holdbacks and a $81.0 thousand credit posting to
contingent liabilities resulting from data calls generated by Mechanization of Contract Administration
Services (MOCAS) processes. The abnormal balance was created by the debit posting, in the month of
September 2007, which was identiﬁed as a Department of the Navy (DON) contract with a private entity.
The contract included multiple contract line item numbers as well as multiple Marine Corps and DON
appropriations. Based on current reviews, the debit posting appear to be erroneously identiﬁed for
NWCF-MC, Supply Management Activity Group appropriations and not recorded as a liability prior to
MOCAS debit posting. The Marine Corps is currently working with the Defense Contract Management
Agency and Defense Finance and Accounting Service to identify the correct line of appropriations for
proper posting and expects to resolve this issue.


Capital Lease Liability
Not applicable.

                                                                                                                    271
                                                                         Navy Working Capital Fund - Marine Corps
                                                                                              Department of the Navy



      Note 16. Commitments and Contingencies
      Standard Disclosures
      The Navy Working Capital Fund-Marine Corps (NWCF-MC) is a party in various administrative
      proceedings and legal actions, with claims including equal opportunity maĴers, and contractual bid
      protests. The NWCF-MC is not aware of any contingent liabilities for legal actions. However, primarily
      due to uncertainties of litigation, diﬃculty identifying data and method of computation, NWCF-MC is
      unable to identify speciﬁc legal contingencies. During 1st Quarter, Fiscal Year (FY) 2007, the Department
      of the Navy (DON) worked with the Oﬃce of General Counsel and the Oﬃce of the Under Secretary of
      Defense (Comptroller) to develop and implement a methodology to produce an estimate for contingent
      legal liabilities. This methodology was able to recognize contingent legal liabilities at DON and United
      States Marine Corps General Fund levels only; but not at NWCF-MC level. As such, legal contingencies
      for MC are identiﬁed in the General Fund’s ﬁnancial records. The MC will continue to work to identify a
      methodology to identify legal contingencies, if any, at the various reporting entity level but has diﬃculty
      to anticipate the timeframe of implementation.

      The NWCF-MC does not have obligations related to cancelled appropriations for which a contractual
      commitment for payment exists. In addition, NWCF-MC is not involved in any legal action or claims
      where DON Oﬃce of General Counsel considers an adverse decision is probable and the amount of loss
      measurable.

      The NWCF-MC has contractual arrangements (i.e. undelivered orders) which may require ﬁnancial
      obligations based on contractor claims under the “disputes” clause contained in contracts. As of the end
      of the 4th Quarter, FY 2007, undelivered orders are estimated at $161 million.

      The NWCF-MC has contingencies that are considered both measurable and probable have been
      recognized as liabilities. Refer to Note 15 for further details.

      The NWCF-MC is a party in numerous individual contracts that contain clauses, such as price escalation,
      award fee payments of dispute resolution that may or may not result in a future outﬂow of expenditures.
      Currently, NWCF-MC does not have a systemic process by which it captures or assesses these potential
      contingent liabilities; therefore, the amounts reported may not fairly present NWCF-MC contingent
      liabilities.




272
2007 Annual Financial Report



Note 17. Military Retirement and Other Federal Employment
         Beneﬁts
                                                                 2007                                     2006

 As of September 30                   Present        Assumed       (Less: Assets                      Present
                                                                                       Unfunded
                                      Value of        Interest     Available to                       Value of
                                                                                        Liability
                                      Benefits       Rate (%)      Pay Benefits)                      Benefits
 (Amounts in Thousands)
 1. Pension and Health
    Actuarial Benefits
   A. Military Retirement
      Pensions                    $              0                $                0   $        0     $          0
   B. Military Retirement
      Health Benefits                            0                                 0            0                0
   C. Military Medicare-
      Eligible Retiree Benefits                  0                                 0            0                0
   D. Total Pension and
      Health Actuarial
      Benefits                    $              0                $                0   $        0     $          0

 2. Other Actuarial Benefits
   A. FECA                        $      27,624                   $                0   $   27,624     $     29,595
   B. Voluntary Separation
      Incentive Programs                         0                                              0                0
   C. DoD Education
      Benefits Fund                              0                                 0            0                0
   D. Total Other Actuarial
      Benefits                    $      27,624                   $                0   $   27,624     $     29,595

 3. Other Federal
    Employment Benefits           $              0                $                0   $        0     $          0

 4. Total Military
    Retirement and Other
    Federal Employment
    Benefits:                     $      27,624                   $                0   $   27,624     $     29,595


Standard Disclosures
Actuarial Cost Method Used
The Department of the Navy (DON) actuarial liability for workers’ compensation beneﬁts is developed by
the Department of Labor and provided to DON at the end of each ﬁscal year. The liability is distributed
between the Navy Working Capital Fund (NWCF) and General Fund for DON and the Marine Corps,
which is based upon the number of civilian employees funded in each entity, as reported in the Navy
Budget Tracking System. The liability includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases. The liability is determined using a method that


                                                                                                                       273
                                                                            Navy Working Capital Fund - Marine Corps
                                                                                              Department of the Navy



      utilizes historical beneﬁt payment paĴerns to predict the ultimate payments. The NWCF-MC’s estimated
      actuarial liability is updated only at the end of each ﬁscal year.

      The projected annual beneﬁt payments are discounted to the present value using Oﬃce of Management
      and Budget’s economic assumptions for ten year United States Treasury notes and bonds. Cost-of-living
      adjustments and medical inﬂation factors are also applied to the calculation of projected future beneﬁts.
      The interest rate assumptions used in the discount calculations are as follows for September 30, 2007:

            2007
            4.930% in Year 1
            5.078% in Year 2 and thereaĞer

      To provide more speciﬁcally for the eﬀects of inﬂation on the liability for future workers’ compensations
      beneﬁts, wage inﬂation factors (cost of living adjustments or COLAs) and medical inﬂation factors
      (consumer price index medical or CPIMs) were applied to the calculation of projected future beneﬁts.
      The actual rates for these factors for the charge back year (CBY) 2007 were also used to adjust the
      methodology’s historical payments to current year constant dollars.

      The compensation COLAs and CPIMs used in the projections for various charge back years were as
      follows:

            CBY        COLA         CPIM
            2007        2.63%       3.74%
            2008        2.90%       4.04%
            2009        2.47%       4.00%
            2010        2.37%       3.94%
            2011+       2.30%       3.94%

      The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis
      was based on four tests:

            (1)   a sensitivity analysis of the model to economic assumptions,

            (2)   a comparison of the percentage change in the liability amount by agency to the percentage
                  change in the actual incremental payments,

            (3)   a comparison of the incremental paid losses per case (a measure of case-severity) in CBY 2007
                  to the average paĴern observed during the most current three charge back years,

            (4)   a comparison of the estimated liability per case in the 2007 projection to the average paĴern
                  for the projections of the most recent three years.

      Other Disclosures Related to Liabilities Not Covered by Budgetary Resources
      The $27.6 million included in Military Retirement Beneﬁts and Other Federal Employment Beneﬁts are
      related to entitlements outlined in the Federal Employee Compensation Act liabilities.




274
2007 Annual Financial Report



Note 18. General Disclosures Related to the Statement of Net
         Cost
 As of September 30                                        2007                            2006

 (Amounts in Thousands)
 1. Intragovernmental Costs                         $               264,758   $                       255,735
 2. Public Costs                                                    400,647                           475,129
 3. Total Costs                                     $               665,405   $                       730,864
 4. Intragovernmental Earned Revenue                $             (595,965)   $                     (617,997)
 5. Public Earned Revenue                                          (12,607)                          (90,965)
 6. Total Earned Revenue                            $             (608,572)   $                     (708,962)
 7. Net Cost of Operations                          $                56,833   $                        21,902

Standard Disclosures
Composition of Statement of Net Cost
The Navy Working Capital Fund-Marine Corps (NWCF-MC) generally records transactions on an accrual
basis as required by federal generally accepted accounting principles (GAAP). Information presented
on the statement of net cost represents the net result of post-closing adjustments and eliminating entries
made in compiling and consolidating NWCF-MC ﬁnancial statements. These entries signiﬁcantly
aﬀected the reported amounts of intragovernmental program cost, program cost with the public, earned
revenue and net program cost. The post-closing adjustments were made in order to increase or decrease
certain NWCF-MC account balances reported as of September 30, 2007 to ensure agreement with
related balances reported by other Department of Defense (DoD) and other federal reporting entities.
Eliminating entries are required adjustments made as part of the ﬁnancial process. This process enables
the matching of trading partner data recorded at each ﬁnancial statement consolidation level: NWCF,
DoD, and Federal Government levels.

Other Disclosures Related to the Statement of Net Cost
Statement of Net Cost is unique because its principles are driven by an understanding of net cost of
programs and/or organizations that the Federal Government supports through appropriations or other
means. This statement provides gross and net cost information that can be related to the amount of
output or outcome for a given program and/or organization administered by a responsible reporting
entity.

Intragovernmental costs and revenues are related to transactions made between two reporting entities
within the Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal
entity.

The NWCF-MC’s systems do not track intragovernmental transactions by customer at the transaction
level. Therefore, internal DoD buyer-side balances are adjusted to agree with internal seller-side balances
for revenue. Expenses were adjusted by reclassifying amounts between federal and nonfederal expenses
or accruing additional accounts payable and expenses.

The NWCF-MC does not report any heritage assets or stewardship land, as these entities are reported on
the ﬁnancial statements of the Department of the Navy General Fund.


                                                                                                                   275
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                                 Department of the Navy



      Note 19. Disclosures Related to the Statement of Changes in
               Net Position
                                                             2007                                    2006

       As of September 30                      Cumulative                          Cumulative
                                                                Unexpended                             Unexpended
                                                Results of                          Results of
                                                               Appropriations                         Appropriations
                                               Operations                          Operations
       (Amounts in Thousands)
       1. Prior Period Adjustments
          Increases (Decreases) to Net
          Position Beginning Balance
          A. Changes in Accounting
             Standards                       $             0   $              0    $             0    $                  0
          B. Errors and Omissions in
             Prior Year Accounting
             Reports                                       0                  0                  0                       0
          C. Total Prior Period
             Adjustments                     $             0   $              0    $             0    $                  0
       2. Imputed Financing
          A. Civilian CSRS/FERS
             Retirement                       $        2,957   $              0    $      3,426       $                  0
          B. Civilian Health                           9,347                  0           8,879                          0
          C. Civilian Life Insurance                      21                  0              22                          0
          D. Judgment Fund                                                    0               0                          0
          E. IntraEntity                                                      0               0                          0
          F. Total Imputed Financing         $       12,325    $              0    $     12,327       $                  0


      Standard Disclosures
      The eliminations column on the Statement of Net Position (SCNP) reﬂect zero dollars. In the SCNP, all
      oﬀseĴing balances (i.e. transfers-in and transfers out, revenues, and expenses) for intra-Department of
      Defense activity between other (nonearmarked) funds are reported on the same lines. This results in an
      eliminations column, which appears to contain no balance. In reality, the column contains all appropriate
      elimination entries, but all net to zero within each respective line, except for intraentity imputed ﬁnancing
      costs.


      Note 20. Disclosures Related to the Statement of Budgetary
               Resources
       As of September 30                                                   2007                            2006
       (Amounts in Thousands)
       1. Net Amount of Budgetary Resources Obligated
          for Undelivered Orders at the End of the Period           $              161,145   $                     227,740

       2. Available Borrowing and Contract Authority at
          the End of the Period                                                         0                      1,232,543

276
2007 Annual Financial Report



Standard Disclosures
The Statement of Budgetary Resources (SBR) is an image of the monthly Report on Budget Execution.
These reports should be produced using budgetary accounts. However, many of the Navy Working
Capital Fund-Marine Corps (NWCF-MC) ﬁnancial and nonﬁnancial feeder systems and processes were
designed and implemented prior to the issuance of Generally Accepted Accounting Principles (GAAP)
for Federal agencies. These systems were not designed to collect and record ﬁnancial information
on the budgetary accounting basis as required by GAAP. The NWCF-MC and the Defense Finance
and Accounting Service (DFAS) continue to implement new accounting systems designed to produce
both proprietary and budgetary reports and use the United States Standard General Ledger. Until the
implementations are completed, the amounts recorded are primarily proprietary.

Change in Receivables from Federal Sources includes amounts reported as reimbursements and other
income earned-receivable. The amount presented on this line is the ending balance less the beginning
balance for the current ﬁscal year. The net negative value change is a reﬂection of NWCF-MC aggressive
eﬀorts to collect on reimbursable operations and the continuing eﬀorts between DFAS, partnering with
NWCF-MC, to reduce accounts receivable.

For SBR, Supply Management revenue is deﬁned as gross sales less credit returns. For the Balance Sheet,
credit returns are posted as inventory allowance and are reclassiﬁed as contra to the revenue accounts.
The diﬀerence in “meanings” causes variances in the reports.

As of September 30, 2007, the diﬀerence between U.S. Treasury and NWCF-MC activity ledgers is
minimal. The principal cause of the diﬀerence is related to timing issues or type of transactions. The
diﬀerences are recorded as undistributed disbursements and collections on the departmental reports.
While there may be no impact upon U.S. Treasury balance, the above diﬀerences have created minor
distortions in the accounts receivable and accounts payable on SBR. Accounting relationship issues
involving the treatment of undistributed collections and disbursements have also created minor abnormal
balances for accounts receivable and accounts payable on SBR.

Intraentity Transactions
The SBR includes intraentity transactions because the statements are presented as combined and
combining.

Apportionment Categories
The Oﬃce of Management and Budget (OMB) Circular A-136 requires disclosure of the amount of
direct and reimbursable obligations incurred against amounts apportioned under categories A, B, and
exempt from apportionment. All of the $595.2 million in NWCF-MC obligations fall into category B
(reimbursable).

Spending Authority from OﬀseĴing Collections
Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are
permanently not available, are not included in the Spending Authority from OﬀseĴing Collections and
Adjustments line on SBR or the Spending Authority for OﬀseĴing Collections and Adjustments line on
the Reconciliation of Net Cost of Operations to Budget.

Disclosure Related to Abnormal Account Balance
The NWCF-MC has an abnormal balance of $49.9 million in Contract Authority Realized. During the
month of September 2007, journal vouchers were processed in an eﬀort to reconcile the Status of Funds
with the Fund Balance with Treasury. A beginning balance adjustment of $93.3 million was made to
Contract Authority Carried Forward, along with a current period credit adjustment of $62.6 million
to Contract Authority Realized, causing the abnormal balance. The entries were made to facilitate
correcting cash and Contract Authority Carried Forward. The abnormal balance was oﬀset by current
period closing balance of $12.6 million to Contract Authority Realized. The abnormal balance of Contract
Authority Realized will close to Contract Authority Carried Forward, resulting in the correct balance in
budgetary cash and Contract Authority Carried Forward.
                                                                                                                 277
                                                                      Navy Working Capital Fund - Marine Corps
                                                                                            Department of the Navy



      This adjustment is the result of reconciliation to balance NWCF-MC budgetary with proprietary
      accounts. The original unreconciled balance between NWCF-MC budgetary and proprietary was the
      result of missed budgetary entries during the manual processes of reporting the SF 133, Report on Budget
      Execution and Budgetary Resources. Since the introduction of the Defense Departmental Reporting
      System (DDRS)-Budgetary and DDRS-Audited Financial Statements reconciliation, recognition of these
      types of issues is more readily identiﬁable.

      Other Disclosures Related to the Statement of Budgetary Resources
      The information contained in this note represents a subset of the information portrayed in Unpaid
      Obligations and Gross Outlays of the Statement of Budgetary Resources and is reconcilable back to the
      applicable general ledger accounts.

      The NWCF-MC does not have any legal arrangements aﬀecting the use of unobligated balances of budget
      authority such as time limits, purpose, and obligation limitations.

      The NWCF-MC has no borrowing authority and available contract authority at the end of the period.

      The NWCF-MC received $32.4 million in a direct appropriation from the ﬁscal year (FY) 2007 U.S. Troop
      Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability Appropriations Act. This funding
      was received in June of 3rd Quarter, FY 2007 as a part of the emergency supplemental funding to ﬁnance
      the cost of War Reserve Material procurements.

      The NWCF-MC received $63.4 million in July 2007 due to a transfer-in of cash to realign cash balances
      within NWCF activities, which resulted in an internal net zero realignment for the Department of the
      Navy. The cash realignment eﬀort was done in order to comply with the Management Initiative Decision
      903 dated December 2002, which proposed an initiative to realign cash balances at the activity groups for
      all of the Defense Working Capital Funds to improve cash management.

      The NWCF-MC has no material diﬀerences between amounts reported on SBR and SF 133, Report on
      Budget Execution and Budgetary Resources.

      This note has been modiﬁed to accurately report the remaining available balance of borrowing and
      contract authority. Previously, NWCF-MC reported the amount of the contract/borrowing authority that
      had initially been used and not subsequently replaced by reimbursement or apportionment.




278
2007 Annual Financial Report



Note 21. Reconciliation of Net Cost of Operations to Budget
 As of September 30                                                   2007                    2006
 (Amounts in Thousands)
 Resources Used to Finance Activities:
 Budgetary Resources Obligated:
 1. Obligations incurred                                         $           595,206   $          694,405
 2. Less: Spending authority from offsetting collections and
     recoveries (-)                                                      (584,202)              (627,536)
 3.   Obligations net of offsetting collections and recoveries   $            11,004   $             66,869
 4.   Less: Offsetting receipts (-)                                                0                      0
 5. Net obligations                                              $            11,004   $             66,869
 Other Resources:
 6. Donations and forfeitures of property                                         0                      0
 7. Transfers in/out without reimbursement (+/-)                                  0               (90,240)
 8. Imputed financing from costs absorbed by others                          12,325                 12,327
 9. Other (+/-)                                                            (96,189)                      0
 10. Net other resources used to finance activities              $         (83,864)    $          (77,913)
 11. Total resources used to finance activities                  $         (72,860)    $          (11,044)
 Resources Used to Finance Items not Part of the Net Cost
 of Operations:
 12. Change in budgetary resources obligated for goods,
      services and benefits ordered but not yet provided:
     12a. Undelivered Orders (-)                                 $           66,595    $          (27,627)
     12b. Unfilled Customer Orders                                         (20,222)               (11,274)
 13. Resources that fund expenses recognized in prior
      Periods (-)                                                            (1,972)                     0
 14. Budgetary offsetting collections and receipts that do not
      affect Net Cost of Operations                                              0                      0
 15. Resources that finance the acquisition of assets (-)                (164,323)              (177,220)
 16. Other resources or adjustments to net obligated
      resources that do not affect Net Cost of Operations:
     16a. Less: Trust or Special Fund Receipts Related to
            exchange in the Entity’s Budget (-)                                    0                      0
     16b. Other (+/-)                                                         96,189                 90,240
 17. Total resources used to finance items not part of the       $
     Net Cost of Operations                                                (23,733)    $        (125,881)
 18. Total resources used to finance the Net Cost of             $
     Operations                                                            (96,593)    $        (136,925)




                                                                                                                279
                                                                     Navy Working Capital Fund - Marine Corps
                                                                                                  Department of the Navy




       As of September 30                                                        2007                    2006
       (Amounts in Thousands)
        Components of the Net Cost of Operations that will not
        Require or Generate Resources in the Current Period:
        Components Requiring or Generating Resources in Future
        Period:
        19. Increase in annual leave liability                           $                   0    $                  0
        20. Increase in environmental and disposal liability                                 0                       0
        21. Upward/Downward reestimates of credit subsidy
            expense (+/-)                                                                    0                       0
        22. Increase in exchange revenue receivable from the
            public (-)                                                                       0                        0
        23. Other (+/-)                                                                      0                    2,928
        24. Total components of Net Cost of Operations that will         $
            Require or Generate Resources in future periods                                  0    $               2,928
        Components not Requiring or Generating Resources:
        25. Depreciation and amortization                                $                5,461   $              3,560
        26. Revaluation of assets or liabilities (+/-)                                   67,449               (38,835)
        27. Other (+/-)
            27a. Trust Fund Exchange Revenue                                                  0                       0
            27b. Cost of Goods Sold                                                      80,516                 191,173
            27c. Operating Materiel and Supplies Used                                         0                       0
            27d. Other                                                                        0                       0
        28. Total Components of Net Cost of Operations that will         $
            not Require or Generate Resources                                           153,426   $             155,898
        29. Total components of Net Cost of Operations that              $
            will not Require or Generate Resources in the current
            period                                                                      153,426   $             158,826
        30. Net Cost of Operations                                       $               56,833   $              21,901

      Standard Disclosures
      The Reconciliation of Net Cost of Operations to Budget is designed to provide information about the total
      resources used by an entity to explain how those resources were used to ﬁnance orders for goods and
      services not yet delivered, to acquire assets and liabilities, and to fund the entity’s net cost of operations.
      It is designed to report the diﬀerences and facilitate the reconciliation of accrual based amounts used in
      the Statement of Net Cost and obligation-based amounts used in the Statement of Budgetary Resources
      (SBR). The computations and presentation of items in the Reconciliation of Net Cost of Operations to
      Budget demonstrate that the budgetary and proprietary information in an entity’s ﬁnancial management
      system agree.

      Due to the Navy Working Capital Fund-Marine Corps (NWCF-MC) ﬁnancial system limitations,
      budgetary data is not in agreement with proprietary expenses and assets capitalized. The diﬀerence
      between budgetary and proprietary data has been previously identiﬁed as a system deﬁciency. To bring
      the Reconciliation of Net Cost of Operations to Budget into balance with the Statement of Net Cost, the
      following adjustment (absolute value) was made:

            Resources That Finance the Acquisition of Assets: $168.1 million.

280
2007 Annual Financial Report



The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead
of consolidated due to intraagency budgetary transactions not being eliminated:

           Obligations Incurred
           Less: Spending Authority from OﬀseĴing Collections and Recoveries
           Obligations Net of OﬀseĴing Collections and Recoveries
           Net Obligations
           Undelivered Orders
           Unﬁlled Customer Orders

Resources That Finance the Acquisition of Assets
For NWCF-MC, the various automated and manual ﬁnancial management and feeder systems do not
record transfers of material purchases to the various ﬁxed asset categories at the time of receipt. The
current ﬁnancial process produces the proprietary general ledger account transactions that result in
amounts equating to the value of inventory received, recorded as an asset prior to being expensed and
thereaĞer, during the month, applied to cost of goods sold depending on time of sale and ﬁnancial system
updates.

Composition of Other on the Reconciliation of Net Cost of Operations to Budget
The NWCF-MC has three “Other” lines on the Reconciliation of Net Cost of Operations to Budget during
Fiscal Year 2007. The composition of these lines is described below:

Resources Used to Finance Activities, Other Resources, Other
The amount reported as “other” on this line consists of net results of NWCF-MC gains and losses
generated from reconciling transfers in and out.

Resources Used to Finance Items not Part of the Net Cost of Operations, Other Resources or Adjustments
to Net Obligated Resources
The amount reported as “other” on this line consists of net results of NWCF-MC gains and losses
generated from reconciling transfers in and out.

Components Not Requiring or Generating Resources from Cost of Goods Sold
The amount reported as other consists of NWCF-MC cost of goods sold.

Other Disclosures
The NWCF-MC has a $2.0 million diﬀerence between the amount reported as liabilities not covered
by budgetary resources on the balance sheet and the amounts reported as components requiring or
generating resources in future periods on the Reconciliation of Net Cost of Operations to Budget.
The diﬀerences are due to the following:

           NWCF-MC recognizing the liabilities owed to the U.S. Treasury, Debt Management Oﬃce
           for interest, penalties, and administrative fees related to services for collection of accounts
           receivables from public customers.

           A decrease in future funded liabilities for Military Retirement Beneﬁts and Other Federal
           Employment Beneﬁts resulting from a decline in civilian personnel endstrength levels.




                                                                                                                     281
                                                                          Navy Working Capital Fund - Marine Corps
                                                                                       Department of the Navy



      Note 22. Disclosures Related to Incidental Custodial
               Collections
      Information Related to Incidental Custodial Collections:
      The Navy Working Capital Fund-Marine Corps has no Disclosures Related to Incidental Custodial
      Collections.


      Note 23. Earmarked Funds
      Information Related to Earmarked Funds:
      The Navy Working Capital Fund-Marine Corps has no Earmarked Funds.


      Note 24. Other Disclosures
      Information Related to Other Disclosures:
      The Navy Working Capital Fund-Marine Corps has no Other Disclosures.


      Note 25. Restatements
      Information Related to Restatements:
      For FY 2007, the Navy Working Capital Fund-Marine Corps has no restatements.




282
    2007


                                                                                                              Navy Working Capital Fund-MC Required Supplementary Information
    Navy Working Capital Fund – Marine Corps
    Required Supplementary Information

2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                               Department of the Navy Subsidiary Financial Statements


2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                        283
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                       Department of the Navy



                                   Navy Working Capital Fund-Marine Corps
                                    General Property, Plant, and Equipment
                                     Real Property Deferred Maintenance
                                     For Fiscal Year Ended September 30, 2007

      The Navy Working Capital Fund-Marine Corps real property deferred maintenance for ﬁscal year ended
      September 30, 2007 is being reported with the U.S. Marine Corps General Fund real property deferred
      maintenance. See United States Marine Corps General Fund Required Supplementary Information.




284
    2007


                                                                                                              Navy Working Capital Fund-MC Other Accompanying Information
    Navy Working Capital Fund – Marine Corps
    Other Accompanying Information

2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                               Department of the Navy Subsidiary Financial Statements


2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                                                                        285
2007 Annual Financial Report 2007 Annual Financial Report
                                                                            Department of the Navy



      Appropriations, Funds, and Accounts Included in the Financial
      Statements
      Reporting Entity
      Navy Working Capital Fund (NWCF)

      Fund/Account Treasury Symbol and Title:
               97X4930.002

      Navy Working Capital Fund Activity Group Treasury Symbol and Title:
               97X4930.NA4A      Depot Maintenance - Other, Marine Corps
               97X4930.NC2A      Supply Management, Marine Corps




286
    2007
    Audit Opinions


2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report




                                                            Audit Opinions
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
2007 Annual Financial Report 2007 Annual Financial Report
                                                      287
2007 Annual Financial Report 2007 Annual Financial Report
288
289
290
291
292
293
294
295
296
297
298
299
300
301
302
303
304
305
306
307
308
309
310
311
312
313
314
315
316
317
318
319
                                                                                                                                                          Department of the Navy




                                          J
                               K
                                                                                                                                                  B             C
                   L
                                                                                                                             A
          M
                                                                      Y                                                                                                   D
                                                                                                                             Transformation:
                                                                                                                             Balancing Today's Fight
                                                          X                                                                  and Tomorrow's Force
               N                                                                                                                                                E
                           O



                                                                          ANNUAL FINANCIAL REPORT
                                                                                                    Department of the Navy
                                W                                                                                                                 F
                                                              P
                                                                  Q
                   V                                                                                                                  G
                                                                  R                                                                                     H
                                                              S                                                                                                               I
                       U              T
                                                                                                                             Department of the Navy
                                                                                                                             ANNUAL FINANCIAL REPORT
                               hĴp://www.ﬁnance.hq.navy.mil                2007                                                                        FISCAL YEAR 2007




      The cover of the FY 2007 Department of the Navy Annual Financial Report depicts the transformation of the U.S. Navy and the U.S. Marine
      Corps over the last 152 years.

              FRONT COVER
              Images from top to boĴom, leĞ to right:

              A:       Arabian Sea (May 15, 2007) – USS Antietam (CG 54) and an MH-60S Seahawk from Helicopter Sea
                       Combat Squadron (HSC) 23 are headed to the USNS Bridge (T-AOE 10) for a replenishment at
                       sea. U.S. Navy photo by Mass Communication Specialist 3rd Class Paul J. Perkins

              B:       Persian Gulf (Feb. 7, 2006) – An F-14D Tomcat assigned to Fighter Squadron Three One (VF-
                       31) is launched oﬀ the ﬂight deck of the Nimitz-class aircraĞ carrier USS Theodore Roosevelt
                       (CVN 71). U.S. Navy photo by Photographer’s Mate 3rd Class Michael D. Cole

              C:       Silverdale, Washington (Aug. 16, 2006) – The Sea Wolf-class aĴack submarine USS Jimmy
                       Carter (SSN 23) sits moored in the Magnetic Silencing Facility at Naval Base Kitsap Bangor.
                       U.S. Navy photo by Master Chief Mass Communication Specialist Jerry McLain

              D:       Townsville, Australia (July 4, 2007) – Sailors and Marines man the rails aboard amphibious
                       assault ship USS Essex (LHD 2). U.S. Navy photo by Mass Communication Specialist 2nd Class
                       Corey Truax

              E:       Caribbean Sea (May 11, 2006) – Two F/A 18 Super Hornets launch simultaneously from the
                       ﬂight deck of the Nimitz-class aircraĞ carrier USS George Washington (CVN 73). U.S. Navy
                       photo by Photographer’s Mate 3rd Class Michael D. Blackwell II

              F:       Philippine Sea (June 21, 2006) – Shown is the Combat Information Center aboard the
                       Ticonderoga-class guided missile cruiser USS Mobile Bay (CG 53). U.S. Navy photo by
                       Photographer’s Mate Airman James R. Evans


320
2006 Annual Financial Report



      G:    Persian Gulf (May 15, 2007) – Sailors approach the guided-missile destroyer USS Preble (DDG
            88) in rigid hull inﬂatable boats. U.S. Navy photo by Mass Communication Specialist 3rd Class Ron
            Reeves

      H:    Atlantic Ocean (May 22, 2007) – An Aviation Boatswain’s Mate Handling 2nd Class guides an
            MV-22 Osprey onto the ﬂight deck of amphibious assault USS Kearsarge (LHD 3). U.S. Navy
            photo by Mass Communication Specialist 2nd Class Oscar Espinoza

      I:    Paciﬁc Ocean (June 18, 2006) – Three Arleigh Burke-class guided-missile destroyers, the USS
            McCampbell (DDG 85), USS Lassen (DDG 82), and USS Shoup (DDG 86), steam in formation.
            U.S. Navy photo by Chief Photographer’s Mate Todd P. Cichonowicz

      BACK COVER
      Images from top to boĴom, leĞ to right:

      J:    Annapolis, Maryland (Oct. 28, 2004) – The Civil War era warship Constellation is shown
            moored at the U.S. Naval Academy. The Constellation was commissioned on July 28, 1855 and
            is undergoing restoration. U.S. Navy photo by Don S. Montgomery

      K:    San Diego, California (1928) – USS Langley (CV-1) is shown underway with Vought VE-7
            aircraĞ on her ﬂight deck. Collection of Lieutenant Gustave J. Freret, USN (Retired), 1972.
            U.S. Naval Historical Center photograph

      L:    San Diego, California (1925) – A Douglas DT-2 airplane takes oﬀ from the ﬂight deck of the
            USS Langley (CV-1) at Naval Air Station, North Island. U.S. Naval Historical Center photograph

      M:    Mount Suribachi, Iwo Jima (Feb. 23, 1945) – Marines of the 28th Regiment, FiĞh Marine
            Division, hoist the U.S. ﬂag at the summit of Mount Suribachi. This photo was taken by Staﬀ
            Sergeant Louis R. Lowery, USMC staﬀ photographer for Leatherneck magazine seventeen
            minutes before the famous ﬂag-raising was immortalized by Associated Press photographer
            Joe Rosenthal. Oﬃcial U.S. Marine Corps photograph from the collections of the Naval Historical
            Center

      N:    (1945) – An FM-2 “Wildcat” ﬁghter prepares to launch from the USS Makin Island (CVE-93).
            Courtesy of PHC John Highﬁll, USN (Retired). U.S. Naval Historical Center photograph

      O:    Atlantic Ocean (April 14, 2007) – Guided missile destroyer USS Laboon (DDG 58) is shown in
            transit. U.S. Navy photo by Mass Communication Specialist Seaman Coleman Thompson

      P:    Paciﬁc Ocean (May 1, 2007) – Guided missile destroyer USS Milius (DDG 69) steams in
            formation. U.S. Navy photo by Mass Communication Specialist Seaman Mark PaĴerson II

      Q:    Paciﬁc Ocean (Jan. 15, 2006) – An Aviation Ordnanceman 3rd Class mans a MK-38 25mm
            machine gun aboard the amphibious assault ship USS Peleliu (LHA 5). U.S. Navy photo by
            Journalist 2nd Class Zack Baddorf

      R:    Atlantic Ocean (April 6, 2007) – Nimitz-class aircraĞ carrier USS Harry S. Truman (CVN 75)
            transits the Atlantic. U.S. Navy photo by Mass Communication Specialist 2nd Class Jay C. Pugh

      S:    Atlantic Ocean (June 20, 2007) – An AV-8B Harrier rests on the ﬂight deck of amphibious
            assault ship USS Kearsarge (LHD 3). U.S. Navy photo by Mass Communication Specialist Seaman
            Derek Poole

      T:    Cifuncho, Chile (May 29, 2007) – The 24th Marine Regiment arrives on land to conduct live ﬁre
            exercises with their Chilean counterparts. U.S. Navy photo by Mass Communication Specialist 2nd
            Class Lenny M. Francioni


                                                                                                                  321
                                                                                                  Cover Credits
                                                                                              Department of the Navy



            U:   Atlantic Coast (Jan. 17, 2005) – A SEAL delivery vehicle team performs a fast-roping exercise
                 from an MH-60S Seahawk helicopter to the topside of Los Angeles-class fast aĴack submarine
                 USS Toledo (SSN 769). U.S. Navy photo by Journalist 3rd Class Davis J. Anderson

            V:   Philippine Sea (March 8, 2006) – U.S. Marine Corps armored amphibious vehicles from the 2nd
                 BaĴalion, 5th Marine Regiment, BaĴalion Landing Team leave the beach on the island of Iwo
                 Jima to return to the amphibious dock landing ship USS Harpers Ferry (LSD 49). U.S. Navy
                 photo by Journalist 2nd Class Brian P. Biller

            W:   Curacao, Netherlands Antilles (June 6, 2006) – Amphibious CraĞ Unit Two (ACU-2) rehearse
                 storming the beach. U.S. Navy photo by Photgrapher’s Mate 3rd Class Jeremy L. Grisham

            X:   Jolo, Philippines (June 8, 2006) – Military SealiĞ Command Hospital ship USNS Mercy (T-AH
                 19) is shown anchored oﬀ the coast of Jolo City. U.S. Navy photo by Chief Photographer’s Mate
                 Edward G. Martens

            Y:   Persian Gulf (May 24, 2007) – An Aviation Boatswain’s Mate 3rd Class taxies an E-2C Hawkeye
                 aboard nuclear-powered aircraĞ carrier USS Nimitz (CVN 68). U.S. Navy photo by Mass
                 Communication Specialist Seaman Apprentice John Scorza


      Special thanks to Rear Admiral Frank Thorp IV, Chief of Naval Information; Mr. Christopher Madden,
      Director of the Navy Visual News Service; Lieutenant Christopher Bishop, Deputy Director of the Navy Visual
      News Service; and the staﬀ of the Oﬃce of the Chief of Naval Information for providing the Department of the
      Navy photographs.

      Many thanks also to the Financial Operations Team at the Department of the Navy (DON) Oﬃce of Financial
      Operations, the extended ﬁnancial community at the DON major commands, and our accounting partners at the
      Defense Finance and Accounting Service for their dedicated time and eﬀort in producing the Fiscal Year 2007
      Department of the Navy Annual Financial Report. The Fiscal Year 2007 Department of the Navy Annual Financial
      Report is dedicated once again to the men and women of our Navy and Marine Corps war-ﬁghting team.




322
